<html>
<title> - EVERY LIFE COUNTS: IMPROVING THE SAFETY OF OUR NATION'S ROADWAYS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





    EVERY LIFE COUNTS: IMPROVING THE SAFETY OF OUR NATION'S ROADWAYS

=======================================================================

                                (116-10)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
36-978 PDF                WASHINGTON : 2019                 
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


                  Subcommittee on Highways and Transit

           ELEANOR HOLMES NORTON, District of Columbia, Chair

EDDIE BERNICE JOHNSON, Texas         RODNEY DAVIS, Illinois
STEVE COHEN, Tennessee               DON YOUNG, Alaska
JOHN GARAMENDI, California           ERIC A. ``RICK'' CRAWFORD, 
HENRY C. ``HANK'' JOHNSON, Jr.,      Arkansas
Georgia                              BOB GIBBS, Ohio
JARED HUFFMAN, California            DANIEL WEBSTER, Florida
JULIA BROWNLEY, California           THOMAS MASSIE, Kentucky
FREDERICA S. WILSON, Florida         MARK MEADOWS, North Carolina
ALAN S. LOWENTHAL, California        ROB WOODALL, Georgia
MARK DeSAULNIER, California          JOHN KATKO, New York
SALUD O. CARBAJAL, California        BRIAN BABIN, Texas
ANTHONY G. BROWN, Maryland           DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
TOM MALINOWSKI, New Jersey           DOUG LaMALFA, California
GREG STANTON, Arizona                BRUCE WESTERMAN, Arkansas
COLIN Z. ALLRED, Texas               LLOYD SMUCKER, Pennsylvania
SHARICE DAVIDS, Kansas               PAUL MITCHELL, Michigan
ABBY FINKENAUER, Iowa, Vice Chair    MIKE GALLAGHER, Wisconsin
JESUS G. ``CHUY'' GARCIA, Illinois   GARY J. PALMER, Alabama
ANTONIO DELGADO, New York            BRIAN K. FITZPATRICK, Pennsylvania
CHRIS PAPPAS, New Hampshire          TROY BALDERSON, Ohio
ANGIE CRAIG, Minnesota               ROSS SPANO, Florida
HARLEY ROUDA, California             PETE STAUBER, Minnesota
GRACE F. NAPOLITANO, California      CAROL D. MILLER, West Virginia
ALBIO SIRES, New Jersey              GREG PENCE, Indiana
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
DANIEL LIPINSKI, Illinois
DINA TITUS, Nevada
STACEY E. PLASKETT, Virgin Islands
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)






















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chair, Subcommittee on Highways and 
  Transit, opening statement.....................................     1
Hon. Ross Spano, a Representative in Congress from the State of 
  Florida:

    Opening statement............................................     2
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Steve Cohen, a Representative in Congress from the State of 
  Tennessee, prepared statement..................................   119
Hon. Frederica S. Wilson, a Representative in Congress from the 
  State of Florida, prepared statement...........................   120

                               WITNESSES

Hon. Jennifer Homendy, Member, National Transportation Safety 
  Board:

    Oral statement...............................................     6
    Prepared statement...........................................     7
Hon. Fred Jones, Vice Mayor, City of Neptune Beach, Florida, on 
  behalf of Transportation for America:

    Oral statement...............................................    46
    Prepared statement...........................................    48
Michael L. Brown, Chief of Police, Alexandria (Virginia) Police 
  Department:

    Oral statement...............................................    54
    Prepared statement...........................................    55
Jay Bruemmer, Vice President, K&G Striping, Inc., on behalf of 
  the American Traffic Safety Services Association:

    Oral statement...............................................    60
    Prepared statement...........................................    62
Mike Sewell, Active Transportation Service Line Leader, Gresham 
  Smith, on behalf of the League of American Bicyclists:

    Oral statement...............................................    66
    Prepared statement...........................................    67
Nicholas J. Smith, Interim President and Chief Executive Officer, 
  the National Safety Council:

    Oral statement...............................................    75
    Prepared statement...........................................    76

                       SUBMISSIONS FOR THE RECORD

I-14 Expansion and Improvement Act of 2019, H.R. 2220, 116th 
  Cong., Submitted for the Record by Hon. Babin..................   110
Letter of April 8, 2019, from Shailen P. Bhatt, President and 
  CEO, Intelligent Transportation Society of America, Submitted 
  for the Record by Hon. Norton..................................   121
Statement of Catherine Chase, President, Advocates for Highway 
  and Auto Safety, Submitted for the Record by Hon. Norton.......   122
Statement of the American Road and Transportation Builders 
  Association, Submitted for the Record by Hon. Norton...........   126
Statement of the American Association of State Highway and 
  Transportation Officials, Submitted for the Record by Hon. 
  Norton.........................................................   129
Letter of April 9, 2019, from the Road to Zero Coalition, 
  Submitted for the Record by Hon. Norton........................   134
Statement of J. Scott Marion, President-Infrastructure, Lindsay 
  Corporation, Submitted for the Record by Hon. Lipinski.........   140
Letters of April 10, 2019, and February 26, 2019, from the 
  Coalition for Future Mobility, Submitted for the Record by Hon. 
  Graves of Missouri.............................................   141
Statement of Benjamin Harvey, President, E.L. Harvey & Sons Inc., 
  on behalf of the National Waste and Recycling Association, 
  Submitted for the Record by Hon. Graves of Missouri............   143

                                APPENDIX

Questions from Hon. Peter A. DeFazio for Hon. Jennifer Homendy, 
  Member, National Transportation Safety Board...................   147
Questions from Hon. Frederica S. Wilson for Hon. Jennifer 
  Homendy, Member, National Transportation Safety Board..........   148
Question from Hon. Brian Babin for Hon. Jennifer Homendy, Member, 
  National Transportation Safety Board...........................   149
Questions from Hon. Peter A. DeFazio for Hon. Fred Jones, Vice 
  Mayor, City of Neptune Beach, Florida, on behalf of 
  Transportation for America.....................................   151
Questions from Hon. Frederica S. Wilson for Hon. Fred Jones, Vice 
  Mayor, City of Neptune Beach, Florida, on behalf of 
  Transportation for America.....................................   152
Questions from Hon. Eleanor Holmes Norton for Michael L. Brown, 
  Chief of Police, Alexandria (Virginia) Police Department.......   153
Questions from Hon. Eleanor Holmes Norton for Jay Bruemmer, Vice 
  President, K&G Striping, Inc., on behalf of the American 
  Traffic Safety Services Association............................   154
Question from Hon. Peter A. DeFazio for Nicholas J. Smith, 
  Interim President and Chief Executive Officer, the National 
  Safety Council.................................................   155


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             April 4, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Highways and Transit
    FROM:   Staff, Subcommittee on Highways and Transit
    RE:       Subcommittee Hearing on ``Every Life Counts: 
Improving the Safety of our Nation's Roadways''

                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Tuesday, April 9, 2019, at 10:00 a.m. in HVC 210, Capitol 
Visitor Center, to receive testimony related to ``Every Life 
Counts: Improving the Safety of our Nation's Roadways.'' The 
purpose of this hearing is to assess the safety of our Nation's 
roads and learn what can be done to lower the number of 
traffic-related fatalities and injuries. The Subcommittee will 
hear from a National Transportation Safety Board (NTSB) Member, 
the Vice Mayor of Neptune, Florida, the City of Alexandria's 
Chief of Police, the League of American Bicyclists, the 
National Safety Council, and the American Traffic Safety 
Services Association.

                               BACKGROUND

    According to the National Highway Traffic Safety 
Administration (NHTSA), 37,133 people lost their lives in 
accidents on U.S. roadways in 2017 \1\. That means an average 
of 101 people died each day in motor vehicle crashes, equating 
to roughly one fatality every 15 minutes. There were a total of 
5,977 pedestrian fatalities in 2017, and preliminary reports 
indicate that number increased in 2018, leading to the highest 
rate of pedestrian fatalities since 1990 \2\. There were 783 
cyclist deaths in 2017 and 852 cyclist deaths in 2016. And, the 
5,172 motorcyclist fatalities in 2017 is more than twice what 
it was two decades ago. According to the National Safety 
Council, injuries from motor vehicle incidents totaled more 
than 4.6 million in 2017.
---------------------------------------------------------------------------
    \1\ ``Fatality Analysis Reporting System (FARS) Encyclopedia.'' 
National Highway Traffic Safety Administration, https://
wwwfars.nhtsa.dot.gov/Main/index.aspx.
    \2\ ``New Projection: 2018 Pedestrian Fatalities Highest Since 
1990.'' Governors Highway Safety Association, 28 Feb. 2019, https://
www.ghsa.org/resources/news-releases/pedestrians19.
---------------------------------------------------------------------------
    According to the Centers for Disease Control (CDC), 
unintentional injury is now the third leading cause of death 
for Americans. Motor vehicle accidents are the leading cause of 
unintentional injury deaths, second only to opioid overdoses. 
Roadway injuries are the eighth leading cause of death 
globally, according to the World Health Organization (WHO), and 
are the number one cause of death for children ages 5-14 and 
youth ages 15-29.
    The FAST Act (P.L 114-94), enacted on December 4, 2015, 
reauthorized Federal surface transportation programs through 
September 30, 2020. This legislation built on the foundation 
established by the Intermodal Surface Transportation Efficiency 
Act of 1991 (ISTEA) (P.L. 102-240), the Transportation Equity 
Act for the 21st Century (TEA-21) (P.L 105-178) enacted in 
1998, the Safe, Accountable, Flexible, Efficient Transportation 
Equity Act: A Legacy for Users (SAFETEA-LU) (P.L. 109-59) 
enacted in 2005, and the Moving Ahead for Progress in the 21st 
Century Act (MAP-21) (P.L. 112-141) enacted in 2012.
    As part of each of these multi-year authorization bills, 
Congress has directed guaranteed Federal funding toward 
programs to ensure safety on our Nation's roads. These include 
grants to improve physical roadway infrastructure; grant 
programs to reduce crashes, injuries, and fatalities involving 
large trucks and buses; grant programs to incentivize States to 
adopt laws and regulations to improve highway safety; and 
grants to assist State enforcement of vehicle and driver safety 
measures. Congress has also mandated that U.S. Department of 
Transportation (DOT) agencies undertake numerous rulemakings in 
each of these areas to address outstanding safety concerns, 
many of which are discussed below.
    In 2016, FHWA, FMCSA, and NHTSA announced, in partnership 
with the National Safety Council, the launch of the ``Road to 
Zero'' coalition. The goal of the coalition is to end 
fatalities on the Nation's roads within the next 30 years. The 
DOT committed $3 million in grants over three years to 
organizations working on lifesaving programs. The Road to Zero 
Coalition focuses on promoting strategies proven to save lives, 
such as seat belt use, traffic safety enforcement, and 
education campaigns. The coalition also focuses on developing 
new evidence-based strategies to addressing changes in driver 
behavior.

NATIONAL TRANSPORTATION SAFETY BOARD

    The NTSB was created by Congress on April 1, 1967, as an 
independent Federal agency charged with investigating all civil 
aviation accidents and significant accidents in other modes of 
transportation. The NTSB determines the probable cause of the 
accidents and issues safety recommendations aimed at preventing 
future accidents. Since its inception 50 years ago, the NTSB 
has investigated thousands of accidents and made more than 
14,500 recommendations to improve transportation safety, 
including over 2,400 highway safety recommendations. Over 80 
percent of NTSB safety recommendations have been acted upon 
favorably, saving lives. Specific information on NTSB 
recommendations is included below.

FEDERAL-AID HIGHWAYS

    The Highway Safety Improvement Program (HSIP) is a Federal-
aid program, funded out of the Highway Trust Fund, which 
provides funding to projects that will achieve a significant 
reduction in traffic fatalities and serious injuries on public 
roads, including local roads and roads on tribal land. In order 
to use HSIP funding, a State must have an approved 
comprehensive, data-driven strategic highway safety plan (SHSP) 
that defines State safety goals and describes a program of 
strategies to improve safety. Funding provided under HSIP is 
apportioned to States to implement highway safety improvement 
projects, which are included in a State's SHSP, to correct or 
improve hazardous road locations and features, or to address 
highway safety problems.
    The FAST Act increased funding for the HSIP program, 
providing a total of $11.6 billion to States and tribes over 
five years. The FAST Act also increased funding for the rail-
highway grade crossing program, funded out of HSIP. The set-
aside increases from $225 million in FY 2016 to $245 million in 
FY 2020. The FAST Act amended eligible uses of HSIP funds to 
include only those listed in statute, most of which are related 
to physical infrastructure improvements to enhance safety, and 
specifically added the following eligible uses: installation of 
vehicle-to-infrastructure communication equipment; pedestrian 
hybrid beacons; and roadway improvements that provide 
separation between pedestrians and motor vehicles.
    The FAST Act also included ``complete streets'' language, 
which encourages States to adopt standards to provide for the 
safe and adequate accommodation of all surface transportation 
users, including pedestrians, bicyclists, motorists and transit 
riders of all ages and abilities. Comparable Senate language to 
require States and Metropolitan Planning Organizations (MPOs) 
to adopt such policies was not retained in the final Conference 
Report. The FAST Act also promotes the use of alternate design 
guides in order to right-size projects and accommodate all 
users, which contributes to more livable communities and 
expands safe transportation options.
    Policies such as complete streets help reduce accidents and 
fatalities for all road users by addressing a wide range of 
elements unique to each community, such as pedestrian 
accessibility, street crossings, and bus and bike lanes. In 
November 2018, the NTSB released a special investigative report 
to address pedestrian safety \3\. Their recommendations 
included calling on FHWA to expand its support of state and 
local safety projects in order to develop a broad network of 
safety improvements, as well as establishing a national metric 
of pedestrian safety activity to improve local planning.
---------------------------------------------------------------------------
    \3\ ``Special Investigation Report: Pedestrian Safety.'' National 
Transportation Safety Board, 25 Sept. 2018, https://www.ntsb.gov/
safety/safety-studies/Documents/SIR1803.pdf.
---------------------------------------------------------------------------

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    NHTSA's mission is to save lives, prevent injuries, and 
reduce economic costs due to traffic accidents on the Nation's 
roadways through education, research, and by promulgating and 
enforcing safety standards. The FAST Act reauthorized NHTSA's 
behavioral highway safety programs. Section 402 of title 23, 
United States Code, requires States to have safety plans 
approved by the Secretary and designed to reduce fatalities, 
injuries, and property damage resulting from traffic accidents. 
Funding is distributed to States with approved plans through a 
formula based on population and public road mileage. The FAST 
Act increased funding to carry out state highway safety plans 
and reduced administrative requirements for States.
    The majority of motor vehicle deaths are linked to human 
behavior. Of the 37,133 traffic related fatalities which 
occurred in 2017:
    <bullet>  10,874 (29 percent) were crashes where at least 
one driver was alcohol-impaired;
    <bullet>  9,717 (26 percent) were in crashes where at least 
one driver was speeding, and;
    <bullet>  3,166 (9 percent) were in crashes involving 
distracted driving.
    Traffic fatality data for each state can be found here: 
https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812581
    NHTSA has also analyzed the economic costs of motor vehicle 
crashes and found that traffic-related accidents cost the U.S. 
$242 billion in 2010 \4\. Of that, $43 billion was attributed 
to alcohol-impaired crashes, and $52 billion was attributed to 
speed-related crashes. Seat belt use prevented 12,500 
fatalities, 308,000 serious injuries, and $50 billion in injury 
related costs in 2010. However, the failure of a substantial 
portion of the driving population to buckle up caused 3,350 
unnecessary fatalities, 54,300 serious injuries, and cost 
society $10 billion in easily preventable injury related 
expenses. In 2017, motor vehicle injuries are estimated to have 
cost the U.S. economy $433.8 billion, including medical 
expenses, lost wages and productivity, property damage, and 
other similar expenses, according to the National Safety 
Council.
---------------------------------------------------------------------------
    \4\ ``The Economic and Societal Impact of Motor Vehicle Crashes, 
2010 (Revised).'' National Highway Traffic Safety Administration, May 
2015, https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812013.
---------------------------------------------------------------------------
    States can use their Section 402 funding on activities to 
carry out their States safety plans, including activities to 
improve enforcement of traffic safety laws. In their campaign 
Save LIVES, which aims to significantly lower traffic 
fatalities and injuries by 2050, the WHO included investment in 
traffic safety enforcement as one of its top six priorities.
    The CDC also recommends greater enforcement of seat belt 
laws to help lower the number of traffic-related fatalities 
caused by not using a restraint \5\. The majority of Americans 
recognize the importance of wearing a seat belt, with the 
national use rate at almost 90 percent. However, of the 
passengers killed in motor vehicle accidents in 2017, 47 
percent were not using a restraint. Despite a continued steady 
rate of fatalities due to alcohol impairment in recent years, 
traffic safety enforcement is steadily declining. According to 
data from the FBI, the number of drunk driving arrests 
decreased 24 percent from 2005 to 2017 \6\.
---------------------------------------------------------------------------
    \5\ ``What Works: Strategies to Increase Restraint Use.'' Centers 
for Disease Control and Prevention, 21 Jan. 2015, https://www.cdc.gov/
motorvehiclesafety/seatbelts/strategies.html.
    \6\ ``2017 Crime in the United States.'' Federal Bureau of 
Investigation, https://ucr.fbi.gov/crime-in-the-u.s/2017/crime-in-the-
u.s.-2017/tables/table-69/table-69.xls.
---------------------------------------------------------------------------

STATE SAFETY GRANTS

    In order to assist and incentivize States to improve safety 
in areas known to contribute to fatalities, Congress authorized 
the National Priority Safety Program (Section 405 of title 23, 
U.S.C.). Through this program, NHTSA makes grant funding 
available to States that adopt or implement programs or laws 
to: increase the use of occupant protection devices; reduce the 
number of alcohol impaired driving fatalities; encourage the 
adoption of laws which prohibit distracted driving; improve 
motorcyclist safety; improve the timeliness, accuracy, 
completeness, uniformity, integration, and accessibility of 
state safety data; and encourage the adoption of state 
graduated driver licensing laws. The FAST Act also added two 
new grants under Section 405, the 24-7 Sobriety Program and the 
Non-Motorized Safety program, which makes States with combined 
pedestrian and bicycle fatalities that exceed 15 percent of 
total crash fatalities in that State eligible to receive 
funding to reduce such fatalities. Each State must meet 
specific criteria in each national priority program to qualify 
for funding. The FAST Act provided grant funding ($1.4 billion 
over five years) for this program. In 2019, the Non-Motorized 
Safety Grants program was fully utilized with each of the 25 
states eligible for the grant receiving it.
    The FAST Act also made limited changes to the Alcohol-
Ignition Interlock Law, Distracted Driving, and Graduated 
Driver Licensing Incentive grants in order to increase the 
number of States eligible for those grants. To learn which 
States met the criteria for each grant program see: https://
www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/
fy19_grantdeterminations_and_deficiencies_in_stateapplications.p
df
    Despite the changes made to these safety grants under the 
FAST Act, states have not adapted their programs to qualify, 
leaving the program underutilized. The table below shows the 
number of states who were unsuccessful in meeting the programs' 
criteria in 2019. Additionally, in each program, fewer States 
applied for grants in 2019 than in 2018. For example, seventeen 
states applied for Graduated Driver Licensing Law grants last 
year, compared to only four states applying in 2019.

------------------------------------------------------------------------
                                               Comprehensive   Graduated
                                    Ignition     Distracted     Driver
             Program               Interlocks     Driving      Licensing
                                     (405d)        (405e)     Law (405g)
------------------------------------------------------------------------
Applied                                   13            17            4
------------------------------------------------------------------------
Awarded                                    5             4            0
------------------------------------------------------------------------
Not Awarded                                8            13            4
------------------------------------------------------------------------
Did Not Apply                             43            39           52
------------------------------------------------------------------------
Not Eligible                               0             0            0
------------------------------------------------------------------------

    The NTSB's FY 2019-2020 Most Wanted List includes 
recommendations to eliminate distractions, including a 
nationwide ban on the use of personal electronic devices by all 
drivers, and increased high-visibility enforcement for speeding 
and drug and alcohol impaired driving. The full list of 
recommendations can be found here: https://www.ntsb.gov/safety/
mwl/Documents/2019-20/2019-20-MWL-SafetyRecs.pdf

DRUGGED DRIVING

    An emerging area of safety concern is drugged driving. 
NHTSA's most recent Roadside Survey of Alcohol and Drug Use by 
Drivers found that 20 percent of drivers tested positive for at 
least one drug that could affect safety \7\. However, this 
figure does not represent or confirm how many drivers were 
impaired since a positive marijuana test can detect marijuana 
use in the past week. A 2016 AAA Foundation for Traffic Safety 
report found that an estimated 4.9 percent of drivers drove 
within an hour of using marijuana \8\.
---------------------------------------------------------------------------
    \7\ ``2013-2014 National Roadside Study of Alcohol and Drug Use by 
Drivers.'' National Highway Traffic Safety Administration, May 2017, 
https://www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/13013-
nrs_drug_092917_v6_tag.pdf.
    \8\ ``2016 Traffic Safety Culture Index.'' AAA Foundation, Feb. 
2017, https://aaafoundation.org/2016-traffic-safety-culture-index/.
---------------------------------------------------------------------------
    In 2016, NHTSA conducted a study in Virginia called the 
Drug and Alcohol Crash Risk: A Case-Controlled Study, the 
largest of its kind ever conducted, which assessed whether 
marijuana use by drivers is associated with greater risk of 
crashes \9\. The survey found that marijuana users are more 
likely to be involved in accidents, but that the increased risk 
may be due in part because marijuana users are more likely to 
be in groups at higher risk of crashes, particularly young men.
---------------------------------------------------------------------------
    \9\ ``Drug and Alcohol Crash Risk: A Case-Control Study.'' National 
Highway Traffic Safety Administration, Dec. 2016, https://
www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/
812355_drugalcoholcrashrisk.pdf.
---------------------------------------------------------------------------
    Unlike the current 0.08 percent Blood Alcohol Content 
impairment standard, there is currently no impairment standard 
for marijuana. Marijuana has a larger variation in how it 
affects people than alcohol, making it more difficult to 
establish a uniform impairment standard. The FAST Act required 
NHTSA to report to Congress on several outstanding challenges 
of marijuana-impaired driving, including methods to detect 
marijuana-impaired driving, impairment standard feasibility, 
methods to differentiate the cause of a driving impairment 
between alcohol and marijuana, and the role and extent of 
marijuana impairment in motor vehicle accidents. That report 
was issued in July 2017 and provided three recommendations to 
address marijuana-impaired driving:
    <bullet>  Increase training and resources for law 
enforcement officers using the most efficient and effective 
techniques to detect and recognize impairment in drivers;
    <bullet>  Continue research to enable development of an 
impairment standard for driving under the influence of 
marijuana, and;
    <bullet>  Encourage States to collect data regarding the 
prevalence of marijuana use by drivers and among those arrested 
for impaired driving \10\.
---------------------------------------------------------------------------
    \10\ ``Marijuana-Impaired Driving a Report to Congress.'' National 
Highway Traffic Safety Administration, July 2017, https://
www.nhtsa.gov/sites/nhtsa.dot.gov/files/documents/812440-marijuana-
impaired-driving-report-to-congress.pdf.
---------------------------------------------------------------------------
    NTSB recommendations for drugged driving include more 
research to get better data to understand the scope of the 
problem and the effectiveness of countermeasures \11\. NTSB 
also recommends States should increase the collection, 
documentation, and reporting of driver breath and blood test 
results for alcohol and drugs following crashes. This is most 
readily done through NHTSA's National Roadside Survey (NRS).
---------------------------------------------------------------------------
    \11\ ``End Alcohol and Other Drug Impairment--Highway.'' National 
Transportation Safety Board, https://www.ntsb.gov/safety/mwl/Pages/
mwlfs-19-20/mwl5-fsh.aspx.
---------------------------------------------------------------------------
    In recent years, Congress has blocked NHTSA's ability to 
continue this survey through an appropriations rider. In March 
2018, the U.S. Government Accountability Office issued a report 
to Senate and House Appropriations Committees which found that 
NHTSA had improved NRS methodology to address previous concerns 
leading to its prohibition \12\. Their audit found there are 
key differences in how the NRS is conducted as compared to a 
traditional law enforcement checkpoint. As a result, 
participation in the NRS is entirely voluntary and has never 
resulted in an arrest, unlike law enforcement checkpoints. In 
response to these findings, the FY 2019 Transportation, 
Housing, and Urban Development Appropriations Act did not 
include the prohibition.
---------------------------------------------------------------------------
    \12\ ``National Roadside Survey: NHTSA Changed Methodology to 
Address Driver Concerns.'' U.S. Government Accountability Office, 12 
March 2018, https://www.gao.gov/assets/700/690593.pdf.
---------------------------------------------------------------------------

AUTONOMOUS VEHICLES

    Autonomous vehicles offer many safety improvements over 
human drivers, but they too have limitations. Within the 
jurisdiction of the Committee on Transportation and 
Infrastructure safety issues such as safely navigating road 
construction zones, pulling aside for emergency vehicles, 
understanding police controlled intersections are all unique 
challenges for autonomous vehicles. Roadway infrastructure 
needs to compliment autonomous vehicles include road striping 
and smart traffic lights. Finally, educating human drivers to 
anticipate and react accordingly to the driving style of 
autonomous vehicles will also need to be part of the process.

                               WITNESSES

    <bullet>  The Honorable Jennifer Homendy, Member, National 
Transportation Safety Board
    <bullet>  The Honorable Fred Jones, Vice Mayor, City of 
Neptune Beach, Florida, on behalf of Transportation for America
    <bullet>  Mr. Michael L. Brown, Chief of Police, City of 
Alexandria
    <bullet>  Mr. Jay Bruemmer, Vice President, K & G Striping, 
Inc., on behalf of the American Traffic Safety Services 
Association
    <bullet>  Mr. Mike Sewell, Active Transportation Service 
Line Leader, Gresham Smith, on behalf of The League of American 
Bicyclists
    <bullet>  Mr. Nicholas Smith, Interim President and Chief 
Executive Officer, The National Safety Council

 
    EVERY LIFE COUNTS: IMPROVING THE SAFETY OF OUR NATION'S ROADWAYS

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Eleanor Holmes 
Norton (Chairwoman of the subcommittee) presiding.
    Ms. Norton. The subcommittee will come to order.
    I want to welcome us all to today's hearing.
    It is a priority for me and I hope for the members of this 
committee. It is certainly equally important to the other 
issues we are going to be considering as we move toward 
reauthorization.
    I do not see how we can reauthorize another transportation 
surface bill without considering not only how to build it, but 
how to make it safe for those who use it. I am going to ask 
Members to check on your district the way I did mine, and I 
wonder if your experience is like mine.
    In 2015, the District of Columbia pledged to end roadway 
fatalities by the year 2024. That must have been a year that 
was given to us by the Department of Transportation or 
somebody.
    Yet, every year since that pledge there has been an 
increase in fatalities. In the last 2 years of available data, 
traffic-related deaths in my own district spiked by 35 percent. 
That is why I am asking Members to look at their districts 
because I do not believe, unfortunately, that I am alone.
    Nationwide, in 2017, 37,133 people lost their lives in 
motor vehicle related crashes. Now, I spell that number out. 
Usually I round off the numbers, but I purposely did not do it 
for the purposes of this hearing because each number represents 
a life lost.
    Every day we lose more than 100 lives in traffic-related 
accidents. Some of those may be people walking in the streets 
or in the roads, and we have had an increase in those 
fatalities in my own district as well. Some of them may be 
people riding in automobiles or trucks.
    In 2016, the Department of Transportation announced the so-
called Road to Zero. It was a coalition with a goal of 
completely eliminating roadway deaths within 30 years. Well, 
all I can say is we are off to a poor start.
    That is why pedestrian and traffic safety is a priority for 
me as chair of this subcommittee. I am anxious to learn from 
today's witnesses, representing an increasingly diverse array 
of populations who use our roadways, including pedestrians and 
bicyclists, and now people riding scooters, and law enforcement 
on what we can do about this trend.
    I would very much like this reauthorization to transform 
our approach to roadway safety to help us get anywhere close to 
zero deaths. That is an admirable goal. It is a goal we ought 
to set.
    We need to improve how we design our transportation 
networks. We need to improve how we educate the users of those 
networks, and we need to understand how to enforce the proven 
strategies that we already claim will save lives and apparently 
have not done so.
    Some in Congress may still live in the 20th century of 
transportation in wanting to eliminate the very small amount of 
funding that is used for transportation alternatives, but I 
think the people have already moved ahead of Congress and are 
already on the roads using alternative modes of transportation.
    All of these modes of transportation must be treated 
equally, not cars over scooters, not bicycles over walking. All 
must be treated as equally valid choices that people have 
chosen to move people. The options belong not to Congress but 
to the State and local communities who must be able to pursue 
the smartest and most efficient and right-sized projects to 
meet their own mobility needs of their own citizens.
    I am a big proponent of technology as holding promise to 
save lives, but human error and human choice today are very 
real problems, and we do not have the technology in place and 
will not have it in place for some time to save lives.
    So we cannot wait to remove humans from the equation before 
making the real progress we have promised to make.
    The three leading causes of motor vehicle deaths remain 
linked to the same human factors: alcohol impairment, speeding, 
and distracted driving. I am particularly interested in hearing 
from our witnesses on why we have not been able to curb this 
longstanding issue, road safety, and what we can do to stop 
these fatalities.
    I look forward to today's discussion and thank each of our 
witnesses for sharing their insights, your much needed 
insights, with us.
    I would like to ask the ranking member, Mr. Spano, who is 
here for our ranking member, for his comments at this time.
    Mr. Spano. Thank you, Chairwoman Norton.
    I want to welcome everybody to the hearing today.
    The current Federal surface transportation law, the FAST 
Act, expires on September 30th, 2020. Last month this 
subcommittee held a hearing to kick off its process to 
reauthorize Federal surface transportation programs.
    Today's hearing builds on that and is focused on how 
Congress can improve the safety of our Nation's roads. In 2017, 
as the Chair noted, 37,133 fatalities occurred on our Nation's 
highways according to the National Highway Traffic Safety 
Administration.
    While this is a 1.8-percent decrease from 2016, more can 
and should be done to further reduce highway fatalities. The 
Federal Surface Transportation Safety Programs are administered 
by different modal administrations within the Department of 
Transportation. These programs provide non-Federal partners 
with resources to improve the safety of the Nation's surface 
transportation system.
    Today's hearing focuses on the safety programs administered 
by the Federal Highway Administration and the National Highway 
Traffic Safety Administration. These programs require States to 
have a data-driven, performance-based approach to address their 
unique highway safety challenges.
    As we continue with our reauthorization process, it is 
important that we gather feedback on how well these programs 
are working and what other policy and programmatic change this 
committee should consider.
    With that I want to thank our witnesses for being with us 
this morning, and I look forward to hearing their testimony on 
this very important topic.
    Madam Chair.
    [Mr. Spano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Ross Spano, a Representative in Congress 
                       from the State of Florida
    Thank you, Chairwoman Norton. I want to welcome everyone to today's 
hearing.
    The current Federal surface transportation law, the FAST Act, 
expires on September 30, 2020. Last month, this subcommittee held a 
hearing to kick off its process to reauthorize Federal surface 
transportation programs. Today's hearing builds on that and is focused 
on how Congress can improve the safety of the Nation's roads.
    In 2017, 37,133 fatalities occurred on our Nation's highways, 
according to the National Highway Traffic Safety Administration. While 
this is a 1.8 percent decrease from 2016, more can be done to further 
reduce highway fatalities.
    The Federal surface transportation safety programs are administered 
by different modal administrations within the Department of 
Transportation. These programs provide non-Federal partners with 
resources to improve the safety of the Nation's surface transportation 
system.
    Today's hearing focuses on the safety programs administered by the 
Federal Highway Administration and the National Highway Traffic Safety 
Administration. These programs require states to have a data-driven, 
performance-based approach to address their unique highway safety 
challenges.
    As we continue with our reauthorization process, it is important 
that we gather feedback on how well these programs are working and what 
other policy and programmatic changes the committee should consider.
    With that, I want to thank our witnesses for being with us this 
morning, and I look forward to hearing their testimony on this very 
important topic.

    Ms. Norton. Thank you.
    And we will hear now from the chairman of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Madam Chair.
    Somehow we seem to have become sort of inured to the fact 
that 100 people a day die in motor vehicle accidents. Yes, 
there is hortatory like, ``Oh, we are going to move to zero,'' 
but it is not being followed up with decisive action out of the 
Department of Transportation or in many State DOTs.
    So I am hopeful that as we move toward reauthorization of 
the FAST Act that we can put new direction and new emphasis on 
how to deal with this horrible toll.
    You know, obviously drunk driving is a big problem. That 
goes to enforcement issues. Speeding, enforcement issues. 
Distractions, I think a lot of States have yet to adopt laws 
regarding distractions, and there are new technologies that are 
potentially going to build distractions into the automobiles or 
after-market distractions like heads-up displays where you can 
read your email on the windshield while you are driving.
    We have to deal with all of these evolving problems and 
then deal with the more traditional problems we have had.
    There has been also an alarming increase in pedestrian 
deaths, which the Chair mentioned, and cycling and pedestrian, 
and some of that can be dealt with as we rebuild this crumbling 
system, and when we look to Complete Streets or other ways to 
better segregate traffic, pedestrians and bicycles, that can 
help prevent some of those deaths.
    In some cities, they are putting in bike boxes at the front 
because the right turn is the most common cause of a vehicular 
collision with a cyclist, and you know, there are other things 
we can do that are pretty simple, not that expensive, but have 
not really been exploited to their potential.
    So I am looking forward to creative and innovative ideas. I 
look forward to the witnesses giving us some of those ideas.
    And with that I would yield back the balance of my time.
    [Mr. DeFazio's prepared statement follows:]
                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Chair Norton and Ranking Member Davis, for holding this 
hearing. I am pleased that the subcommittee is prioritizing roadway 
safety--a topic that has not received the level of attention it 
deserves.
    We can and must do more to save lives and prevent injuries on our 
roads. Currently, more than 100 people a day die in motor vehicle 
accidents--that's one life lost every fifteen minutes. Pedestrian 
deaths have also risen sharply in the last decade--an increase of 45 
percent since 2009--and now account for 16 percent of all roadway 
fatalities. Somehow this has become tolerable.
    A total of 37,133 people were killed on our roadways in 2017. Let 
me put this in context--this is the equivalent of about 218 fully 
loaded airplanes falling out of the sky each year and yet somehow this 
has not spurred Americans to demand that enough is enough. If that 
weren't bad enough, when you consider that the top causes of motor 
vehicle deaths are drunk driving, speeding, and distractions, you 
realize these deaths are entirely preventable.
    At a time when transportation is changing rapidly thanks to 
innovation, data sharing, and automation, it's shocking we still aren't 
making big strides in safety. We should be holding ourselves to a 
higher standard, because when it comes to roadway safety every single 
life counts. While we invest billions of dollars in research for cancer 
and other diseases and allocate new resources to combatting the opioid 
crisis, we have failed to seriously invest in lowering deaths on our 
Nation's roadways.
    So what can we do? Making substantial progress towards saving lives 
requires a clear sense of--and strong commitment to--the goal of safety 
as the highest priority. Two decades ago, Sweden launched an effort 
called Vision Zero which set forth a road safety approach with a simple 
aim: ``No loss of life is acceptable.'' This model has been replicated 
in several countries around the world, and it guides the mission of the 
U.S. Department of Transportation and the Road to Zero Coalition. And, 
many U.S. cities have independently adopted policies to work towards 
zero deaths in roadway accidents. Congress needs to demonstrate its 
commitment to making Vision Zero a reality as well.
    Unfortunately, highway safety has not been a high priority in 
transportation talks in Congress in recent years. In the development of 
both the FAST Act and MAP-21, there was a stark shift in the discourse 
over safety in Congress. Instead of developing solutions to promote 
safety, we sparred over proposals to ease state requirements on safety 
funding and exempt industry after industry from safety regulations.
    As Congress develops a bill to build 21st-century infrastructure, 
ensuring safety of the users of that infrastructure must be a top 
priority of this committee. Given that two-thirds of fatalities are 
tied to drunk driving and excessive speed, I want to double down on 
Federal actions that we know work--education and enforcement.
    And we need to look at safety from all angles--not just promoting 
more responsible behavior by road users, but by ensuring that roadway 
design takes into account all users through smart policies, such as 
complete streets. Addressing the unique elements of each community, 
such as pedestrian accessibility, street crossings, and bus and bike 
lanes, rather than a cookie-cutter approach can have a profound impact 
on reducing traffic accidents and fatalities.
    I look forward to today's discussion and learning what Congress can 
do to raise the bar on safety.

    Ms. Norton. Thank you, Mr. Chairman.
    Before I introduce today's panel, I want to note that we 
had many more stakeholder groups who were interested in 
speaking about safety than we could accommodate at today's 
hearing, and that is really very encouraging to me that so many 
wanted to come forward to speak to this issue.
    It does speak to the rising consciousness and the pressure, 
I think, Congress needs to find ways, along with those in the 
States, to move this issue.
    I, therefore, ask unanimous consent to enter into the 
hearing record written statements from ITS America, Advocates 
for Highway and Auto Safety, and the American Road and 
Transportation Builders Association.
    Without objection, so ordered.
    [The information is on pages 121-129.]
    Ms. Norton. We want to move now to our witnesses:
    The Honorable Jennifer Homendy, Member of the National 
Transportation Safety Board;
    The Honorable Fred Jones, vice mayor, city of Neptune 
Beach, Florida, on behalf of Transportation for America;
    Mr. Michael L. Brown, chief of police, city of Alexandria, 
Virginia;
    Mr. Jay Bruemmer, vice president, K&G Striping Inc., on 
behalf of the American Traffic Safety Services Association;
    Mr. Mike Sewell, transportation service line leader, 
Gresham Smith, on behalf of the League of American Bicyclists;
    Mr. Nicholas Smith, interim president and chief executive 
officer of the National Safety Council.
    Thank you for being here. I look forward to your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    You may proceed, Ms. Homendy.

     TESTIMONY OF HON. JENNIFER HOMENDY, MEMBER, NATIONAL 
TRANSPORTATION SAFETY BOARD; HON. FRED JONES, VICE MAYOR, CITY 
  OF NEPTUNE BEACH, FLORIDA, ON BEHALF OF TRANSPORTATION FOR 
    AMERICA; MICHAEL L. BROWN, CHIEF OF POLICE, ALEXANDRIA 
(VIRGINIA) POLICE DEPARTMENT; JAY BRUEMMER, VICE PRESIDENT, K&G 
   STRIPING, INC., ON BEHALF OF THE AMERICAN TRAFFIC SAFETY 
   SERVICES ASSOCIATION; MIKE SEWELL, ACTIVE TRANSPORTATION 
SERVICE LINE LEADER, GRESHAM SMITH, ON BEHALF OF THE LEAGUE OF 
 AMERICAN BICYCLISTS; AND NICHOLAS J. SMITH, INTERIM PRESIDENT 
    AND CHIEF EXECUTIVE OFFICER, THE NATIONAL SAFETY COUNCIL

    Ms. Homendy. Good morning, Chairwoman Norton, Congressman 
Spano, Chairman DeFazio, and members of the subcommittee. Thank 
you for inviting the NTSB to testify today.
    The NTSB is an independent Federal agency charged by 
Congress with investigating major transportation disasters. We 
determine the probable cause of crashes and issue safety 
recommendations to Federal, State, and local agencies, and 
organizations to prevent future tragedies and injuries and save 
lives.
    We are not a regulatory agency in the conventional sense. 
We do not adopt or enforce safety standards. Since 1967, the 
NTSB has issued nearly 15,000 safety recommendations, about 
2,500 of which are aimed at improving highway safety.
    Overall, more than 80 percent of those have been adopted, 
including recommendations that ensure airbags are safer, child 
restraint fitting stations are available nationwide, and the 
design and construction of schoolbuses are improved.
    Every 2 years, we release a ``most wanted list'' of 
transportation safety improvements to highlight issues that we 
believe are the greatest risk to safety.
    Our most recent list identifies 10 priorities, 7 of which 
affect highway safety. Today I want to focus on speeding, 
impaired driving, and pedestrian safety.
    Speeding is one of the most common factors in motor vehicle 
crashes. In 2016, more than 10,000 people were killed in 
speeding related crashes, about the same number of people 
killed in alcohol impaired driving crashes. Yet our attitude 
toward speeding is much different. It is seen as more socially 
acceptable.
    Together we need to change that mindset. In July 2017, we 
issued a study focused on reducing speeding related crashes. We 
found that, one, we need to change how we set speed limits in 
this country. Federal guidance to States is leading to ever-
increasing speed limits, and as a result, deaths on our 
Nation's roadways.
    From 2012 to 2016, we went from 32 States with maximum 
speed limits at or above 70 to 41. Seven of those States are at 
or above 80.
    We need to increase enforcement through the use of 
technologies, like automated speed enforcement and point-to-
point enforcement. We need in-vehicle technologies to address 
speeding like speed limiters, and we need NHTSA to issue 
performance standards for such technologies.
    We need national leadership to address speeding, which 
should include a campaign like Click It or Ticket, to change 
driver behavior and incentive grants to States to encourage 
them to implement programs to combat speeding.
    We also need to better address impairment in 
transportation. Twenty-nine die on our Nation's roads daily due 
to alcohol-impaired driving crashes. That is one every 48 
minutes.
    We recommend reducing the BAC limit to .05 or lower, and 
that NHTSA provide incentive grants to States to do so.
    We recommend requiring ignition interlocks for all 
convicted DWI offenders, and we want NHTSA to accelerate 
widespread implementation of technology to enable vehicles to 
detect driver impairment.
    Finally, pedestrian safety. Over the last 10 years, 
pedestrian fatalities have increased by 27 percent, while 
overall highway fatalities have decreased by 12 percent.
    In 2016, the NTSB began investigating a series of highway 
crashes and issued a study that included 11 recommendations to 
DOT focused on improving pedestrian safety.
    We recommend strengthening Federal standards on vehicle 
headlights; improving vehicle designs to reduce pedestrian 
fatalities and injuries; and ensuring collision avoidance 
technologies like pedestrian detection systems and automatic 
emergency braking are standard on all vehicles.
    We need better street designs. Traditional planning is 
geared towards motor vehicle traffic. So we recommend that 
States and MPOs implement a pedestrian safety action plan and 
that FHWA provide more resources for State and local pedestrian 
safety projects.
    Finally, we need better data to support the decisionmaking 
process. For example, in 2015, Portland, Oregon, identified 30 
high crash streets and intersections that accounted for 57 
percent of deadly crashes.
    By analyzing injury and crash data, Portland was able to 
determine where best to invest resources.
    In closing, let me emphasize that more than 100 people die 
on our highways every single day. In our view, one death is too 
many. We must change a culture that is willing to accept those 
losses, and we need your help to implement proven solutions.
    Thank you again for the opportunity to testify today, and I 
am happy to answer any questions.
    [Ms. Homendy's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Hon. Jennifer Homendy, Member, National 
                      Transportation Safety Board
    Good morning Chairwoman Norton, Ranking Member Davis, Chairman 
DeFazio, and Ranking Member Graves, and the Members of the 
Subcommittee. And, let me offer my congratulations to Vice Chair 
Finkenauer on her selection as Vice Chair of the Subcommittee. Thank 
you for inviting the National Transportation Safety Board (NTSB) to 
testify before you today.
    In 1967, Congress established the NTSB as an independent agency 
within the United States Department of Transportation (USDOT) with a 
clearly defined mission to promote a higher level of safety in the 
transportation system. In 1974, Congress reestablished the NTSB as a 
separate entity outside of the USDOT, reasoning that ``no federal 
agency can properly perform such (investigatory) functions unless it is 
totally separate and independent from any other . . . agency of the 
United States.'' \1\ Because the USDOT has broad operational and 
regulatory responsibilities that affect the safety, adequacy, and 
efficiency of the transportation system, and transportation accidents 
may suggest deficiencies in that system, the NTSB's independence was 
deemed necessary for proper oversight.
---------------------------------------------------------------------------
    \1\ Independent Safety Board Act of 1974 Sec.  302, Pub. L. 93-633, 
88 Stat. 2166-2173 (1975).
---------------------------------------------------------------------------
    The NTSB is charged by Congress with investigating every civil 
aviation accident in the United States and significant accidents in 
other modes of transportation--highway, rail, marine, and pipeline. We 
determine the probable cause of the accidents we investigate, and we 
issue recommendations to federal, state, and local agencies, and other 
entities, aimed at improving safety, preventing future accidents and 
injuries, and saving lives. The NTSB is not a regulatory agency in the 
conventional sense--it does not promulgate operating standards and does 
not certificate organizations and individuals. The goal of our work is 
to foster safety improvements, through formal and informal safety 
recommendations, for the traveling public.
    On call 24 hours a day, 365 days a year, our investigators travel 
throughout the country and to every corner of the world in response to 
transportation disasters. In addition, we conduct special 
transportation safety studies and coordinate the resources of the 
federal government and other organizations to assist victims and their 
family members who have been impacted by major transportation 
disasters. Since our inception, we have investigated more than 146,000 
aviation accidents and thousands of surface transportation accidents. 
We have issued more than 14,650 safety recommendations to more than 
2,400 recipients in all transportation modes, over 82 percent of which 
have been implemented.
    In the case of highway accidents, current law grants the NTSB 
jurisdiction to investigate those ``highway accident[s], including a 
railroad grade crossing accident, the Board selects in cooperation with 
a State.'' \2\ The NTSB has a distinguished record of contributing to 
highway safety for decades. For example, as a result of the NTSB's 
investigative work and safety recommendations, automobile airbags for 
all citizens are safer, child restraint fitting stations are available 
nationwide, and graduated driver licensing programs for teenagers have 
been implemented by many states. Additional examples of safety 
improvements inspired by or resulting from investigations or 
recommendations of the NTSB include improvements in the design and 
construction of school buses, highway barrier improvements, and center 
high-mounted rear brake lights on automobiles. Although there is no way 
to quantify the accidents that did not happen or the lives that were 
not lost because of the efforts of the NTSB, the tangible safety 
improvements that can be directly associated with the work of the NTSB 
have saved countless lives and avoided millions and perhaps billions of 
dollars in injuries and property damage.
---------------------------------------------------------------------------
    \2\ 49 U.S.C. Sec.  1131(b)
---------------------------------------------------------------------------
    Our goal is zero deaths and injuries on our nation's roadways; to 
eliminate the more than 37,000 people killed in crashes on US highways 
in 2017.\3\
---------------------------------------------------------------------------
    \3\ National Highway Traffic Safety Administration, 2017 Motor 
Vehicle Crashes: Overview (Washington, DC: NHTSA, 2018).
---------------------------------------------------------------------------
    On February 4, 2019, we announced our Most Wanted List of 
Transportation Safety Improvements (MWL) for 2019-2020.\4\ First issued 
in 1990, the MWL serves as the agency's primary advocacy tool to help 
save lives, prevent injuries, and reduce property damage resulting from 
transportation accidents. The NTSB created the program to increase 
industry, Congressional, and public awareness of the transportation 
safety issues identified in our accident investigations and safety 
studies. Safety issues highlighted on the MWL receive increased 
emphasis and become the primary focus of our advocacy activities.
---------------------------------------------------------------------------
    \4\ National Transportation Safety Board, 2019-2020 Most Wanted 
List (Washington, DC: NTSB, 2019).
---------------------------------------------------------------------------
    The issues selected for the MWL are chosen from our safety 
recommendations and emerging areas. Selections are based on the 
magnitude of risk, potential safety benefits, timeliness, and 
probability of advocacy efforts to bring about change. Issues selected 
have been thoroughly validated by our investigations. They are issues 
we identify as having received insufficient or inadequate action. They 
are issues that could create a high safety risk if not addressed.
    Our 2019-2020 list includes seven areas that affect highway safety:
    <bullet>  Implement a Comprehensive Strategy to Reduce Speeding-
Related Crashes
    <bullet>  End Alcohol and Other Drug Impairment
    <bullet>  Eliminate Distractions
    <bullet>  Strengthen Occupant Protection
    <bullet>  Increase Implementation of Collision Avoidance Systems in 
All New Highway Vehicles
    <bullet>  Reduce Fatigue-Related Accidents
    <bullet>  Require Medical Fitness--Screen for and Treat Obstructive 
Sleep Apnea
    My testimony today will focus on those areas most closely related 
to pedestrian and passenger vehicle safety.
         most wanted list of transportation safety improvements
Implement a Comprehensive Strategy to Reduce Speeding-Related Crashes
    Speeding--either exceeding the speed limit or driving too fast for 
conditions--is one of the most common factors in motor vehicle crashes 
in the United States. National Highway Traffic Safety Administration 
(NHTSA) data show that in 2016, 10,291 people were killed in crashes in 
which at least one driver was speeding. This represents 27 percent of 
the traffic fatalities that year, and a 5.6-percent increase from 2015. 
Speeding increases the likelihood of being involved in a crash, and it 
increases the severity of injuries sustained by all road users in a 
crash.
    On July 25, 2017, we adopted a safety study, Reducing Speeding-
Related Crashes Involving Passenger Vehicles, which examined the causes 
and trends in speeding-related crashes and countermeasures to prevent 
them.\5\ The study focused on five safety issues:
---------------------------------------------------------------------------
    \5\ National Transportation Safety Board, Reducing Speeding-Related 
Crashes Involving Passenger Vehicles, (Washington, DC: NTSB, 2018).
---------------------------------------------------------------------------
    <bullet>  speed limits
    <bullet>  data-driven approaches for speed enforcement
    <bullet>  automated speed enforcement
    <bullet>  intelligent speed adaptation
    <bullet>  national leadership
    Speed limits are a critical component of speed management, but 
Federal Highway Administration (FHWA) guidance through the Manual of 
Uniform Traffic Control Devices (MUTCD) emphasizes that states and 
localities set speed limits within 5 miles per hour (mph) of which 85% 
of vehicles are traveling. The focus on the 85th percentile has led to 
increasing speed limits across the United States. For example, in 2012, 
35 states had maximum speed limits at or above 70 mph; that increased 
to 41 states by 2016, with 7 of those states at or above 80 mph. The 
NTSB recommends de-emphasizing the 85th percentile approach; requiring 
consideration of factors which are currently only optional, such as 
crash history, roadway characteristics, and roadway conditions; and 
incorporating a safe systems approach for urban roads (evaluating 
pedestrian and bicycle traffic).
    Speed limits must also be enforced to be effective. Successful 
enforcement is achieved through law enforcement commitment to data-
driven, high-visibility enforcement. However, law enforcement reporting 
of speeding-related crashes is inconsistent, which leads to 
underreporting of speeding-related crashes. This underreporting leads 
stakeholders and the public to underestimate the overall scope of 
speeding as a traffic safety issue nationally and hinders the effective 
implementation of data-driven speed enforcement programs.
    Automated speed enforcement (ASE) is also widely acknowledged as an 
effective countermeasure to reduce speeding-related crashes, 
fatalities, and injuries. However, only 14 states and the District of 
Columbia use it. Many states have laws that prohibit or place 
operational restrictions on ASE, and federal guidelines for ASE are 
outdated and not well known among ASE program administrators. Point-to-
point enforcement, which is based on the average speed of a vehicle 
between two points, can be used on roadway segments many miles long. 
This type of ASE has had recent success in other countries, but it is 
not currently used in the United States. We recommend that state and 
local agencies use ASE and that the FHWA work with NHTSA to assess the 
effectiveness of point-to-point enforcement in the United States.
    In addition to enforcement efforts to address speeding, there needs 
to be increased leadership and attention for this at the national 
level. Current federal-aid programs do not ensure that states fund 
speed management activities at a level commensurate with the national 
impact of speeding on fatalities and injuries. Also, unlike other 
traffic safety issues with a similar impact (such as alcohol-impaired 
driving) there are no nationwide programs to increase public awareness 
of the risks of speeding. Although the USDOT has established a multi-
agency team to coordinate speeding-related work throughout the 
department, this team's work plan does not include means to ensure that 
the planned actions are completed in a timely manner.
    National, state, and local traffic safety stakeholders have 
repeatedly highlighted that--unlike other crash factors such as alcohol 
impairment or unbelted occupants--speeding has few negative social 
consequences associated with it. Surveys show drivers generally 
disapprove of speeding. However, most are complacent about the risks 
involved and speeding is a common behavior. Safety stakeholders told 
NTSB that because the dangers of speeding are not well-publicized, 
drivers underappreciate the risks of speeding in terms of crash 
causation. Stakeholders also expressed the belief that, to change 
public perceptions of speeding, a coordinated effort among safety 
advocacy groups, with strong leadership from the federal government, is 
needed. The lack of a national traffic safety campaign was cited as a 
key issue hindering the effective implementation of speeding prevention 
programs.
    NHTSA, through its Traffic Safety Marketing (TSM) group, provides 
marketing materials and advice for states to use in developing traffic 
safety campaigns It also coordinates national traffic safety events. 
Our study found that none of the traffic safety events that NHTSA 
sponsored in 2016 addressed speeding. TSM does make available marketing 
materials that state and local agencies can use in their own campaigns. 
However, in the absence of a national speeding campaign, there is 
incomplete participation among states and little consistency among the 
individual state campaigns.
    We concluded that traffic safety campaigns that include highly 
publicized, increased enforcement can be an effective speeding 
countermeasure. This led us to recommend that NHTSA collaborate with 
other traffic safety stakeholders to develop and implement an ongoing 
program to increase public awareness of speeding as a national traffic 
safety issue. The program should include, but not be limited to, 
initiating an annual enforcement mobilization directed at speeding 
drivers.
    Another way to increase public awareness of speeding as a traffic 
safety issue is by providing states with financial incentives to be 
more engaged in addressing speeding. Highway Safety Program grants are 
allocated based on the population and road miles in each state, and 
these funds can be spent on any of 10 different focus areas (which 
includes speeding) according to a state's Highway Safety Plan. In 
contrast, National Priority Safety Programs funds are directed toward 
seven different priority areas, with the funding level for each 
priority area (rather than the overall total) established by Congress. 
Each priority area has specific eligibility requirements that 
incentivize states to conduct particular traffic safety activities. 
Speeding is not one of the seven priority areas.
    The Highway Safety Program allows states significant leeway to 
spend funds according to their particular traffic safety priorities, 
including speeding; but it does not provide a means to encourage states 
to focus on national priorities. In contrast, National Priority Safety 
Program grants are specifically designed to encourage states to focus 
additional traffic safety efforts in areas of national importance. 
However, these funds currently cannot be used for speed management. 
Thus, we concluded that current federal-aid programs do not require or 
incentivize states to fund speed management activities at a level 
commensurate with the national impact of speeding on fatalities and 
injuries and recommended that NHTSA establish a program to incentivize 
state and local speed management activities.
    In the study, we also recommended completion of all actions in the 
USDOT 2014 Speed Management Program Plan, FHWA assess of the 
effectiveness of point-to-point speed enforcement in the U.S., 
incentivizing passenger vehicle manufacturers and consumers to adopt 
intelligent speed adaptation systems, including speed limiters, and 
increasing the adoption of speeding-related Model Minimum Uniform Crash 
Criteria Guideline data elements and improving consistency in law 
enforcement reporting of speeding-related crashes.
End Alcohol and Other Drug Impairment in Transportation
    The issue area of alcohol and other drug impairment in 
transportation has been on every Most Wanted List we have published 
since 1990, and we have made hundreds of recommendations to address 
this issue. Impairment in transportation continues to be a public 
health concern, with more than 10,000 highway fatalities each year in 
the United States involving alcohol-impaired drivers. Impairment by 
over-the-counter medications, prescription drugs, synthetic drugs, and 
illicit substances is also a rising concern.
    We have recommended a comprehensive approach to address substance-
impaired driving to prevent crashes, reduce injuries, and save lives. 
When it comes to alcohol use, research shows that impairment begins 
before a person's blood alcohol concentration (BAC) level reaches 0.08 
percent, the current illegal per se limit in every state except Utah, 
which was the first state to enact 0.05 BAC law in 2017. In fact, by 
the time BAC reaches 0.08, the risk of a fatal crash has more than 
doubled.\6\ We have recommended that states lower the per se BAC 
threshold to 0.05 percent or lower. Further, we have recommended that 
NHTSA seek legislative authority to award incentive grants for states 
to establish a per se BAC limit of 0.05 or lower for all drivers not 
already required to adhere to lower BAC limits.\7\
---------------------------------------------------------------------------
    \6\ Compton, R.P., R.D. Blomberg, H. Moskowitz, M. Burns, R.C. 
Peck, and D. Fiorentino. 2002. ``Crash Risk of Alcohol-Impaired 
Driving.'' Alcohol, Drugs and Traffic Safety--T2002. Proceedings of the 
16th International Conference on Alcohol, Drugs and Traffic Safety 
(August 4-9, 2002). Montreal, Canada: International Council on Alcohol, 
Drugs and Traffic Safety. Blomberg, Richard D., Raymond C. Peck, 
Herbert Moskowitz, Marcelline Burns, and Dary Fiorentino. 2005. Crash 
Risk of Alcohol Involved Driving: A Case-Control Study. Stamford, CT: 
Dunlap and Associates, Inc.
    \7\ National Transportation Safety Board, Safety Recommendation H-
13-001.
---------------------------------------------------------------------------
    To further deter impaired driving, we have also recommended high-
visibility enforcement of impaired driving laws using passive alcohol-
sensing technology, as well as encouraged the development of technology 
that will enable vehicles to detect driver impairment, like the Driver 
Alcohol Detection System for Safety \8\. We have also made 
recommendations to reduce recidivism by driving while intoxicated (DWI) 
offenders. Recommended strategies include requiring ignition interlocks 
for all convicted DWI offenders and making special efforts to target 
repeat offenders.\9\
---------------------------------------------------------------------------
    \8\ National Transportation Safety Board, Safety Recommendation H-
12-048
    \9\ National Transportation Safety Board, Reaching Zero: Actions to 
Eliminate Alcohol-Impaired Driving, Rpt. No. SR-13/01 (Washington, DC: 
NTSB, 2013).
---------------------------------------------------------------------------
    In the United States, ignition interlocks have historically been 
viewed as a sanction for repeat or high-BAC offenders; however, in 
recent years, the movement has been toward mandating ignition 
interlocks for all DWI offenders, including first-time offenders. 
Currently 32 states plus the District of Columbia have all-offender 
ignition interlock laws.
    Research evaluation of ignition interlock programs over the last 
two decades has found that ignition interlock devices are effective in 
reducing recidivism among DWI offenders, sometimes by as much as 62 to 
75 percent. One study examined the effectiveness of laws that require 
alcohol interlock installations for first-time offenders as well as 
repeat or high-BAC offenders; it found an additional benefit in 
reducing repeat DWI offenses.\10\ Another study estimated 1,100 deaths 
could have been prevented in 1 year had interlock devices been required 
for drivers with recent DUI convictions.\11\
---------------------------------------------------------------------------
    \10\ A. T. McCartt and others, Washington State's Alcohol Ignition 
Interlock Law: Effects on Recidivism Among First DUI Offenders, 
(Arlington, VA: Insurance Institute for Highway Safety, 2012).
    \11\ A. K. Lund and others, ``Contribution of Alcohol-Impaired 
Driving to Motor Vehicle Crash Deaths in 2005,'' 8th Ignition Interlock 
Symposium, Seattle, Washington (2007).
---------------------------------------------------------------------------
    Based on the lack of significant progress in reducing alcohol-
impaired driving fatalities over the last two decades, it is clear that 
more can be done to prevent these tragedies. The evidence shows that 
ignition interlock technology can--and should--be embraced in this 
battle.
    Drugs other than, or in combination with, alcohol also pose an 
ongoing, increasing threat to highway safety. On March 29, 2017, near 
Concan, Texas, a pickup truck crossed into the opposite travel lane and 
collided with a medium-size bus, killing the bus driver and 12 
passengers. We determined that the probable cause of the crash was the 
failure of the pickup truck driver to control his vehicle due to 
impairment stemming from his use of marijuana in combination with 
misuse of a prescribed medication.\12\ As part of this investigation, 
we found that law enforcement officers need advanced training to 
identify the signs and symptoms of impairment as well as additional 
tools, such as roadside drug screening devices, in order to better 
detect drivers operating under the influence of drugs. Oral fluid drug 
screening devices can improve the ability of law enforcement officers 
to detect drug-impaired drivers. We recommended that NHTSA develop and 
disseminate best practices, identify model specifications, and create a 
conforming products list for oral fluid drug screening devices. We also 
urged NHTSA to evaluate best practices and countermeasures found to be 
the most effective in reducing fatalities, injuries, and crashes 
involving drug-impaired drivers and provide additional guidance to the 
states on drug-impaired driving.\13\
---------------------------------------------------------------------------
    \12\ National Transportation Safety Board, Pickup Truck Centerline 
Crossover Collision with Medium-Size Bus on US Highway 83, Concan, 
Texas, March 29, 2017, Rpt. No. HAR-18/02 (Washington, DC: NTSB, 2018).
    \13\ National Transportation Safety Board, Safety Recommendation H-
18-056 and H-18-057.
---------------------------------------------------------------------------
Eliminate Distractions
    Drivers and operators in all modes of transportation must keep 
their hands, eyes, and minds focused on operating their vehicles. 
According to NHTSA, distraction was reported to be involved in almost 
3,200 highway fatalities, or 8.6 percent of all fatalities in 2017.\14\
---------------------------------------------------------------------------
    \14\ National Highway Traffic Safety Administration, Traffic Safety 
Facts, 2017 Fatal Motor Vehicle Crashes: Overview (Washington, DC: US 
Department of Transportation, NHTSA, 2017). DOT HS 812 603, p. 5.
---------------------------------------------------------------------------
    On August 5, 2010, in an active work zone in Gray Summit, Missouri, 
a truck-tractor was struck in the rear by a pickup truck, which was 
then struck in the rear by a school bus carrying 23 passengers. The 
school bus was then struck by another school bus carrying 31 
passengers. The driver of the pickup and one passenger seated in the 
rear of the lead school bus were killed. A total of 35 passengers from 
both buses, the two bus drivers, and the driver of the truck-tractor 
sustained injuries ranging from minor to serious. We determined that 
the probable cause of the initial collision was the pickup driver's 
distraction, likely due to his ongoing text messaging conversation. As 
a result of this investigation, we recommended that the 50 states and 
the District of Columbia ban the nonemergency use of portable 
electronic devices (other than those designed to support the driving 
task) for all drivers, and to use high-visibility enforcement and 
targeted communication campaigns.\15\ Currently, 16 states ban hand-
held use and new laws are being considered in many other states this 
year. In the seven years since we made these recommendations, we 
continue to encounter crashes where use of personal electronic devices 
played a part. Real change will require a three-pronged approach that 
includes strict laws, proper education, and effective enforcement.
---------------------------------------------------------------------------
    \15\ National Transportation Safety Board, Multivehicle Collision, 
Interstate 44 Eastbound, Gray Summit, Missouri, August 5, 2010, Rpt. 
No. HAR-11/03 (Washington, DC: NTSB, 2011).
---------------------------------------------------------------------------
Strengthen Occupant Protection
    We have investigated many crashes in which improved occupant 
protection systems, such as seat belts, child restraints, and other 
vehicle design features, could have reduced injuries and saved lives. 
Recent investigations have highlighted the importance of proper use of 
the safety equipment, effective design, and readily accessible and 
identifiable evacuation routes on larger passenger vehicles, such as 
limousines, school buses, motor coaches, and other commercial vehicles.
    Seat belts are the best defense against motor vehicle injuries and 
fatalities because they protect vehicle occupants from the extreme 
forces experienced during crashes. Unbelted vehicle occupants 
frequently injure other occupants, and unbelted drivers are less likely 
than belted drivers to be able to control their vehicles. In addition, 
seat belts prevent occupant ejections. In 2016, only 1 percent of 
vehicle occupants using seat belts were ejected, while 29 percent of 
unbelted vehicle occupants were ejected. Among those occupants 
completely ejected from their passenger vehicles, 81 percent were 
killed. NHTSA estimates that seat belts saved the lives of nearly 
15,000 motor vehicle occupants age 5 and older in 2016, nationwide. 
Further, had all passenger vehicle occupants age 5 and older used seat 
belts in 2016 an additional 2,456 lives could have been saved. From 
1975 through 2015, seat belts saved more than 344,000 lives nationwide.
    Since 1995, we have recommended that states enact legislation 
providing for the primary enforcement of seat belt laws, which would 
allow law enforcement officers to stop a vehicle solely because 
occupants are not wearing seat belts. Currently, 34 states and the 
District of Columbia authorize primary enforcement of their seat belt 
laws, but only 29 states apply the law to all passenger seating 
positions. In 2015, we recommended that states enact legislation for 
primary enforcement of a mandatory seat belt use law for all vehicle 
seating positions equipped with a passenger restraint system.\16\ This 
recommendation covers all motor vehicles, including buses. Primary 
enforcement of mandatory seat belt use laws remains the best way to 
raise and maintain high seat belt use rates. States that have enacted 
primary enforcement seat belt laws have historically experienced 
increases in seat belt use rates between 5 and 18 percentage points. 
The increased use is based on the realization by drivers that they may 
be stopped for violating the seat belt law.\17\
---------------------------------------------------------------------------
    \16\ National Transportation Safety Board, Safety Recommendation H-
15-042.
    \17\ Centers for Disease Control and Prevention, Primary 
Enforcement of Seat Belt Laws, https://www.cdc.gov/motorvehiclesafety/
calculator/factsheet/seatbelt.html
---------------------------------------------------------------------------
    We have a long history of investigating school bus crashes. We have 
found compartmentalization to be effective in frontal collisions, but 
have also identified the limitations of passenger seats with no belts 
or lap belt only restraints. Modern school bus seat technology has 
overcome previous capacity issues, and the installation and proper use 
of passenger seat belts, particularly lap/shoulder belts, has made 
school buses safer in severe side impacts and rollovers. On November 
21, 2016, six students died, and more than 20 others were injured in 
Chattanooga, Tennessee, when a Hamilton County Department of Education 
school bus struck a utility pole, rolled onto its right side, and 
collided with a tree. Contributing to the severity of the crash was the 
lack of passenger lap/shoulder belts on the bus.\18\ In a special 
investigation report we developed following this crash, we recommended 
that jurisdictions which do not yet require passenger belts in large 
school buses enact legislation to require that all new large school 
buses be equipped with passenger lap/shoulder belts for all passenger 
seating positions.\19\ The report also focused on the benefits of 
electronic stability control (ESC) and automatic emergency braking 
(AEB) in improving driver and vehicle safety.\20\
---------------------------------------------------------------------------
    \18\ National Transportation Safety Board, Selective Issues in 
School Bus Transportation Safety: Crashes in Baltimore, Maryland, and 
Chattanooga, Tennessee, Rpt. No. SIR-18/02 (Washington, DC: NTSB, 
2018).
    \19\ National Transportation Safety Board, Safety Recommendations 
H-18-009 and H-18-010.
    \20\ The report concluded that the technology could have assisted 
the driver in maintaining vehicle control and mitigated the severity of 
the crash by reducing the speed of the vehicle.
---------------------------------------------------------------------------
    We have also made recommendations to NHTSA regarding front, side, 
and rear underride protections for tractor-trailer and single unit 
trucks to reduce underride and injuries to passenger vehicle occupants. 
Specifically, as a result of our safety investigations, we have 
recommended that NHTSA establish performance standards for front, side, 
and underride protection systems for single-unit trucks with gross 
vehicle weight ratings over 10,000 pounds, and to require such systems 
on all such newly manufactured trucks.\21\ Each of these 
recommendations are currently classified ``Open-Unacceptable 
Response.'' We have also recommended that NHTSA require side and rear 
underride systems for newly manufactured trailers with gross vehicle 
weight ratings over 10,000 pounds.\22\ Each of these recommendations is 
currently classified ``Open-Acceptable Response.''
---------------------------------------------------------------------------
    \21\ National Transportation Safety Board, Safety Recommendations 
H-10-012, H-10-013, H-13-013, H-13-014, H-13-015, and H-13-016.
    \22\ National Transportation Safety Board, Safety Recommendations 
H-14-002 and H-14-004.
---------------------------------------------------------------------------
Increase Implementation of Collision Avoidance Technologies
    More than 90 percent of crashes on United States roadways can be 
attributed to driver error.\23\ For more than two decades, we have been 
advocating implementation of various technologies to help reduce driver 
error. Vehicle-based collision avoidance technologies, such as forward 
collision warning (FCW) and autonomous emergency braking (AEB) systems, 
are important for avoiding or mitigating the impact of rear-end 
crashes, which represent nearly half of all two-vehicle crashes. Other 
driver-assist and collision avoidance technologies, such as adaptive 
cruise control, advance lighting, blind spot detection, and lane 
departure warning systems can aid drivers and help reduce the 
occurrence of other types of crashes. These technologies improve 
visibility, help maintain safe distance between vehicles, alert drivers 
to impending hazards and potential crashes, or automatically brake to 
mitigate the consequence of a crash.
---------------------------------------------------------------------------
    \23\ National Highway Traffic Safety Administration, Critical 
Reasons for Crashes Investigated in the National Motor Vehicle Crash 
Causation Survey. February 2015, (DOT HS 812 115).
---------------------------------------------------------------------------
    In 2015, we issued a special investigation report regarding the use 
of forward collision avoidance systems to prevent and mitigate rear-end 
crashes. The report was based on the examination of current research 
into the effectiveness of collision avoidance systems and 
investigations of nine crashes--that resulted in 28 fatalities and 
injuries to 90 vehicle occupants--involving passenger or commercial 
vehicles striking the rear of another vehicle. As part of this report, 
we recommended that passenger and commercial vehicle manufacturers 
install FCW and AEB as standard equipment, and, in order to incentivize 
manufacturers, that NHTSA expand the New Car Assessment Program (NCAP) 
to include ratings for various collision avoidance technologies.\24\ 
Most recently, on the night of January 19, 2016, a motorcoach occupied 
by a driver and 21 passengers collided with an unmarked crash 
attenuator and concrete barrier on a highway in San Jose, California, 
during low visibility conditions. Two passengers were ejected and died, 
and the driver and 13 passengers were injured. Upon later testing, we 
determined that had the bus been equipped with a collision avoidance 
system, the system could have detected the crash attenuator and alerted 
the driver to the hazard to mitigate or prevent the crash.\25\
---------------------------------------------------------------------------
    \24\ National Transportation Safety Board, The Use of Forward 
Collision Avoidance Systems to Prevent and Mitigate Rear-End Crashes, 
Rpt. No. SIR-15/01 (Washington, DC: NTSB, 2015).
    \25\ National Transportation Safety Board, Motorcoach Collision 
With Crash Attenuator in Gore Area, US Highway 101, Rpt. No. HAR-17/01 
(Washington, DC: NTSB, 2017).
---------------------------------------------------------------------------
Reduce Fatigue-Related Accidents
    On March 20, 2016, a passenger car, driven by an 18-year-old and 
carrying three passengers ranging in age from 17 to 19, crossed a 
median and collided with a truck-tractor in combination with a 
semitrailer in Robstown, Texas. The three teenage passengers were 
killed. We determined the probable cause of this crash was the car 
driver's loss of control due to fatigue-induced inattention.\26\
---------------------------------------------------------------------------
    \26\ National Transportation Safety Board, Passenger Vehicle Median 
Crossover Crash, US Highway 77, Robstown, Texas, March 20, 2016, Rpt. 
No. HAB-16/09 (Washington, DC: NTSB, 2016).
---------------------------------------------------------------------------
    NHTSA reported that, in 2015, more than 72,000 police-reported 
crashes involved drowsy driving, and those crashes resulted in 41,000 
injuries and 846 deaths. However, NHTSA has acknowledged that these 
numbers likely are underestimated.\27\ Other research conducted by the 
AAA Foundation for Traffic Safety estimated that more than 6,000 people 
are killed in drowsy-driving related crashes each year.\28\
---------------------------------------------------------------------------
    \27\ National Highway Traffic Safety Administration, Asleep at the 
Wheel: A National Compendium of Efforts to Eliminate Drowsy Driving. 
March 2017, DOT HS 812 352.
    \28\ AAA Foundation for Traffic Safety, Prevalence of Motor Vehicle 
Crashes Involving Drowsy Drivers, United States, 2009-2013, November 
2014.
---------------------------------------------------------------------------
    We have issued more than 200 safety recommendations addressing 
fatigue-related problems across all modes of transportation. Tackling 
the problem of fatigue in highway transportation requires a 
comprehensive approach focused on research, education, training, 
technology, sleep disorder treatment, regulations, and on- and off-duty 
scheduling policies and practices. Some of our earliest recommendations 
called for research to better understand the problem of fatigue in 
transportation, and over the past three decades, several studies have 
been done. But research only goes so far; we must now implement what we 
have learned.
                      other highway safety issues
Pedestrian Safety
    Until 2010, the number of pedestrians killed in highway crashes 
decreased for 35 years, but then reversed course. In 2017, the number 
of pedestrians who died in traffic crashes was 5,977, an increase of 
more than 45 percent since 2009.\29\ Pedestrian deaths in recent years 
account for 16 percent (or almost one in six) of all highway 
fatalities.
---------------------------------------------------------------------------
    \29\ National Highway Traffic Safety Administration, Traffic Safety 
Facts: Pedestrians. March 2019. (DOT HS 812 681).
---------------------------------------------------------------------------
    In May 2016, we hosted a pedestrian safety forum, bringing together 
federal and state officials and experts to discuss key aspects of the 
issue.\30\ Additionally, between April and November 2016, we worked 
with local law enforcement partners to initiate 15 investigations into 
fatal pedestrian crashes. The investigative work on these crashes 
illustrated a variety of pedestrian safety issues. This work culminated 
in the adoption last September of our Special Investigation Report: 
Pedestrian Safety that included the completed investigations, a review 
of the literature, and information about promising countermeasures.\31\
---------------------------------------------------------------------------
    \30\ National Transportation Safety Board, Forum: Pedestrian 
Safety, (Washington, DC: National Transportation Safety Board, 2016).
    \31\ National Transportation Safety Board, Pedestrian Safety, SIR-
18/03 (Washington, DC: 2018).
---------------------------------------------------------------------------
    The report found that vehicle-based countermeasures, such as 
improved headlights, vehicle designs that reduce injuries to 
pedestrians, and collision avoidance systems would improve pedestrian 
safety. We recommended that NHTSA revise Federal Motor Vehicle Safety 
Standard 108 to improve vehicle lighting, develop performance test 
criteria for manufacturers to use in evaluating the extent to which 
automated pedestrian safety systems will mitigate pedestrian injuries, 
and incorporate those systems into the New Car Assessment Program.
    It also found that effective street designs for pedestrian safety 
are highly context-dependent and best managed by local interests. 
However, local officials would benefit from having improved resources, 
tools and funding support to develop and implement those plans. We 
recommended that FHWA expand its support of state and local safety 
projects beyond its current focus cities.
    Additionally, the study addressed limitations in the data available 
to decision makers who are working to reduce pedestrian crashes. 
Planners need localized pedestrian data to support the decision-making 
process. However, the most complete set of pedestrian crash data is 
more than two decades old. Thus, we recommended that NHTSA and the 
Centers for Disease Control work together to develop a detailed 
pedestrian crash data set combining highway crash data and injury 
health data with the goal of producing a national database of 
pedestrian injuries and fatalities. Further, we urged NHTSA to develop 
a detailed pedestrian crash data set that represents the current, 
complete range of crash types and that can be used for local and state 
analysis. Finally, we recommended that FHWA develop definitions and 
methods for collecting pedestrian exposure data.
Motorcycle Safety
    We are concerned about the growing number of motorcyclists killed 
or injured in motorcycle crashes. In 2016, more than 5,000 
motorcyclists were killed nationwide, or about 14 motorcyclists per 
day. The number of motorcycle crash fatalities has more than doubled 
over the last two decades. According to NHTSA, motorcycles are the most 
dangerous form of motor vehicle transportation. Motorcycles represent 
only 3 percent of the vehicles on our roads, but motorcyclists 
accounted for 14 percent of all traffic fatalities.\32\
---------------------------------------------------------------------------
    \32\ National Highway Traffic Safety Administration, Traffic Safety 
Facts: Motorcycles, 2016 Data, February 2018, DOT HS 812 492.
---------------------------------------------------------------------------
    These concerns led us to complete a safety report in October 2018, 
which assessed select risk factors associated with the causes of 
motorcycle crashes in the United States and made recommendations for 
improving motorcycle crash prevention.\33\ The data analyzed in this 
report was provided by FHWA, from its 2016 Motorcycle Crash Causation 
Study (MCCS). The MCCS represents the most recent data available for 
studying motorcycle crashes in the United States since the USDOT 
published its comprehensive Motorcycle Accident Cause Factors and 
Identification of Countermeasures report in 1981.
---------------------------------------------------------------------------
    \33\ National Transportation Safety Board, Select Risk Factors 
Associated with Causes of Motorcycle Crashes, SR-18/01 (Washington, DC: 
2018).
---------------------------------------------------------------------------
    We concluded many high-risk traffic situations between motorcycles 
and other motor vehicles could be prevented if vehicle drivers were 
better able to detect and anticipate the presence of a motorcycle when 
entering or crossing a road, making a turn or changing lanes. We also 
determined stability control systems on motorcycles could reduce 
single-vehicle crashes involving loss of control which would reduce the 
prevalence of motorcyclists killed or injured by impacts with fixed 
roadside objects.
    There is a need for enhanced braking and stability control systems 
on motorcycles. More than a third of the crashes analyzed involved a 
loss of control that contributed to crash causation. More widespread 
availability of enhanced braking and stability control systems on 
motorcycles could improve safety by enhancing the effectiveness of 
braking, collision avoidance performance, and stability control for 
both novice and experienced riders.
    In 2007, following a 2-day public forum on motorcycle safety at 
which it heard from a group of panelists representative of all 
important aspects of motorcycle safety, NTSB recommended that states 
require all motorcycle riders to wear a helmet compliant with U.S. 
Federal Motor Vehicle Safety Standard (FMVSS) 218.\34\ The use of a 
compliant safety helmet is the single critical factor in the prevention 
and reduction of head injury. The effectiveness of appropriately 
designed motorcycle helmets in preventing and mitigating head injury is 
unequivocal. NHTSA estimates that helmets are 37 percent effective in 
preventing fatal injuries to motorcycle riders and 41 percent effective 
for motorcycle passengers.
---------------------------------------------------------------------------
    \34\ National Transportation Safety Board, Safety Recommendations 
H-07-37, H-07-38, and H-07-39
---------------------------------------------------------------------------
    Universal helmet laws do increase helmet use. Numerous state 
studies have shown that helmet law repeals led to reduced usage and 
increased fatalities. Likewise, enactment of a universal helmet law 
leads to increased usage and reduced motorcycle deaths. Currently, 19 
states, plus the District of Columbia, have a universal helmet law. The 
remarkable effectiveness of universal helmet laws in preventing death 
and disability among motorcyclists is a powerful argument for the 
adoption of such laws, especially in light of the more than 5,200 
motorcyclists who were killed on our highways in 2016. For more than 70 
years, research has shown that helmets protect motorcyclists and 
passengers from death and serious injury.
Bicycle Safety
    In 2017, almost 800 bicyclists were killed in the United States, 
representing 2 percent of all traffic deaths. As bicycling becomes more 
popular as a form of active transportation, especially in urban areas, 
it is timely and important to ensure and improve roadway safety for 
bicyclists. We have begun a safety study to identify proven 
countermeasures that can improve bicyclist safety. In this study, we 
are exploring improved bicycle infrastructure, advanced vehicle-based 
technologies, and approaches to increase bicycle helmet use. We 
anticipate that the study will be published late this year.
Automated Vehicles
    The use of automated vehicle (AV) controls and systems is 
accelerating rapidly in all modes of transportation. We have monitored 
AV development and we have a long history of calling for systems to 
assist the operator by providing an increased margin of safety, such as 
automatic emergency braking. AVs that incorporate systems proven to 
enhance safety hold enormous potential benefits for safety.
    In 2018, the USDOT updated a federal AV policy focused on highly 
automated vehicles. Late last year, in response to a call for comments, 
we commented that NHTSA's proposed AV policies are notable for the 
voluntary approach to manufacturers' safety self-assessments, testing 
and validation of system safety, and AV reporting requirements. We 
applauded NHTSA's efforts to work with industry. However, its general 
and voluntary guidance of emerging and evolutionary technological 
advancements shows a willingness to let manufacturers and operational 
entities define safety. The most recent AV guidance (AV 3.0) is only 
focused on SAE Level 3 and above while not providing guidance for Level 
2 vehicles.
    The USDOT has an important responsibility to ensure the safe 
development and deployment of AV technologies at all levels of 
automation, and this safety should not be voluntary. However, the 
policy thus far has carried an overarching message of promoting AV 
development, but a clear connection to minimum safety requirements has 
not yet been crafted. NHTSA can and should provide this required safety 
leadership. We urge NHTSA to lead with detailed guidance and specific 
standards and requirements.
                               conclusion
    Thank you for the opportunity to testify before you today. While my 
testimony has discussed many safety concerns, these are only some of 
the safety improvements we have identified as needed to prevent 
crashes, reduce injuries, and save lives. A list of safety 
recommendations we have made for highway safety that are reflected in 
our MWL is included with this testimony. I look forward to responding 
to your questions.

APPENDIX: 2019-2020 MOST WANTED LIST RECOMMENDATIONS FOR HIGHWAY SAFETY

------------------------------------------------------------------------
  Implement a Comprehensive Strategy to Reduce Speeding-Related Crashes
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-05-020   Open--               TO THE TEXAS DEPARTMENT OF
                     Acceptable            TRANSPORTATION: Install
                     Response              variable speed limit signs or
                                           implement alternate
                                           countermeasures at locations
                                           where wet weather can produce
                                           stopping distances that
                                           exceed the available sight
                                           distance.
------------------------------------------------------------------------
          H-12-020   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Develop
                                           performance standards for
                                           advanced speed-limiting
                                           technology, such as variable
                                           speed limiters and
                                           intelligent speed adaptation
                                           devices, for heavy vehicles,
                                           including trucks, buses, and
                                           motorcoaches.
------------------------------------------------------------------------
          H-12-021   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: After
                                           establishing performance
                                           standards for advanced speed-
                                           limiting technology for heavy
                                           commercial vehicles, require
                                           that all newly manufactured
                                           heavy vehicles be equipped
                                           with such devices.
------------------------------------------------------------------------
          H-17-018   Open--               TO THE UNITED STATES
                     Acceptable            DEPARTMENT OF TRANSPORTATION:
                     Response              Complete the actions called
                                           for in your 2014 Speed
                                           Management Program Plan, and
                                           periodically publish status
                                           reports on the progress you
                                           have made.
------------------------------------------------------------------------
          H-17-019   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Identify
                                           speeding-related performance
                                           measures to be used by local
                                           law enforcement agencies,
                                           including, but not limited
                                           to, the numbers and locations
                                           of speeding-related crashes
                                           of different injury severity
                                           levels, speeding citations,
                                           and warnings, and establish a
                                           consistent method for
                                           evaluating data-driven, high-
                                           visibility enforcement
                                           programs to reduce speeding.
                                           Disseminate the performance
                                           measures and evaluation
                                           method to local law
                                           enforcement agencies.
------------------------------------------------------------------------
          H-17-020   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Identify best
                                           practices for communicating
                                           with law enforcement officers
                                           and the public about the
                                           effectiveness of data-driven,
                                           high-visibility enforcement
                                           programs to reduce speeding,
                                           and disseminate the best
                                           practices to local law
                                           enforcement agencies.
------------------------------------------------------------------------
          H-17-021   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Work with the
                                           Governors Highway Safety
                                           Association, the
                                           International Association of
                                           Chiefs of Police, and the
                                           National Sheriffs'
                                           Association to develop and
                                           implement a program to
                                           increase the adoption of
                                           speeding-related Model
                                           Minimum Uniform Crash
                                           Criteria Guideline data
                                           elements and improve
                                           consistency in law
                                           enforcement reporting of
                                           speeding-related crashes.
------------------------------------------------------------------------
          H-17-022   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Work with the
                                           Federal Highway
                                           Administration to update the
                                           Speed Enforcement Camera
                                           Systems Operational
                                           Guidelines to reflect the
                                           latest automated speed
                                           enforcement (ASE)
                                           technologies and operating
                                           practices, and promote the
                                           updated guidelines among ASE
                                           program administrators.
------------------------------------------------------------------------
          H-17-023   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Alternate             ADMINISTRATION: Work with the
                     Response              Federal Highway
                                           Administration to assess the
                                           effectiveness of point-to-
                                           point speed enforcement in
                                           the United States and, based
                                           on the results of that
                                           assessment, update the Speed
                                           Enforcement Camera Systems
                                           Operational Guidelines, as
                                           appropriate.
------------------------------------------------------------------------
          H-17-024   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Alternate             ADMINISTRATION: Incentivize
                     Response              passenger vehicle
                                           manufacturers and consumers
                                           to adopt intelligent speed
                                           adaptation (ISA) systems by,
                                           for example, including ISA in
                                           the New Car Assessment
                                           Program.
------------------------------------------------------------------------
          H-17-025   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Alternate             ADMINISTRATION: Collaborate
                     Response              with other traffic safety
                                           stakeholders to develop and
                                           implement an ongoing program
                                           to increase public awareness
                                           of speeding as a national
                                           traffic safety issue. The
                                           program should include, but
                                           not be limited to, initiating
                                           an annual enforcement
                                           mobilization directed at
                                           speeding drivers.
------------------------------------------------------------------------
          H-17-026   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Establish a
                                           program to incentivize state
                                           and local speed management
                                           activities.
------------------------------------------------------------------------
          H-17-027   Open--               TO THE FEDERAL HIGHWAY
                     Acceptable            ADMINISTRATION: Revise
                     Response              Section 2B.13 of the Manual
                                           on Uniform Traffic Control
                                           Devices so that the factors
                                           currently listed as optional
                                           for all engineering studies
                                           are required, require that an
                                           expert system such as
                                           USLIMITS2 be used as a
                                           validation tool, and remove
                                           the guidance that speed
                                           limits in speed zones should
                                           be within 5 mph of the 85th
                                           percentile speed.
------------------------------------------------------------------------
          H-17-028   Open--               TO THE FEDERAL HIGHWAY
                     Acceptable            ADMINISTRATION: Revise
                     Response              Section 2B.13 of the Manual
                                           on Uniform Traffic Control
                                           Devices to, at a minimum,
                                           incorporate the safe system
                                           approach for urban roads to
                                           strengthen protection for
                                           vulnerable road users.
------------------------------------------------------------------------
          H-17-029   Open--               TO THE FEDERAL HIGHWAY
                     Acceptable            ADMINISTRATION: Work with the
                     Response              National Highway Traffic
                                           Safety Administration to
                                           update the Speed Enforcement
                                           Camera Systems Operational
                                           Guidelines to reflect the
                                           latest automated speed
                                           enforcement (ASE)
                                           technologies and operating
                                           practices, and promote the
                                           updated guidelines among ASE
                                           program administrators.
------------------------------------------------------------------------
          H-17-030   Open--               TO THE FEDERAL HIGHWAY
                     Acceptable            ADMINISTRATION: Work with the
                     Response              National Highway Traffic
                                           Safety Administration to
                                           assess the effectiveness of
                                           point-to-point speed
                                           enforcement in the United
                                           States and, based on the
                                           results of that assessment,
                                           update the Speed Enforcement
                                           Camera Systems Operational
                                           Guidelines, as appropriate.
------------------------------------------------------------------------
          H-17-031   Open--               TO THE SEVEN STATES
                     Await                 PROHIBITING AUTOMATED SPEED
                     Response              ENFORCEMENT (MAINE,
                                           MISSISSIPPI, NEW HAMPSHIRE,
                                           NEW JERSEY, TEXAS, WEST
                                           VIRGINIA, AND WISCONSIN):
                                           Amend current laws to
                                           authorize state and local
                                           agencies to use automated
                                           speed enforcement.
------------------------------------------------------------------------
          H-17-032   Open--               TO THE TWENTY EIGHT STATES
                     Await                 WITHOUT AUTOMATED SPEED
                     Response              ENFORCEMENT LAWS (ALABAMA,
                                           ALASKA, CALIFORNIA,
                                           CONNECTICUT, DELAWARE,
                                           FLORIDA, GEORGIA, HAWAII,
                                           IDAHO, INDIANA, IOWA, KANSAS,
                                           KENTUCKY, MASSACHUSETTS,
                                           MICHIGAN, MINNESOTA,
                                           MISSOURI, MONTANA, NEBRASKA,
                                           NEW MEXICO, NORTH CAROLINA,
                                           NORTH DAKOTA, OKLAHOMA,
                                           PENNSYLVANIA, SOUTH DAKOTA,
                                           VERMONT, VIRGINIA, AND
                                           WYOMING): Authorize state and
                                           local agencies to use
                                           automated speed enforcement.
------------------------------------------------------------------------
          H-17-033   Open--               TO THE 15 STATES WITH
                     Await                 AUTOMATED SPEED ENFORCEMENT
                     Response              RESTRICTIONS (ARIZONA,
                                           ARKANSAS, COLORADO, ILLINOIS,
                                           LOUISIANA, MARYLAND, NEVADA,
                                           NEW YORK, OHIO, OREGON, RHODE
                                           ISLAND, SOUTH CAROLINA,
                                           TENNESSEE, UTAH, AND
                                           WASHINGTON): Amend current
                                           laws to remove operational
                                           and location restrictions on
                                           the use of automated speed
                                           enforcement, except where
                                           such restrictions are
                                           necessary to align with best
                                           practices.
------------------------------------------------------------------------
          H-17-034   Open--               TO THE GOVERNORS HIGHWAY
                     Acceptable            SAFETY ASSOCIATION: Work with
                     Response              the National Highway Traffic
                                           Safety Administration, the
                                           International Association of
                                           Chiefs of Police, and the
                                           National Sheriffs'
                                           Association to develop and
                                           implement a program to
                                           increase the adoption of
                                           speeding-related Model
                                           Minimum Uniform Crash
                                           Criteria Guideline data
                                           elements and improve
                                           consistency in law
                                           enforcement reporting of
                                           speeding-related crashes.
------------------------------------------------------------------------
          H-17-035   Open--               TO THE INTERNATIONAL
                     Await                 ASSOCIATION OF CHIEFS OF
                     Response              POLICE: Work with the
                                           National Highway Traffic
                                           Safety Administration, the
                                           Governors Highway Safety
                                           Association, and the National
                                           Sheriffs' Association to
                                           develop and implement a
                                           program to increase the
                                           adoption of speeding-related
                                           Model Minimum Uniform Crash
                                           Criteria Guideline data
                                           elements and improve
                                           consistency in law
                                           enforcement reporting of
                                           speeding-related crashes.
------------------------------------------------------------------------
          H-17-036   Open--               TO THE NATIONAL SHERIFFS'
                     Acceptable            ASSOCIATION: Work with the
                     Response              National Highway Traffic
                                           Safety Administration, the
                                           Governors Highway Safety
                                           Association, and the
                                           International Association of
                                           Chiefs of Police to develop
                                           and implement a program to
                                           increase the adoption of
                                           speeding-related Model
                                           Minimum Uniform Crash
                                           Criteria Guideline data
                                           elements and improve
                                           consistency in law
                                           enforcement reporting of
                                           speeding-related crashes.
------------------------------------------------------------------------


------------------------------------------------------------------------
                  End Alcohol and Other Drug Impairment
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-12-034   Open--               TO THE 45 STATES, THE
                     Await                 COMMONWEALTH OF PUERTO RICO,
                     Response              AND THE DISTRICT OF COLUMBIA,
                                           WHICH HAVE LOW REPORTING
                                           RATES FOR BAC TESTING:
                                           Increase your collection,
                                           documentation, and reporting
                                           of blood alcohol
                                           concentration (BAC) test
                                           results by taking the
                                           following actions, as needed,
                                           to improve testing and
                                           reporting rates: (1) enact
                                           legislation, (2)issue
                                           regulations, and (3) improve
                                           procedures used by law
                                           enforcement agencies or
                                           testing facilities.
------------------------------------------------------------------------
          H-12-035   Open--               TO THE 45 STATES, THE
                     Await                 COMMONWEALTH OF PUERTO RICO,
                     Response              AND THE DISTRICT OF COLUMBIA,
                                           WHICH HAVE LOW REPORTING
                                           RATES FOR BAC TESTING: Once
                                           the National Highway Traffic
                                           Safety Administration has
                                           developed the blood alcohol
                                           concentration (BAC) testing
                                           and reporting guidelines
                                           recommended in Safety
                                           Recommendation H-12-32,
                                           incorporate the guidelines
                                           into a statewide action plan
                                           to achieve BAC reporting
                                           rates of at least 80 percent
                                           of fatally injured drivers
                                           and at least 60 percent of
                                           drivers who survived fatal
                                           crashes.
------------------------------------------------------------------------
          H-12-036   Open--               TO THE 50 STATES, THE
                     Await                 COMMONWEALTH OF PUERTO RICO,
                     Response              AND THE DISTRICT OF COLUMBIA:
                                           Require law enforcement
                                           agencies to collect place of
                                           last drink (POLD) data as
                                           part of any arrest or
                                           accident investigation
                                           involving an alcohol-impaired
                                           driver.
------------------------------------------------------------------------
          H-12-037   Open--               TO THE INTERNATIONAL
                     Await                 ASSOCIATION OF CHIEFS OF
                     Response              POLICE AND THE NATIONAL
                                           SHERIFFS' ASSOCIATION: Inform
                                           your members of the value of
                                           collecting place of last
                                           drink (POLD) data as part of
                                           any arrest or accident
                                           investigation involving an
                                           alcohol-impaired driver.
------------------------------------------------------------------------
          H-12-043   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Work with the
                                           Automotive Coalition for
                                           Traffic Safety, Inc., to
                                           accelerate widespread
                                           implementation of Driver
                                           Alcohol Detection System for
                                           Safety (DADSS) technology by
                                           (1) defining usability
                                           testing that will guide
                                           driver interface design and
                                           (2) implementing a
                                           communication program that
                                           will direct driver education
                                           and promote public
                                           acceptance.
------------------------------------------------------------------------
          H-12-045   Open--               TO 33 STATES, THE COMMONWEALTH
                     Await                 OF PUERTO RICO, AND THE
                     Response              DISTRICT OF COLUMBIA: Enact
                                           laws to require the use of
                                           alcohol ignition interlock
                                           devices for all individuals
                                           convicted of driving while
                                           intoxicated (DWI) offenses.
------------------------------------------------------------------------
          H-12-048   Open--               TO THE AUTOMOTIVE COALITION
                     Acceptable            FOR TRAFFIC SAFETY: Work with
                     Response              the National Highway Traffic
                                           Safety Administration to
                                           accelerate widespread
                                           implementation of Driver
                                           Alcohol Detection System for
                                           Safety (DADSS) technology by
                                           (1) defining usability
                                           testing that will guide
                                           driver interface design and
                                           (2) implementing a
                                           communication program that
                                           will direct driver education
                                           and promote public
                                           acceptance.
------------------------------------------------------------------------
          H-13-001   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Seek
                                           legislative authority to
                                           award incentive grants for
                                           states to establish a per se
                                           blood alcohol concentration
                                           (BAC) limit of 0.05 or lower
                                           for all drivers who are not
                                           already required to adhere to
                                           lower BAC limits.
------------------------------------------------------------------------
          H-13-005   Open--               TO THE 50 U.S. STATES AND THE
                     Await                 COMMONWEALTH OF PUERTO RICO
                     Response              AND THE DISTRICT OF COLUMBIA:
                                           Establish a per se blood
                                           alcohol concentration (BAC)
                                           limit of 0.05 or lower for
                                           all drivers who are not
                                           already required to adhere to
                                           lower BAC limits.
------------------------------------------------------------------------
          H-13-006   Open--               TO THE 50 STATES, THE
                     Await                 COMMONWEALTH OF PUERTO RICO
                     Response              AND THE DISTRICT OF COLUMBIA:
                                           Include in your impaired
                                           driving prevention plan or
                                           highway safety plan
                                           provisions for conducting
                                           high-visibility enforcement
                                           of impaired driving laws
                                           using passive alcohol-sensing
                                           technology during law
                                           enforcement contacts, such as
                                           routine traffic stops,
                                           saturation patrols, sobriety
                                           checkpoints, and accident
                                           scene responses.
------------------------------------------------------------------------
          H-13-007   Open--               TO THE 50 STATES, THE
                     Await                 COMMONWEALTH OF PUERTO RICO,
                     Response              AND THE DISTRICT OF COLUMBIA:
                                           Include in your impaired
                                           driving prevention plan or
                                           highway safety plan elements
                                           to target repeat offenders
                                           and reduce driving while
                                           intoxicated (DWI) recidivism;
                                           such elements should include
                                           measures to improve
                                           compliance with alcohol
                                           ignition interlock
                                           requirements; the plan should
                                           also provide a mechanism for
                                           regularly assessing the
                                           success of these efforts. (H-
                                           13-07) [This recommendation
                                           supersedes Safety
                                           Recommendation H-00-26.]
------------------------------------------------------------------------
          H-13-008   Open--               TO THE 50 STATES, THE
                     Await                 COMMONWEALTH OF PUERTO RICO,
                     Response              AND THE DISTRICT OF COLUMBIA:
                                           Take the following steps to
                                           move toward zero deaths from
                                           impaired driving: (1) set
                                           specific and measurable
                                           targets for reducing impaired
                                           driving fatalities and
                                           injuries, (2) list these
                                           targets in your impaired
                                           driving prevention plan or
                                           highway safety plan, and (3)
                                           provide a mechanism for
                                           regularly assessing the
                                           success of implemented
                                           countermeasures and
                                           determining whether the
                                           targets have been met. (H-13-
                                           08)
------------------------------------------------------------------------
          H-13-009   Open--               TO THE 41 STATES THAT HAVE
                     Await                 ADMINISTRATIVE LICENSE
                     Response              SUSPENSION OR REVOCATION LAWS
                                           AND THE DISTRICT OF COLUMBIA:
                                           Incorporate into your
                                           administrative license
                                           suspension or revocation laws
                                           a requirement that drivers
                                           arrested for driving while
                                           intoxicated (DWI) use an
                                           alcohol ignition interlock on
                                           their vehicle for a period of
                                           time before obtaining full
                                           license reinstatement. (H-13-
                                           09)
------------------------------------------------------------------------
          H-13-010   Open--               TO THE 10 STATES THAT DO NOT
                     Await                 HAVE ADMINISTRATIVE LICENSE
                     Response              SUSPENSION OR REVOCATION LAWS
                                           AND THE COMMONWEALTH OF
                                           PUERTO RICO: Establish
                                           administrative license
                                           suspension or revocation laws
                                           that require drivers arrested
                                           for driving while intoxicated
                                           (DWI) to use an alcohol
                                           ignition interlock on their
                                           vehicle for a period of time
                                           before obtaining full license
                                           reinstatement. (H-13-10)
------------------------------------------------------------------------
          H-15-038   Open--               TO THE FEDERAL MOTOR CARRIER
                     Acceptable            SAFETY ADMINISTRATION:
                     Alternate             Determine the prevalence of
                     Response              commercial motor vehicle
                                           driver use of impairing
                                           substances, particularly
                                           synthetic cannabinoids, and
                                           develop a plan to reduce the
                                           use of such substances.
------------------------------------------------------------------------
          H-15-039   Open--               TO THE FEDERAL MOTOR CARRIER
                     Unacceptable          SAFETY ADMINISTRATION: Work
                     Response              with motor carrier industry
                                           stakeholders to develop a
                                           plan to aid motor carriers in
                                           addressing commercial motor
                                           vehicle driver use of
                                           impairing substances,
                                           particularly those not
                                           covered under current drug-
                                           testing regulations such as
                                           by promoting best practices
                                           by carriers, expanding
                                           impairment detection training
                                           and authority, and developing
                                           performance-based methods of
                                           evaluation.
------------------------------------------------------------------------
          H-15-043   Open--               TO AMERICAN BUS ASSOCIATION,
                     Await                 AMERICAN TRUCKING
                     Response              ASSOCIATIONS, COMMERCIAL
                                           VEHICLE SAFETY ALLIANCE,
                                           OWNER-OPERATOR INDEPENDENT
                                           DRIVERS ASSOCIATION, UNITED
                                           MOTORCOACH ASSOCIATION:
                                           Inform your members about the
                                           dangers of driver use of
                                           synthetic drugs and encourage
                                           them to take steps to prevent
                                           drivers from using these
                                           substances.
------------------------------------------------------------------------
          H-16-008   Open--               TO THE FEDERAL MOTOR CARRIER
                     Unacceptable          SAFETY ADMINISTRATION:
                     Response              Disseminate information to
                                           motor carriers about using
                                           hair testing as a method of
                                           detecting the use of
                                           controlled substances, under
                                           the appropriate
                                           circumstances.
------------------------------------------------------------------------
          H-18-035   Open--               TO THE NATIONAL HIGHWAY
                     Response              TRAFFIC SAFETY
                     Received              ADMINISTRATION: Examine the
                                           influence of alcohol and
                                           other drug use on motorcycle
                                           rider crash risk compared to
                                           that of passenger vehicle
                                           drivers, and develop
                                           guidelines to assist states
                                           in implementing evidence-
                                           based strategies and
                                           countermeasures to more
                                           effectively address substance-
                                           impaired motorcycle rider
                                           crashes.
------------------------------------------------------------------------
          H-18-056   Open--               TO THE NATIONAL HIGHWAY
                     Await                 TRAFFIC SAFETY
                     Response              ADMINISTRATION: Develop and
                                           disseminate best practices,
                                           identify model
                                           specifications, and create a
                                           conforming products list for
                                           oral fluid drug screening
                                           devices.
------------------------------------------------------------------------
          H-18-057   Open--               TO THE NATIONAL TRAFFIC SAFETY
                     Await                 ADMINISTRATION: Evaluate best
                     Response              practices and countermeasures
                                           found to be the most
                                           effective in reducing
                                           fatalities, injuries, and
                                           crashes involving drug-
                                           impaired drivers and provide
                                           additional guidance to the
                                           states on drug-impaired
                                           driving in Countermeasures
                                           That Work: A Highway Safety
                                           Countermeasure Guide for
                                           State Highway Safety Offices.
------------------------------------------------------------------------
          H-18-060   Open--               TO THE STATE OF TEXAS: Conduct
                     Await                 an executive-level review of
                     Response              your impaired driving program
                                           and implement data-driven
                                           strategies that result in a
                                           downward trend in the number
                                           of fatalities, injuries, and
                                           crashes involving alcohol-
                                           and other drug-impaired
                                           drivers.
------------------------------------------------------------------------
          H-18-061   Open--               TO THE TEXAS DEPARTMENT OF
                     Await                 TRANSPORTATION: Promote the
                     Response              importance of attending drug-
                                           impaired driving enforcement
                                           training and increase
                                           training access to meet the
                                           demands of local and state
                                           law enforcement.
------------------------------------------------------------------------


------------------------------------------------------------------------
                         Eliminate Distractions
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-03-009   Open--               TO 34 STATES: Add driver
                     Acceptable            distraction codes, including
                     Response              codes for interactive
                                           wireless communication device
                                           use, to your traffic accident
                                           investigation forms.
------------------------------------------------------------------------
          H-06-029   Open--               TO 6 MOTORCOACH INDUSTRY,
                     Await                 PUBLIC BUS, AND SCHOOL BUS
                     Response              ASSOCIATIONS AND 3 UNIONS:
                                           Develop formal policies
                                           prohibiting cellular
                                           telephone use by commercial
                                           driver's license holders with
                                           a passenger-carrying or
                                           school bus endorsement, while
                                           driving under the authority
                                           of that endorsement, except
                                           in emergencies.
------------------------------------------------------------------------
          H-11-039   Open--               TO THE 50 STATES AND THE
                     Await                 DISTRICT OF COLUMBIA: (1) Ban
                     Response              the nonemergency use of
                                           portable electronic devices
                                           (other than those designed to
                                           support the driving task) for
                                           all drivers; (2) use the
                                           National Highway Traffic
                                           Safety Administration model
                                           of high visibility
                                           enforcement to support these
                                           bans; and (3) implement
                                           targeted communication
                                           campaigns to inform motorists
                                           of the new law and
                                           enforcement, and to warn them
                                           of the dangers associated
                                           with the nonemergency use of
                                           portable electronic devices
                                           while driving.
------------------------------------------------------------------------
          H-11-047   Open--               TO CTIA-THE WIRELESS
                     Await                 ASSOCIATION AND THE CONSUMER
                     Response              ELECTRONICS ASSOCIATION:
                                           Encourage the development of
                                           technology features that
                                           disable the functions of
                                           portable electronic devices
                                           within reach of the driver
                                           when a vehicle is in motion;
                                           these technology features
                                           should include the ability to
                                           permit emergency use of the
                                           device while the vehicle is
                                           in motion and have the
                                           capability of identifying
                                           occupant seating position so
                                           as not to interfere with use
                                           of the device by passengers.
------------------------------------------------------------------------
          H-14-013   Open--               TO THE FIFTY STATES, THE
                     Await                 DISTRICT OF COLUMBIA, AND THE
                     Response              COMMONWEALTH OF PUERTO RICO:
                                           Ban the nonemergency use by
                                           pilot/escort vehicle drivers
                                           of portable electronic
                                           devices (other than those
                                           designed to support the pilot/
                                           escort vehicle driving task),
                                           except to communicate hazard-
                                           related information to the
                                           escorted vehicle.
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Strengthen Occupant Protection
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-11-036   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Modify
                                           Federal Motor Vehicle Safety
                                           Standard 217 to require that
                                           all emergency exits on school
                                           buses be easily opened and
                                           remain open during an
                                           emergency evacuation.
------------------------------------------------------------------------
          H-11-038   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: To cover the
                                           interim period until Federal
                                           Motor Vehicle Safety Standard
                                           217 is modified as specified
                                           in Safety Recommendations H-
                                           11-36 and -37, provide the
                                           states with guidance on how
                                           to minimize potential
                                           evacuation delays that could
                                           be caused by protruding latch
                                           mechanisms on emergency exit
                                           windows and by exit windows
                                           that require additional
                                           manual assistance to remain
                                           open during egress.
------------------------------------------------------------------------
          H-11-045   Open--               TO THE STATE OF MISSOURI:
                     Response              Revise your bus evacuation
                     Received              regulations to require that
                                           pupils traveling to an
                                           activity or on a field trip
                                           in a school bus or a school-
                                           chartered bus be instructed
                                           in safe riding practices and
                                           on the location and operation
                                           of emergency exits prior to
                                           starting the trip.
------------------------------------------------------------------------
          H-12-022   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Evaluate the
                                           effects of seat spacing and
                                           armrests as factors for
                                           potential occupant injury,
                                           and if safer spacing or
                                           armrest configurations are
                                           identified, develop and
                                           implement appropriate
                                           guidelines.
------------------------------------------------------------------------
          H-13-032   Open--               TO THE STATES OF CALIFORNIA,
                     Await                 FLORIDA, LOUISIANA, NEW
                     Response              JERSEY, NEW YORK, AND TEXAS:
                                           Develop: (1) a handout for
                                           your school districts to
                                           distribute annually to
                                           students and parents about
                                           the importance of the proper
                                           use of all types of passenger
                                           seat belts on school buses,
                                           including the potential harm
                                           of not wearing a seat belt or
                                           wearing one but not adjusting
                                           it properly; and (2) training
                                           procedures for schools to
                                           follow during the twice
                                           yearly emergency drills to
                                           show students how to wear
                                           their seat belts properly.
------------------------------------------------------------------------
          H-13-033   Open--               TO THE STATES OF CALIFORNIA,
                     Await                 FLORIDA, LOUISIANA, NEW
                     Response              JERSEY, NEW YORK, AND TEXAS:
                                           Upon publication of the
                                           National School
                                           Transportation Specifications
                                           and Procedures document,
                                           revise the handout and
                                           training procedures developed
                                           in Safety Recommendation H-13-
                                           32 to align with the national
                                           procedures as appropriate.
------------------------------------------------------------------------
          H-13-035   Open--               TO THE NATIONAL ASSOCIATION OF
                     Acceptable            STATE DIRECTORS OF PUPIL
                     Response              TRANSPORTATION SERVICES,
                                           NATIONAL ASSOCIATION FOR
                                           PUPIL TRANSPORTATION,
                                           NATIONAL SCHOOL
                                           TRANSPORTATION ASSOCIATION,
                                           SCHOOL BUS MANUFACTURERS
                                           TECHNICAL COUNCIL, AND
                                           NATIONAL SAFETY COUNCIL,
                                           SCHOOL TRANSPORTATION
                                           SECTION: Develop guidelines
                                           and include them in the next
                                           update of the National School
                                           Transportation Specifications
                                           and Procedures to assist
                                           schools in training bus
                                           drivers, students, and
                                           parents on the importance and
                                           proper use of school bus seat
                                           belts, including manual lap
                                           belts, adjustable lap and
                                           shoulder belts, and flexible
                                           seating systems.
------------------------------------------------------------------------
          H-13-036   Open--               TO THE NATIONAL ASSOCIATION OF
                     Acceptable            STATE DIRECTORS OF PUPIL
                     Alternate             TRANSPORTATION SERVICES,
                     Response              NATIONAL ASSOCIATION FOR
                                           PUPIL TRANSPORTATION, AND
                                           NATIONAL SCHOOL
                                           TRANSPORTATION ASSOCIATION:
                                           Provide your members with
                                           educational materials on lap
                                           and shoulder belts providing
                                           the highest level of
                                           protection for school bus
                                           passengers, and advise states
                                           or school districts to
                                           consider this added safety
                                           benefit when purchasing seat
                                           belt-equipped school buses.
------------------------------------------------------------------------
          H-13-037   Open--               TO THE SCHOOL BUS
                     Acceptable            MANUFACTURERS TECHNICAL
                     Alternate             COUNCIL: Develop a
                     Response              recommended practice for
                                           establishing and safeguarding
                                           the structural integrity of
                                           the entire school bus seating
                                           and restraint system,
                                           including the seat pan
                                           attachment to the seat frame,
                                           in severe crashes--in
                                           particular, those involving
                                           lateral impacts with vehicles
                                           of large mass.
------------------------------------------------------------------------
          H-15-010   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Develop
                                           requirements addressing the
                                           minimum aisle width for safe
                                           evacuation from all buses,
                                           including those with moveable
                                           seats.
------------------------------------------------------------------------
          H-15-020   Open--               TO THE NATIONAL LIMOUSINE
                     Response              ASSOCIATION: Develop and
                     Received              distribute guidelines to your
                                           member operators urging them,
                                           during pretrip safety
                                           briefings, to (1) direct
                                           passengers to use seat belts
                                           where required by law and
                                           strongly encourage passengers
                                           to use seat belts where not
                                           required by law, and (2)
                                           encourage passengers to use
                                           properly adjusted head
                                           restraints.
------------------------------------------------------------------------
          H-15-042   Open--               TO THE FIFTY STATES, DISTRICT
                     Await                 OF COLUMBIA, AND PUERTO RICO:
                     Response              Enact legislation that
                                           provides for primary
                                           enforcement of a mandatory
                                           seat belt use law for all
                                           vehicle seating positions
                                           equipped with a passenger
                                           restraint system. (Safety
                                           Recommendation H-15-042
                                           supersedes Safety
                                           Recommendation H-97-2)
------------------------------------------------------------------------
          H-17-001   Open--               TO MOTOR COACH INDUSTRIES
                     Await                 INTERNATIONAL, INC.: Evaluate
                     Response              and, if appropriate, modify
                                           the driver and passenger
                                           floor structure design on new
                                           motorcoaches to prevent
                                           driver seat separation during
                                           crashes.
------------------------------------------------------------------------
          H-17-008   Open--               TO THE AMERICAN BUS
                     Await                 ASSOCIATION AND THE UNITED
                     Response              MOTORCOACH ASSOCIATION:
                                           Encourage member passenger-
                                           carrying companies to (1)
                                           establish procedures to
                                           ensure that the seat belts on
                                           all buses are regularly
                                           inspected to maintain their
                                           functionality and
                                           accessibility, and (2)
                                           provide pretrip safety
                                           briefings emphasizing the
                                           benefits of seat belt use.
------------------------------------------------------------------------
          H-17-012   Open--               TO GREYHOUND LINES, INC.:
                     Acceptable            Provide pretrip safety
                     Response              briefings at all stops prior
                                           to departure when taking on
                                           new passengers, which
                                           describe the use of the
                                           emergency exits and the
                                           benefits of wearing seat
                                           belts.
------------------------------------------------------------------------
          H-17-061   Open--               TO THE FEDERAL MOTOR CARRIER
                     Acceptable            SAFETY ADMINISTRATION: Work
                     Response              with SAE International and
                                           the National Highway Traffic
                                           Safety Administration to
                                           improve truck-tractor side-
                                           mounted fuel tank
                                           crashworthiness to prevent
                                           catastrophic tank ruptures
                                           and limit post collision fuel
                                           spillage, and develop and
                                           promulgate an updated
                                           standard.
------------------------------------------------------------------------
          H-17-062   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Work with SAE
                                           International and the Federal
                                           Motor Carrier Safety
                                           Administration to improve
                                           truck-tractor side-mounted
                                           fuel tank crashworthiness to
                                           prevent catastrophic tank
                                           ruptures and limit post
                                           collision fuel spillage, and
                                           develop and promulgate an
                                           updated standard.
------------------------------------------------------------------------
          H-17-065   Open--               TO SAE INTERNATIONAL: Work
                     Await                 with the Federal Motor
                     Response              Carrier Safety Administration
                                           and the National Highway
                                           Traffic Safety Administration
                                           to improve truck-tractor side-
                                           mounted fuel tank
                                           crashworthiness to prevent
                                           catastrophic tank ruptures
                                           and limit post collision fuel
                                           spillage, and develop and
                                           promulgate an updated
                                           standard.
------------------------------------------------------------------------
          H-18-009   Open--               TO THE STATES OF FLORIDA,
                     Await                 LOUISIANA, NEW JERSEY, AND
                     Response              NEW YORK: Amend your statutes
                                           to upgrade the seat belt
                                           requirement from lap belts to
                                           lap/shoulder belts for all
                                           passenger seating positions
                                           in new large school buses in
                                           accordance with Federal Motor
                                           Vehicle Safety Standard 222.
------------------------------------------------------------------------
          H-18-010   Open--               TO THE STATES OF ALABAMA,
                     Await                 ALASKA, ARIZONA, COLORADO,
                     Response              CONNECTICUT, DELAWARE,
                                           GEORGIA, HAWAII, IDAHO,
                                           ILLINOIS, INDIANA, IOWA,
                                           KANSAS, MAINE, MARYLAND,
                                           MICHIGAN, MINNESOTA,
                                           MISSISSIPPI, MISSOURI,
                                           MONTANA, NEBRASKA, NEW
                                           HAMPSHIRE, NEW MEXICO, NORTH
                                           CAROLINA, NORTH DAKOTA, OHIO,
                                           OKLAHOMA, OREGON, RHODE
                                           ISLAND, SOUTH CAROLINA, SOUTH
                                           DAKOTA, TENNESSEE, UTAH,
                                           VERMONT, WASHINGTON, WEST
                                           VIRGINIA, WISCONSIN, AND
                                           WYOMING; THE COMMONWEALTHS OF
                                           KENTUCKY, MASSACHUSETTS,
                                           PENNSYLVANIA, AND VIRGINIA;
                                           THE DISTRICT OF COLUMBIA; AND
                                           THE TERRITORY OF PUERTO RICO:
                                           Enact legislation to require
                                           that all new large school
                                           buses be equipped with
                                           passenger lap/shoulder belts
                                           for all passenger seating
                                           positions in accordance with
                                           Federal Motor Vehicle Safety
                                           Standard 222.
------------------------------------------------------------------------
          H-18-058   Open--               TO THE NATIONAL TRAFFICS
                     Await                 SAFETY ADMINISTRATION: Amend
                     Response              Federal Motor Vehicle Safety
                                           Standard 210 to increase the
                                           minimum anchorage spacing for
                                           individual seat belt
                                           assemblies, taking into
                                           account the dynamic testing
                                           of seat belt designs, seat
                                           belt fit, and vehicle
                                           configuration.
------------------------------------------------------------------------
          H-18-059   Open--               TO THE NATIONAL TRAFFIC SAFETY
                     Await                 ADMINISTRATION: Amend Federal
                     Response              Motor Vehicle Safety Standard
                                           208 to require lap/shoulder
                                           belts for each passenger
                                           seating position on all new
                                           buses with a gross vehicle
                                           weight rating of more than
                                           10,000 pounds but not greater
                                           than 26,000 pounds.
------------------------------------------------------------------------
          H-18-062   Open--               TO MEDIUM-SIZE BUS
                     Await                 MANUFACTURERS ARBOC SPECIALTY
                     Response              VEHICLES, LLC; COACH &
                                           EQUIPMENT MANUFACTURING
                                           CORPORATION; REV GROUP, INC.;
                                           DIAMOND COACH CORPORATION;
                                           FOREST RIVER, INC.; GIRARDIN
                                           BLUE BIRD; SVO GROUP, INC.;
                                           AND THOMAS BUILT BUSES:
                                           Install lap/shoulder belts in
                                           all seating positions as
                                           standard, rather than
                                           optional, equipment in all
                                           newly manufactured medium-
                                           size buses.
------------------------------------------------------------------------
          H-18-063   Open--               TO THE SEAT MANUFACTURERS
                     Response              FREEDMAN SEATING COMPANY AND
                     Received              HSM TRANSPORTATION SOLUTIONS:
                                           Supply seating systems
                                           equipped with lap/shoulder
                                           belts as standard, rather
                                           than optional, equipment for
                                           medium-size buses.
------------------------------------------------------------------------
          H-96-014   Open--               TO THE 50 STATES, THE 5 US
                     Acceptable            TERRITORIES, AND THE DISTRICT
                     Response              OF COLUMBIA: Review existing
                                           laws and enact legislation,
                                           if needed, that would: ensure
                                           that children up to 8 years
                                           old are required by the
                                           state's mandatory child
                                           restraint use law to use
                                           child restraint systems and
                                           booster seats.
------------------------------------------------------------------------
          H-99-009   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Revise the
                                           Federal Motor Vehicle Safety
                                           Standard 217, ``Bus Window
                                           Retention and Release,'' to
                                           require that other than floor-
                                           level emergency exits can be
                                           easily opened and remain open
                                           during an emergency
                                           evacuation when a motorcoach
                                           is upright or at unusual
                                           attitudes.
------------------------------------------------------------------------
          H-99-049   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Expand your
                                           research on current advanced
                                           glazing to include its
                                           applicability to motorcoach
                                           occupant ejection prevention,
                                           and revise window glazing
                                           requirements for newly
                                           manufactured motorcoaches
                                           based on the results of this
                                           research.
------------------------------------------------------------------------
          H-99-050   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: In 2 years,
                                           develop performance standards
                                           for motorcoach roof strength
                                           that provide maximum survival
                                           space for all seating
                                           positions and that take into
                                           account current typical
                                           motorcoach window dimensions.
------------------------------------------------------------------------
          H-99-051   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Once
                                           performance standards have
                                           been developed for motorcoach
                                           roof strength, require newly
                                           manufactured motorcoaches to
                                           meet those standards.
------------------------------------------------------------------------


------------------------------------------------------------------------
    Increase Implementation of Collision Avoidance Systems in All New
                            Highway Vehicles
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-15-004   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Develop and
                                           apply testing protocols to
                                           assess the performance of
                                           forward collision avoidance
                                           systems in passenger vehicles
                                           at various velocities,
                                           including high speed and high
                                           velocity-differential.
------------------------------------------------------------------------
          H-15-005   Open--               TO THE NATIONAL HIGHWAY
                     Unacceptable          TRAFFIC SAFETY
                     Response              ADMINISTRATION: Complete, as
                                           soon as possible, the
                                           development and application
                                           of performance standards and
                                           protocols for the assessment
                                           of forward collision
                                           avoidance systems in
                                           commercial vehicles. (Safety
                                           Recommendation H-15-005
                                           supersedes Safety
                                           Recommendation H-01-006)
------------------------------------------------------------------------
          H-15-006   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Expand the
                                           New Car Assessment Program 5-
                                           star rating system to include
                                           a scale that rates the
                                           performance of forward
                                           collision avoidance systems.
------------------------------------------------------------------------
          H-15-007   Open--               TO THE NATIONAL HIGHWAY
                     Acceptable            TRAFFIC SAFETY
                     Response              ADMINISTRATION: Once the
                                           rating scale, described in
                                           Safety Recommendation H-15-6,
                                           is established, include the
                                           ratings of forward collision
                                           avoidance systems on the
                                           vehicle Monroney labels.
------------------------------------------------------------------------
          H-15-008   Open--               TO PASSENGER VEHICLE, TRUCK-
                     Acceptable            TRACTOR, MOTORCOACH, AND
                     Response              SINGLE-UNIT TRUCK
                                           MANUFACTURERS: Install
                                           forward collision avoidance
                                           systems that include, at a
                                           minimum, a forward collision
                                           warning component, as
                                           standard equipment on all new
                                           vehicles.
------------------------------------------------------------------------
          H-15-009   Open--               TO PASSENGER VEHICLE, TRUCK-
                     Acceptable            TRACTOR, MOTORCOACH, AND
                     Response              SINGLE-UNIT TRUCK
                                           MANUFACTURERS: Once the
                                           National Highway Traffic
                                           Safety Administration
                                           publishes performance
                                           standards for autonomous
                                           emergency braking, install
                                           systems meeting those
                                           standards on all new
                                           vehicles.
------------------------------------------------------------------------
          H-18-008   Open--               TO THE NATIONAL HIGHWAY
                     Response              TRAFFIC SAFETY
                     Received              ADMINISTRATION: Require all
                                           new school buses to be
                                           equipped with collision
                                           avoidance systems and
                                           automatic emergency braking
                                           technologies.
------------------------------------------------------------------------
          H-18-019   Open--               TO BLUE BIRD CORPORATION,
                     Response              COLLINS INDUSTRIES, INC., IC
                     Received              BUS, STARCRAFT BUS, THOMAS
                                           BUILT BUSES, INC., TRANS
                                           TECH, AND VAN-CON, INC.:
                                           Install a collision avoidance
                                           system with automatic
                                           emergency braking as standard
                                           equipment on all newly
                                           manufactured school buses.
------------------------------------------------------------------------
          H-18-029   Open--               TO THE NATIONAL HIGHWAY
                     Response              TRAFFIC SAFETY
                     Received              ADMINISTRATION: Incorporate
                                           motorcycles in the
                                           development of performance
                                           standards for passenger
                                           vehicle crash warning and
                                           prevention systems.
------------------------------------------------------------------------
          H-18-043   Open--               TO THE NATIONAL HIGHWAY
                     Response              TRAFFIC SAFETY
                     Received              ADMINISTRATION: Incorporate
                                           pedestrian safety systems,
                                           including pedestrian
                                           collision avoidance systems
                                           and other more-passive safety
                                           systems, into the New Car
                                           Assessment Program.
------------------------------------------------------------------------
          H-18-044   Open--               TO THE NATIONAL HIGHWAY
                     Response              TRAFFIC SAFETY
                     Received              ADMINISTRATION: Develop a
                                           detailed pedestrian crash
                                           data set that represents the
                                           current, complete range of
                                           crash types and that can be
                                           used for local and state
                                           analysis and to model and
                                           simulate pedestrian collision
                                           avoidance systems.
------------------------------------------------------------------------


------------------------------------------------------------------------
                    Reduce Fatigue-Related Accidents
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-09-009   Open--               TO THE AMERICAN BUS
                     Await                 ASSOCIATION AND THE UNITED
                     Response              MOTORCOACH ASSOCIATION:
                                           Inform your members through
                                           Web sites, newsletters, and
                                           conferences of the
                                           circumstances of the Mexican
                                           Hat, Utah, accident. The
                                           prepared information should
                                           encourage charter operators
                                           to develop written
                                           contingency plans for each
                                           charter to ensure that trip
                                           planning is in place in the
                                           event of driver fatigue,
                                           incapacitation, or illness or
                                           in the event of trip delays
                                           necessitating replacement
                                           drivers to avoid hours-of-
                                           service violations and inform
                                           drivers of their trip's
                                           contingency plans. The
                                           prepared information should
                                           also provide information
                                           about the risks of operating
                                           in rural areas without
                                           wireless telephone coverage
                                           and advise members to carry
                                           mobile cellular amplifiers or
                                           satellite-based devices to
                                           communicate emergency events.
------------------------------------------------------------------------
          H-09-010   Open--               TO ARROW STAGE LINES: Develop
                     Acceptable            written contingency plans for
                     Response              each charter to ensure that
                                           trip planning is in place in
                                           the event of driver fatigue,
                                           incapacitation, or illness or
                                           in the event of trip delays
                                           necessitating replacement
                                           drivers to avoid hours-of-
                                           service violations and inform
                                           drivers of their trip's
                                           contingency plans.
------------------------------------------------------------------------
          H-12-029   Open--               TO THE FEDERAL MOTOR CARRIER
                     Unacceptable          SAFETY ADMINISTRATION:
                     Response              Establish an ongoing program
                                           to monitor, evaluate, report
                                           on, and continuously improve
                                           fatigue management programs
                                           implemented by motor carriers
                                           to identify, mitigate, and
                                           continuously reduce fatigue-
                                           related risks for drivers.
                                           (This safety recommendation
                                           supersedes Safety
                                           Recommendation H-08-14.)
------------------------------------------------------------------------
          H-12-030   Open--               TO THE FEDERAL MOTOR CARRIER
                     Unacceptable          SAFETY ADMINISTRATION:
                     Response              Incorporate scientifically
                                           based fatigue mitigation
                                           strategies into the hours-of-
                                           service regulations for
                                           passenger-carrying drivers
                                           who operate during the
                                           nighttime window of circadian
                                           low.
------------------------------------------------------------------------
          H-15-022   Open--               TO WAL-MART STORES, INC.
                     Acceptable            (ORIGINALLY ISSUED TO WALMART
                     Response              TRANSPORTATION LLC): Develop
                                           and implement a fatigue
                                           management program based on
                                           the North American Fatigue
                                           Management Program
                                           guidelines.
------------------------------------------------------------------------
          H-17-056   Open--               TO THE UNITED STATES
                     Response              DEPARTMENT OF LABOR: Develop
                     Received              and disseminate guidelines
                                           and training material for
                                           agricultural employers and
                                           farm labor contractors on the
                                           dangers of driving while
                                           tired and on strategies for
                                           managing driver fatigue.
------------------------------------------------------------------------


------------------------------------------------------------------------
  Require Medical Fitness--Screen for and Treat Obstructive Sleep Apnea
-------------------------------------------------------------------------
  Recommendation #      Overall Status                Subject
------------------------------------------------------------------------
          H-09-015   Open--               TO THE FEDERAL MOTOR CARRIER
                     Unacceptable          SAFETY ADMINISTRATION:
                     Response              Implement a program to
                                           identify commercial drivers
                                           at high risk for obstructive
                                           sleep apnea and require that
                                           those drivers provide
                                           evidence through the medical
                                           certification process of
                                           having been appropriately
                                           evaluated and, if treatment
                                           is needed, effectively
                                           treated for that disorder
                                           before being granted
                                           unrestricted medical
                                           certification.
------------------------------------------------------------------------
          H-09-016   Open--               TO THE FEDERAL MOTOR CARRIER
                     Acceptable            SAFETY ADMINISTRATION:
                     Response              Develop and disseminate
                                           guidance for commercial
                                           drivers, employers, and
                                           physicians regarding the
                                           identification and treatment
                                           of individuals at high risk
                                           of obstructive sleep apnea
                                           (OSA), emphasizing that
                                           drivers who have OSA that is
                                           effectively treated are
                                           routinely approved for
                                           continued medical
                                           certification.
------------------------------------------------------------------------
          H-17-049   Open--               TO THE FEDERAL MOTOR CARRIER
                     Acceptable            SAFETY ADMINISTRATION: Make
                     Alternate             the 2016 Medical Review Board/
                     Response              Motor Carrier Safety Advisory
                                           Committee recommendations on
                                           screening for obstructive
                                           sleep apnea (OSA) easily
                                           accessible to certified
                                           medical examiners, and
                                           instruct the examiners to use
                                           the recommendations as
                                           guidance when evaluating
                                           commercial drivers for OSA
                                           risk.
------------------------------------------------------------------------


    Ms. Norton. Thank you for your testimony.
    Vice Mayor Jones of Neptune Beach, Florida, on behalf of 
Transportation for America.
    Mr. Jones. Good morning, Chairman DeFazio, Ranking Members, 
and distinguished members of the committee.
    Thank you for the opportunity to testify on behalf of 
Transportation for America this morning.
    My name is Fred Jones, and in addition to representing the 
citizens of Neptune Beach as their vice mayor, I also work as a 
professional transportation planner for Michael Baker 
International and also serve on the advisory board for the 
National Complete Streets Coalition.
    Complete Streets, for those that are unfamiliar with the 
term, is a street that is designed to be safe and convenient 
for all users, be they drivers, transit users, pedestrians, and 
cyclists.
    Unfortunately, my community is part of the six most 
dangerous metropolitan areas in the country in which to walk 
and bike. In fact, the State of Florida is the most dangerous 
State in the Union for cyclists and pedestrians, and these 
safety trends are going in the wrong direction.
    If you, in fact, were to visit and join my family on the 
streets that I walk and bike on a daily basis, I think you 
would agree that they are not dangerous by accident, but 
dangerous by fundamental design.
    Part of the problem is that for the better part of the half 
century we have been focused on building bigger, faster 
roadways with wider lanes and development that is set back from 
the road to make our drivers more comfortable as they move 
quickly through our communities, all at the cost of human 
lives.
    In fact, roadways are often designed for travel speeds that 
are 10 to 15 miles an hour faster than what the posted speed 
limit is, and we do know that drivers will follow this design 
cue.
    We know that speed leads to more deadly crashes, especially 
for the children that are walking to school or a bus patron 
that is walking to their stop on their way to work, who lacked 
the protection of thousands of pounds of steel and aluminum.
    What is particularly frustrating is our acceptance of this 
level of danger and the loss of human life. We have a cure, but 
we just do not want to use it.
    I do want to preface that there are many States and 
communities across the country, and namely, the Florida 
Department of Transportation, that should be applauded for 
adopting robust Complete Street policies and initiatives to 
change these unsafe paradigms.
    However, what we are seeing is a major disconnect between 
what we think are feel-good policy frameworks and the actual 
implementation of safe roadways.
    As an illustration, there was a State road in my area where 
the district safety office had recommended actually removing a 
lane to reduce the crossing distance for pedestrians and make 
it safer.
    Well, what ended up happening, there was a little bit of 
community pushback, and so the agency conceded by growing the 
forecasted traffic rates and essentially killed what should 
have been a legacy project, and all in the nature of future 
traffic congestion.
    And even in instances when the traffic volumes are low 
enough to warrant building a Complete Street, we will often 
hear excuses that the road is a parallel reliever to an 
interstate or it is an evacuation route or, in fact, we are too 
far along in the design process to do anything different.
    Yet there are many roadways in our community where you 
could probably roll a bowling ball down the road on any given 
day and not hit anything.
    Nationally, Congress communicates its Federal priorities 
through spending, and while we do spend $40 billion in Federal 
funds annually in the highway program, less than $1 billion of 
this is often reserved for pedestrian and cyclist 
infrastructure, and only $2.3 billion is dedicated to safety.
    If you visit this committee's website, the issue profiled 
is the cost of congestion, and I get it. Congestion is very 
inconvenient and annoying. But the cost of congestion is 
roughly equivalent to the cost of the 37,000 lives that were 
lost on our roadways in 2017, a cost of over $356 billion, and 
that does not include the cost of injuries, which we know 
number in the millions. Yet safety spending represents a mere 
fraction of the money that is spent on the congestion.
    In 2012, Congress created a less than optimal performance 
management system that required MPOs and DOTs to set these 
performance safety targets, including for cyclists and 
pedestrians.
    Yet in 2017, 18 States have set performance targets 
forecasting more deaths for cyclists and pedestrians on the 
roadways. Simply put, we do know how to do better.
    In Orlando, for example, the Florida Department of 
Transportation redesigned Edgewater Drive by taking a travel 
lane and reconfiguring the road to make it more safe for 
pedestrians and cyclists.
    What were the results? Total collisions dropped 40 percent. 
Injury rates declined 71 percent. Pedestrian counts increased 
23 percent. Cycling increased by 30 percent, and traffic 
actually dropped 12 percent before returning to original 
levels.
    Most significantly, the corridor gained 77 new businesses 
and 560 jobs, while the value of property along this corridor 
rose 80 percent.
    Unfortunately, these projects more often than not are the 
exception. Engineers often have to get special approval to 
implement them in a process that can take more than 1 year. So 
why would we not want this to be the rule?
    As we bring up reauthorization, we are strongly urging 
Congress to lead a discussion about what it is that we plan to 
achieve, not just how much we are going to spend. We need to 
set specific measurable goals, particularly in terms of safety 
and livability benefits and hold decisionmakers accountable for 
reaching them.
    Above all, this program needs to be oriented to create a 
safer transportation system for all users.
    Thank you again for your leadership and inviting me to 
testify today, and I look forward to working with you in the 
next upcoming reauthorization bill.
    [Mr. Jones' prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Fred Jones, Vice Mayor, City of Neptune 
        Beach, Florida, on behalf of Transportation for America
    Good morning Chairman, Ranking Member and distinguished members of 
the committee. Thank you for the opportunity to testify today on behalf 
of Transportation for America, a national nonprofit dedicated to 
creating a transportation system that moves people, safely and 
affordably, to jobs and services by all means of travel with minimal 
impact to the community and the environment.
    My name is Fred Jones. I represent the citizens of Neptune Beach, 
Florida as Vice-Mayor on the City Council, and I also work as a 
transportation planner for Michael Baker International. Additionally, I 
serve on the advisory board of the National Complete Streets Coalition. 
Neptune Beach is a small, quiet coastal community nestled on the 
northeast coast of Florida between Atlantic Beach and Jacksonville 
Beach. While there are many wonderful things about my community--the 
beaches, our vibrant town center, the high quality of life, to name a 
few--we, unfortunately, are also part of the sixth most dangerous 
metropolitan area in our country in which to walk or bike. The state of 
Florida, which is the most dangerous state in the Union for bicyclists 
and pedestrians, is also home to the #1, #2, #3, #4, #5, #6, #8 and #9 
most dangerous cities. And these numbers are going in the wrong 
direction, in Florida and across the nation.
    Over the past 10 years, 5433 people in the state of Florida, 
including 419 people in the Jacksonville, were struck and killed trying 
to walk or bike to work, school, running errands or going to a friend's 
house. These are the streets that I walk, bike and drive on. It is 
important that we recognize that these roadways are not dangerous by 
accident: they are dangerous by design.\1\
---------------------------------------------------------------------------
    \1\ https://smartgrowthamerica.org/dangerous-by-design/
---------------------------------------------------------------------------
    Some of the problem is that many people do not understand how small 
changes in roadway design and development patterns affect safety. Wider 
lanes and broader streets with buildings set back from the road signal 
to the driver that speed is allowed and encouraged--no matter what your 
posted speed limit is. In fact, often roadways are designed for traffic 
speeds 10-15 miles per hour faster than the posted speed. When we talk 
about roadway design, it's important to emphasize context. We are not 
talking about limited access freeways but, rather, the misapplication 
of limited access freeway engineering and design solutions and 
parameters to local roadways.
    While transportation agencies claim that this is done for ``safety 
reasons,'' the underlying message is that they expect drivers to speed 
and want to clear space for those speeding drivers to make mistakes and 
correct them without crashing. This accommodation to drivers, in the 
name of ``safety'', creates more danger to those outside of the car 
because the driver naturally interprets these roadway design cues to go 
at the higher design speed, inducing the speeding behavior that the 
design engineers are trying to head off. And we know that speed leads 
to mistakes and more deadly crashes, especially for those that don't 
have thousands of pounds of steel and aluminum surrounding them.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


N. Flamingo and Pines Boulevard in the Miami area, a typical example of 
                    a major intersection in Florida.

    These issues--along with un-signaled crossings, long blocks and 
multiple driveways--create inherently dangerous conditions for people 
who walk or bike. All of these designs are put in place for the 
convenience of drivers and to move vehicles at a high rate of speed, 
which is the real underlying priority of our national transportation 
program, whether that was our intention or not. But most of all they 
all put people outside of a car in jeopardy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Arterial roadways (not limited access highways) in Miami areas. N. 
   Okeechobee Road and Hialeah Gardens Boulevard is one of the most 
               dangerous intersections in Florida today.

    What is particularly frustrating to me is the acceptance of this 
level of danger and loss of human life. It is not a problem that we 
don't know how to solve. This isn't a problem that we are powerless to 
address. We have a cure. But for whatever reasons, just don't want to 
use it.
    Two cities that have adopted one major cure, known as Vision Zero, 
have seen traffic fatalities fall significantly. Vision Zero emphasizes 
matching speeds of roadways based on the surrounding context. In other 
words, in populated areas, drivers should have an expectation that they 
will move slower than in the wide-open countryside or on limited access 
highways. The results speak for themselves: in New York City fatalities 
are down 28 percent since 2014. San Francisco is down 41 percent. If 
you just look at pedestrians, the decrease is 46 percent in New York 
City and 34 percent in San Francisco. Fortunately, several local cities 
in my home state have also begun to join this movement, including 
Tampa, Orlando, West Palm Beach and Miami.
    Despite knowing how to fix the problems, many of our transportation 
agencies are often concerned about the ramifications--often political--
of making safety their top priority. To make space for people outside 
of a car, we sometimes have to take space from the cars. Even where 
doing so would create very minor delays--as in seconds--for drivers, it 
is enough to throw the option out. This resistance to change can be 
found at all levels--from local public works agencies to Congress and 
from broad policy to bureaucratic procedure and culture.
    I want to preface that there are many states and communities, and 
particularly the Florida DOT, that should be applauded for adopting 
robust complete street policies and initiatives to change this 
paradigm. However, there is a major disconnect or cultural barrier that 
exists between the policy framework around safety and complete streets 
and the actual implementation of innovative design solutions and 
projects that would provide better outcomes. Our success requires 
moving beyond a feel-good policy discussion to meaningful culture 
change, political will and leadership, and shifting priorities away 
from speed and capacity at all costs.
    I'm going to next provide a few examples and illustrations of the 
difficulties in building safer roads for all. In terms of procedure, 
every road project is designed around a standard that most people have 
never heard of, called Level of Service. This is a measure of how 
quickly cars can move and how easily they can maneuver through a 
roadway with little congestion or delay. A wide-open street with free 
flowing traffic on is considered LOS-A. Congested, stop and go traffic 
is LOS-F. As a result, your most economically productive corridors are 
considered failures in the transportation world, while those that are 
underutilized get an A. What is the equivalent safety standard that we 
use to design roads, you may ask? We don't have one. We respond to 
clusters of crashes, we don't design to avoid them.
    In terms of culture, you can find the focus on traffic speeds over 
safety everywhere. Highway engineers have historically been trained to 
build highways to maximize capacity, speed and vehicle throughput. This 
ideal has in turn been misapplied to all roadways, from highways to 
arterial roads to local, neighborhood streets. DOTs sometimes don't 
believe that the federal government will permit them to implement a 
design that would slow traffic. Or they will claim that they aren't 
allowed to use funding that way. Whether that is true or not (and in 
spite of several directives from (FHWA) Administration saying it isn't 
true), they regularly blame the federal government for tying their 
hands. The excuse for failing to design a roadway for all users varies 
based on the type of road.
    On a state road in my metro area, the local DOT district safety 
office previously recommended a road diet or lane elimination to reduce 
the crossing distance for pedestrians and improve overall safety. There 
was some pushback, so the DOT immediately conceded and raised the 
forecasted traffic volumes and misapplied other traffic analyses to 
make a great project that would have provided a sense of arrival on a 
college campus look infeasible. Two things to take from this story. 
One, traffic projections and analyses are often over-estimated and DOTs 
have a lot of discretion on how they are established. Computer models 
used to generate such analyses are only as good as their inputs, and 
there's nothing easier than tweaking such inputs to get desired 
outputs. Two, if there is traffic that might be impacted by 
accommodating pedestrians or cyclists, even if it is minor, it is often 
considered too much.
    If traffic volumes are not high enough to justify refusing to build 
a complete street, DOTs often will often provide other reasons for not 
changing the roadway such as claiming that the road is a parallel 
reliever to an Interstate or highway and that giving up space to 
pedestrians would impact drivers if a problem on the highway requires 
traffic to move to that roadway. On one street near downtown 
Jacksonville, traffic is not the problem. You could roll a bowling ball 
down the road at nearly any time of day and not hit anything. In this 
case, the local agency said they couldn't give up a lane because even 
though the road is well below capacity, it is an evacuation route. 
There was also a recent instance, when planning for an innovative, 
autonomous transit service was only supported with the condition that 
no state roads could be considered for lane elimination. So instead of 
repurposing a portion of the roadway to support enhanced cycling and 
walking and transit, things that the local community desire, they 
insisted that it be left alone--and empty.
    It isn't just happening in Florida. It is happening in all of our 
states. For example, Beach Park, Illinois, has been trying to get 
better pedestrian protection along a state route that has seen four 
pedestrian fatalities over the last 15 months. In the most recent 
crash, the driver said he could not see the victim, but Illinois DOT 
has been slow to respond to the community's call for visibility 
improvements. The response has been so slow and lackluster that the 
city is considering making the improvements on their own and paying 
penalties for failing to get the required permits.\2\
---------------------------------------------------------------------------
    \2\ https://www.chicagotribune.com/suburbs/lake-county-news-sun/
news/ct-lns-beach-park-pedestrian-fatals-st-0111-20170110-story.html
---------------------------------------------------------------------------
    In terms of broad policy, Congress communicates federal priorities 
to the state departments of transportation (DOTs) and for metropolitan 
planning organizations (MPOs) through spending. While we spend over $40 
billion in federal funds per year in the highway program, less than $1 
billion of that is reserved for the Transportation Alternatives 
program, which is targeted to bicycle and pedestrian infrastructure, 
and only $2.3 billion is dedicated to safety improvements.
    Even in the messaging from Washington, DC, the convenience for 
drivers is primary. If you go to this committee's website, the issue 
profiled is the cost of congestion. And I get it: congestion is 
annoying and inconvenient. I don't like to sit in it either. But the 
cost cited on your website for congestion is roughly equivalent to the 
cost of the $37,133 lives lost on our roadways in 2017, a cost of 
$356,476,800,000.\3\ That doesn't include the cost associated with 
those injured on our roads, which number in the millions of people each 
year. Yet safety spending is a small fraction compared to all the money 
we spend to address congestion.
---------------------------------------------------------------------------
    \3\ Based on the 2016 Revised Value of a Statistical Life Guidance 
set by the US Department of Transportation of $9.6 million per life.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Bill Deatherage, of the Kentucky Council of the Blind, walking along 
      Louisville, KY's Brownsboro Road before and after sidewalk 
---------------------------------------------------------------------------
                construction. Photo by Anne M. McMahon.

    In 2012, Congress required DOTs and MPOs to set performance targets 
in federal priority areas. Several of those targets are safety related, 
including overall fatalities and serious injuries as well as non-
motorized fatalities and serious injuries (i.e., bicyclists and 
pedestrians).
    While this approach is referred to as ``performance management'' in 
the law, it is really simply performance tracking. Instead of setting 
targets and orienting spending around those targets, the program allows 
states to set priorities and report the safety results. If those 
targets are ambitious, wonderful. But Congress allows them to be 
negative too. As a result, in 2017, eighteen states set performance 
targets to kill more bicyclists and pedestrians on their roadways.
    You can find this information if you know where to go deep on the 
FHWA's webpage to find them. There you must dig through 55 reports that 
are 60-70 pages each to find this information to compare across states. 
That's better than the repair and other targets, which aren't available 
on FHWA's site at all. This is seven years after Congress required 
performance tracking. That is what passes for accountability in the 
federal transportation program.
    I have heard many people claim that the focus on congestion 
mitigation is important for the economy. As a local elected official, I 
can promise you that an empty roadway, while uncongested, is hardly an 
example of a healthy economy. Corridors that are full of cars and 
people are usually our highest performing economic centers.
    The National Complete Street Coalition analyzed 37 Complete Streets 
projects in across the nation and found that employment levels rose 
after Complete Streets projects--in some cases, significantly. 
Communities reported increased net new businesses after Complete 
Streets improvements, suggesting that Complete Streets projects made 
the street more desirable for businesses. In eight of the ten 
communities with available data, property values increased after the 
Complete Streets improvements.\4\
---------------------------------------------------------------------------
    \4\ https://smartgrowthamerica.org/resources/evaluating-complete-
streets-projects-a-guide-for-practitioners/
---------------------------------------------------------------------------
    In fact, Redfin found, based on more than 1 million homes sold 
between January 2014 and April 2016, that one walk-score point can 
increase the price of a home by an average of $3,250, or 0.9 percent. 
While the majority of home buyers were looking for homes in walkable 
neighborhoods, Redfin found that they make up just 2% of active 
listings.\5\ As we all know, when something is in high demand and low 
supply, it can push the price of that item substantially upward. As a 
result, walkable neighborhoods can become very expensive and are often 
out of reach for those that are most reliant on walking and transit for 
their daily activities. And the cost premium created by this low supply 
is created by restrictions in development and housing policy, but also 
by transportation programs. Much like the cost of diamonds is elevated 
by restricting supply, government is increasing the cost of walkable 
neighborhoods by blocking the market response to the ever-increasing 
demand for them. A design that would save thousands of lives every 
year.
---------------------------------------------------------------------------
    \5\ https://www.marketwatch.com/story/how-walk-score-boosts-your-
homes-value-2016-08-11
---------------------------------------------------------------------------
    Some fear that making space for people walking and biking requires 
something to be taken from drivers. But when we build roads to move 
everyone, everyone does better. In Grandview, Missouri, a project was 
implemented to reinvigorate Main Street by improving the pedestrian 
accommodations along several blocks. The result was an increase in all 
modes: pedestrians by 900 percent, bicyclists by 40 percent and 
automobiles by 20 percent, although it remained uncongested. There were 
also 90 percent fewer crashes after the changes. The city's investment 
of $5 million has led to a return of $375 million. This amounts to 
approximately 1.5 times of the cities entire assessed property 
evaluation.\6\
---------------------------------------------------------------------------
    \6\ http://www.marc.org/Government/GTI/Academy-for-Sustainable-
Communities/Sustainable-Success-Stories-Honorees/2016/Grandview-Gateway

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In Charlotte, North Carolina, the state DOT redesigned East 
Boulevard from five lanes to three, adding new sidewalks and bike lanes 
back in 2006. As a result, they saw a dramatic reduction in crashes, 
more efficient traffic operations, a drop in speeding, and a 47 percent 
increase in non-residential property values that raised annual tax 
revenues by $530,000.\7\
---------------------------------------------------------------------------
    \7\ https://www.completestreetsnc.org/project-examples/ex-
eastblvdroaddiet/

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In my home state of Florida, we know how to do this right when we 
want to. In Orlando, Florida DOT redesigned Edgewater Drive by taking a 
travel lane and reconfiguring the road to make space for pedestrians 
and bicyclists. Total collisions dropped by 40 percent, injury rates 
decline 71 percent, pedestrian counts increased by 23 percent and 
bicycling increased by 30 percent traffic dropped 12 percent before 
returning to original levels. Additionally, the corridor has gained 77 
new businesses and 560 jobs, while the value of property along the 
corridor rose 80 percent.\8\
---------------------------------------------------------------------------
    \8\ Edgwater Drive Fact Sheet: https://www.google.com/
url?sa=t&rct=j&q=&esrc=s&source=
web&cd=2&ved=2ahUKEwjgq_2w2rnhAhVDnOAKHZ1cDGUQFjABegQIAhAC&url=
http%3A%2F%2Famericas.uli.org%2Fwp-content%2Fuploads%2Fsites%2F2%2FULI-
Documents%2FEdgewater-Drive-Orlando-
FL.pdf&usg=AOvVaw0iqKJs_cXyNniFKC6_V8gN

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Yet these projects are the exception. Engineers actually have to 
get special approval to implement them, a process that can take more 
than a year. Why wouldn't we want this to be the rule?
    As we consider the next six years of our national surface 
transportation spending, Congress should update the program to better 
protect all users. Congress should strengthen existing Complete Streets 
language to require states and metropolitan regions to plan, design, 
fund, and maintain safer streets. Congress should fund more Complete 
Streets projects. And Congress should create real accountability for 
roadway safety. States should not be allowed negative safety targets. 
If they are expecting more deaths then investments or changes need to 
be made to their programs.
    For years, we have heard about the need for more money. But it's 
really not about the amount, but rather how it's being prioritized and 
spent. Shouldn't we ensure that federal funding goes to projects that 
improve safety, improve traffic operations and create the communities 
that people want? Every single dollar spent to resurface roadways could 
include a redesign that saves lives. But when a resurfacing project is 
developed, stakeholders and the community that might want Complete 
Streets are told that DOT will have to ``study the matter'' and then by 
the time the design concept is reviewed by the traffic division, the 
project is at 60 percent development and the DOT says they are too far 
into the process to consider the change. We are choosing bureaucratic, 
status quo procedure over human life.
    Florida DOT, particularly in resurfacing projects, claim they have 
little flexibility in federal funding rules to support enhancements 
outside of their right of way jurisdiction. And often this may be a 
sidewalk or transit stop outside of their right of way jurisdiction. 
This results in safety and complete street gaps whereby a sidewalk or 
resurfacing project avoids needed improvements on private or other 
agency property that would result in a safe, seamless project. We are 
choosing to leave this part of the transportation system out and it is 
killing people.
    After a road is built or resurfaced, we are told there is no money 
for retrofits. Even when there is, it is a fraction of the funding they 
are using to create the problem. It is like building an addition on 
your house while ignoring a gas leak.
    Moreover, as we enter this reauthorization, I look to you all on 
this committee to set clear goals about what we, the American people, 
will get for the investment. There is a lot of talk on Capital Hill 
about raising taxes and putting more funding into the surface 
transportation program to stabilize it over the long run.
    As we bring up reauthorization, Congress should lead a discussion 
about what we plan to achieve, not just about what you are going to 
spend. We need to set specific, measurable goals and hold decision-
makers accountable for reaching them. There should be rewards for doing 
well and penalties for failure. And above all, this program should be 
oriented to create a safer transportation system for all users. Doing 
so will save lives while creating the economically vibrant, livable 
communities that Americans want.
    Thank you very much for inviting me to testify today. I look 
forward to working with you to do more for safety in the coming 
reauthorization bill.

    Ms. Norton. Thank you very much, Vice Mayor Jones.
    I am going to next ask the chief of police for the city of 
Alexandria, Michael L. Brown, to offer his testimony. Five 
minutes, please.
    Mr. Brown. Thank you, Madam Chairwoman and also members of 
the committee.
    I am going to try and cover the high points in the written 
testimony I submitted, and principally what I was looking at 
and trying to offer or was asked to offer was the lens of law 
enforcement in trying to deal with the traffic safety 
implications across this country.
    In my testimony, we recognize in the profession that 
clearly the major issues were outlined by the chair regarding 
impaired driving, speeding, distraction, and the pedestrian 
conflicts occurring across the country.
    I would also add the issue of occupant protection as well 
because occupant protection speaks directly to the 
survivability should you get involved in a crash.
    But from the law enforcement perspective and the lens we 
look at the world, frankly, in terms of the competing interests 
that are placed upon law enforcement, and a lot of those 
interests come from the local level. The local demand of our 
neighborhoods in our communities tell us what we need to 
prioritize on.
    And, quite frankly, in some communities like the one in 
which I work, traffic and even parking is a significant issue.
    But that is not across the Nation, and so we need to be 
flexible in the way we look at creating an authorization that 
accounts for the local law enforcement and the local 
expectations that the law enforcement leaders and the officers 
who do the work are confronted with on a daily basis.
    I have included in my testimony a number of general 
recommendations, especially regarding incentivizing involvement 
of law enforcement. The current incentives for the national 
campaigns and those kinds of things that you find in the FAST 
Act and in previous editions of reauthorization provide an 
opportunity for law enforcement to engage in campaigns. It is a 
capacity-driven thing so that it could be coordinated on a 
national level.
    But that does not happen on a day-to-day basis, and as you 
have heard testimony by law enforcement officials across this 
country, there are times where that capacity is drawn upon by 
other commitments and other challenges that law enforcement 
faces, aside from the fact that we are in an issue in some 
parts of the country where it is very difficult to recruit 
people and to fill the ranks of law enforcement.
    So this competition takes place within these incentives. 
General overtime programs we suggest should be continued for a 
variety of reasons, especially if they drive for capacity at 
the local level.
    The other thing that would be interesting in terms of 
trying to do this is to raise the awareness through these 
incentivization programs of traffic safety within the local 
political establishment.
    One of the things that I have suggested is develop a 
national narrative. The current national narrative in many 
cases, NHTSA does a good job, but it focuses on a lot of the 
specific things that we are looking at in our major campaign.
    The fact of the matter is most of the crashes that are 
occurring are directly related to bad behavior on the part of 
the participants, whether it be a bicyclist, a pedestrian, or 
some motorists. Very few of them are related to mechanical 
issues.
    People make bad choices, and people get hurt, and in some 
cases, they die. So what we were trying to do at least in the 
city that we have and in other parts and communities across the 
country is to elevate that discussion to something more than 
just the numbers, something more than just a campaign, trying 
to get out there and engage in the activity, making a traffic 
stop, not necessarily making a citation, but looking for the 
teachable moment that is going to change behavior and get 
people to voluntarily comply with the laws.
    That is taking place across the country at varying levels 
for the same kind of conditions that we talked about at the 
local level.
    I would suggest that we continue to focus on these key 
areas, but I would also suggest that in the new authorization 
we build in as much flexibility for a local government to 
establish the priorities that they are facing in their local 
issues. What happens in Alexandria is not the same it is going 
to be in L.A. It is not going to be the same as Salina, Kansas.
    And so we need to be able to provide them the opportunity 
to address their traffic safety issues, and I would also argue 
that the traffic safety issues are not accidents. They are 
crashes, and it is not just deaths. People who survive crashes, 
and we see them every day, in many cases have lifelong, lasting 
issues that change their life forever.
    So, Madam Chair, thank you very much for the opportunity. I 
look forward to any questions the committee may have.
    [Mr. Brown's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Michael L. Brown, Chief of Police, Alexandria 
                      (Virginia) Police Department
    Mr. Chairman and members of the committee, I am honored to come 
before you and represent the law enforcement perspective on traffic 
safety and law enforcement's role in addressing this important issue. 
My testimony is offered to underscore the importance of traffic safety 
in our country and some of the challenges we face in addressing it.
    Traffic safety is often defined by the number of crashes that have 
occurred and by the number the fatalities that have resulted from these 
crashes. While these are important measures, law enforcement deals with 
it on a much more personal level. Law enforcement officers respond to 
crash calls, investigate and deal with individual needs of those 
involved. This occurs thousands of times a day in our country. The 
level of law enforcement engagement is shaped by local capacity, 
community interest and political will. The role of the officers and the 
service they provide is often lost in national level discussions of 
traffic safety. My testimony will address major policy level issues it 
and it is also offered to you through this lens.
             traffic safety is a critical issue for america
    The sheer number of crashes in this country illustrates traffic 
safety is a critical issue that affects millions of people, however, it 
is frequently under prioritized in the context of other national 
priorities. Clearly, crashes that involve a fatality or a life changing 
issue have an impact on individuals and their families. I would also 
argue that involvement in crashes resulting in minor injuries or mere 
property damage also complicate the lives of people on a daily basis. 
Law enforcement officers know this and deal with this every day. 
Unfortunately, the latter situations are frequently ``overlooked'' in 
traffic safety discussions.
    Law enforcement is often called upon to deal with traffic safety 
issues. Each day, we receive many calls or complaints about specific 
traffic safety which we have to prioritize with our other calls for 
service. The public call us because they expect law enforcement to 
enforce traffic laws and mitigate their issue. This is based upon the 
premise that the real or perception of officers actively or potentially 
enforcing traffic safety laws will lead to some level of voluntary 
compliance by individuals in a specific area. Law enforcement 
acknowledges this expectation and perspective. Law enforcement agencies 
and their officers respond by prioritizing traffic safety along with 
the other expectations a community may place upon them, e.g.; crime 
responses, mental health calls, etc.).
    Law enforcement agencies understand the importance of traffic 
safety in the context of a community's ``quality of life''. Many 
agencies have understood this for a long time. Others came to 
understand that perspective even better during the 1990's. The 1994 
Crime Bill required participating law enforcement agencies to conduct 
'town hall' meetings with their communities across the country. One of 
the quality of life issues repeatedly raised in these meetings was 
traffic safety and traffic management. It became so prevalent that the 
U.S. Department of Justice's COPS Office developed publications to help 
law enforcement agencies in responding to traffic safety issues. Today, 
law enforcement's conversations with the public still include the 
traffic safety issue. The challenge remains--law enforcement is 
constantly balancing traffic safety as a community priority alongside 
more traditional policing issues. Community expectations for policing 
and traffic safety issues are local community based and the law 
enforcement response to these expectations vary by community across the 
nation. That said, there are some specific challenges for law 
enforcement that surface so often they deserve national discussion and 
attention. My following comments will cover some of the specific 
challenges that are high priority.
                            impaired driving
    Driving under the influence is a major issue for the nation and its 
communities. While there has been a significant reduction in fatalities 
and a reported change in public acceptance of driving impaired, about 
1/3 of all traffic fatalities are directly related to problem. Much of 
this success on this issue can be attributed to the efforts of MADD, 
law enforcement, and other community groups. The National Highway 
Traffic Safety Administration (NHTSA) and others have also developed a 
robust toolkit to deal with this issue including impairment presumption 
levels, national enforcement campaigns, ignition interlock programs, 
DUI courts and others. However, local participation in these efforts 
varies across the nation. This variation can be attributed to local 
capacity and local political will. We need to remember that law 
enforcement's response to impaired driving will be governed by these 
local conditions.
    The national approach to this issue should continue and incentivize 
the use of the current toolkit as these tools have been proven 
effective in dealing with impaired driving. However, there should be a 
renewed interest in engaging groups other than law enforcement more 
effectively in addressing impaired driving. Substance abuse is a major 
underlying cause of impaired driving and repeat offenders are a prime 
example of the substance abuse issues that law enforcement confronts in 
dealing with impaired driving. Law enforcement is not in the substance 
abuse treatment business and increased access to substance abuse 
(public health) programs to deal with this issue should be promoted as 
an intervention measure.
    Law enforcement recognizes the importance of enforcing impaired 
driving laws and accepts its role as evidenced by the number of people 
they arrest for driving impaired. The evolution of impaired driving law 
over the years has led to officers completing incredibly long, detailed 
reports and other protocols which result in a major commitment of the 
officer's time. I will not say this discourages officers from making 
DUI arrests nor am I suggesting the development of shortcuts which 
affect the rights of the arrested individual. The reality for the 
officer is that, in some cases, a misdemeanor DUI report can be as 
complicated as a criminal felony homicide case. There must be a way to 
develop a standardized national methodology which simplifies these 
reports which appropriately balances the needs of prosecutors and the 
rights of the arrestee.
    Finally, I must address the specific concerns of law enforcement 
over the impact of driving under the influence of drugs. The country 
has acknowledged that drug abuse is a public health issue and has many 
programs to deal with it in this framework. Law enforcement and 
prosecutors have successfully enforced impaired driving statues for 
many years and will continue to do so. That said, there is considerable 
concern within law enforcement over the potential public safety 
implications for impaired driving and the interests to increase public 
access to marijuana. Law enforcement is closely monitoring the 
experience of states and communities that have increased this legal 
access but the current debate can be confusing and alarming. For the 
officer, they recognize the absence of credible technology and 
informative research to assist them in assessing driver impairment 
during an impaired driving enforcement contact involving drugs. It is 
critical that these issues are addressed immediately to help guide 
officers in their impaired driving enforcement efforts.
                          occupant protection
    This issue remains a major issue for our nation. About half of the 
nation's fatal crash reports indicate that one or more vehicle 
occupants are not wearing their safety belts. This proportion has also 
been relatively consistent for decades. The same observation can be 
found in national injury crashes. Again, NHTSA has developed a toolkit 
to get people to wear their seatbelts but the engagement of law 
enforcement varies across the nation due to local conditions and 
political will.
    The discussions of seatbelt enforcement often include concerns over 
the police overstepping their authority and/or over prioritizing the 
importance of seatbelt enforcement. Officers frequently still hear the 
response ``don't you have more important things to do'' when they 
enforce seatbelt laws. Officers and their leaders are very aware of 
these conversations and positions and it can also have a `chilling' 
effect on actual seatbelt enforcement. The nation needs to change the 
perspective on the importance of seatbelt laws to improve public 
compliance. Seatbelt enforcement needs to be viewed as a lifesaving 
effort not as a tactic used by officers to `pick on' people.
    This is a problem which could also be fixed at some level over time 
through engineering and design. The use of seat belt interlocks for 
example could improve this behavior without the need for law 
enforcement.
                                speeding
    Nobody likes getting a speeding ticket and yet speed continues to 
be an issue in most crashes in America. In many cases, it is the 
principle reason behind the crash. It is also a major factor in the 
severity of the crash and occupant survivability which relates to the 
principles of physics. Speed enforcement is a traditional enforcement 
activity in many police agencies and officers do it every day. 
Unfortunately, there are many more speeders than there are officers and 
voluntary compliance by motorists is often dependent upon the 
motorist's perception that they will be caught speeding. Many motorists 
like the odds of not being caught and choose to speed. Speed limit 
compliance could be enhanced by incentivizing law enforcement efforts 
to speed enforcement at a national level. The increased use of 
automated speed enforcement technology could also prove useful 
providing such programs are implemented for traffic safety reasons and 
not revenue generation. Such programs must be implemented to avoid any 
challenges to police legitimacy.
                              distraction
    Distraction is a very real threat to the safe use of our 
transportation system. Law enforcement acknowledges that and where 
possible enforces the laws that are available to them. All 
transportation system users need to pay attention when using these 
systems. The emerging data is illustrating that this issue is growing 
especially with our reliance on some technology. Many of the current 
laws focus on drivers and not other users like pedestrians and 
bicyclists while in the roadway. When this topic is discussed the 
issues surrounding police harassment and the ability of officers to 
detect distraction frequently surface. Some of the existing laws also 
make the law difficult for officers to enforce e.g.; manipulating a 
device or texting language. Officers will tell you of many instances 
where they see drivers, pedestrians, bicyclists and other 
transportation system users not paying attention and jeopardizing their 
own personal safety and the safety of others. This will continue unless 
the nation acknowledges this to be a problem. There should be a 
national effort to develop hands free laws which are applicable to all 
system users. There should also be a national priority assigned to this 
traffic safety threat and a more uniformed enforcement/compliance 
approach that is acceptable to the states and local authorities.
                     pedestrian and bicycle safety
    There is a growing concern in many communities over the safety of 
bicyclists and pedestrians. Law enforcement understands these concerns 
and responds to local traffic safety complaints on these issues on a 
daily basis. This is particularly important in urban centers and those 
communities that encourage these travel options. In many discussions on 
this issue there are references to pedestrians and bicyclists as 
'vulnerable' populations which are understandable especially when they 
share the road with cars. From the law enforcement perspective, there 
is plenty of blame to share as to what creates this conflict. At times 
it is the motor vehicle operator that does not recognize or ignores the 
laws and protections provided to pedestrians and cyclists. Yet, there 
are also many occasions where these same pedestrians/cyclists involved 
in these potential conflicts will position the argument so that they 
are the victim instead of acknowledging that each contributes to the 
traffic safety issue. This makes it difficult for officers when they 
take enforcement action involving pedestrian and cyclists. Like some of 
the other traffic safety issues I have discussed, the narrative needs 
to change on this issue so that traffic safety is a personal 
responsibility and all the players must follow the rules.
             other important law enforcement considerations
    There are other issues which I must bring up which can impact the 
role of law enforcement in performing its traffic safety 
responsibilities. These issues are real for law enforcement and the 
communities they serve and provide context for traffic safety 
enforcement. They include:
Calls for Service and Officer Initiated Activity
    At one time in my career I was told by a federal official that 
``law enforcement will do what we tell them to do''. Sadly, other 
federal officials that were present found that comment humorous at the 
time. Unfortunately, that perspective is a counterproductive to 
encouraging law enforcement participation and clearly ignores the daily 
realities of our officers.
    Traffic enforcement occurs when officers are on routine patrol and 
when they are responding to a specific traffic safety complaint from 
the community. The latter is treated like a call for service (e.g.; a 
911 call) and the officer's discretion to engage in enforcement may be 
affected. The officers still have discretion to give a warning or a 
citation but there is an expectation that they respond to the problem 
area and at least look for violations. Officers on routine patrol have 
greater discretion to engage in traffic enforcement. Patrolling 
officers may be more interested in other local policing priorities or 
their own specific policing interests rather than traffic safety.
    This has been and will continue to be a challenge for law 
enforcement leadership. Officers who acknowledge a public safety 
priority tend to respond to that priority. As such, it is important to 
develop a national narrative which elevates traffic enforcement as a 
community public safety threat which deserves the attention of the 
individual officer. The national narrative needs to be supported with 
messaging and incentives designed to promote officer engagement in this 
enforcement effort.
Law Enforcement as an Intervention
    Enforcement is often portrayed as the key intervention for 
improving traffic safety. That is most likely the basis for the number 
of traffic enforcement call/requests law enforcement agencies receive 
each day. Research has demonstrated that good enforcement can have an 
impact on changing some behavior in traffic safety. In some cases, 
there are more profound foundational issues which dictate the need for 
other interventions. My coverage of impaired driving included some 
discussion of other intervention needs when substance abuse behavior is 
present. There are other disciplines which can be applied. Vehicle 
design, engineering, and other technologies can be useful in developing 
interventions which might stop problematic behavior. Interlock systems 
for impaired driving and seatbelts are examples of design 
interventions.
    While law enforcement plays a critical role in changing traffic 
safety behavior many issues require a more complex intervention to 
effectively deal with any poor behavior. I do believe the role of law 
enforcement is significant in this effort but we should avoid 
defaulting to law enforcement as the entity that has sole 
responsibility for changing behavior that causes crashes.
Officer Discretion and Legitimacy
    It is the individual officer that makes the decision to engage in 
traffic enforcement. Therefore, we must also acknowledge that officers 
are very aware of the climate in which they work and the public 
acceptance of their enforcement efforts. Officer decisions to engage 
involve the professional discretion they have during the performance of 
their duties. There is considerable research on officer discretion and 
it has shaped agencies policies. Law enforcement agencies have many 
policies to control the use of discretion but the myriad of fact 
patterns an officer confronts while performing their duties make it 
difficult to develop policy for every situation. That is one reason why 
law enforcement agencies commit so much time, energy, and money into 
selecting and training individuals that can exercise good judgment in 
the use of officer discretion. I would argue that, in practically every 
case, the competence and motivation of today's officers is at a much 
higher level than ever before.
    Legitimacy is a foundational factor in policing and the police will 
not be effective without it. There have been past concerns and debates 
about law enforcement actions and legitimacy. There have also been some 
comments that these concerns and debates have resulted in fewer 
officers engaging in traffic enforcement as a result. While this may be 
the case in some communities, I have not seen research that 
conclusively proves that this is occurring on a national level. That 
said, it is important for law enforcement and political leadership to 
create an environment which suggests that officers should engage in 
traffic law enforcement to respond to community quality of life and 
public safety issues in a manner which promote police legitimacy within 
the community the officer serves. This may not be occurring in some 
communities and should be addressed in a manner which supports officers 
doing traffic enforcement for the right reasons--protecting the public. 
A development of a national position which encourages this environment 
would be useful for improved traffic law enforcement.
Incentives for Law Enforcement
    I have referenced incentives in my testimony on several occasions. 
The incentives that are traditionally offered through the federal 
government relate to providing enforcement capacity. Providing funding 
is important for law enforcement agencies that lack the capacity to 
participate in national traffic safety enforcement efforts. Some 
approaches result in individual officers performing this enforcement on 
an overtime basis which, for some officers, may be incentive. Recently, 
there have been repeated reports within the law enforcement community 
that overtime details do not often sufficiently encourage officers to 
perform specific activities including traffic safety enforcement. This 
may be attributed to the many uses of overtime details to address non-
traffic related issues. These other details may compete with traffic 
enforcement details for available officers to participate. Some law 
enforcement agencies also argue overtime is not a sufficient high 
priority or driving factor with some officers. Agencies often advise 
that filling these overtime details can be difficult as a result. 
Another reason for the difficulty in getting officers to participate in 
these details may also be the degree of importance officers assign to 
traffic safety. Many officers may not recognize their role in traffic 
safety and enforcement of traffic laws as being that important to their 
community.
                           national narrative
    My testimony also makes several references to developing a national 
narrative outlining the importance of traffic safety and committing the 
resources to change the belief structures in the country relating to 
safety on and around our roadways. There are examples where this has 
worked in this area like the changed attitudes on impaired driving 
which was initiated by MADD. Other individual groups within the traffic 
safety community have made similar efforts to change attitudes and 
culture in specific areas with varying degrees of success. To me, this 
seems to be 'chipping away' at the essential need for all of us in this 
country to change our behavior and improve our quality of life as it 
relates to all aspects of traffic safety.
    A national traffic safety improvement narrative would also be 
useful in getting law enforcement behind the traffic safety issue. 
Officers and their agencies have a history of responding to recognized 
threats to public safety. The drug and gang activity in the 1980's, the 
homeland security effort following 9/11 and, more recently, the issues 
related to mental health and opioid overdoses are prime examples of a 
motivated law enforcement response. What is missing today for law 
enforcement is the commitment to making traffic safety a high priority 
for our nation.
                              conclusions
    I have offered a number of perspectives and suggestions in my 
testimony to assist the committee in its legislative deliberations. The 
issues surrounding traffic safety are complex and will require 
leadership to effectively change the behaviors that cause crashes in 
this country. We currently have individuals that provide that 
leadership in certain areas of traffic safety but a nationwide 
comprehensive commitment designed to make this issue a high priority 
for our country has been missing for some time.
    Within our communities are individuals who have personnel stories 
of how they were affected by a crash. Law enforcement officers make 
personal death or serious injury notifications to families and friends 
following a traffic crash on a daily basis. Officers who have done 
this, including me, will tell you the impact these notifications have 
on these family and friends as well as the officer are significant. The 
personal loss, the shock, and the feelings encountered by the officers 
are the same for traffic crashes as they are those notifications made 
following a major felony not related to traffic. I have said many 
times--it doesn't matter if the injury or death is caused by a car 
fender or a bullet to loved ones.
    Our communities want a sustainable and safe quality of life. They 
want to feel safe in their communities and reduce all threats to 
safety. Law enforcement's experience has shown this includes their 
expectations on traffic safety. The committee can play a key leadership 
role in raising the profile of traffic safety as a public safety issue 
across our nation. I am confident elevating the issue to a serious, 
high priority public safety issue will also lead to increased support 
from law enforcement. This effort may move our nation to a better and 
safer place than we currently find ourselves.
    Thank you for giving me the opportunity to offer my thoughts on 
this very important policy issue.

    Ms. Norton. Thank you, Chief Brown.
    Mr. Jay Bruemmer.
    Mr. Bruemmer. Chairwoman Norton and members of the 
subcommittee, thank you for the opportunity to testify to you 
today on behalf of the American Traffic Safety Services 
Association.
    ATSSA represents the manufacturers and installers of 
roadway safety infrastructure devices, such as guard rail and 
cable barriers, traffic signs, pavement markings, and work zone 
safety devices, among others.
    Our mission is to advance roadway safety and reduce 
fatalities and serious injuries to zero.
    Professionally, I have worked for K&G Striping for 34 
years, a Missouri contractor who installs pavement markings, 
traffic signs, and traffic control.
    It is appropriate to be here discussing roadway safety 
during National Work Zone Awareness Week, as we honor those who 
lost their lives in work zones around the country, including 
nearly 800 the previous year.
    My first project on an interstate quickly taught me the 
importance of roadway safety. While striping in a work zone on 
I-70 nearly Lawrence, Kansas, I looked up to see a semi truck 
knocking over cones and headed right at me. I only had enough 
time to take one step back before I was blown off my feet by 
the wind.
    I was fortunate to go home that day to my family, but 
tragically many others are not so lucky. Please slow down in 
work zones.
    Mitigating driver behavior is a perennial challenge for 
transportation leaders, and knowing this, the roadway safety 
infrastructure industry has innovated and deployed cost-
effective countermeasures to combat negative driver behavior. 
Here are a few examples.
    Wrong-way driving crashes are often catastrophic when they 
occur, especially on highways and high-speed roads. Intelligent 
transportation systems in conjunction with signage combat 
wrong-way driving. These systems detect a wrong-way driver and 
inform both the driver and law enforcement about the incident 
so law enforcement may intercede within minutes.
    Systematic devices like barriers are critically important 
to the safety ecosystem of a roadway network. This is 
particularly true in rural areas where 30 percent of total 
vehicle miles traveled occur, yet 50 percent of roadway 
fatalities occur.
    The Minnesota Department of Transportation installed cable 
median barrier along 150 miles of road. In the 3 years prior 
there were 19 fatal cross-median crashes. In the 3 years 
following, there were zero.
    We know that wider pavement markings have positive safety 
benefits, especially for older drivers. They also prove 
beneficial for machine-driven vehicles. Under adverse 
conditions, wider markings consistently improve machine vision 
detection.
    In 2017, nearly 6,000 pedestrians were killed in roadway 
crashes, and the previous year saw 840 cyclists killed. There 
are roadway safety infrastructure solutions that help protect 
both vulnerable users and motorists, including dedicated bike 
lanes with green pavement markings and delineators, as well as 
innovative retroreflective crosswalks for pedestrians.
    Thirty-seven thousand one hundred and thirty men, women, 
and children being killed on U.S. roads annually, we cannot 
allow safety to ever become an afterthought.
    None of these safety priorities can be achieved without a 
solvent, robustly funded Highway Trust Fund.
    ATSSA strongly supports increasing user fees to address the 
long-term viability of the trust fund. This includes indexing 
gas and diesel taxes and eventually moving towards the vehicle 
miles traveled user fee system.
    The Highway Safety Improvement Program, or HSIP, is the 
sole Federal highway program focused on roadway safety. 
States--which are responsible for the safety on all public 
roads--are able to use these funds for eligible activities.
    However, States are allowed to transfer up to 50 percent of 
their HSIP allocations. Given the importance of safety, ATSSA 
calls on Congress to eliminate or at the very least reduce the 
percentage of funds that can be transferred out of HSIP.
    Congress has previously ensured that funds from HSIP can 
only be used for roadway safety infrastructure projects. We 
urge the committee to continue this language as part of the 
FAST Act reauthorization and infrastructure packages.
    ATSSA calls on Congress to double the size of the Highway 
Safety Improvement Program to at least 10 percent of the 
overall core Federal-aid Highway Program so it can aggressively 
combat fatalities and serious injuries on U.S. roads and expand 
the use of cost-effective, lifesaving roadway infrastructure 
countermeasures.
    In conclusion, we must not let safety slip as our top 
priority. Roadway safety infrastructure and the Highway Safety 
Improvement Program are key pieces of the safety puzzle.
    And ATSSA looks forward to working with the subcommittee to 
reduce fatalities and serious injuries on our Nation's roads to 
zero.
    Thank you for the opportunity, and I look forward to any 
questions.
    [Mr. Bruemmer's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Jay Bruemmer, Vice President, K&G Striping, Inc., 
     on behalf of the American Traffic Safety Services Association
    Chairman Holmes Norton, Ranking Member Davis, and members of the 
Subcommittee, thank you for the opportunity to testify today on behalf 
of the American Traffic Safety Services Association (ATSSA) on how 
investing in and improving the safety of America's roadway system 
impacts each and every one of us. I currently serve as Chairman of 
ATSSA's Government Relations Committee. I am also a past member of the 
ATSSA Board of Directors, past President of the ATSSA Chapter 
Presidents' Council and past President of the Heart of America Chapter 
of ATSSA (comprised of Kansas and Missouri). ATSSA is a 1,500+ member 
international trade association which represents the manufacturers, 
installers and distributors of roadway safety infrastructure devices 
and services such as guardrail and cable barrier, traffic signs, 
pavement markings, rumble strips, high friction surface treatments, and 
work zone safety devices, among others. Our mission is to Advance 
Roadway Safety and reduce fatalities and serious injuries on U.S. roads 
toward zero.
    Professionally, I am the Vice President of K&G Striping Inc., a 
Riverside, MO-based contractor focused on pavement marking, traffic 
sign installation, and traffic control. K&G Striping has been a 
contractor in the Midwest since 1982, incorporated in 1989, and now 
serves Johnson County, Jackson County and the greater Kansas City metro 
area. If you're driving through western Missouri and find yourself in a 
roadway work zone, chances are you will see our trucks doing the work. 
In fact, Ranking Member Sam Graves represents our office here in 
Congress.
    Congratulations to Chairman DeFazio, Ranking Member Graves, 
Chairman Holmes Norton, and Ranking Member Davis on your new leadership 
positions on the Committee and Subcommittee, and thank you for holding 
this critically-important hearing. The timing of this hearing coincides 
with National Work Zone Awareness Week, honoring those who have lost 
their lives in roadway work zones and spreading awareness for the need 
to enhance safety in work zones around the country. In 2017, 799 people 
were killed in work zones, which includes both motorists and workers.
    We hear it almost every single day--that transportation safety is 
the number one priority. Members of Congress, the Executive Branch, 
businesses, states, local governments and users of the transportation 
system all talk about the importance of safety programs. But sometimes, 
the need to invest in safety infrastructure is easy to overlook or take 
for granted. But with more than 37,000 men, women and children being 
killed on U.S. roads annually, and from personal experience of working 
in roadway work zones, we cannot allow safety to ever become an 
afterthought or second priority. Period.
    According to the National Highway Traffic Safety Administration 
(NHTSA), 37,133 individuals were killed in motor vehicle crashes in 
2017. This is truly a horrifying statistic; however, the glimmer of 
hope is that this was a reduction from 2016 by approximately 2%.\1\ 
Additionally, preliminary 2018 data indicates that this decline in 
fatalities is potentially continuing.\2\ For me and the men and women 
employed by K&G Striping, this number hits very close to home, 
especially when you consider that in 2017, 799 of those fatalities 
occurred in work zones. Imagine yourself working on a road construction 
project, and passenger vehicles and motor carriers are traveling at 50, 
60, 70+ miles per hour only feet from where you are working. You might 
be protected by a steel or concrete barrier, but you might just have 
some plastic cones and barrels separating you from thousands of pounds 
of speeding steel. I know from personal experience how terrifying this 
can be.
---------------------------------------------------------------------------
    \1\ NHTSA 2017 Fatality Data--https://www.nhtsa.gov/press-releases/
us-dot-announces-2017-
roadway-fatalities-down
    \2\ NHTSA Preliminary 2018 Fatality Data--https://
crashstats.nhtsa.dot.gov/Api/Public/
ViewPublication/812629
---------------------------------------------------------------------------
    When I was 18 years old, one of my first projects working on the 
interstate was on I-70 between Lawrence and Topeka. We were installing 
temporary pavement markings behind a lane closure to prepare to switch 
traffic to head to head on the eastbound lanes. While putting down 
reflective markers, I looked up to see a semi-truck, which had not seen 
the lane closure in time, knocking over channelizers in the taper and 
headed directly toward me. I had just enough time to stand up, and take 
one step back before the wind blew me off my feet. When I stood back 
up, I saw the tire tracks through the tar I had put down for the next 
marker I was going to install. Had I not been lucky enough to look up 
when I did, the outcome would have been catastrophic. At the age of 18, 
I learned firsthand two incredibly important lessons: that I was not 
invincible and the importance of safety while working on the road. 
Years later when I became the owner of our business, I repeatedly used 
this experience to remind myself that the safety of my employees must 
be my primary concern.
    In 2005 as part of the SAFETEA-LU legislation, Congress authorized 
the Highway Safety Improvement Program or HSIP, and subsequently 
reauthorized that program in 2012 in MAP-21 and again in 2015 under the 
FAST Act. The HSIP program is the sole federal highway program focused 
on roadway safety infrastructure. Over the lifetime of the FAST Act, 
HSIP is authorized at approximately $12.5 billion, including set asides 
for the Work Zone Safety Grant and the Railway-Highway Crossings 
Program. States--which are responsible for the safety on all public 
roads, not only state-owned roads--are able to utilize these funds for 
eligible activities under HSIP. However, states are also allowed to 
transfer up to 50% of their HSIP allocations to other core federal-aid 
highway programs--such as the National Highway Performance Program, 
Surface Transportation Block Grant Program, Transportation 
Alternatives, National Highway Freight Program, and the Congestion 
Mitigation and Air Quality Improvement Program and vice versa.
    And states have opted to utilize these transfer provisions. Under 
MAP-21 and the FAST Act--as of September 30, 2018--24 states 
transferred HSIP funds to other programs, totaling approximately $1.2 
billion. Given the importance of safety and the need for safety to 
remain a priority area of investment, ATSSA calls on Congress to 
eliminate, or at the very least, reduce the percentage of funds that 
can be transferred out of HSIP to ensure that roadway safety 
infrastructure funds are being utilized on roadway safety 
infrastructure projects.
    Additionally, in MAP-21, Congress ensured that funds from the 
Highway Safety Improvement Program (HSIP) could only be used for 
eligible roadway safety infrastructure projects under HSIP. We urge the 
committee to continue this language as part of the FAST Act 
reauthorization.
    Mitigating driver behavior is a perennial challenge for 
transportation leaders; however, the roadway safety infrastructure 
industry has innovated and deployed cost-effective countermeasures to 
combat negative driver behavior. Here are a few examples.
                           wrong-way driving
    Although not incredibly frequent, wrong-way driving crashes are 
often catastrophic when they do occur, especially on highways and high-
speed roads. There are several countermeasures that work to address 
this issue, namely signage, markings and LED lights on signs. However, 
road owners can also opt to utilize intelligent transportation systems, 
in conjunction with signs, to combat wrong-way driving. These systems 
detect a wrong-way driver and inform both the driver and law 
enforcement about the incident.\3\
---------------------------------------------------------------------------
    \3\ ``Improving Driver Behavior with Infrastructure Safety 
Countermeasures'' ATSSA case study publication, 2015
---------------------------------------------------------------------------
                    high friction surface treatment
    High friction surface treatments (HFST) are an example of an 
infrastructure safety countermeasure that does not require the driver 
to make behavioral changes in order to have a positive safety impact. 
These treatments are applied to high risk crash locations such as 
intersections or curves. Durable aggregate (usually bauxite) is applied 
to the road surface and bonded using a polymer binder. In 75 locations 
in Kentucky where HFST were applied, roadway departure crashes 
decreased by 91% in wet conditions and 78% in dry conditions.\4\
---------------------------------------------------------------------------
    \4\ ``Improving Driver Behavior with Infrastructure Safety 
Countermeasures'' ATSSA case study publication, 2015
---------------------------------------------------------------------------
                     pedestrian and bicycle safety
    In 2017, 5,977 pedestrians were killed in roadway crashes across 
the United States. In 2016, there were 840 bicyclists killed in roadway 
crashes. There are roadway safety infrastructure solutions that help 
protect both vulnerable users and motorists, including dedicate bicycle 
lanes with green pavement markings and flexible delineators as well as 
retroreflective crosswalks for pedestrians. One countermeasure focused 
on pedestrian safety is the Leading Pedestrian Interval Plus (LPI+), 
which allows the pedestrian to begin crossing the street before traffic 
is allowed to move. Studies have shown that LPIs can reduce vehicle-
pedestrian crashes by as much as 60%.\5\
---------------------------------------------------------------------------
    \5\ ``Traffic Control Device Innovations to Improve Pedestrian and 
Bicycle Safety at Signalized Intersections'' ATSSA case study 
publication, 2019
---------------------------------------------------------------------------
                           smarter work zones
    As I mentioned, this week being National Work Zone Awareness Week, 
it is a crucial moment to talk about safety in work zones. Work zones 
are inherently dangerous areas, and the safety of the men and women 
working on the road is paramount. Making work zones smarter, safer, and 
more efficient will decrease fatalities and serious injuries for both 
drivers and workers. Smarter work zones can mean intelligent 
transportation systems, data collection and usage, project 
coordination, and stakeholder engagement, among many other activities. 
In Washington, DC, the District Department of Transportation (DDOT) 
realized that multiple road construction projects in the city were 
having interrelated impacts on road users. So in response, DDOT created 
a comprehensive, software-based work zone project management system 
which brought together roadway, utility, and developer construction 
activities which identified and lessened public right-of-way conflicts. 
The top goals of this approach were to minimize work zone location 
conflicts and impacts and improve safety and mobility within the work 
zones. A web-based work zone tracking application was used to gather 
all the data and then send that data to project coordinators to alert 
them of possible conflicts.\6\
---------------------------------------------------------------------------
    \6\ Smarter Work Zones: Project Coordination and Technology 
Applications, ATSSA case study publication, 2016
---------------------------------------------------------------------------
                                barrier
    Barrier is used either in a median or on the roadside to protect 
vehicles from leaving the road and impacting other fixed objects or on-
coming traffic. Systemic devices such as barrier are critically 
important to the safety ecosystem of a road network. This is especially 
true in rural areas where, according to 2016 Federal Highway 
Administration (FHWA) data, 30% of total vehicle miles traveled 
occurred, yet 50% of roadway fatalities also occurred. Fatalities on 
rural roads are disproportionately high. Over a four-year period, the 
Minnesota Department of Transportation installed cable barrier in 31 
segments along 150 miles of roadway. In the three years prior to 
installation of the cable barrier, there were 19 fatal cross-median 
crashes. In the three years following installation, there were zero.\7\
---------------------------------------------------------------------------
    \7\ ``Preventing Vehicle Departures from Roadways'' ATSSA case 
study publication 2015
---------------------------------------------------------------------------
    We know that these countermeasures work. Through the use of 
dashboard cameras, we can see how effective roadway safety 
infrastructure can be. For example, this website shows footage from a 
camera affixed to a tractor-trailer truck on a highway. The video 
captured the image of another tractor-trailer truck nearly colliding 
head-on but the crash being mitigated by cable barrier. https://
drive.google.com/file/d/1L-5egeInhrJgB9pZO14PtObM7tYQkI1D/view
           wider, high visibility pavement markings and cavs
    Some countermeasures are seemingly commonsense, but they have 
lasting positive impacts not only for today's human drivers, but also 
for connected and automated vehicles into the future. A Texas A&M 
Transportation Institute (TTI) study found that wider pavement markings 
in Michigan reduced fatal and injury crashes by nearly 25%, nighttime 
crashes by nearly 40% and nighttime crashes in wet conditions by more 
than 33%.\8\ A 2011 study of Missouri roads found that wider pavement 
markings had a positive safety impact in reducing fatal and serious 
injury crashes, including: a 46% reduction on rural, multilane 
undivided highways; a 38% reduction on urban, two-lane highways; and a 
34% reduction on rural, multilane divided highways.\9\
---------------------------------------------------------------------------
    \8\ ``Improving Driver Behavior with Infrastructure Safety 
Countermeasures'' ATSSA case study publication, 2015
    \9\ ``Innovative Safety Solutions with Pavement Markings and 
Delineation'' ATSSA case study publication, 2016
---------------------------------------------------------------------------
    We know that wider pavement markings have positive safety benefits, 
especially for older drivers. But the question arises of whether or not 
wider markings assist vehicles equipped with machine vision/connected 
and automated vehicles (CAVs). A separate TTI study finds that the 
answer is yes. In February 2017, BMW's President and CEO-North America 
testified that clear lane markings were a critical component to a 
transportation network that was ready to deploy CAVs.\10\ Additionally, 
TTI undertook a separate study in 2018 which looked at wider pavement 
markings and CAVs. This study found that wider markings, under adverse 
conditions, consistently improved machine vision detection. Adverse 
conditions include: crack seal, pavement seams, scarring, ``ghost'' 
lines from previous markings, and glare.\11\
---------------------------------------------------------------------------
    \10\ https://www.enotrans.org/article/two-decades-congress-still-
pushing-21st-century-infrastructure/
    \11\ ``Evaluation of the Effects of Pavement Marking Width on 
Detectability by Machine Vision: 4-Inch versus 6-Inch Markings'' 
October 2018 Texas A&M Transportation Institute
---------------------------------------------------------------------------
    With that said, we believe that full deployment of CAVs is still 
some time away. The average age of a vehicle in the U.S. is 11.5 years 
old, and according to 2017 data, the median household income in the 
United States is $61,372.\12\ In each congressional district, there are 
families who make below this average income line. And even for families 
who have a household income above the median, we need to recognize the 
fact that most families will not want to purchase a new car until they 
feel it is time for them to do so. It is hard to believe that, even 
once CAVs are readily available, families will be able to or 
necessarily want to immediately rush to their car dealer to purchase 
one of these new CAVs. It is important that we understand these 
realities when planning for the expanded deployment of these 
technologies.
---------------------------------------------------------------------------
    \12\ U.S. Census Bureau Data--https://www.census.gov/library/
stories/2018/09/highest-median-
household-income-on-record.html
---------------------------------------------------------------------------
                             safety funding
    None of these safety priorities can be achieved without a solvent, 
robustly-funded Highway Trust Fund. Continuing to spend more from the 
Highway Trust Fund than is collected through taxes and fees is not a 
long-term solution. We need to address these deficiencies. In that 
regard, we strongly support an increase to user fees to address the 
long-term viability of the Highway Trust Fund, which include increasing 
and indexing the motor fuels user fees, an eventual move towards a 
vehicle miles traveled user fee system, and where it makes sense, the 
use of public private partnerships (P3s).
    We view P3s as a separate issue from the Highway Trust Fund 
solvency. Increasing the use of P3s does not address the underlying 
fiscal cliff of the Highway Trust Fund. As we consider an 
infrastructure package and a FAST Act reauthorization, the 
Administration and Congress must grapple with the fact that increased 
direct federal investments are crucial to the rebuilding and safety of 
America's roadway network.
    With any increase in revenue for the Highway Trust Fund, ATSSA 
calls on Congress to double the size of the Highway Safety Improvement 
Program to at least 10% of the overall core federal-aid highway 
programs so that we can aggressively combat fatalities and serious 
injuries on U.S. roads and expand the use of cost-effective, life-
saving roadway safety infrastructure countermeasures.
    In conclusion, as a nation, we have made great strides in all 
aspects of roadway safety: behavioral, vehicle, emergency response, and 
infrastructure. As we move into the third decade of the 21st century, 
we must continue to press forward with safety and not let it slip from 
our top priority. Roadway safety infrastructure and the Highway Safety 
Improvement Program are a key piece of the safety puzzle, and this 
Subcommittee has the opportunity and responsibility to lead the charge 
in reducing fatalities and serious injuries on our nation's roads.
    Thank you again for the opportunity to testify today. I look 
forward to answering any of your questions.

    Ms. Norton. And thank you for your testimony.
    We want to hear next from Mr. Mike Sewell here on behalf of 
the League of American Bicyclists.
    Mr. Sewell. Thank you, Chairwoman Norton as well as 
distinguished members of this subcommittee.
    I am very happy to be here to answer your questions about 
pedestrian/bicycle safety.
    My name is Mike Sewell. I am from Louisville, Kentucky, 
where I work as a professional engineer. I also serve as the 
Active Transportation Service Line Leader and one of the owners 
of Gresham Smith. It is an architecture and engineering 
consulting firm.
    I am representing not only the engineering profession 
today, but also the League of American Bicyclists, where I 
serve on their board of directors.
    But most importantly today, I come to you as a daily 
bicycle commuter. As little as a decade ago, I would be a very 
highly unlikely candidate to be talking to you about bicycle 
and pedestrian safety. However, as fate would have it, I found 
myself stuck in a car in construction traffic watching 
pedestrians and bicyclists move across a Second Street bridge 
passing me, and so in a fit of frustration I decided I would 
abandon my car on the side of the road and attempt to join 
them.
    Something serendipitous happened about halfway across that 
Second Street bridge though. I heard a bicycle bell, and as I 
looked over my shoulder, a bicyclist said, ``It is a beautiful 
day, is it not?''
    And in my current state of mind, I had a hard time matching 
his enthusiasm, and at that point I had an epiphany. My choice 
of transportation that morning was negatively influencing my 
ability to enjoy myself.
    So I decided right then and there I was going to bike to 
work the next day. That was almost 8 years ago, and I am 
pleased to say I have biked to work about every day since, and 
I now have a far better understanding of what it means to be 
joyful in a commute.
    But me as an engineer, that decision made me challenge 
myself in the decisions I was making and our public right-of-
way that might impede or allow other folks to have a similar 
epiphany and enjoy themselves in their commute.
    And as most engineers will do, we dug into data, and what I 
found was quite alarming. Between 2008 and 2017, we saw 
pedestrian deaths increase by 35 percent while pedestrians as a 
mode share only increased by 1 percent.
    What that tells me is that pedestrian deaths make up a 
vastly disproportionate amount of fatalities on our roadway.
    Bike fatalities are at their highest level since the early 
1990s, with a 3-year average increase of 14.7 percent.
    There are also direct ties to equity issues in our 
transportation network that relate also to fatalities. What we 
found is older adults, people of color, or people attempting to 
walk and bike in lower income communities are far 
disproportionately represented in fatalities as well.
    Part of this fix is education, and thankfully, the League 
of American Bicyclists has formal training programs that 
educate about 60,000 bicycle riders about how better to engage 
in transportation in our corridors, stay visible, and ride with 
confidence.
    They have also formalized a bicycle-friendly driver program 
to better educate drivers on what to expect from bicyclists.
    However, education alone is not enough. Congress has a 
critical role in addressing policy and funding that allows 
people like me, engineers, to proactively design safer 
transportation systems.
    Nationwide bicycling and walking make up approximately 12 
percent of trips. They roughly make up 18 percent of 
fatalities. Yet less than 1 percent of HSIP dollars are spent 
focusing on better bicycling and pedestrian infrastructure type 
projects to address these fatalities.
    Part of the reason is the way HSIP is set up. States were 
required to prioritize hot spots, basically pinpoints on a map 
that categorize how fatal accidents are happening in a 
location.
    But what we found, too, is that it is a straightforward 
approach, but it does not tell the entire story. There are 
other factors that determine if a pedestrian is going to be 
safe or a bicyclist is going to be safe, such as roadway 
classification, speed differential, geometry, as well as land 
use. All of these can be used for a data-driven approach to 
determine where safety issues are likely to occur or where 
future users will likely encounter them.
    This is also not just an urban problem. We found that our 
rural areas also have a lot of difficulty implementing 
meaningful and safe multimodal connections.
    Today I would like to suggest adding a special rule to HSIP 
that requires States to address vulnerable user safety where 
there is a high rate of fatalities related to vulnerable users.
    Despite increases in bicyclist and pedestrian fatalities 
nationwide, there are some good stories that come out of this. 
In some locations, States and cities are seeing decreases. 
Oregon, for instance, is a great example, having nearly a 31-
percent decrease in the number of fatalities for bicyclists 
over the course of 2007 to 2016, despite a 46-percent increase 
in bike commuter trips.
    These results can be replicated through proactive policy, 
appropriate funding, education, and better engineered streets 
for all users.
    I appreciate your time, and thank you for this opportunity. 
I look forward to answering any questions you may have.
    [Mr. Sewell's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Mike Sewell, Active Transportation Service Line 
 Leader, Gresham Smith, on behalf of the League of American Bicyclists
    Thank you, Chairman DeFazio, Ranking Member Graves, and 
distinguished members of this committee for the invitation to present 
my perspectives on bicycle and pedestrian safety. My name is Mike 
Sewell. I am from Louisville, Kentucky where I work as a professional 
engineer. I also serve as the Active Transportation Service Line leader 
and one of the owners of Gresham Smith, an Architecture, Engineering 
and design practice. Gresham Smith is an active member of the American 
Council of Engineering Companies (ACEC), the business association of 
the engineering industry representing more than 5,600 engineering firms 
and 600,000+ engineers, surveyors, architects, and other specialists 
nationwide.
    I am representing not only the engineering profession today, but 
also the League of American Bicyclists where I serve on their board of 
directors. Most importantly, today I come to you as a daily bicycle 
commuter. Since beginning to bike to work, I have ridden more than 
7,000 miles and explored dozens of U.S. cities by bike and experienced 
both the fear and the joy of being a bicyclist on American roads.
                               background
    The League of American Bicyclists has been a presence on Capitol 
Hill since 1880, when the first bicycle advocates rode to Washington, 
D.C. They presented a petition on a bicycle wheel demanding paved 
roads, which would be safer and more enjoyable for the rising number of 
bicyclists in America. Then, just as now, we wanted the voices of 
bicyclists to be heard in the design and future of our transportation 
system. As most people who bicycle will tell you, though, today's roads 
certainly do not feel like they have been designed to make it easier to 
get to work by bike or get to work safely by bike.
    It has only been since 1991 that Congress has made funding for 
bicycling and walking projects part of federal transportation programs. 
In the intervening 28 years, we have seen a significant increase in 
bicycling for both transportation and recreation. More recently, state 
and local governments have begun promoting bicycling as a 
transportation option to reduce congestion and improve public health 
with the proliferation of bike share systems, separated bike lanes, and 
state and local initiatives with significant investments in bicycling 
networks. In places like Minneapolis, New York and Virginia, rates of 
bicycling have increased significantly and these gains have often been 
accompanied by better safety outcomes for all road users.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Metro Nashville Division Street Extension_Nashville, TN

                       geography/local background
    Slightly more than 20% of all bike commuters can be found in just 
10 cities, including New York City where nearly 50,000 people choose to 
travel to work by bike. When those in Washington think about someone 
bicycling for transportation, the image that might come to mind is a 
young person on Pennsylvania Avenue coming to work from Columbia 
Heights, benefiting from urban density and local bike amenities.
    But bicycling is by no means confined to first tier cities. 
Louisville, Kentucky, my hometown, is a strong example of how a mid-
size city has also benefited from prioritizing bicycle facilities:
    <bullet>  Over the last decade, Louisville has made a concerted 
effort to improve our bicycling options, and is now certified as a 
Silver-level Bicycle Friendly Community by the League of American 
Bicyclists.
    <bullet>  Louisville is a member of the Road to Zero Coalition and 
Kentucky supports the national movement Toward Zero Deaths, focusing on 
how engineering roads can prevent deaths of people walking or biking.
        <bullet>  These efforts have paid off: while nationwide the 
        number of people killed while biking reached a 25-year high in 
        2016, Louisville saw a decrease in bicyclist fatalities in 
        recent years even while biking to work increased significantly.
    <bullet>  Bicycling in Louisville is not just an urban solution, 
but is a way to help people experience the city, countryside and places 
in between.
        <bullet>  I personally am involved in projects dedicated to 
        creating safe bikeways within the urban core, as well as a 
        project linking the city to the countryside. That 22-mile 
        project will increase safe, healthy transportation options to 
        nearby residents.
    <bullet>  As a Gold Level Bike Friendly Business, Gresham Smith, 
actively pursued building space adjacent to better bicycle and 
pedestrian infrastructure as well as adjacent land uses that allow our 
employees access to more restaurants and shop that are also bike 
friendly.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Town Branch Commons_Lexington, KY

    Bicycling is also an important part of transportation in many rural 
states. In Montana, people bike to work at a rate more than twice the 
national average. In North Dakota, more people bike to work than use 
public transit. And in Northwest Arkansas, the construction of 163 
miles of trails and paths over the last 10 years has led to a 24% 
average annual increase in bicycling.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Town Branch Commons_Lexington, KY

                                 equity
    There is no denying that bicycling is an affordable and economical 
means of transportation and isused by a wide range of people to make a 
living. The money people save on transportation allows them to spend 
more in the local economy, as well as afford housing, education, and 
other necessary expenses. In fact, bicycling is integral to getting 
employees to and from work. According to data from the 2017 National 
Household Travel Survey, people from households with incomes of less 
than $25k per year took nearly 25% of all the nation's bike trips. 
Similarly, the same survey said that 20% of bike trips were to earn a 
living, which is 4% higher than the percentage of trips to earn a 
living for all modes of transportation [https://nhts.ornl.gov/vehicle-
trips].
                                 safety
    When I work with communities interested in increasing active 
transportation, one of their major concerns is safety. No community 
wants to lose a mother, father, son, daughter, or neighbor in a fatal 
crash. While multiple surveys show Americans want to bike more, it is 
often their concern about safety that stops them.
    The concern for safety is one of both perception and reality.
    <bullet>  Improvements in traffic safety over the last quarter 
century have not been evenly distributed; people in cars have been the 
main beneficiaries, while people biking and walking represent an 
increasing percentage of traffic fatalities.
    <bullet>  But the data also shows increasing fatalities of people 
biking and walking, with more people being killed while biking in 2016 
than in any year since 1991.
    <bullet>  On a per trip basis, bicycling is just slightly more 
dangerous than walking and it is safer than walking on a per mile 
basis.
    You might be thinking we are seeing higher fatalities among 
bicyclists as a result of more people bicycling. However, the inverse 
is true. For example, despite their overall disparity in population 
size, more people bike to work in Oregon than in Texas, but in 2016 
Oregon had 55 fewer bicyclists die on its roads than Texas. This 
difference in safety can be explained by at least two reasons:
    <bullet>  Oregon has a long history of investing in safe bicycling 
infrastructure, meaning that more people are likely riding on safe 
infrastructure. Oregon has had a Complete Streets law since 1971 and 
makes bicyclist safety an emphasis area in its Strategic Highway Safety 
Plan.
        <bullet>  In comparison, Texas adopted a Complete Streets 
        policy in 2011 and does not make bicyclist safety an emphasis 
        area in its Strategic Highway Safety Plan.
    <bullet>  The number of people biking in Oregon leads to an effect 
known as ``safety in numbers.'' This effect has been found in numerous 
studies. The more people who bike leads to more driver awareness of 
bicyclists, more predictable behavior by bicyclists and drivers, and 
improved safety through better behavior.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    A re-imagined Broadway in Louisville, KY with a complete street 
                               approach.

                     the league's theory of safety
    While there is limited data to pinpoint the reasons for increasing 
bicyclist fatalities, we know that bicyclists' perceptions of safety 
and safety outcomes are shaped by drivers and the built environment. 
According to a 2012 NHTSA survey [https://www.nhtsa.gov/sites/
nhtsa.dot.gov/files/811841b.pdf], the most common reason that a 
bicyclist felt their safety was threatened was due to a motorist's 
action--usually driving too close. In keeping with that data, improving 
bicyclist safety should also be about improving driver behavior, like 
limiting distractions, and implementing infrastructure that reduces or 
mitigates opportunities for drivers to threaten bicyclists.
    To improve bicyclist safety the League has pursued three 
strategies:
    1.  Increasing bike infrastructure and networks, especially 
protected bike infrastructure. According to AARP [https://www.aarp.org/
livable-communities/getting-around/info-2016/why-bicycling-
infrastructure-is-good-for-people-who-dont-ride-bikes.html], in New 
York City, injuries for motorists, pedestrians and bicyclists declined 
[http://www.streetsblog.org/2014/09/05/new-dot-report-shows-protected-
bike-lanes-improve-safety-for-everybody/] by 20% on streets with 
protected bike lanes.
        <bullet>  Bicycle infrastructure can include a variety of 
        solutions based on different community needs. My written 
        testimony includes pictures of some examples.
    2.  Promoting Complete Streets policies and practices. Earlier, I 
noted how Oregon's early adoption of Complete Streets has led to 
decades of road design that have resulted in better safety outcomes for 
cyclists. That is because Complete Streets policies consider all users 
in the planning, design and construction phases of roads. By adopting 
policies and practices that assume consideration for all users, the 
costs of bicycle lanes can be reduced by up to 40% according to data 
from the FHWA [https://www.fhwa.dot.gov/environment/
bicycle_pedestrian/publications/resurfacing/resurfacing_workbook.pdf].
        <bullet>  Complete Streets can encompass a variety of street 
        designs, safety improvements, and planning and operational 
        practices. My written testimony includes picture of some 
        examples.
    3.  Adopting and enforcing safe passing laws, which require drivers 
to give cyclists at least three feet of clearance when they are 
passing. According to the National Conference of State Legislatures 
[http://www.ncsl.org/research/transportation/safely-passing-
bicyclists.aspx], 32 states, including Kentucky have this type of law.
        <bullet>  According to data from NHTSA, a person is most likely 
        to be killed while biking when hit from behind despite this 
        being a relatively rare collision type.
    The League believes that improving bicyclist safety will take 
dedicated pursuit of those three strategies and more. Congress should 
consider whether more proactive safety legislation--which might improve 
vehicle designs, provide incentives for advanced and automated vehicle 
safety systems, and create performance standards for in-vehicle and 
device-based distraction--are appropriate to supplement the strategies 
discussed here.
    Federally-backed initiatives that embrace the goal of zero traffic 
deaths, such as the Road to Zero Coalition and Towards Zero Deaths 
national safety strategy have attracted wide support, but some safety 
efforts require congressional leadership.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Taking off my bike helmet and speaking as an engineer, the trend we 
are seeing in the engineering industry is toward a ``safe systems'' 
approach. The basic idea is that humans will continue to make mistakes 
and/or choose risky behaviors (e.g. distracted driving, speeding, 
driving while impaired, not wearing a seatbelt, etc.) so the 
transportation infrastructure should be designed to reduce fatalities 
when accidents do occur.
    Using a data-driven, analytical approach, engineers are deploying a 
variety of proven countermeasures and design strategies--such as 
corridor access management, adding turn lanes, medians and pedestrian 
crossing slands, and road diets/ reconfigurations, among many others--
to control vehicle speeds, calm traffic, and thereby manage the kinetic 
energy transfer among road users in accidents. These factors, in 
addition to traditional design criteria such as sight distance, 
intersection design to reduce conflicts, and roadside improvements on 
horizontal curves, can enhance safety of all roadway users and adapt 
the structure and function of the system to accommodate the 
complexities of human behavior.
                                hsip ask
    One area where Congress can make a difference in the lives of 
people who bike and walk is the Highway Safety Improvement Program 
(HSIP). HSIP [https://www.fhwa.dot.gov/fastact/factsheets/hsipfs.cfm] 
is a congressionally authorized road safety program that distributes 
more than $2 billion each year based on where data shows funding could 
improve road safety.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           Louisville Metro Urban Bike Network_Louisville, KY

    First, I would encourage the committee to increase funding for HSIP 
commensurate with an overall increase in the federal-aid highway 
program. Safety elements are included in other apportionments, but HSIP 
is a primary tool for the kinds of enhancements we are discussing and 
cannot be neglected.
    Despite the data and safety outcome focus of the program, because 
the algorithms are written with blind spots, funding does not flow to 
places where bicyclists and pedestrians are dying. Currently, Congress 
requires HSIP funding to go to ``hot spots'' and leaves it up to state 
Departments of Transportation to write the formulas for where those hot 
spots occur.
    <bullet>  For instance, the New Jersey DOT has a stated policy that 
its HSIP funding should be spent on pedestrian improvements in the same 
proportion of fatalities that are pedestrians.
    <bullet>  However, despite over 30% of roadway fatalities in New 
Jersey being pedestrians, the state reports spending NONE of its HSIP 
on pedestrians. The ``data-driven'' formula cannot identify a hot spot 
for these pedestrian fatalities and so 1 in every 3 roadway fatalities 
in New Jersey goes unaddressed by HSIP.
    Bicycling and walking make up 12% of transportation trips, 18% of 
roadway fatalities, and receive less than 1% of HSIP investments. In 10 
states where bicyclist and pedestrian fatalities averaged more than 15% 
of all traffic fatalities in the last 5 years, the state reported 
spending $0 of HSIP funding on bicyclist and pedestrian safety projects 
during that time.
    To effectively improve pedestrian and bicyclist safety through 
HSIP, Congress needs to provide leadership to state DOTs.
    <bullet>  Pedestrian and bicyclist fatalities do not usually occur 
in ``hot spots'' but do predictably occur along corridors that can be 
identified using alternative analyses. Often these corridors are 
arterial roadways with commercial and residential development and high 
observed speeds.
    <bullet>  Speed is incredibly important for the safety of people 
biking and walking.
        <bullet>  If you are driving 45 mph and hit a bicyclist or a 
        pedestrian, there is a 90% chance you will kill them. At 35 mph 
        the chances of death drop to 50%, at 25 mph there is 85% chance 
        of survival.
    The growing number of Vision Zero communities has found a vast 
majority of fatalities happen on a small percentage of roads with 
similar contexts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           Louisville Metro Urban Bike Network_Louisville, KY

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Metro Nashville 28th-31st Avenue Connector_Nashville, TN

    <bullet>  For instance in San Francisco, 75% of severe and fatal 
traffic injuries occur on just 13% of its streets \1\.
---------------------------------------------------------------------------
    \1\ Vision Zero SF 2019 Action Strategy.
---------------------------------------------------------------------------
    <bullet>  In Denver, 50% of traffic fatalities occur on 5% of the 
roads \2\.
---------------------------------------------------------------------------
    \2\ Denver Vision Zero Action Plan. https://www.denvergov.org/
content/dam/denvergov/Portals/705/documents/visionzero/Denver-Vision-
Zero-Action-Plan-draft-July2017.pdf. Pg.5
---------------------------------------------------------------------------
    Congress plays a critical role in leading the nation towards 
sustained improvements for people bikingand walking through the Highway 
Safety Improvement Program. In past transportation bills, such as MAP-
21 and the FAST Act, Congress has taken steps to improve the safety of 
people biking and walking, including:
    <bullet>  Removing the requirement to focus only on hot spots.
    <bullet>  Requiring more attention to bicycling and pedestrian 
crashes.
    <bullet>  Allowing states to use HSIP on roads that have dangerous 
features, before fatalities occur. Allowing proactive systematic 
approaches to safety.
    Those changes were necessary and we applaud them. However, many 
states have not yet significantly addressed the crisis of safety for 
people who bike and walk.
    At this time, we are not asking states to change their HSIP 
formulas, but rather are proposing supplementing those formulas. We 
don't want to throw out the good work done to address hot spots, but 
want to stop the perpetuation of blind spots and encourage states to 
slow down and take a harder look at what they might not be seeing.
    <bullet>  In areas where vulnerable user fatalities are above a 
certain threshold, such as MPOs, regional planning areas, tribal lands, 
and other jurisdictions that receive federal funding, HSIP funds should 
be directed to vulnerable user safety projects and protections in those 
areas.
        <bullet>  Such a change dovetails with changes in the FAST Act 
        which requires states to consider all users when constructing 
        and reconstructing on non-interstate Federal Highway System 
        roads. These roads are often the arterials and connectors where 
        bicyclist and pedestrian fatalities happen.
        <bullet>  Vulnerable user safety projects could include 
        separated bicycle infrastructure, improved at-grade crossings 
        including medians, grade-separated connections across high 
        speed and high volume roads, and wider shoulders on rural 
        roads. Many of these projects are already recommended by the 
        FHWA.
                         recognize past changes
    The changes we want for HSIP also dovetail with non-infrastructure 
changes made by Congress, which recognized the need for education and 
enforcement to complement safe infrastructure for people biking and 
walking.
    The League believes that traffic safety goes beyond infrastructure 
and vehicle standards. While my professional career is about building 
complete streets and better infrastructure for all road users, I am 
also a strong believer in the role of education in improving the safety 
of bicycling.
    <bullet>  As a certified League Cycling Instructor, I have been 
trained to teach adults and children safe bicycling practices, 
including obeying traffic laws, practicing defensive bicycling 
techniques, and ensuring your bike is safe to ride.
    <bullet>  Since the 1970s the League has trained more than 6,000 
cycling instructors, and these instructors train an average of 60,000 
bicyclists each year. Our materials have been translated into seven 
languages.
    <bullet>  The League is also rolling out a Bicycle Friendly Driver 
curriculum. It is a program developed in Fort Collins, Colo., to teach 
drivers why bicyclists ride like we do and create a shared 
understanding of how we use the road.
    <bullet>  As a lifelong learner in the transportation industry, 
programs like these help people better respond to the changes we are 
seeing on our roads and can better support people who choose or depend 
on biking and walking.
    On enforcement, the League celebrated Congress's decision in the 
FAST Act to create the 405(h) program that funds education and 
enforcement around state laws pertaining to bicyclists and pedestrians 
in those states where bicyclist and pedestrian fatalities are more than 
15% of all traffic fatalities.
    Since its creation in the FAST Act, every eligible state has 
applied for the available funding and that funding has been used for a 
variety of education and enforcement campaigns.
    <bullet>  In Georgia [https://www.nhtsa.gov/sites/nhtsa.dot.gov/
files/documents/ga_fy2018_ar.pdf], 405(h) funds were used to publish 
bicycle safety messages, reaching over 14 million contacts by 
leveraging existing bicycling-related groups, and to distribute more 
than 17,000 bicycle safety guides to agencies and others.
    <bullet>  In Oregon [https://www.nhtsa.gov/sites/nhtsa.dot.gov/
files/documents/or_fy2018_ar.pdf], 405(h) funds were used to fund mini-
grants to localities to implement an ``Oregon Friendly Driver'' 
program.
    <bullet>  In Florida [https://www.nhtsa.gov/sites/nhtsa.dot.gov/
files/documents/fl_fy18_ar.pdf], 405(h) funds were used to develop a 
four-hour classroom based training course to improve the effectiveness 
of officers taking part in High Visibility Enforcement to support 
pedestrian and bicycle safety in Florida.
    The 405(h) program shows how directing funding to change the 
culture around how we view the safety of people biking and walking can 
be successful. Through these programs, Congress has demonstrated 
attention to the safety of people biking and walking as well as 
encouraged continued actions to promote the safety of all people who 
use our nation's roadways.
    In closing, I would like to again emphasize the need for updates to 
the Highway Safety Improvement Program so that it directs funding to 
the needs of all roadway users. As currently implemented, HSIP all too 
often has blind spots for the safety of people walking and biking. Just 
as we ask drivers to do, the program needs to check your blind spots 
for people you may not have seen.
    We appreciate the steps Congress has taken in the last two 
transportation bills on improving education regarding bicycle and 
pedestrian laws, and believe Congress should build on those steps by 
improving HSIP so that the transportation system's most vulnerable 
users are not overlooked in its data-driven process.

    Ms. Norton. Thank you, Mr. Sewell.
    Next, Nicholas Smith for the National Safety Council.
    Mr. Smith. Good morning, Chairwoman Norton, Ranking Member 
Spano, and Chairman DeFazio, as well as the members of the 
subcommittee. Thank you for inviting me to testify today on 
improving the safety on our Nation's roadways.
    My name is Nick Smith, and I am the interim president and 
CEO of the National Safety Council, and I am also the chair of 
the Road to Zero Coalition, which is focused on reaching zero 
fatalities by 2050.
    Last year, the coalition, which is over 900 strong, 
representing transportation organizations, government, 
businesses, academia, safety advocates, including those 
organizations represented here today on this panel, issued this 
report [indicating a document], a framework to help us get to 
zero deaths on our roadways by the year 2050.
    Together we call out three steps to reach the goal of zero 
deaths on our roadways. One, we believe doubling down on what 
works through proven evidence-based strategies.
    Two, accelerate advanced lifesaving technology in vehicles 
and in infrastructure.
    And three, prioritize safety by adopting a safe systems 
approach and creating a positive safety culture.
    My full testimony mentions specific steps for each of 
these. Today I will focus on prioritizing safety, which is the 
third step we call out.
    Today over 100 people will die in crashes on our roadway. 
Yesterday over 100 people died in crashes, and tomorrow over 
100 people will die again in motor vehicle crashes. But there 
is no outrage. In every other mode of transportation this 
committee oversees, there is a different expectation of safety.
    For example, after two airplane crashes, countries across 
the world grounded all Boeing 737 Max 800 and 900 airplanes. In 
less than a week, a coordinated global action was taken to 
address a potential risk to millions of people.
    This committee rightly held hearings to determine causation 
and next steps. We can all agree that this was the right 
decision, but every 72 hours, we lose 328 people, nearly the 
equivalent of these 2 airplane crashes on U.S. roadways.
    Where is our outrage over these deaths? And where is our 
urgency to prevent them? We must demand safety for all no 
matter how they are mobile.
    Now for the good news. We know how to prevent these 
fatalities from happening. We just have not had the will to 
prioritize these actions.
    The culture around traveling on the roadways is very 
different from the airways. We require safety management 
systems and safety training for people who work in our airway 
system, and we even have a safety briefing for passengers 
before every flight.
    When things go wrong, this committee demands answers. 
Several Federal agencies send people to investigate, and a 
plane can be grounded. Simply put, we have a strong safety 
culture when it comes to aviation.
    So how do we raise the bar on safety on our road? The 
reauthorization of the FAST Act provides you an opportunity to 
do so today.
    While prioritizing safety, the reauthorization bill should 
encourage States to pass strong laws to implement proven 
countermeasures to save lives, like automated enforcement and 
lowering the blood alcohol concentration.
    Also, the bill should support safer roadway designs that 
provide for the safe movement of all roadway users and 
incorporates safety no matter if in a rural, suburban, or urban 
area. We know that drivers are human and we make mistakes and 
errors, and safer designs can help make sure those errors do 
not become fatalities.
    These are only a few examples of how to prioritize safety 
and move toward our goal to zero deaths on our roadway system.
    I have with me a letter from the Road to Zero Coalition 
asking Congress to prioritize safety. This bill should not be 
about more miles of pavement only. It must include safety in 
every aspect of the bill.
    I urge you to use this report as a framework to prioritize 
safety in our transportation system.
    I hope you will join me in saying enough is enough. The 
value of life should not depend on whether you are sitting on 
an airplane or behind the wheel of a car. It is time to bring 
the culture of safety on our roadways to levels we have 
achieved in the air. We know how to get there. We just need the 
will to do so.
    I look forward to discussing more with you today. Thank 
you.
    [Mr. Smith's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Nicholas J. Smith, Interim President and Chief 
             Executive Officer, the National Safety Council
    Chairwoman Norton, Ranking Member Davis and members of the 
Subcommittee, thank you for inviting me to testify today on improving 
the safety of our nation's roadways.
    It is an honor to be with you today. My name is Nicholas Smith, and 
I am the Interim President and CEO of the National Safety Council (NSC) 
and the Chair of the Road to Zero Coalition. It is nice to be back in 
Washington, as I previously lived and worked here at the Department of 
Homeland Security and for Majority Leader Bill Frist.
    The National Safety Council is a 100-year-old nonprofit committed 
to eliminating preventable deaths in our lifetime by focusing on 
reducing fatalities and injuries in workplaces, on the road and in 
homes and communities. Our more than 15,000 member companies represent 
employees at more than 50,000 U.S. worksites. Not only do we work with 
companies but also with organized labor, who share our dedication to 
keeping workers safe on and off the job. These members are across the 
United States and are likely in each district represented on this 
Committee.
    The National Safety Council estimates that over 40,000 people were 
killed in motor vehicle crashes in 2018.\1\ Included here are the 
number of people killed in motor vehicle crashes in 2018 from the 
Chairs' and Ranking Members' states, and a complete overview of all 
states is included with my testimony.
---------------------------------------------------------------------------
    \1\ https://www.nsc.org/in-the-newsroom/2018-marks-third-straight-
year-that-motor-vehicle-deaths-are-estimated-to-have-reached-40-000

 
 
 
District of Columbia                       34
Illinois                                   1,048
Missouri                                   917
Oregon                                     468
 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                           
       Copyright 2019 National Safety Council_All Rights Reserved

    These are the lives of your constituents. These mothers, fathers, 
sisters, brothers, aunts and uncles contributed to the communities in 
which they lived. Yet, our national outrage at these losses is 
conspicuously absent, particularly when you compare to deaths in other 
forms of transportation, such as aviation. These crashes and deaths on 
our roadways not only have a human toll, but there is an annual cost to 
the American economy of over $433 billion.\2\
---------------------------------------------------------------------------
    \2\ https://injuryfacts.nsc.org/motor-vehicle/overview/
introduction/
---------------------------------------------------------------------------
    The United States has consistently avoided the hard choices needed 
to save lives on the roadways. The reauthorization of the Fixing 
America's Surface Transportation (FAST) Act is an opportunity for us to 
start making the right choices, and I appreciate the opportunity to 
talk with you today about how to do more to save lives, because we know 
that all of these deaths are preventable.
    What disappoints many of us in the safety community is that the 
main causes of motor vehicle fatalities--lack of seat belt use, 
alcohol-impaired driving, and speed--have remained the same for 
decades.
      50% of people who die in motor vehicle crashes are unbelted \3\
      30% of people who die in crashes are involved in alcohol-impaired 
wrecks \4\
      27% of the fatalities are speed-related \5\
---------------------------------------------------------------------------
    \3\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812662
    \4\ https://www.responsibility.org/alcohol-statistics/drunk-
driving-statistics/drunk-driving-fatality-statistics/
    \5\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812451
---------------------------------------------------------------------------
    The solutions to these problems are simple and clearly known, but 
we need the political and societal will to widely implement them.
    Recently, ``zero'' language has been incorporated into the goals on 
our roadways. This has been commonplace in other settings like 
workplaces, where NSC has been involved since its beginning, and it has 
had meaningful results. NSC is so committed to a zero goal on the 
roadways that we lead the Road to Zero Coalition, a diverse group of 
over 900 members committed to eliminating roadway fatalities by 2050. 
Over the past two and a half years, the coalition has grown to include 
members from across the country representing transportation 
organizations, businesses, academia, safety advocates and others, the 
first time so many organizations have collaborated to put forth a plan 
to address fatalities on our roads.
    The centerpiece of our work together has been the creation of the 
Road to Zero report, a comprehensive roadmap of the strategies 
necessary to achieve our goal by 2050. One year ago this month, the 
coalition issued our report with three primary recommendations.
    1.  Double down on what works through proven, evidence-based 
strategies
    2.  Accelerate advanced life-saving technology in vehicles and 
infrastructure
    3.  Prioritize safety by adopting a safe systems approach and 
creating a positive safety culture
                              double down
    We know what works. Enacting evidence-based laws related to 
seatbelts, alcohol impairment and speed shows we are ready for change, 
and education about the laws combined with strong enforcement delivers 
on the change. We urge legislators to look at these and the many other 
laws that, if enacted, enforced and promoted would drive down 
fatalities. While many of these laws require state action, the federal 
government should consider incentives in the reauthorization bill to 
accelerate state adoption and enforcement.
    The data and research tell us that primary seat belt laws, lowered 
blood alcohol content laws, and better speed management efforts would 
have meaningful impact.
Seatbelts
    Regardless of other causal factors, the lack of proper occupant 
restraint continues to increase the severity and lethality of motor 
vehicle crashes. While 89.6% of American drivers and vehicle occupants 
used seat belts in 2018, more than 1 in 10 continued to put their lives 
at unnecessary risk, with tragic consequences. Almost half (47%) of 
people killed in motor vehicle crashes in 2017 were unbelted.\6\ Yet 
despite these data, only 34 states and the District of Columbia have 
primary enforcement of their seatbelt laws--meaning law enforcement may 
stop vehicles solely for belt law violations. Of the other 16 states, 
15 have secondary laws--requiring police to have another reason for a 
traffic stop--and one, New Hampshire, has no belt law.
---------------------------------------------------------------------------
    \6\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812662
---------------------------------------------------------------------------
    Primary seatbelt laws are proven to increase the rate of belt use 
and save lives. In 2018, 90.6% of passenger vehicle occupants were 
belted in states with primary laws, while only 86.4% of occupants were 
belted in states with secondary or no seatbelt laws.\7\ There should 
only be one acceptable level of safety. Public education and high-
visibility enforcement campaigns such as Click It or Ticket have 
increased public awareness of the dangers of driving unrestrained, but 
will only be most effective when accompanied by strong laws.
---------------------------------------------------------------------------
    \7\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812662
---------------------------------------------------------------------------
    In 2016, the National Highway Traffic Safety Administration (NHTSA) 
estimates that the use of seat belts in passenger vehicles saved 14,668 
lives and if all drivers and passengers had worn their seatbelts, an 
additional 2,456 lives would have been saved.\8\ In Oregon and 
Illinois, 16 and 52 lives respectively could have been saved with 100% 
seat belt use.\9\ Similarly, the Center for Disease Control and 
Prevention provides the Motor Vehicle Prioritizing Interventions and 
Cost Calculator for States (MV PICCS) to help policymakers determine 
the lives saved and costs of implementation of 14 different evidence-
based motor vehicle laws. When comparing Oregon and Illinois again, 
seat belt enforcement campaigns could save 16 and 35 lives 
respectively.\10\
---------------------------------------------------------------------------
    \8\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812454
    \9\ Ibid.
    \10\ https://www.cdc.gov/motorvehiclesafety/calculator/index.html
---------------------------------------------------------------------------
Impairment
    Another leading cause of roadway deaths is alcohol impairment. 
Every day, almost 30 people die in alcohol-impaired crashes in the 
United States--one every 48 minutes.\11\ Despite these data, our 
culture does not prioritize safety, with more than 1 in 10 drivers 
admitting to driving in the prior year when they thought they were 
close to or over the legal blood alcohol content(BAC) limit.\12\
---------------------------------------------------------------------------
    \11\ https://www.nhtsa.gov/risky-driving/drunk-driving
    \12\ http://tirf.us/wp-content/uploads/2018/12/RSM-TIRF-USA-2018-
Alcohol-Impaired-Driving-in-the-United-States-3.pdf
---------------------------------------------------------------------------
    The data are clear: drivers are four times more likely to crash at 
.05 than if they had nothing to drink.\13\ Most other industrialized 
countries have implemented a BAC of .05 or lower, changes which have 
been followed by decreasing numbers of fatalities from alcohol-impaired 
crashes. Lowering the BAC limit from .08 to .05 is proven to save lives 
on the roadways, and in the U.S. could save as many as 1,500 lives if 
implemented nationally.\14\ Utah is the first state in the U.S. to pass 
a law lowering the BAC to .05. NSC supports other states attempting to 
implement such legislation, and hopes to see federal legislation 
introduced to this end.
---------------------------------------------------------------------------
    \13\ Blomberg RD, Peck RC, Moskowitz H, Burns M, Fiorentino D: The 
Long Beach/Fort Lauderdale relative risk study; J Safety Res 40:285; 
2009.
    \14\ Fell, J.C., and M. Scherer. 2017. Estimation of the potential 
effectiveness of lowering the blood alcohol concentration (BAC) limit 
for driving from 0.08 to 0.05 grams per deciliter in the United States. 
Alcoholism, Clinical and Experimental Research. doi: 10.1111/
acer.13501.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: National Transportation Safety Board ``Safety Report on 
---------------------------------------------------------------------------
                 Eliminating Impaired Driving (2013)''

Speed
    The United States has a fatal problem with driving too fast. Just 
last week, the Insurance Institute for Highway Safety (IIHS) estimated 
that increasing speed limits over the past 25 years have led to 37,000 
deaths.\15\ Nearly 27% of roadway fatalities include speed as a causal 
factor, a factor that is even more deadly for our growing population of 
vulnerable road users such as pedestrians and bicyclists.
---------------------------------------------------------------------------
    \15\ https://gallery.mailchimp.com/6bedee967fbeb62935e59055b/files/
63d3f7b0-3f00-446b-9613-031039a61d02/
iihs_news_040419_emb.pdf?mc_cid=5154c704bc&mc_eid=ab62186d28

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As illustrated, at 20 miles per hour, 9 out of 10 pedestrians would 
survive being struck by a vehicle, but if you double that speed, 9 out 
of 10 pedestrians would be killed.
    It is not only pedestrians and other vulnerable road users impacted 
by excess speed, but also 9,242 motor vehicle drivers and occupants who 
died in 2017 in speed-related crashes.\16\ One evidence-based proven 
countermeasure for speed is automated enforcement. Automated 
enforcement is proven to reduce speed and save lives, but 
implementation must be done properly, with safety--not revenue--as the 
primary objective. NSC, AAA, the Advocates for Highway and Auto Safety 
and IIHS created the attached checklist to provide guidance to 
communities as they deploy automated enforcement. As you can see, the 
guidance encourages transparency and grace among enforcement actions 
given and dedication of the funds to safety, trauma care or similar 
purpose.
---------------------------------------------------------------------------
    \16\ NSC analysis of NHTSA FARS data
---------------------------------------------------------------------------
    There are other deadly problems on our roadways, like distraction, 
that we can do more to solve as well, and these issues should not be 
overlooked by this Committee.
                           advance technology
    Technology is an important disrupter that will continue to 
transform roadway safety well into the foreseeable future. To reach 
zero deaths, we need to encourage the development of innovations that 
address human failures and road design failures and, once proven, 
establish mandates for adoption of technologies that work. Further, 
this regulatory certainty and defined standards should drive 
interoperability and ensure meaningful outcomes. Additionally, data 
collection on serious and fatal crashes should be required in order to 
share consistent and verified information, and testing on public roads 
should be reported to the jurisdictions in which the tests occur. This 
level of transparency will help consumers better understand the 
technology and how to operate in it, with it and around it.
    Establishing performance standards and common nomenclature for the 
automated vehicle (AV) technology will also help encourage better 
understanding. Earlier this year, AAA released a report about the lack 
of consistency. In it, they found adaptive cruise control has 20 
different names and lane keeping assistance has 19 unique names.\17\ 
The trend continued with other technologies. These different names do 
not aid consumer understanding and acceptance. In fact, AAA also found 
that over 70% of consumers are afraid of fully automated vehicles.\18\ 
This reauthorization bill should help establish more standards for 
technology by building the necessary frameworks to support our desired 
outcomes to reduce deaths on the roadways, and it should include 
commercial motor vehicles too.
---------------------------------------------------------------------------
    \17\ https://www.aaa.com/AAA/common/AAR/files/ADAS-Technology-
Names-Research-Report.pdf
    \18\ https://newsroom.aaa.com/2019/03/americans-fear-self-driving-
cars-survey/
---------------------------------------------------------------------------
    As we sit here today, automakers, technology firms and others are 
developing partially and fully automated vehicles. The potential safety 
benefits of automated vehicles could be incredible. When ready, these 
vehicles will not glance down at their phone, speed through a red light 
or have an alcoholic beverage before getting behind the wheel--all 
mistakes that we as human drivers continue to make over and over again, 
with deadly consequences. To be clear, it will be decades before we 
have meaningful fleet penetration on U.S. roadways of AVs. In the 
meantime, there are significant technologies available in vehicles 
today, Advanced Driver Assistance Systems (ADAS) that can prevent or 
mitigate crashes. Consumer education about these technologies is key.
    While standards are essential, public education is also important. 
The National Safety Council is working to expand consumer education 
around these new technologies. NSC and the University of Iowa created a 
website, MyCarDoesWhat.org, to help. When a person visits 
MyCarDoesWhat.org, he or she learns about dozens of existing safety 
features such as lane departure warning, blind spot monitoring, backup 
cameras, automatic emergency braking and more. The MyCarDoesWhat team 
has developed videos, infographics and other informational pieces to 
help drivers understand how these technologies work and what they are 
capable of doing. The purpose of MyCarDoesWhat is to educate the public 
about these assistive safety features in order to maximize their 
potential lifesaving benefits.
    Additionally, the National Safety Council was a founding member of 
PAVE (Partners for Automated Vehicle Education), which launched in 
January. PAVE is a broad-based coalition that includes automotive and 
technology companies, safety and mobility advocates and community 
partners. PAVE members believe that in order to fully realize the 
benefits of self-driving technology, policymakers and the public need 
factual information about the present and future state of such 
technology. PAVE enhances public understanding through a variety of 
strategies including an educational website at PaveCampaign.org; 
``hands-on'' demonstrations allowing the public to see and experience 
driverless technology; and workshops to help policymakers understand 
the technology. In the future, PAVE will produce educational toolkits 
for car dealers to help them communicate more effectively with 
customers about their vehicles' capabilities and limitations.
    When it comes to technology, the U.S. prioritized safety years ago 
by dedicating spectrum for safety purposes to prevent crashes. Today, 
other groups would like to take the spectrum for streaming services. I 
urge this committee to direct the U.S. DOT, the Federal Communications 
Commission, the Department of Commerce and others to maintain the 
spectrum for roadway safety purposes allowing vehicles to communicate 
with each other, infrastructure, pedestrians and others to prevent 
crashes. This spectrum provides a safety margin that we should not give 
away.
                           prioritize safety
    By prioritizing safety, we commit to changing our nation's safety 
culture. This means we have to accept that any life lost is one too 
many. Once we accept that one death is too many, we will begin thinking 
about how to take a ``safe systems'' approach to our roadways. Fully 
adopted by the aviation industry, this means building fail-safe 
features that anticipate human error and developing infrastructure with 
safety margins.
    With the understanding that people will make mistakes, the built 
environment or infrastructure can be more forgiving to eliminate 
fatalities. Some of these changes may include engineering greater 
safety into a design. For example, in the pictures below, a multi-lane 
intersection with a red light in Scottsdale, Arizona was replaced with 
a roundabout. With the intersection, there are 32 potential points of 
failure, but with a roundabout, that is engineered down to only 8.\19\ 
Speeds are decreased, and if crashes do occur, they occur at angles 
that are not as violent.
---------------------------------------------------------------------------
    \19\ https://safety.fhwa.dot.gov/intersection/innovative/
roundabouts/presentations/safety_aspects/long.cfm

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Successful infrastructure redesign can also look like the picture 
below from New York City. The picture on the left shows two roads 
merging together without an area for pedestrians, and the lane lines 
are non-existent. However, the reworked merge incorporates clearly 
marked lanes of travel, large sidewalks and areas of less exposure to 
---------------------------------------------------------------------------
vehicles for pedestrians.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    These infrastructure changes are just as important in rural areas. 
Rumble strips on the center line or edge of roadways can prevent the 
roadway departure crashes that account for 52% of fatalities in the 
U.S.\20\ Cable median barriers can also provide a margin of safety to 
redirect people in to their lane of travel, and high friction surface 
treatments can decrease vehicle stopping distance on roadways. These 
are all tools we have available today.
---------------------------------------------------------------------------
    \20\ https://safety.fhwa.dot.gov/roadway_dept/
---------------------------------------------------------------------------
    Infrastructure changes can be expensive, but they do not have to 
be. Through the Road to Zero Coalition, NSC has awarded grants to 
groups across the country working in communities of all sizes. In the 
first year of grants, the National Complete Streets Coalition, which is 
testifying today too, worked with three communities: Lexington, KY, 
Orlando, FL, and South Bend, IN. Each city was provided only $8,000 
dollars from the grant for temporary infrastructure changes that you 
can see below to measure results. Each city had measurable improvements 
to safety even with a small dollar investment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The biggest and hardest change is the shift to truly prioritize 
safety by changing safety culture on the roads. We cannot be complacent 
when it comes to losing so many people each and every day on our roads. 
We need leaders in this area, and I can think of none better than the 
members of this Committee and Subcommittee. The reauthorization is the 
vehicle to accomplish this change. We have changed safety culture in 
workplaces, around child passenger safety and in other areas. We can do 
it here too with your help.
                            other provisions
    There are specific provisions in the FAST Act that can be improved 
to prioritize safety. These include:
    <bullet>  Altering the ``Section 405'' programmatic funds that 
largely go unused by reworking the program to give states different 
options
    <bullet>  Expanding the use of Highway Safety Improvement Program
    Additionally, the National Safety Council believes we can use data 
to better target roadway areas for safety improvements. Identifying and 
prioritizing dangerous areas of roadways for safety improvements can 
save lives.
    Several states have provided estimates to the U.S. Department of 
Transportation that the fatalities in their states will increase. 
Focusing the spending in those states on safety to prevent this 
projection from coming true should be a priority for Congress.
    There are evidence-based safety solutions that federal dollars are 
prohibited to purchase or federal safety programs that have been cut, 
but there are several comm unities that would like to employ a range of 
options that will improve safety. Allowing flexibility in federal 
spending for evidence-based safety improvements can save lives, and I 
urge this committee to re-evaluate some of those restrictions on 
technology like automated enforcement and other programs.
    NSC looks forward to working with this Committee to fully develop 
these provisions.
                               conclusion
    You have an opportunity in front of you to prioritize safety, and 
the National Safety Council is committed to working with you to reach 
zero fatalities on our roadways. I hope you will join me in saying 
enough is enough and start down the Road to Zero. It is not impossible. 
It just hasn't been done yet.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Norton. Thank you very much, Mr. Smith.
    And I want to thank all of you for your testimony today.
    We will now move on to Members' questions. Each Member will 
be recognized for 5 minutes of questions.
    I now recognize myself.
    And this is a question for all of the witnesses. This is 
frustrating to hear this testimony. Congress has spent some 
considerable funds to reduce highway deaths, and yet we hear 
that it has not, in fact, gone much below 35,000 a year since 
the 1950s.
    I mean, this is a country used to making some progress. 
Now, I recognize that much of this lies with local and State 
authorities, but I would like to ask all of you, and I will 
begin with Ms. Homendy, but it is a question for all of you.
    What in your view, and I recognize that there are many 
things that each of you think should be done, but I am trying 
to focus on major things now; what is the single most important 
thing that you think Congress can do to reduce the number of 
roadway fatalities, bearing in mind the State and localities 
are where the action is?
    So could I start with Ms. Homendy and just go on down the 
line?
    Ms. Homendy. Thank you very much for the question.
    And it is hard for the NTSB to pick one thing over another. 
So something I will say is it is a comprehensive approach.
    From our standpoint, it is effective guidance to the 
States. It is enforcement, high-visibility enforcement, 
education for drivers and others, and engineering, and that 
includes vehicle technologies, other technologies like 
collision avoidance systems, speed limiters, and better data.
    Ms. Norton. Yes, sir, Mr. Jones, Vice Mayor Jones?
    Mr. Jones. Thank you.
    Again, I think it has a lot to do with priorities and 
accountability. I think there are a lot of great tools in the 
toolbox to do good design. We have great examples of where we 
have retrofitted our streets to make them accessible and safe 
for all users.
    But again, I mentioned there is this disconnect between 
these large policy frameworks and the actual implementation. 
Sometimes I think it has a lot to do with just the culture. You 
know, engineers are often trained and their priorities are 
about moving cars as quickly and efficiently through 
communities as possible.
    And I think there needs to be a greater focus in on sort of 
changing the paradigm a little bit and prioritizing funding to 
do things like Complete Streets.
    I mean, Florida DOT, for example, the State has a wonderful 
Complete Streets policy, but what ends up happening is by the 
time it gets down to the local or the district level, a lot of 
times it falls by the wayside.
    And I think what we need is some more accountability to 
say, ``Look. We can do these projects. Let's put a pot of 
funding that is dedicated solely to this effort and start to do 
more demonstration projects so people can see the benefits of 
these types of improvements in retrofit.''
    Ms. Norton. Chief Brown?
    Mr. Brown. Very briefly, I would say that, frankly, we 
should really change the narrative from the standpoint, and I 
put this in my written comments, to drive home the importance 
of what we are talking about.
    A lot of times the threat to the public and the individual 
road users, whether they be pedestrians, bikes or motorists, is 
lost in the discussion of the authorization regarding roadway 
use and construction and everything else.
    I put in my testimony a comment that I truly believe and I 
have said many times over. When you knock on a door and you 
wake somebody up and you tell them they have lost a loved one 
or a friend, it does not matter if it is bullet or a fender. 
The same shock is there.
    Our officers across this country deal with that on a daily 
basis, as do professionals in the medical field and do it at a 
hospital, and yet we ignore this as a national issue.
    What we compete with in the law enforcement arena are other 
public health and public safety issues. The opioid task issue 
is a huge issue across this country. We are dealing with it, 
but no one says it with the same loud depth and a voice as it 
applies across this country, and yet it affects so many people 
and so many families.
    That is the national narrative, I think, that frankly 
Congress could tee up and charge all of us to do better at.
    Ms. Norton. Mr. Bruemmer?
    Mr. Bruemmer. The Highway Safety Improvement Program 
requires data-driven results from State DOTs. DOTs have data on 
where accidents happen. They lack the funding a lot of times to 
combat the problem. I think that is probably one of the most 
useful systems that Congress has at its disposal, is the 
ability to identify where crashes happen, where fatalities 
happen, and the ability to take action and provide results.
    Ms. Norton. Mr. Sewell?
    Mr. Sewell. I would like to echo a lot of what Mr. Jones 
has said. We have great tools currently as engineers and 
planners of our transportation network. The biggest issues are 
the data sets that we are using to identify where those issues 
could occur, and then the funding is always an issue.
    So I think for Congress to show leadership on both how we 
are attacking these to be more proactive and keep people safe 
as well as the pot of money that can be allocated towards 
safety projects are the two biggest things for me.
    Ms. Norton. I'm going to allow Mr. Smith to answer briefly.
    Mr. Smith. Of course. I certainly agree with everything 
that has been said here on the panel, and it really comes back 
down to the culture and addressing the culture. We would not 
accept this in the aviation industry, and we cannot accept it 
on the roadways.
    Ms. Norton. Thank you very much.
    I am going to now recognize the ranking member, Mr. Spano.
    Mr. Spano. Thank you, Madam Chair.
    I represent a district, as I think maybe many of the 
Members on the dais do, that has urban areas and rural areas, 
and so you know, the differences in terms of the needs and the 
guidelines vary so greatly.
    So how does the next surface transportation reauthorization 
bill address the differing needs between rural and urban areas? 
That is the first question.
    And then how do you create or fashion a comprehensive bill 
that maybe is necessary to obtain compliance while still giving 
local folks some authority and wiggle room to best use those 
directions or directives to suit the needs of their local area?
    I know that is a big question, but maybe you could each 
address that.
    Ms. Homendy. Thank you.
    And from our perspective, we have a number of safety 
recommendations we have issued. For NHTSA we have 108 safety 
recommendations that are open that we would urge Congress to 
address in the upcoming reauthorization.
    And from our standpoint, those issues regarding safety, it 
does not discriminate whether you are on a highway, whether you 
are on a rural road. They are critical safety issues that need 
to be addressed like impairment, adopting .05 instead of having 
.08; addressing speeding.
    There are a number of pedestrian safety issues that could 
also be addressed that we can get into in this hearing, but I 
think addressing those big safety issues would be critical 
because, like I said, it does not matter if you are on a 
highway or on a smaller road. These are still critical safety 
issues.
    Mr. Spano. And if I might interject, Chief Brown, I think 
you more so than any of the other members on the panel stressed 
the need for some local input, control in terms of the 
decisionmaking process.
    So how do you square some of the broader requirements with 
the need to have that flexibility?
    Mr. Brown. That is an excellent question, and quite 
frankly, there is a framework in the FAST Act that allows you 
to do some of that, but it gets down to the implementation of 
it. Nobody should be just given a block grant for traffic 
safety activity, but I think you can certainly use the FAST Act 
ideas and concepts to justify the need for it and tailor it to 
the local issue.
    And then the other key is to fund it. Unfortunately, 
oftentimes there is influence in that process as far as the 
allocations go where some projects do not get funded and some 
do.
    And in some cases, it is discouraging for some local law 
enforcement, and frankly, some local communities may not have 
the capacity to drive even the grant application process, to be 
real frank, even today.
    I would say that the more we provide an opportunity and a 
framework that is more detailed, but provides the flexibility 
to address the local issues, I think you can incorporate the 
same things that we are talking about here on this panel.
    The major issues are mostly across the country to one 
degree or another.
    Mr. Spano. Vice Mayor?
    Mr. Jones. Thank you.
    And that is a great question, and it really points to the 
issue of context. And when we talk about Complete Streets, they 
certainly do look much different in a rural context than, say, 
in very urban areas, but yet they are still complete.
    And, again, I want to emphasize here that we are not 
talking about freeway design but rather what often happens is 
that sort of mentality ends up going to the local issue. So 
there is this mismatch where we think about how we design a 
freeway, and then we might apply it to what should be a local 
street with maybe two lanes and an opportunity for cyclists and 
pedestrians.
    And I think when it comes to addressing the issue of 
incentives, I think the more that we can offer to local 
jurisdictions, you know, in terms of additional funding when 
they actually meet the performance standards, that is an issue. 
It is really about accountability.
    So if local jurisdictions can show that they are doing 
these projects, improving safety, reducing the loss of life, 
then perhaps they should be getting more money.
    Mr. Spano. Mr. Bruemmer?
    Mr. Bruemmer. Engineers have said that we are on the cusp 
of the largest revolution in surface transportation since the 
switch from horse and buggy. I think technology moves us 
forward and changes a lot of the dynamics that differentiate 
local versus rural.
    I think there needs to be a coalition of manufacturers from 
auto industry to surface transportation industry that create a 
cohesiveness between what we do moving forward. Things that 
most people do not think about that I think about every day are 
pavement markings. The auto industry has said what we need to 
drive our cars machine-wise is good pavement markings.
    I think the discussion needs to be brought from industry to 
make it all work so that we make the right steps moving 
forward.
    Mr. Spano. I apologize, Mr. Sewell and Mr. Smith. I do not 
have any time remaining.
    Madam Chair.
    Ms. Norton. Thank you, Mr. Spano.
    Mr. Carbajal.
    Mr. Carbajal. Mr. Chairman, Madam Chair.
    And thank you to all of the witnesses for being here today.
    Mr. Bruemmer, according to the National Safety Council, 
injuries from motor vehicle incidents totaled more than 4.6 
million in 2017. The National Highway Traffic Safety 
Administration estimates that over 37,000 people lost their 
lives in accidents on U.S. roadways in that same year.
    In my district, Highway 46 is sadly known as Blood Alley 
due to the countless fatal crashes over the years. As we begin 
our work on a surface transportation reauthorization, what are 
some concrete actions Congress can take to make our roads 
safer?
    And, two, as we make greater strides in artificial 
intelligence and self-driving vehicle technologies, how can we 
start integrating this technology into our road planning?
    Mr. Bruemmer. Thank you.
    As I mentioned before, I think technology is moving at a 
rapid pace from the auto industry. Unfortunately, they have 
kept their cards close to their vest from our side of the 
industry, but as we move forward, the discussion is now 
becoming more open that how does technology act with 
infrastructure. How does V2I move the conversation forward?
    I think that in the very near term, I think that progress 
can be seen. At the national level from Congress, I think it is 
focused on you are already aware of the major problem that you 
have on Highway 46. That is the start.
    Now the problem is talk to the engineers. Talk to the DOT. 
How do we fix this problem? And how do we bring a package from 
Congress that can help the State best rectify this problem?
    Mr. Carbajal. Thank you.
    Ms. Homendy, in your testimony you reference the ``most 
wanted list'' of recommendations for highway safety. One of 
NTSB's recommendations is for the Department of Labor to 
develop and disseminate guidelines on the dangers of driving 
while tired.
    While it seems obvious, I want to ask you. Why are these 
guidelines necessary?
    Ms. Homendy. Thank you for the question.
    And if you do not mind me adding one thing to what the 
gentleman said on technology, there are safety technologies 
available today which are the building blocks to automated 
vehicles that you could use to save lives today. So we do not 
have to wait until those are on the road.
    So I just want to put that out there.
    On fatigue, a lot of the work that has been done by the 
NTSB has focused on commercial motor vehicles and not on autos, 
and a lot of that is focused on needing science-based hours-of-
service standards, no exemptions to those standards, having 
fatigue management plans in place, implementing and using 
electronic logging devices, and screening diagnosis and 
treating of sleep apnea for FMCSA to do rulemaking in that 
area, and installation of collision avoidance systems which 
could help combat fatigue.
    Mr. Carbajal. Thank you very much.
    Madam Chair, I yield back.
    Ms. Norton. Thank you.
    And I want to call next Mr. Gallagher.
    Mr. Gallagher. Thank you very much.
    I thought it would take me 30 years to get up here at the 
top, but----
    [Laughter.]
    Mr. Gallagher [continuing]. You know it is only going to 
last a couple of minutes. So I just want to savor it for a 
second.
    [Laughter.]
    Mr. Gallagher. Ms. Homendy, forgive me if I am 
mispronouncing that. In your opening statement, you noted that 
pedestrian deaths on our roadways have been increasing since 
2010. In 2016, nearly 6,000 pedestrians died in collisions with 
highway vehicles in the U.S. That is an average of 16 per day.
    And according to NTSB's 2018 special investigation report, 
roughly 28 percent of those deaths occur on rural roads.
    My district in northeast Wisconsin has a lot of rural 
roads, and I know this was talked about a little bit before, 
but could you expand on whether there is a difference in NTSB 
safety recommendations for urban versus rural roads?
    Ms. Homendy. For the pedestrian safety study, we did find 
that there were more fatalities in urban environments and that 
18 percent of the fatalities occurred at intersections, 72 
percent at nonintersections, and 10 percent at other locations.
    Mr. Gallagher. I appreciate that.
    And for anyone on the panel, can you comment perhaps on the 
impact that commercial trucking has on pedestrian and 
nonpedestrian fatalities, if at all?
    I do not know who wants to volunteer. Who is brave? Sir, 
you look eager. If not eager, reluctantly willing to step up.
    Mr. Brown. If I could, sir, I am not so sure that that is a 
high-priority issue in terms of the representation in 
fatalities and injuries. Unfortunately, when those incidents 
occur, because you are dealing with the principle of physics, a 
bigger vehicle against a human being is not going to come out 
well for the human being.
    But generally speaking, I am not aware of a significant 
change in that kind of an environment under the scenario that 
you suggested.
    Mr. Gallagher. Well, let me perhaps ask it a different way 
and sort of reveal what I am getting at here.
    So commercial trucks following local laws in 29 States are 
barred from using the Federal interstate which then forces them 
in many cases to stay on winding secondary roads where there 
are a lot of pedestrian crossings, bicycles, school crossings, 
traffic lights, and other obstacles, right?
    So in 2009, we in Congress authorized a pilot program in 
Maine that found that allowing these commercial trucks on the 
interstate even for short distances actually decreased 
fatalities by 37 percent, which makes sense, right?
    If you have these trucks sort of off the rural winding 
roads where there are a lot more pedestrians, perhaps they 
would avoid that unfortunate encounter that you referenced.
    So I just would ask particularly those who are 
representatives at the State and local level: would you in 
theory support States having the option of allowing some of 
these commercial trucks to use the Federal interstate for short 
distances in order to reduce highway fatalities?
    Mr. Brown. It would depend upon what type of commercial 
vehicle we are talking about. Commercial vehicles are very 
broad. You can have those that involve the transportation, for 
example, of certain hazardous commodities, whether they are 
interstate or intrastate. There is a difference in that as far 
as title 49.
    Mr. Gallagher. Yes.
    Mr. Brown. In addition to that, there is also the concerns 
about what our local communities want in their backyard.
    We do have bypass traffic because of congestion and 
congestion mitigation efforts made by commercial drivers at 
times. But I think you will find that most local folks would 
love to have the local control over what is migrating through 
their cities.
    But whether or not those vehicles should be allowed on an 
interstate vis-a-vis through sort of thing, it would depend 
upon what they are trying to move, quite frankly.
    Mr. Gallagher. Yes. And for us in northeast Wisconsin, 
logging is a big issue. You can imagine logging trucks, giving 
them the ability to for a short distance, 150 miles, use the 
Federal interstates.
    I do not know if anyone has dealt with any of these issues 
and wants to chime in.
    Mr. Sewell. If I may real quickly, what you are speaking 
about is very closely tied to land use.
    Mr. Gallagher. Yes.
    Mr. Sewell. And when you are trying to provide access not 
only to commercial vehicles or you name it type of vehicle to 
get to a place they have to do business and you couple that 
with where we are focused on multimodal pedestrian and bicycle 
safety, establishing clear context for corridors and then 
assigning certain vehicles to allow access to places that 
eliminate conflicts and minimize, as was mentioned, that speed 
differential between higher moving vehicles and pedestrians or 
slower moving vehicles is a great idea.
    Mr. Gallagher. Yes. Well, thank you all for being here 
today.
    And I yield the balance of my time.
    Ms. Norton. Thank you, Mr. Gallagher.
    And I do want to note that the subcommittee will be having 
a hearing on trucking and truck safety will be included in 
that. It is an important issue.
    Mrs. Craig.
    Mrs. Craig. Thank you so much, Chairwoman Norton.
    Ms. Homendy, your testimony particularly spoke to me. My 
stepsister lost her life in one of those intersections in 
Portland, Oregon. So she left a kindergartner to be raised by 
his dad and a family that was changed forever.
    So you know, I appreciate that the title of this hearing is 
``Every Life Counts.'' I grew up in a family where that life 
was lost. So thank you all for being here.
    What I want to follow up on is just this comment about the 
rural areas. I come from Minnesota's Second Congressional 
District, and according to the 2016 Federal Highway 
Administration data, rural areas account for 30 percent of 
total vehicle miles traveled. Yet 50 percent of roadway 
fatalities take place in rural areas.
    As Mr. Bruemmer noted, over a 4-year period, the Minnesota 
DOT installed cable barriers in 31 segments along 150 miles of 
roadway. In the 3 years prior to installation, there were 19 
fatal cross-median crashes, and in the 3 years following, there 
were zero.
    I would love to hear from you about those types of policy 
recommendations. Obviously, that is infrastructure investment.
    You also talked about speed and alcohol use. Is there any 
difference in these rural areas?
    And what recommendations would you make? Perhaps maybe 
start with Mr. Brown.
    Mr. Brown. Yes, ma'am. The solution or the proper way to 
address many of the things that you are talking about in the 
rural areas does require a little bit of a combined approach 
actually.
    I have seen over and over again where infrastructure like 
center divider medians, Jersey walls, things to prevent 
crossovers will increase survivability in the case of a crash.
    But a lot of it has to do with behavior. So a lot of the 
things that you see in an urban environment involving impaired 
driving and the like we will see in a rural area.
    I have had the privilege in my career of working in rural 
areas, and I know exactly what you are talking about in terms 
of, you know, the tragedies sometimes are even worse because of 
the speed that is involved in those kinds of situations.
    It is kind of hard to go downtown in Alexandria at 85 miles 
an hour. It is much easier in a rural area, and that will 
complicate survivability in many cases.
    Mrs. Craig. Does anyone else have a thought on any of those 
factors in rural areas? Anything to add?
    Yes, sir.
    Mr. Sewell. Thank you for the question.
    I will tack on, too. It is very difficult to engineer bad 
decisions out of drivers, but one of the things that we can do 
is better influence user behavior.
    There is an infamous NHTSA quote. I believe it is 95 
percent of errors everywhere in our transportation system are 
human error. I think there is a role in engineering and 
planning that you can eliminate user error or cut it down by 
positively influencing user behavior, by designing predictable, 
safer transportation connections.
    Mrs. Craig. Thank you.
    Madam Chair, I yield the remainder of my time.
    Ms. Norton. Thank you very much.
    I would like to call next on Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairwoman.
    I grew up in a rural area of northwest Alabama and 
unfortunately saw several fatal highway accidents, and the 
thing that gets me about a lot of drivers is how many people do 
not wear seatbelts.
    There was a report that came out in 2002 that indicated 
there were 43,005 traffic fatalities, and of that, 19,103 were 
not wearing seatbelts. I think a later report said we would 
average saving over 4,200 lives a year if just 90 percent of 
occupants wore seatbelts.
    I do not know what we can do. I know in Alabama we have 
seatbelt laws. If you do not have a seatbelt on, you get a 
ticket, but that just seems to be one of the most commonsense, 
easiest things you can do to increase your survivability of an 
automobile accident.
    Do you have anything to add to that, Ms. Homendy?
    Ms. Homendy. Yes. The single greatest defense against death 
and injury is the use of effective safety equipment. So whether 
that is seatbelts or age appropriate restraints for younger 
children, those are things that the NTSB has recommended, but 
also for all seating positions in a vehicle, not just in the 
front seats.
    And we have encouraged States to adopt primary enforcement 
laws so that when law enforcement officers pull a motor vehicle 
over that they can issue a ticket for not wearing seatbelts, 
not that you have to have another reason.
    Alabama does have a primary enforcement law, but some of 
the other States do not. You have to have another reason to 
issue a ticket for not wearing a seatbelt in some of the 
States.
    Mr. Palmer. Yes. Chief Brown, first of all, I want to 
commend your department on its response to the shooting at the 
baseball field. I was there. I was 20 steps from the guy. So I 
really am grateful for the courage of the officers who 
responded that day.
    Also, I would say the issues with impaired driving and the 
texting, and there is a big push for that, too. Is your 
department writing many tickets dealing with that?
    Mr. Brown. First of all, sir, thank you very much for the 
compliments of our officers. We were very proud to serve that 
day. It was a very difficult day for us as well.
    If I may also add, in terms of the seatbelt issue, it ties 
in with these others as well. There are a lot of assumptions 
made, I think, by motorists and others that it is not going to 
be them.
    And in the case of occupant protection, your survivability 
in a crash is entirely dependent upon, especially with airbags, 
on the use of that seatbelt. It is an integral part of the 
engineering that goes in there. And people do not wear their 
seatbelt and they get severely injured.
    In impaired driving and also in speeding and all the 
topical issues that have been mentioned on this panel and by 
the chair are addressed daily across this country with law 
enforcement.
    The real question is: what are they having to compete with 
at the same time they are addressing those issues? And the 
demands upon law enforcement in this Nation right now are 
incredible.
    The mental health requirements that we are having to deal 
with, the issues related to that, the drugs, opioids are high-
priority issues for our communities. Traffic in some 
communities is high priority. It is in our city, but it is not 
that way across the country, and somehow that needs to change.
    Mr. Palmer. There is just one other issue I want to 
address, and that is the corporate auto fuel economy standards 
that impose the miles per gallon standards, which necessarily 
resulted in a lot of smaller, lighter vehicles being made.
    I think there is the safer, affordable fuel-efficient 
vehicles rule that is going to retain the 2020 model year 
standards, and they are estimating that that could save $500 
billion in societal costs and save almost 13,000 lives.
    I am concerned as the father of two girls and one son. My 
first daughter, I bought her what I called a rolling airbag 
because of concerns for vehicle safety.
    But as we go to more electric vehicles, you are going to 
have a disproportionate problem there with weight if that 
vehicle is involved with a lighter vehicle.
    I just want your thoughts on retaining the 2020 model year 
standards.
    And what are we doing to compensate in vehicle 
manufacturing? Because even my pickup truck now gets almost 21 
miles per gallon on the road. It is lighter than the truck I 
had before.
    Any thoughts on that, Ms. Homendy?
    Ms. Homendy. We have not looked at--that is not something 
we have looked at in CAFE standards. So----
    Mr. Palmer. In terms of overall----
    Ms. Homendy. In terms of mass, I mean, there--when it comes 
to crashes, we have looked at crashes, obviously, involving 
different motor vehicles, trucks with motor vehicles. So the 
mass of the vehicle definitely impacts what occurs in the 
tragedy, but it is not something that we have really focused 
on, the difference in the light vehicles versus heavy vehicles, 
to my----
    Mr. Palmer. Mr. Jones, did you want to respond to that?
    Mr. Jones. Yes. I just wanted to say, you know, being from 
northeast Florida, there is definitely a culture in terms of 
where we drive larger trucks. And, I mean, just traveling 
around I can see the difference. Every day when I am driving, 
probably 80 percent of the vehicles that are on the road are F-
150s and larger SUVs, and that is part of the problem that we 
are seeing. And pedestrians and cyclists and other folks are 
really at a severe disadvantage when it comes to that. So that 
is----
    Mr. Palmer. As are the smaller----
    Mr. Jones. That is a tradeoff, yes.
    Mr. Palmer [continuing]. Smaller vehicles.
    I have gone over my time, Madam Chairwoman, I thank you for 
your patience with me, and I yield back.
    Ms. Norton. Thank you very much.
    Mr. Garcia?
    Mr. Garcia. Thank you, Madam Chair, as well as Ranking 
Member Davis, for holding this hearing.
    The statistics are very sobering and stark with respect to 
people who were killed on U.S. roadways in 2017: 37,000 and 4.6 
million people were injured in 2017. I also marked a high in 
Chicago roadway fatalities. We went from 119 traffic-related 
deaths in 2016 to 132 in 2017. Many of the areas that I 
represent in the city of Chicago are considered high crash 
corridors, according to Chicago's Vision Zero plan. And many of 
them are in areas that have commercial strips, retail 
commercial strips in them.
    I would like to ask a question of Ms. Homendy. In Illinois 
we have had a dozen vehicle crashes where vehicles that were 
stopped--involving law enforcement stops, where--this happened 
in January, an Illinois State trooper, Christopher Lambert, 
stopped to assist with a crash and was struck and killed by a 
passing motorist. He is now 1 of 16 Illinois State troopers 
that have been killed in accidents starting the beginning of 
this year.
    I understand that the automatic emergency braking, or AEB, 
could help to prevent these crashes, and the NTSB has 
recommended the installation of this technology on all new 
passenger motor vehicles. Despite this recommendation, the AEB 
is not standard equipment in all new passenger vehicles. Why 
has the NTSB made such a recommendation, and what are the 
benefits of the recommendation, and why should AEB be standard 
equipment for all new vehicles?
    Ms. Homendy. The NTSB has issued several recommendations 
regarding collision avoidance, including AEB and forward 
collision warning, to prevent deaths such as the one that you 
mentioned in your statement just a minute ago.
    The National Highway Traffic Safety Administration has not 
implemented those recommendations, and they are crucial for 
preventing fatalities and injuries. And so we are hopeful that 
they will move forward on those.
    Mr. Garcia. Thank you.
    For Mr. Smith, according to Forbes, 10 automakers will be 
equipping half of their vehicles in 2018. In fact, NHTSA 
Administrator Heidi King recently said, ``Technologies like 
automatic emergency braking can help make cars safer on roads, 
which means Americans are safer when traveling.''
    Are AEBs a sensible step in the right direction? And why 
should they be considered for large and heavy trucks, as well?
    Mr. Smith. The work that we have done indicates that, in 
fact--that important technology. And we would suggest looking 
at all the technologies that are out there being developed. But 
this is a particularly important one to help reduce the rate of 
fatalities. And we would also encourage it being looked at in 
our commercial vehicles, as well, as an important way to reduce 
those fatalities. So we certainly think this is one of--as you 
think about those big impacts, one of those areas where you can 
have big impact, in terms of reducing fatalities.
    Mr. Garcia. Is it your sense that we are on the cusp of a 
significant breakthrough in safety, if recommendations like 
those you have made are actually implemented?
    Mr. Smith. I think that those are going to help us on the 
path. The reality is as we convert the fleet of total vehicles 
on cars, it is going to be a slow process, just because of the 
turnover and the average age of cars, and things like that. But 
it is important we start implementing those things as the 
technology is proven today, recognizing there is that lag with 
respect to the integration into the broader fleets.
    Mr. Garcia. Thank you, Madam Chair. I yield back my time.
    Ms. Homendy. Can I add one thing to that, Congressman?
    Mr. Garcia. Sure.
    Ms. Homendy. Those technologies are available today, and we 
know from research that they are proven to save lives. And so 
what the NTSB has said is that they should be standard on all 
vehicles. Unfortunately, in many vehicles you have to pay for 
safety upgrades. In our view, safety is not a luxury. Those 
should be standard on all new vehicles, whether it is a heavy 
truck, a passenger vehicle, a motorcoach, or a schoolbus. They 
can and should be implemented today.
    Mr. Garcia. Thank you for interjecting.
    I yield back, Madam Chair.
    Ms. Norton. And thank you, Mr. Garcia.
    Mr. Webster?
    Mr. Webster. Thank you, Madam Chair.
    Ms. Homendy, I listened to your testimony and you talked 
about ending alcohol and other drug impairments in 
transportation. You said in 1990 you first started printing 
statistics in that area about different modifications that 
could be done. I listened to that.
    I was in the State legislature then. I passed a law raising 
the drinking age to 21, lowering the blood alcohol to .08 and, 
for those under 21, .02. There was an open container law that 
we banned, and boots for repeat offenders on their vehicles, 
and some other things that we did. And I know those had an 
effect. I know those helped. And now you have got .05.
    To me the statistics seemed to prove that many of the 
problems come from substance abuse, or alcohol. And yet, when 
you get into really changing the system, you can do those, 
those are certainly laws that can be passed, and I was in full 
favor of those. But when it gets down to really limiting what 
you can consume, there is a strong lobby against that. And so 
if you try to do dram shop legislation, which keeps a bartender 
from serving somebody visibly intoxicated, it is going to be 
killed every single time, and other things.
    I just think if you picked out one thing, I would say 
impairment, especially from external sources, has got to be a 
major, major issue that, even though we have scraped the edges 
and done some things, not really hitting the core. Have you got 
any ideas about that?
    Ms. Homendy. Yes. Impairment is a significant issue. Ten 
thousand people lose their lives annually due to alcohol-
impaired-related crashes--or more than 10,000.
    The NTSB has recommended reducing the BAC limit from .08 to 
.05 or lower. What we say, though, is it is not about stopping 
consumption. You can consume alcohol, you just can't drive in 
addition to it. And impairment, from all the research we have 
looked at, begins at the very first drink. There are 
significant challenges, a decline in visual functions, at .02; 
reduced coordination at .05. And so, when you talk about .08, 
then that makes the situation even worse.
    And so, from our standpoint, it is reducing the BAC limit 
to .05, requiring ignition interlocks for all offenders, not 
just repeat offenders.
    One thing that we found in the research is that by the time 
a first-time offender is convicted, they have driven impaired 
more than 80 times. And so we believe ignition interlocks for 
all offenders. And then, of course, in-vehicle technologies, 
which exist today, to prevent drivers from operating motor 
vehicles while impaired.
    Mr. Webster. So there is other substances. You mentioned 
marijuana, and yet we just marched down this road of saying it 
is fine, nothing wrong with it. And yet have you seen any 
statistics related to that?
    Ms. Homendy. The data on marijuana is just not there. 
Unfortunately, we know how alcohol affects the human body, we 
just don't know how marijuana does. For one--and we--and 
because of that we don't have an impairment standard.
    And so, to determine impairment is so difficult because you 
have to look at how it is ingested, whether it is ingested, 
whether it is smoked, how frequently it is used. It changes, 
based on body factors. So we have recommended that NHTSA issue 
guidance to States to inform law enforcement officers when they 
should require testing, how they should do testing, what 
methods the laboratories should use, and cut-off levels. 
Because right now States are handling it all very differently.
    Mr. Webster. OK, thank you. My time is out. Thank all of 
you for appearing. I yield back.
    Ms. Norton. Thank you very much.
    Mr. Espaillat?
    Mr. Espaillat. Thank you, Madam Chair. I want to thank the 
witnesses for your testimony. The safety of roads is incredibly 
important for New York City, so much so that it was one of the 
first issues our mayor, Bill de Blasio, took on when he 
announced Vision Zero, a very ambitious program.
    Just this week I reintroduced legislation, the Stopping 
Threats on Pedestrians Act, or STOP Act, that will help 
localities install bollards in highly trafficked areas with 
many vulnerable users. Bollards in Time Square, New York City, 
were specifically cited as having prevented further deaths when 
a driver tried to use his vehicle to attack nearby pedestrians.
    The lack of bollards, some may argue, unfortunately, didn't 
prevent the terrorist attack that occurred on October 31st, 
2017, when a pickup truck went on the Hudson River bike path 
and killed many tourists that were in the area. I think that, 
in many ways, including this bill can help local governments 
address safety issues head on.
    Mr. Sewell, your testimony recommends changes to the 
Highway Safety Improvement Program to ensure that States spend 
funding on infrastructure improvement in proportion to the 
specific types of safety problems the State encounters. Could 
you elaborate a little bit more on that?
    And particularly with regards to the use of bollards and 
the prevention of potential terrorist attacks, how do you see 
that playing out? Do we need to fund these very specific 
programs that can save lives?
    Mr. Sewell. Well, I appreciate your question. And in the 
example that you gave, the use of bollards in certain settings 
is a proven countermeasure for restricting the flow of larger 
vehicles on certain designated routes. So on the greenway that 
you just mentioned, the installation of bollards in restricting 
the flow of those could be an absolute, you know, lifesaver.
    In terms of the HSIP and redirecting, you know, to fund 
proactively the fixes that you just mentioned, I believe it is 
a good idea. I think that if you look at the percentage of 
accidents that happen--or not accidents, but crashes that 
happen, and the loss of lives that happened, I think it should 
be an equity-based--we should have a proportionate amount of 
money dedicated to saving those lives.
    So yes, I agree with you completely.
    Mr. Espaillat. And do you support providing local 
governments more control over how the program should be funded, 
and where to implement these new strategies to prevent death? I 
mean I think there seems to be--local governments really know 
where these hot spots are at, right? And do you feel there 
should be more leverage, more flexibility in terms of how the 
funding is used?
    Mr. Sewell. Yes, and I could not agree more. I think giving 
local municipalities where--if they are rural or urban 
settings, they are going to know best their constituents, what 
their local people are engaging and how they are engaging on 
their transportation network. And I absolutely think they would 
be the best to direct the funds in an appropriate manner, yes.
    Mr. Espaillat. Madam Chair, let me just stress again the 
importance of these initiatives and the ability for 
municipalities to be able to determine where to spend the 
funding, and they get a fair share of funding to install 
bollards and other strategies that could prevent terrorist 
attacks.
    We have seen how, in New York City, that was tragic, and we 
also saw in Times Square how the bollards helped prevent deaths 
there, as a driver, a reckless driver, tragically went on the 
sidewalk and basically ran down people.
    But we must consider local opinions about where to place 
these. I think local law enforcement is also well equipped to 
let us know here in Washington where the hot spots--how we can 
spend the money and how we can save lives.
    Any additional comment?
    Mr. Sewell. One quick one. On Times Square, in particular, 
that is a great example of a proactive fix. It was identified 
that it is a heavily used pedestrian area, and so it was 
decided to invest in place-making for that locale. And you see 
the result, in terms of not only adjacent businesses reaping 
the benefit of having a nice, fun place to interact, but, as 
you mentioned, the restriction of motor vehicular traffic 
reduces that conflict to basically zero. So I think that is a 
great example. I wanted to tack that on. Thank you.
    Mr. Espaillat. Thank you, Madam Chair.
    Ms. Norton. Thank you very much.
    Mr. LaMalfa?
    Mr. LaMalfa. Thank you, Madam Chair. A lot of ideas here 
today. What I don't hear often enough is, to me, happy drivers 
are drivers that are moving and getting to where they want to 
go. When you have happy drivers, less frustration, all that, 
things go better.
    Just coming in from the airport yesterday we saw a road 
rage thing break out because the two guys tried to occupy one 
spot on the on-ramp. And you know, so the infrastructure 
emphasis, I think, is really important, that we can actually 
have systems that move traffic better. Most of the time I hear 
the solutions are ways to corral people and make them where 
they can't go where they want to go, and that is just highly 
frustrating.
    Some of the emphasis I have heard in the committee today is 
the impairment. I think that is extremely important that we get 
after people that are driving incompetently, whether it is 
under influence of alcohol. And this marijuana thing, you know, 
we have State after State just rushing to legalize this for 
normal use.
    When I was in the California State Legislature it was 
interesting. There was a bill early on for, basically, where 
you couldn't discriminate against people that were on medical 
marijuana--where it was only medical at the time was supposedly 
legal--and the list of exemptions to where you couldn't 
discriminate against an employee were all the important things, 
like operating equipment and being trusted with large amounts 
of money, and things like that. And so the areas where you 
didn't want people acting that--being under that influence were 
actually the important ones.
    And so we have next to zero data on marijuana, yet there is 
research out there that I think we can point to that would 
start to get a baseline for what you could do with marijuana-
influenced people, because everybody, I think, intuitively 
knows that marijuana influence does slow down your thinking 
ability and your ability to process more than one thing at a 
time. And people are amazing at how they can drive and think 
about 10 other things--you know, not necessarily good, but we 
see the distractions that are out there. We got to do a lot 
more on the marijuana situation.
    But coming back to traffic that is flowing is happier 
traffic, and, I mean, just around this town, one more example 
is that every single stoplight here seems like it is timed. You 
are sitting there for 60 seconds at 10 o'clock, or 11 o'clock, 
or midnight, waiting for nothing, instead of the ones that have 
a sensor to allow you to go. And the amount of time you spend 
at stop lights and waiting for elevators in your life is really 
frustrating.
    But that said, in my own district in northern California, 
an area that I share with Mr. Garamendi, we have Highway 70 
that travels between, basically--well, the key area we are 
talking about is Oroville and Marysville, you know, the Chico 
area. And we have had 40 deaths in that area, just since 2010--
what we have here. And that is a traffic flow issue. So many 
times you are pent up behind vehicles going 45 miles an hour, 
people get frustrated, they pass where they shouldn't. We have 
issues with the Oroville Dam spillway crisis and the evacuation 
there, the fires we have had in the area. We have a lot of 
frustration and a lot of pent-up traffic there.
    I just throw it to you, Ms. Homendy, with Chief Brown, 
Mayor Jones. Wouldn't one of the greatest ways to improve is 
take away the frustration, and allow traffic to flow, and get 
these projects done, rather than limiting people and 
frustrating more? Please.
    Ms. Homendy. I think I might need a little bit more 
clarification on the question.
    Mr. LaMalfa. OK. I think most people want to see traffic 
flow. But we hear a lot about how to impede what they are 
doing. How could we greater emphasize traffic flow in our 
conversations?
    Ms. Homendy. Well, part of it is road design, and we have 
to have road--right now, with road designers and engineers, the 
focus is on motor vehicle traffic, but not on the complete 
traffic, which is everything from pedestrians to bicyclists to 
everything on our Nation's roads. So we have to have a 
comprehensive view on how we do road design from our traffic 
engineers.
    Mr. LaMalfa. All right. So roads designed in the 1940s or 
1950s that are now accommodating triple the traffic, you know, 
that is the frustration.
    So Chief Brown, what would you touch on with an urban area 
like you have?
    Mr. Brown. Well, I would add--actually, I am very familiar 
with the area you are from. I, frankly, grew up in Sacramento, 
so I know that area very well.
    My issue is that I think you need to have proper road 
design, and you need to keep it current. That is balanced 
against whatever the competing issues are that you are looking 
at at the local level, in terms of design.
    It doesn't matter if it is an urban area or an external 
area; there are frustrations that take place within the 
driver's world, based upon design. And sometimes they will--it 
will cause them to do things they would not ordinarily do, like 
blocking the box, following too close in an urban area, maybe 
crossing and passing when it is inappropriate. I have seen that 
from my own professional experience.
    Mr. LaMalfa. Yes, a left turn light that sits there red 
when there is nobody coming for a mile, and you are waiting 
there for what, right?
    Mr. Brown. But it doesn't take away from that 
decisionmaking that that individual has, whether or not to go 
into that direction, make that call, place themselves and 
others in jeopardy. And I think we also have to keep that in 
mind. It is a behavioral thing in most cases with the crashes 
that we see.
    Mr. LaMalfa. Yes, thank you.
    I will yield back.
    Mr. Jones. I----
    Mr. LaMalfa. Thank you, Madam Chairwoman.
    Mr. Jones. I was going to----
    Mr. LaMalfa. Oh, you wish to--OK.
    Mr. Jones. I did want to add on. I think that, again, this 
issue here is this happy drivers versus happy pedestrians and 
cyclists is something that we will continue to deal with. And 
again, it does boil it down to context. I think for so long 
that we have been designing the roadways to minimize the delay 
on drivers, actually--I mean I would say more often than not 
signals are optimized to reduce and minimize the delay of 
drivers. And sometimes that does come at the expense of 
pedestrians and cyclists.
    I would say, you know, we will talk about the frustration 
of, well, we have to add 3 seconds to that signal. But say 
there is a lady or a person that is trying to walk across the 
street to get to their destination. We may add 10 minutes to 
their delay, because they have to walk down to the closest 
signalized intersection.
    So it is always going to be a balance there, and I think 
there is some context where, certainly, minimizing--or allowing 
or maximizing vehicular throughput is going to be the most 
important thing we can do. But there are a lot of contexts, 
particularly in cities and urban areas, where we have to allow 
for a greater accommodation of----
    Mr. LaMalfa. Thank you.
    Mr. Jones [continuing]. Pedestrians.
    Mr. LaMalfa. I would yield--need to yield back, thank you.
    Ms. Norton. Thank you very much, Mr. LaMalfa.
    Mr. Garamendi?
    Mr. Garamendi. Thank you, Madam Chair.
    Mr. Smith, in your testimony you emphasize the need for us 
to build a true culture of safety. Are there any areas in the 
traffic safety where you have seen success in doing this? If 
so, how could we translate those lessons to a broader cultural 
shift towards roadway safety habits?
    Mr. Smith. Through our chairmanship of the Road to Zero 
Coalition we have been able to provide grants to local 
communities and through different organizations that have 
innovation, and bringing it to the forefront.
    We have seen some of the local communities integrate some 
of these grant dollars in a way that has addressed some of 
their key pain points. But what they have done is brought the 
community together as part of solving the solution. And so it 
is really about doing the design element of it, and bringing 
the community together, so that we aren't just doing it in a 
vacuum, and understanding why the particular changes are being 
made.
    And I think there is just more we need to do, from an 
education perspective, quite frankly, across the country, why 
do we do some of what we need to do, and why do we need to fund 
what we are looking to do, particularly when it comes to some 
of the new augmentation technologies in our vehicles to make it 
safe, and to understand that it may have some limiting 
challenges for us, as we traditionally operate our vehicle, but 
also when it comes to some of the infrastructure, as well. 
Helping people understand, I think, is what is going to be 
critically important, and that is where we have seen some case 
examples where--with some of the grant dollars.
    Mr. Garamendi. I remember an example of that in California, 
Mothers Against Drunk Driving. The effort they made some 30 
years ago. I think you were in Stockton at the time, Chief, 
maybe as a young child. But nonetheless, it was very, very 
successful in developing the laws.
    Along that same line, it appears that nearly 30 percent of 
all fatalities are associated with impaired driving, mostly 
alcohol, but now, as the discussion has gone here, with 
marijuana and other drugs. Yet, at the same time, over the last 
25 years or so, arrests for impaired driving are down, 
significantly down, according to the FBI statistics.
    So do we have an enforcement issue here? And if so, what do 
we do about it? And I will leave that open. I start with you, 
Chief, and then run down the line until I am out of time.
    Mr. Brown. I will be happy to respond to that, and I did 
kind of address that in my comments. There are a number of 
reasons we think that that may be taking place. Frankly, if you 
are from the officer's lens, if you will, the complexities that 
we currently have in terms of arrests and prosecuting for 
driving under the influence have grown significantly over that 
period of time.
    When I was a young officer in the 1970s I was in 
California. We could get done on a four-page piece of paper. 
Now that document is 27 pages long. There are homicide reports 
that are prepared that are shorter than some DUI cases, and we 
are talking about a misdemeanor. There are opportunities to 
streamline that and still provide and protect the rights of the 
individual. If we could come up with a way--and this is where--
I think, positioned to do that.
    The other piece is the competing interests and demands on 
law enforcement. Right now law enforcement is challenged in 
ways that it was not challenged 25 years ago. If you go out in 
a patrol car today you will see officers responding to calls 
that they did not respond to 25 years ago, so they don't have 
that discretion because they don't have that ability and that 
time, if you will, the opportunity to engage in it.
    Mr. Garamendi. If you will excuse me for a second--because 
I am going to be out of time in a moment--but then the issue is 
really a lack of enforcement. Many reasons for that, but is it 
really an enforcement issue, that we need the police to be 
enforcing these laws?
    Mr. Brown. I think it gets down to capacity more than 
anything else.
    Mr. Garamendi. OK. So that is, again, capacity.
    Ms. Homendy?
    Ms. Homendy. It is also a training issue. In a recent 
accident investigation that we looked at in Concan, Texas, we 
saw some issues with the training of law enforcement.
    Basic training for law enforcement is standardized field 
sobriety testing. But NHTSA has a couple of great programs 
called the Advanced Roadside Impaired Driving Enforcement 
program, or ARIDE, which provides 16 hours of training for law 
enforcement officials, and the Drug Recognition Expert 
Training, which is substantially more, 72 hours of classroom 
training and 60 hours of field training. And those law 
enforcement officers become highly skilled at detection and 
identification of impairment.
    So we urge--very few of them are trained at those levels, 
and we are urging more training.
    Mr. Garamendi. Good. We are--I am almost out of time, and I 
just want to wrap up. If you look at the statistics here, 29 
percent alcohol impaired and 26 percent speeding, it seems to 
me that both of these are both information, as in Mothers 
Against Drunk Driving, but also enforcement. And that probably 
means money.
    I yield back my time.
    Ms. Norton. Thank you.
    Mr. Balderson?
    Mr. Balderson. Thank you. This is something--two subjects 
that I am very passionate about: bicycles and motorcycles. In 
fact, my friends say, ``What are you going to ride today, Troy, 
a bike or a motorcycle?'' So thank you all, and I appreciate 
some of your testimony that I have heard.
    Mr. Sewell, my first question for you is--and taking the 
time for being here today, and I appreciate the need for 
adequate safety and protections for our fellow bikers. The 
State of Ohio has a safe passing law in place, which requires 
drivers to give cyclists at least 3 feet. I cosponsored that 
and really tried to raise awareness of that.
    In your experience--and that law has passed in the last 
general assembly--in your experience, how has the 
implementation of such laws impacted bike safety is the first 
question.
    If you would follow up with that, do you believe the common 
driver might be aware of such laws? I have an answer for that, 
and I think you know that response. And, if not, how can we 
improve the awareness?
    Mr. Sewell. Absolutely. Well--and, first and foremost, I 
appreciate your support for the 3-foot passing law. I think it 
is an important law, but it is also coupled directly with 
education.
    I think you are correct, if I am assuming--your response to 
that second part of your question. It is important when drivers 
are educated about what it means. And I think there is some 
great demonstrations that you can help to educate drivers about 
what it means if you are a cyclist and you get buzzed, how 
terrifying that can be. I am a biker, too, of course, and so I 
have been in Columbus, and I have biked around, and I remember 
hearing when that came through. It is a great idea to have 
that, but it has to be coupled with education.
    Mr. Balderson. I totally agree with that. I appreciate your 
response, and I would love to work with you in trying to figure 
out how we can address that issue, and make sure that drivers 
are aware of it. And they love to see how close they can get 
those mirrors to us on the road.
    So my next question is for Ms. Homendy, and thank you very 
much for being here, and your testimony. My other passion, with 
the motorcycles--in your testimony you mentioned your safety 
report from 2018 regarding motorcycle crashes and 
recommendations for improving, preventions such as the need for 
enhanced braking and stability control systems on motorcycles.
    I myself have a model 2007 that already had that anti-lock 
brake system on it, but also the controlled--I mean it is 
similar to what you are talking about with the stability 
control. Have you seen an increase of where in the motorcycle 
community--of such needs that this report has--when it was 
released?
    Ms. Homendy. Sorry about that. Yes. We agree that we need 
anti-lock braking and stability control systems, and we 
recommend that they be standard on all motorcycles and that, 
again, safety is not a luxury, and we don't feel that 
motorcyclists or auto drivers should have to pay more for 
vehicles for safe technology. And so we recommend that they be 
included as standard on all motorcycles.
    Mr. Balderson. Most manufacturers today, just so you know, 
are making it standard. In the 2017 BMW that I have, it was 
standard equipment----
    Ms. Homendy. Great.
    Mr. Balderson [continuing]. With anti-lock brakes. Now, to 
touch on that, though, the--and I have done all the motorcycle 
training, all the way through. At one time I was even going to 
be an instructor, and that is kind of what is going to lead me 
to that--but the one place I got to try that anti-lock brakes--
I mean it is one thing to do it in a car, but anti-lock brakes 
on a motorcycle are completely different than they are a car. 
So I don't think we have the pleasure of allowing motorcyclists 
to enact that anti-lock brake system to actually see what it is 
going to do. So I am going to try to encourage more and more 
manufacturers to offer their own input training.
    But I get an email every week on motorcycle training and 
the lack of instructors. How can we encourage to get more 
members of the motorcycle community--and anybody can answer 
this--to come out and help us with--I mean whether it is a free 
oil change, from--I mean I don't know what that--but do you all 
have any ideas how we can encourage more motorcycle instructors 
to participate and help us train fellow motorcyclists?
    Ms. Homendy. Yes, I mean, you know, from our standpoint, 
you know, when it comes to safety--and I was just in 
Connecticut, testifying on the importance of motorcycle safety, 
and talked to some of the motorcyclists, and I think it is 
crucial to encourage them to get more training, and to have 
more instructors.
    And I think, from NTSB's standpoint, it is just getting out 
there and encouraging people to improve safety and motorcycle 
safety, and trying to encourage them to get adequate training.
    Mr. Balderson. My time is up. I would love to continue this 
conversation. I yield back, or can--go ahead, sir.
    Ms. Norton. Thank you very much.
    Mr. Jones. I just wanted to add more Harley-Davidson 
dealerships offering incentives for the instructors to come 
out.
    If you don't mind, I did want to talk about the 3-foot 
rule, if that is possible.
    Ms. Norton. Time is expired.
    Mr. Jones. OK.
    Ms. Norton. Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Madam Chair. You know, I am 
struck by reports that individuals with obstructive sleep apnea 
are twice as likely to be involved in motor vehicle accidents 
than are the general public. And we know that interventions 
like CPAPs can dramatically reduce the incidents of these 
accidents.
    I raise this because within the last 6 months one morning 
my wife says to me, ``You know what, Alan? You are not 
breathing at night.''
    I said, ``I don't know, what are you talking about? I am 
breathing at night.''
    She said, ``No, I timed it. I woke up. You go sometimes 7, 
8 seconds without breathing.''
    So I went to George Washington University Hospital and had 
a screening and found out I have serious sleep apnea, which I 
was not even aware of. And I will tell you, by using a CPAP, I 
am much more alert. I do--that is why I can ask you questions 
now. I would have been----
    [Laughter.]
    Mr. Lowenthal. I never would have been able to ask any of 
these questions.
    So the reason I raise this is for years that the NTSB and 
other stakeholders have been concerned that Federal agencies 
haven't implemented clear guidelines to ensure drivers and 
other transportation workers are screened for sleep apnea, yet 
in 2017 the Federal Motor Carrier Safety Administration and the 
Federal Railroad Administration withdrew efforts to update 
sleep apnea screening standards.
    So, Ms. Homendy, can you tell us more about the NTSB 
recommendations, and how great a safety risk is posed by sleep 
apnea?
    Ms. Homendy. It is a significant issue. And as you--so my 
husband has sleep apnea, didn't even know it.
    Mr. Lowenthal. Me too, didn't know.
    Ms. Homendy. Until I told him I was tired of him snoring 
and he had to go get help.
    Mr. Lowenthal. I just stopped breathing. At least he was 
snoring, you know.
    [Laughter.]
    Ms. Homendy. Hopefully--so, you know, we have issued--we 
have investigated a number of accidents involving fatigued 
drivers, whether it is in motor vehicles or large trucks or 
also in the rail industry, with operators of trains. And we 
have issued a number of recommendations on the screening, 
diagnosis, and treatment for sleep disorders like sleep apnea.
    I do know that some of the carriers and the railroads are 
doing some of that. But without a rulemaking it won't occur, 
industrywide. So we are pushing that FMCSA and FRA adequately 
address this and issue a rulemaking to require screening, 
diagnosis, and treatment.
    Mr. Lowenthal. Well, thank you. I am going to ask Mr. 
Smith.
    What is your perspective at the National Safety Council?
    Mr. Smith. Sure. Well, you know, we know that according to 
the AAA, over 328,000 drowsy driving crashes happen every year; 
109,000 of those resulted in injury, and 64,000 resulted in 
fatalities. So this clearly is a big issue, and it is a concern 
for us, and we definitely recognize that fatigue has been a 
challenge.
    We represent over 15,000 work employers who are dealing 
with fatigue, as well, in the workplace, and some of those 
instances it connects to some of the workplace safety.
    Where we see a big issue also comes from those shift 
workers, as well, that are six times more likely to be in an 
incident based on this drowsy driving. So certainly we think, 
in the commercial space, obviously we want to see the support 
for continuing to----
    Mr. Lowenthal. And so I don't have a lot of time, so I want 
to ask you.
    Mr. Smith. Sure.
    Mr. Lowenthal. So you do not support the withdrawing of 
efforts by the FMCSA or FRA? They just withdrew this.
    Mr. Smith. Yes, we do not support that, correct.
    Mr. Lowenthal. Thank you. And, well, I yield back.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Lowenthal.
    Mr. Woodall?
    Mr. Woodall. Thank you, Madam Chair.
    Ms. Homendy, let me begin with you. You were talking about 
hours of service earlier, and I thought you said you support 
hours of service with no exemptions or exceptions. I am 
thinking about a recent rulemaking for ready-mix concrete 
trucks, for example, that I would argue brings greater safety 
and more common sense to the industry. Could you tell me what 
you mean about no exceptions and no exemptions?
    Ms. Homendy. We do support science-based hours-of-service 
standards, and we don't support exemptions to those standards. 
But we also support fatigue management plans as an adjunct to 
Federal standards.
    Mr. Woodall. And when I am talking to dispatchers, they 
will say, ``Rob, I am going to do what I have to do to fit 
within Federal hours of service, but I know the guy I am 
sending out is worn out. But I can't--I don't have the 
flexibility to let him do something different that works with 
his schedule and his needs. If he feels tired, he still has to 
stay on the road because if he doesn't he is not going to get 
his hours in today.''
    Would you support some sort of flexibility for dispatcher 
and drivers? Or do you believe where we have those rules today, 
they need to sit right there?
    Ms. Homendy. And let me clarify exemptions, meaning we 
believe people should have adequate rest. We don't support 
allowing them to continue driving if they are not fit for duty.
    Mr. Woodall. Though that would be moving hours of service 
in a more restrictive direction. I am talking about providing 
more flexibility, but it is--your position is let----
    Ms. Homendy. Correct.
    Mr. Woodall. We have as much flexibility as you would like 
to see us have at the----
    Ms. Homendy. Well----
    Mr. Woodall. At current----
    Ms. Homendy. We would not support less off-duty time and 
more work time, that is correct.
    Mr. Woodall. Thinking about some of the opportunities to 
partner with industry and safety, there has been some 
conversation about speed limiters today, there has been some 
conversation about moving trucks onto interstates. I don't 
believe we have to have a winner and a loser in a safety 
conversation, it is just all win, win, win, right? We are all 
moving in the right direction.
    When you are thinking about the safety from--particularly 
from a bicyclist's perspective, sir, to focus on the folks you 
represent, do you have the flexibility from your members to 
say, yes, we are going to make this gain on behalf of 
bicyclists? And what we will do, then, is we will also put more 
trucks on the Interstate Highway System, which may make your 
interstate drive different, but we are going to improve your 
bicycle drive. Or is it a single-sided conversation when you 
are speaking on behalf of your members?
    Mr. Sewell. No, I think you nailed it. I think you have to 
think of all users when you are designing any roadway. So you 
don't want to do anything that would--and the other question 
that came earlier was one of frustration, from a motorist's 
standpoint.
    We have to design systems that work for all users. That is 
part of the engineer's creed. You are doing it for public 
betterment. And that includes drivers. And so, you have to 
think through, if you do move a mode of transportation to a 
different mechanism for transport, is that going to negatively 
impact safety for other users on that roadway, too?
    So yes, I think you said it very eloquently. It is a 
balancing act between all of these modes of transportation.
    Mr. Woodall. Chief, let me ask you. I see your members more 
often than I would like to see them, but thank you for keeping 
my roads safe in that way. I am thinking about cameras on the 
roads. Do we utilize those cameras to also enforce our 
distracted driving and our seatbelt regulations?
    Mr. Brown. Not so much with the seatbelt because, quite 
frankly, you need to be able to observe it, and it is difficult 
to get the placement. We do use them for red lights. In some 
communities they use them for speed enforcement.
    The key with the cameras, from my personal standpoint, is 
you need to make sure that it is for problems, not necessarily 
for the generation of revenue. That is a debate that becomes 
problematic for law enforcement, when they administer those 
programs. But if you identify problem areas and you deploy that 
type of technology, it will have an impact, to some extent, on 
some of the behavior, and you will get better compliance.
    It also increases capacity. But I will also tell you it 
also results in a number of complaints, because people don't 
like to see those tickets coming in the mail.
    Mr. Woodall. I share that distaste for those tickets coming 
in the mail.
    [Laughter.]
    Mr. Woodall. But at some point, either the law is the law 
and we have to enforce it--you don't have enough cops on the 
beat to cover every cell phone user. You don't have enough cops 
on the beat to make sure that everybody is wearing their seat 
belt. And if the law is not evenly and aggressively enforced, 
my behavior is going to reflect that.
    Mr. Brown. And not all the States allow it. And so that is 
a national thing. I am not sure exactly where some of the other 
Federal agencies may be. But frankly, there is--in the 
Commonwealth, for example, there are a number of communities 
that would be interested in having the flexibility of applying 
it for problem areas. Alexandria is one of them. I know that is 
true across the country, but not all the States allow for that, 
or they have limited applications that are appropriate.
    Mr. Woodall. All right. I thank you all for being here.
    Madam Chair, I yield back.
    Ms. Norton. Thank you, Mr. Woodall.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair. I have questions 
for all of you, and this is another--it is public safety. Thank 
you for being here today.
    But of particular concern is the growing number of assaults 
on bus drivers. Not only are they heinous acts perpetrated on 
public servants, they also pose a great danger to passengers, 
pedestrians, and other vehicles, as some of these assaults 
happen while the driver is operating his vehicle.
    My bill, H.R. 1139, Transit Worker and Pedestrian 
Protection Act, has 100 bipartisan cosponsors, would provide 
FTA funds for transit agencies to install barriers to protect 
the driver and keep the bus operating safely.
    It also addresses the issue of blind spots in modern buses 
with large bus frames and sight mirrors that prevent them 
from--it blocks their view of pedestrians crossing the street. 
This has led to multiple severe accidents around the country. 
Some buses in the U.S. and many buses in Europe do not have 
this impediment, those large visual obstructions for the 
driver. It requires a transit agency to address and remove 
significant blind spots from the bus driver work station. And I 
have personally recommended that before they buy any buses, 
they talk to the manufacturer for those changes on the buses.
    Do you have any concerns about the assaults on bus drivers, 
and the blind spots and the transportation safety hazard? And 
should we address this issue in Congress?
    Ms. Homendy. Thank you, Chairwoman. I appreciate the 
question. The NTSB has not looked at assaults on rail or 
transit operators. But any injury or fatality is a concern to 
us, of course.
    We have issued recommendations on collision avoidance 
systems like automatic emergency braking or forward collision 
avoidance, which could help with other issues. But we haven't 
specifically looked at the particular issue you are talking 
about.
    Mrs. Napolitano. Would you mind looking at it? We had----
    Ms. Homendy. Absolutely.
    Mrs. Napolitano [continuing]. People coming, bus drivers 
actually tell us all the heinous acts committed on them.
    Ms. Homendy. Yes. And, in fact, we are meeting with a few 
folks in a few days on that.
    Mr. Brown. Mrs. Napolitano, from the standpoint of just 
being a cop, that is a felony, it is a criminal act, and that 
always causes us concern. The implications for that, should the 
bus--should the driver be operating a bus, are huge, because 
there are implications for all the passengers that are maybe on 
that bus, let alone the size difference on the vehicles.
    There are some communities that have had problems in that 
area. Not everyone has that same kind of a problem, that I 
could see from the stats. We have actually looked at that a 
little bit as it applies to the national capital region to see 
if it had implications for us and our city.
    But the potential jeopardy for the community is huge that 
is on that bus.
    Mrs. Napolitano. Thank you.
    Mr. Bruemmer. I think the transportation of the future 
certainly relies on multimodal integrating, how does transit 
operate with other sources: pedestrian, bikes, and regular 
vehicles. I think infrastructure, as we move forward, needs to 
change to accommodate those areas so that we do have separation 
between that. And certainly, you know, it is a major concern 
when you get pedestrian traffic moving across in front of a 
large vehicle.
    Mrs. Napolitano. They can't see them.
    Mr. Bruemmer. There needs to be a--there is a concern there 
that they need to be able to integrate with each other.
    Mrs. Napolitano. Anybody else?
    Well, it is a problem. I have met with the Los Angeles 
Transportation Department, and they tell me--I met with the 
drivers and they tell me that it has happened more often than 
not, especially on routes that are in neighborhoods that are 
questionable, and especially if they have new drivers assigned 
to those areas that are less knowledgeable about the area.
    There is another question I would like to have. Mr. Sewell, 
your testimony talks about the importance of designing a built 
environment through policies such as Complete Streets to 
consider all road users. You note that engineering is moving to 
safe system approach to designing for structure.
    Is the Federal highway policy currently set up to advance a 
systems approach and related policies, or do we need to make 
adjustments to ensure that States and cities design projects 
that prioritize safety?
    Mr. Sewell. I appreciate your question. And I was recently 
in L.A., and there is--I think it is a great example of rapid 
evolution happening in the transportation network, and us 
poorly responding to it.
    And I think it goes back to--to answer your question more 
specifically--giving local control over how those 
transportation systems can respond to changes in how people 
want to move is the way to go. I think that that would have 
been a great help to a city like Los Angeles in responding to 
the emergence of scooters, and things like that.
    Mrs. Napolitano. Well, thank you for the answer. One of the 
things I would recommend, especially in California, you have 
the public access system, and you talk about information, 
training for the public, like in motorcycle training, you 
should develop or encourage the industry to do that. And go--
free for public safety would be a tremendous help to the 
public. Thank you.
    Ms. Norton. Thank you very much, Mrs. Napolitano.
    Mr. Babin?
    Dr. Babin. Yes, ma'am. Thank you, Madam Chair, I appreciate 
that, and appreciate every one of you experts being here today.
    The first question that I have is for Ms. Homendy. Thank 
you very much for being here. I was just briefed by your 
Chairman, Robert Sumwalt, and he said to tell you hello. He 
knows you are going to do a great job.
    Ms. Homendy. No pressure.
    [Laughter.]
    Dr. Babin. Thank you. For a good part of my life, born and 
raised in southeast Texas--I represent the 36th District, from 
Houston to Louisiana--I have slowly watched Highway 59, U.S. 
59, transition and change to become a part of the new 
Interstate 69. Now I am leading efforts to try to expand the 
newly authorized Interstate 14 that will be running east and 
west through my district.
    And with the support of a number of my colleagues, I have, 
in fact, the bill language right here, Madam Chair, if I could 
enter this into the record. Would that be possible?
    Ms. Norton. So ordered.
    [The information follows:]

                               H.R. 2220

To amend the Intermodal Surface Transportation Efficiency Act 
of 1991 with respect to high priority corridors on the National 
Highwav System, and for other purposes.

                    IN THE HOUSE OF REPRESENTATIVES

Mr. Babin (for himself, Mr. Johnson of Louisiana, Mr. Abraham, 
Mr. Guest, Mr. Palazzo, Mr. Brady, Mr. Conaway, Mr. Flores, Mr. 
Williams, Mr. Carter of Texas, and Mr. Weber of Texas): 
introduced the following bill; which was referred to the 
Committee on Transportation and Infrastructure.

                                 A BILL

To amend the Intermodal Surface Transportation Efficiency Act 
of 1991 with respect to high priority corridors on the National 
Highway System, and for other purposes.

    Be it enacted by the Senate and House of Representatives of 
the United States of America in Congress assembled,

SECTION 1. SHORT TITLE.
    This Act may be cited as the ``I-14 Expansion and 
Improvement Act of 2019''.
SEC. 2. HIGH PRIORITY CORRIDORS ON NATIONAL HIGHWAY SYSTEM.
  (a) Identification.--
       (1) Central texas corridor.--Section 1105(c)(84) of the 
Intermodal Surface Transportation Efficiency Act of 1991 is 
amended to read as follows:

    ``(84) The Central Texas Corridor, including the route--
         ``(A) commencing in the vicinity of Texas Highway 338 
in Odessa, Texas, running eastward generally following 
Interstate Route 20, connecting to Texas Highway 158 in the 
vicinity of Midland, Texas, then following Texas Highway 158 
eastward to United States Route 87 and then following United 
States Route 87 southeastward, passing in the vicinity of San 
Angelo, Texas, and connecting to United States Route 190 in the 
vicinity of Brady, Texas;
         ``(B) commencing at the intersection of Interstate 
Route 10 and United States Route 190 in Pecos County, Texas, 
and following United States Route 190 to Brady, Texas;
         ``(C) following portions of United States Route 190 
eastward, passing in the vicinity of Fort Hood, Killeen, 
Belton, Temple, Bryan, College Station, Huntsville, Livingston, 
Woodville, and Jasper, to the logical terminus of Texas Highway 
63 at the Sabine River Bridge at Burrs Crossing;
         ``(D) following United States Route 83 southward from 
the vicinity of Eden, Texas, to a logical connection to 
Interstate Route 10 at Junction, Texas;
         ``(E) following United States Route 69 from Interstate 
Route 10 in Beaumont, Texas, north to United States Route 190 
in the vicinity of Woodville, Texas; and
         ``(F) following United States Route 96 from Interstate 
Route 10 in Beaumont, Texas, north to United States Route 190 
in the vicinity of Jasper, Texas.''.
       (2) Central louisiana corridor.--Section 1105(c) of the 
Intermodal Surface Transportation Efficiency Act of 1991 is 
amended by adding at the end the following:

    ``(91) The Central Louisiana Corridor commencing at the 
logical terminus of Louisiana Highway 8 at the Sabine River 
Bridge at Burrs Crossing and generallv following portions of 
Louisiana Highway 8 to Leesville, Louisiana, and then eastward 
on Louisiana Highway 28, passing in the vicinity of Alexandria, 
Pineville, Walters, and Archie, to the logical terminus of 
United States Route 84 at the Mississippi River Bridge at 
Vidalia, Louisiana.''.
         (3) Central mississippi corridor.--Section 1105(c) of 
the Intermodal Surface Transportation Efficiency Act of 1991, 
as amended by this Act, is further amended by adding at the end 
the following:

    ``(92) The Central Mississippi Corridor commencing at the 
logical terminus of United States Route 84 at the Mississippi 
River and then generally following portions of United States 
Route 84 passing in the vicinity of Natchez, Brookhaven, 
Monticello, Prentiss, and Collins, to the logical terminus with 
Interstate Route 59 in the vicinity of Laurel, Mississippi and 
continuing on Interstate Route 59 south to United States Route 
98 in the vicinity of Hattiesburg connecting to United States 
Route 49 south following to Interstate Route 10 in the vicinity 
of Gulfport following Mississippi Route 601 southerly 
terminating near the Mississippi State Port at Gulfport.''.
  (b) Inclusion of Certain Segments on Interstate System.--
Section 1105(e)(5)(A) of the Intermodal Surface Transportation 
Efficiency Act of 1991 is amended in the first sentence--
    (1) by inserting ``subsection (c)(84),'' after ``subsection 
(c)(83),''; and
    (2) by striking ``and subsection (c)(90)'' and inserting 
``subsection (c)(90), subsection (c)(91), and subsection 
(c)(92)''.
  (c) Designation.--Section 1105(e)(5)(C) of the Intermodal 
Surface Transportation Efficiency Act of 1991 is amended by 
striking ``The route referred to in subsection (c)(84) is 
designated as Interstate Route I-14.'' and inserting ``The 
route referred to in subsection (c)(84)(A) is designated as 
Interstate Route I-14 North and the State of Texas shall erect 
signs, as appropriate and as approved by the Secretary, 
identifying such route as future Interstate Route I-14 North. 
The route referred to in subsection (c)(84)(B) is designated as 
Interstate Route I-14 South and the State of Texas shall erect 
signs, as appropriate and as approved by the Secretary, 
identifying such route as future Interstate Route I-14 South. 
The routes referred to in subparagraphs (C), (D), (E), and (F) 
of subsection (c)(84) and in subsections (c)(91) and (c)(92) 
are designated as Interstate Route I-14 and the States of 
Texas, Louisiana, and Mississippi shall erect signs, as 
appropriate and as approved by the Secretary, identifyiug such 
routes as segments of future Interstate Route I-14. ''.

    Dr. Babin. OK. And I want to--with this in mind, I want to 
ask about safety in regards to converting a highway or State 
road to an interstate highway.
    In your experience with the NTSB, have you seen a 
correlation between improving roadway safety and updating 
existing roads, whether U.S. highways or State highways, in 
order to meet the interstate standards and grades? If you 
could, maybe elaborate your thoughts on that.
    Ms. Homendy. I apologize. On that question I will have to 
get back to you for the record and talk with some of our 
experts back----
    Dr. Babin. OK.
    Ms. Homendy [continuing]. In the office.
    Dr. Babin. All right.
    Ms. Homendy. But I will respond, and also contact your 
office on that.
    Dr. Babin. OK, that would be fine. Does anybody else want 
to take a stab at that?
    I will just wait and get back--if you will get back with 
me, Ms. Homendy.
    All right, this is for--the next question is for Mr. 
Bruemmer, if you don't mind. Thank you for being here today, as 
well. You said it best in your testimony, that we cannot allow 
safety to ever become an afterthought or a second priority, 
period. I couldn't agree with you more on that.
    And you know it better than most, that so much of the work 
this committee did on the FAST Act was to help stimulate 
innovation, improve safety through data-driven performance-
based approaches, and allow our States the flexibility they 
need to create programs unique to their needs for both motor 
and nonmotorized users. The data has clearly shown a reduction 
of motor vehicle fatalities, highlighting that safety programs 
all over the country are indeed working successfully.
    Could you share with the committee where you see the next 
generation of roadway safety moving, and where do you see 
innovative and creative ideas, and where they are taking us 
through the next decade in terms of safety and smart 
investment? Yes, sir.
    Mr. Bruemmer. Thank you, Congressman. I think, as you look 
forward, you know, technology is really kind of the front-
runner of this. Vehicles are becoming smarter. How does 
infrastructure react to the vehicles?
    From my experience what you look at is pavement markings 
that are now becoming more recognizable by machine-driven 
vehicles. You have signs which machines can read. They have 
got, basically, a QR code inset in them, so that the vehicle 
comes up and can tell what the sign reads.
    Dr. Babin. Right.
    Mr. Bruemmer. So I think as we look 5, 10 years down the 
road, how do we make that step from purely a human-driven world 
to integrating that technology, and we go forward. So that 
transition period is going to be difficult. I think we need to 
have a strong map forward of where do we want to be 20 to 25 
years from now.
    Dr. Babin. Right. OK. Thank you very much.
    And you know what? I don't--unless anybody else has 
something they would like to add to that, thank you, Madam 
Chair, I will yield back.
    Ms. Norton. Thank you, Mr. Babin.
    Dr. Babin. Yes, ma'am.
    Ms. Norton. Mr. Stanton?
    Mr. Stanton. Thank you very much, Madam Chair. An excellent 
presentation today on an incredibly important topic: safety on 
our roadways and our highway systems.
    And as we plan a significant infrastructure bill through 
this committee, we need to make sure that safety is at the 
forefront, and it is equally as important, if not the most 
important investment we can make in this country is on roadway 
safety, particularly supporting cities and municipalities 
across the country, things like Complete Streets and Vision 
Zero and other programs that are successful models.
    The Federal Government can better support those cities, and 
hope that State legislatures don't preempt cities who have a 
lot of innovative ideas. I say that as a former mayor of a 
city.
    And the specific issue I want to talk today about has to do 
with wrong-way drivers. Sadly, that is an issue that my 
community, the Greater Phoenix, Arizona, community, is 
confronting in a significant and sad way right now.
    In January of 2015 a dispatcher with the Phoenix Fire 
Department was on her way home from a late shift when she was 
killed on the I-17 in central Phoenix by a wrong-way driver. 
Megan Lange was 26 years old, a wife, a mother of two young 
boys. When the firefighters arrived at the scene of the 
accident, they knew that she was one of their own, because she 
was still in her uniform.
    Megan's death shook our community, and especially her 
fellow city employees. I was mayor at the time, and I will 
never forget taking that call. Her tragedy, unfortunately, was 
one of a series, part of a pattern of wrong-way drivers that 
our cities, counties, and State have to work hard to correct.
    Two out of three wrong-way crashes are caused by impaired 
drivers, often drivers with blood alcohol levels more than 
twice the legal limit. One-quarter of all wrong-way crashes are 
fatal, compared to just about 1 percent for other highway 
crashes. And though, nationally, the number of and rate of 
fatal crashes have been falling for decades, the number of 
fatal wrong-way crashes continues to creep upward. And that is 
something that we have to confront.
    So I will open up to all the panel, but particularly Mr. 
Bruemmer. Can you talk a little bit about what we can be doing, 
as Congress, to better support you and other safety-related 
organizations to decrease and even stop the epidemic of wrong-
way crashes across our country?
    Mr. Bruemmer. Thank you, Congressman. There are innovations 
coming out, as far as infrastructure, which improve the 
possibility that someone can't go the wrong way: sensors, which 
activate lights to notify the driver; also relaying messages to 
law enforcement, so that they can respond quickly, knowing that 
there is someone going the wrong direction; pavement markings 
which are visible as you enter a ramp that, from one direction, 
say ``Do Not Enter,'' the other way they look normal. So I 
think that it is an infrastructure question.
    People get confused and lost, unfortunately, make a wrong 
turn up the wrong ramp, and it is catastrophic. How do you 
avoid that? And I think, really, infrastructure has to combat 
that at a one-on-one level.
    Mr. Stanton. Excellent. Infrastructure and, of course, 
continuing with our efforts in terms of drunken driving and 
other types of driving under the influence.
    I will leave it--I will open up to other witnesses. What 
can we do, as Congress, Members of Congress, to better support 
efforts to reduce and end wrong-way driving?
    Mr. Brown. Mr. Stanton, if I could, the National 
Transportation Safety Board--I am going to steal your thunder a 
little bit--did a report.
    Ms. Homendy. That was my answer.
    Mr. Brown. There you go.
    [Laughter.]
    Mr. Brown. Don Carroll was the one that authored it. He 
used to be with the California Highway Patrol, did a work on 
wrong-way drivers. And most cops know that you have a 
disorientation issue, and largely it comes from impairment of 
some level. And also, it comes with, to some extent, with 
people who have developed some kind of limiting capability with 
their mind.
    There are ways to deal with that as intervention. So MADD 
has the interlock, they have been promoting the ignition 
interlock as an example. There are other ways to deal with the 
impairment issues, so that those people don't get in a car and 
drive.
    As far as the issues involving capacity, mental capacity, 
that is where the DMVs can come in and try to deal with those 
issues. And certainly that would be within the purview of an 
authorization act, should that be an issue.
    Mr. Stanton. Thank you very much.
    Ms. Homendy, did the chief accurately represent NTSB 
perspective?
    [Laughter.]
    Ms. Homendy. He did. And the person he references, 
actually, is a former law enforcement official who is on staff 
at the NTSB. So we did a wrong-way special investigative report 
in 2012, and looked at six crashes. We had recommendations on 
improving road designs, having better signage, and then 
addressing impairment.
    And the NTSB's views on impairment is reducing the legal 
BAC limits from .08 to .05 or lower; requiring ignition 
interlocks for all offenders, not just repeat offenders, 
including first-time offenders; stronger enforcement; and then 
also in-vehicle technology to prevent impaired drivers from 
getting in the vehicle and driving.
    Mr. Stanton. Thank you. I yield back.
    Ms. Norton. The gentleman yields back.
    Mrs. Miller?
    Mrs. Miller. Thank you, Chairwoman Norton. West Virginia 
has been successful throughout the implementation of the 
Governor's highway safety program. We have received millions of 
dollars through the National Highway Traffic Safety 
Administration to help implement several different programs in 
all 55 counties of my State.
    In my region of southern West Virginia, one of the largest 
challenges we face is impaired driving. Over 50 percent of 
impaired driving arrests in southern West Virginia counties 
have been identified as drug-related. Southern West Virginia 
has been ravaged by the opioid epidemic, especially as the 
economy in the region collapsed, due to the war on coal. The 
economic hopelessness faced by so many in my community has been 
hard to fathom.
    I have learned very quickly, since being in Congress, that 
we are very fluid in our movement, and in and out of 
committees, and in and out of chairs. So Ms. Homendy, I hope 
this question has not been asked to you before.
    Programs committed to stop drunk driving have been 
successful across the country. What programs are in development 
to stem the tide on drug-impaired driving?
    Ms. Homendy. Well, I know NHTSA has focused on drug-
impaired driving.
    From the NTSB's perspective, we have investigated a number 
of crashes involving impaired drivers. The difficulty with 
drugs is there is no impairment standard. And so we have 
recommended that DOT work with HHS to develop a standard. In 
the meantime, we have recommended that NHTSA issue guidance to 
States that tells law enforcement officers when to test, what 
drugs to test for, how to test, and cut-off levels to help 
determine impairment.
    In addition, we need advanced training for law enforcement 
officials, so that they can recognize when a driver is 
impaired.
    Mrs. Miller. Thank you. West Virginia is a hub for 
transportation, and our highways are a crossroads of trade and 
shipping. Commercial trucking is essential for our economy, but 
has not seen the same decrease in accidents that passenger 
automobiles have.
    Mr. Jones, are there any programs in development aimed to 
protect our Nation's commercial truckers, in particular?
    Mr. Jones. I am going to defer that answer, if maybe Ms. 
Homendy has some more perspective on that. I can't speak about 
the commercial trucking industry directly.
    Mrs. Miller. OK.
    Ms. Homendy. I mean for commercial driving, I would say 
fatigue. I mean, from our perspective, it is strong hours-of-
service standards, no exemptions to those standards, strong 
fatigue mitigation, management plans, implementation of 
electronic logging devices, and then screening, diagnosis, and 
treatment for sleep apnea. So fatigue, we would say, is the 
major issue.
    Mrs. Miller. OK. Does anyone else have any comments on 
that?
    Mr. Brown. Yes, at one point the Federal Motor Carrier 
Safety Administration also brought up the issue of distraction 
as a major issue with regards to--within the cockpit of the 
vehicle. And I would think that that would probably still ring 
true today.
    Mrs. Miller. What type of distraction?
    Mr. Brown. Basic distraction, in terms of the operating of 
the commercial vehicle, people manipulating cell phones, 
working on automated electronic logs, things of that nature, 
not paying attention to their driving.
    Mrs. Miller. OK, thank you. I yield back my time.
    Ms. Norton. Thank you very much, Mrs. Miller. Finally, our 
Ranking Member Davis.
    Mr. Davis. Finally bringing up the rear, huh? Pretty long 
hearing. You guys thought you were done, and then we keep 
walking back in, right?
    [Laughter.]
    Mr. Davis. Ms. Homendy, great to speak with you yesterday. 
I hear, because I am late, that some of my other colleagues 
asked about technology. I was going to channel Don Young 
[referring to nameplate swap]. Come on, what are you guys 
doing? The dean of the delegation, the dean of the House.
    [Laughter.]
    Mr. Davis. In all seriousness, Ms. Homendy, you mentioned 
that the technology is not there yet. For States like Illinois 
that will be on a path to legalize marijuana, you know, my 
concern is how do we get technology up to the forefront to be 
able to do tests, a roadside test, just like we do with 
impaired drivers due to alcohol consumption.
    And you mentioned in your response that the technology is 
not here yet, but others are working on it. Right? Do you have 
anything else to add?
    Ms. Homendy. Right. We have recommended that DOT and HHS 
work together to provide additional testing mechanisms like 
oral fluid testing and hair testing.
    And in addition to just the testing, in the meantime, NHTSA 
can issue guidance to States, as I mentioned, for law 
enforcement officers to clarify when people should be tested, 
what types of drugs they should be tested for, and cut-off 
levels for testing. That guidance has not gone out yet.
    But in addition, training for law enforcement officers. I 
mentioned a couple of programs to you yesterday that NHTSA has 
for advanced training for law enforcement officers. Basic 
training is the standard field sobriety testing for law 
enforcement officers, but NHTSA has two programs, one called 
the ARIDE program and one called DRE--it is an Advanced 
Roadside Impaired Driving Enforcement program and the Drug 
Recognition Expert training--which provide 72 hours of 
classroom training and 40 to 60 hours of field training, which 
makes them highly skilled at detection and identification of 
impairment. And very few officers are trained at those levels, 
so we encourage additional training.
    Mr. Davis. Right, thank you. And I apologize, my team 
forgot the WWE belt I promised you yesterday.
    Ms. Homendy. I was hoping to wear it for my opening 
statement.
    Mr. Davis. My apologies to you and your entire team.
    Chief, first off, I want to say thank you. And if you could 
please relay my thanks and the thanks of many of my teammates 
for the courageous actions of your three officers who saved us 
all one fateful morning in Alexandria a few years ago. So thank 
you for that. And please, again, relay our thanks to them. I 
don't think they get enough credit for that.
    Mr. Brown. Thank you, sir. I will.
    Mr. Davis. Thank you. In my home State of Illinois, Chief, 
we have had 15 officers struck this year already while outside 
of their vehicles. We have a law called Scott's Law in Illinois 
that protects our law enforcement officials, our Good 
Samaritans, and even our tow truck drivers who are on the side 
of our roadways, trying to help motorists who are stranded. We 
are looking to expand Scott's Law in Illinois, and I noticed 
this isn't a law in every State.
    What type of activities would you recommend we do at the 
national level to stop the carnage that we have seen of our law 
enforcement officers and our Good Samaritans and tow truck 
drivers that we are seeing in Illinois?
    Mr. Brown. Well, actually, NHTSA has actually taken a 
position of supporting the move over, at least in concept.
    But you are right, there are a lot of differences between 
the States. My former agency, the California Highway Patrol, 
just lost a sergeant just a couple of days ago over this very 
same thing.
    That is actually a disincentive in some cases for law 
enforcement to engage in traffic safety, because oftentimes 
they are exposed when they go out there. And so any way we can 
protect the highway worker--and that is not just the cop and 
the tow truck officers, and it is, in many cases, the person 
from DOT who is working on the road to repair a roadway. It is 
a paramount issue.
    Move-over laws work. They are difficult to enforce 
sometimes because, you know, usually there is congestion or 
other issues around it. But if you can get some level of 
compliance, it provides a buffer. And I think that would be 
appropriate to put into some authorization to encourage that at 
some point.
    Mr. Davis. Well, thank you. This is something that we have 
not experienced at this level in my home State before. It has 
happened for many years, and it is something that, obviously, 
we need to address, especially with distracted driving and 
other issues that have caused these terrible, tragic accidents, 
especially in the wake of technology and technological advances 
in our automobiles.
    I rented a car this weekend, and was driving around, and it 
notified me every time it thought I went outside the lane. I 
mean at some point we have got to recognize technological 
advances to assist in saving the lives of the brave men and 
women who wear that same uniform you do.
    Thank you for your time to each and every one of you, and I 
yield back no time that I have.
    Ms. Norton. I want to thank the ranking member, and I 
particularly want to thank all of you who have come. You have 
given us new information, you have given us very helpful 
information on a very serious subject, where our country is 
badly in need of the contributions you have made today.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may have been submitted in 
writing.
    And I ask unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    This hearing is adjourned. Thank you very much.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Steve Cohen, a Representative in Congress 
                      from the State of Tennessee
    Thank you, Chairwoman Norton for putting together this important 
hearing, and thanks to all the witnesses for being here today.
    According to the National Highway Traffic Safety Administration 
(NHTSA), 37,133 people lost their lives in accidents on U.S. roadways 
in 2017, or 100 people died each day in motor vehicle crashes.
    We must do better.
    Fortunately, I believe there are several commonsense, bipartisan 
steps that Congress can take to improve highway safety. They include, 
the DUI Reporting Act, the School Bus Safety Act, the Stop Underrides 
Act, and the Horse Transportation Safety Act.
                           dui reporting act
    The DUI Reporting Act (H.R. 1914) would stop the dangerous practice 
of charging repeat drunk drivers as first-time offenders.
    Just a few years ago, two teenagers from Memphis were killed when 
the car they were driving was struck by a drunk driver who had accrued 
seven DUI charges since 2008 and had been allowed to plead guilty five 
times to a first-offense DUI.
    Congressman Steve Chabot and I introduced legislation to stop this 
by creating an incentive for local law enforcement to report DUI 
arrests to the National Crime Information System, so prosecutors will 
know if a defendant is a repeat offender.
    This bipartisan bill has been endorsed by Mothers Against Drunk 
Driving, and I hope this committee will consider it soon.
                         school bus safety act
    I hope this committee will also consider the School Bus Safety Act, 
a bill I am planning to reintroduce with Senator Tammy Duckworth, to 
implement several of the National Transportation Safety Board's 
recommendations to improve school bus safety.
    Specifically, the bill will ensure that there are seat belts at 
every seat and buses are equipped with safety measures like stability 
control and automatic braking systems.
    In November 2016, there were two high-profile school bus accidents 
in Chattanooga, Tennessee, and another in Baltimore, Maryland, that 
left 6 school-aged children robbed of their futures.
    These are chilling reminders that Congress needs to act.
                          stop underrides act
    I hope this committee will also take action on the Stop Underrides 
Act (H.R. 1511/S. 665).
    In 2014, my constituents Randy and Laurie Higginbotham lost their 
33-year-old son Michael, like thousands of others have, when his car 
crashed into a semi-truck trailer and ended up under it. Unfortunately, 
truck underride is not a new issue. It has been on the highway safety 
radar for decades, yet action has not been taken.
    That is why I introduced the Stop Underrides Act with our 
Transportation Committee colleague Mark DeSaulnier, and Senators 
Kirsten Gillibrand and Marco Rubio, to require all large truck trailers 
to have front, side, and rear underride guards.
    This bill will save lives and I encourage my colleagues to support 
it.
                    horse transportation safety act
    I hope this committee will also take action to protect the lives of 
both horses and humans as horses are transported on our nation's 
highways.
    In 2007, fifteen horses died when a double deck trailer carrying 59 
Belgian draft horses overturned on Route 41 in Illinois. Unfortunately, 
accidents like this are not uncommon.
    Drivers can currently exploit a loophole in current regulation 
banning the transport of horses in double deck trailers, thus giving 
drivers an incentive to inhumanely transport horses to assembly points 
then reload them into single level trailers just outside their final 
destination.
    This practice is not only dangerous and inhumane to the horses, but 
to the traveling public, as well.
    That is why I introduced the bipartisan Horse Transportation Safety 
Act (H.R. 1400) along with Representatives Peter King, and 
Transportation Committee members Dina Titus and Brian Fitzpatrick, to 
ensure the humane and safe transportation of horses.
    If enacted, it would prohibit interstate transportation of horses 
in a motor vehicle containing two or more levels stacked on top of one 
another. It would also create civil penalties of at least $100 for each 
horse involved.
    These bills will help save lives, and I hope this committee will 
take action on them. I once again thank the chair for holding today's 
hearing and yield back.

                                 <F-dash>
  Prepared Statement of Hon. Frederica S. Wilson, a Representative in 
                   Congress from the State of Florida
    Thank you, Chairwoman Norton.
    Improving safety on our roadways is a top priority for my 
constituents and me.
    Seemingly every day, I see a fresh news story about a traffic 
collision that either claimed lives or caused injuries in my community.
    On November 8, 2018, my longtime friend and neighbor, Alvin Watson, 
was fatally struck by a vehicle while jogging near his home. He was a 
beloved husband, father, colleague, and friend.
    In January, seven people, five of whom were children, lost their 
lives on their way to Disney World after their church van collided with 
three other vehicles.
    Just last month, a father and his six-year-old son were struck as 
they walked to school. While they weren't seriously injured, this was 
still an extremely traumatic event for them.
    In 2017 alone, more than 3,100 people, including 654 pedestrians, 
died on Florida roadways.
    As pedestrians, Floridians face a risk of fatality that's 
incomparable to any other state.
    Shockingly, of the 20 most dangerous metropolitan areas for 
pedestrians in the nation, 9 are in Florida.
    In fact, the stretch of I-95 that runs through Miami-Dade County, 
which I represent, had more fatal accidents than any other part of the 
nearly 2000-mile interstate highway in 2015.
    Suffice it to say, traffic safety reforms are desperately needed in 
my state and district.
    We can and must do better.
    As we consider legislation to reauthorize the FAST Act and invest 
in our infrastructure, I will advocate for robust investments and 
policies to reduce traffic fatalities and strongly prioritize 
pedestrian safety.
    I have a few questions.

                                 <F-dash>
     Letter from Shailen P. Bhatt, President and CEO, Intelligent 
  Transportation Society of America, Submitted for the Record by Hon. 
                                 Norton
                                                     April 8, 2019.
Hon. Eleanor Holmes Norton
Chair
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC 
        20515
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC 
        20515
    Dear Chair Norton and Ranking Member Davis:
    In anticipation of the Subcommittee on Highways and Transit 
upcoming hearing entitled ``Every Life Counts: Improving the Safety of 
our Nation's Roadways,'' the Intelligent Transportation Society of 
America (ITS America) writes to underscore how new and developing 
Vehicle-to-Everything (V2X) technology that depends on the 5.9 GHz band 
is allowing us to finally address the lives lost and ruined on our 
nation's roads. Vehicle-to-Vehicle (V2V), Vehicle-to-Infrastructure 
(V2I), and Vehicle-to-Pedestrian (V2P)--collectively referred to as 
Vehicle-to-Everything (V2X)--have incredible potential to dramatically 
improve the safety, accessibility, and operational performance of our 
road infrastructure and vehicle safety.
    Safety is the top priority of the nation's transportation system. 
According to the U.S. Department of Transportation's National Highway 
Traffic Safety Administration (NHTSA), 37,133 people lost their lives 
in motor vehicle crashes in 2017, which roughly breaks down to just 
over 100 fatalities per day. Examples of V2V deployments available 
today include systems that provide emergency braking and the ability to 
be the ``eyes and ears'' of other vehicles. Non-Line-of-Sight 
awareness, as it's known, means that drivers and vehicles can see 
around corners and receive information about hazards in the roadway, 
even if they cannot see the hazard. V2V communications help move 
traffic more efficiently with demand responsive traffic signaling and 
allow emergency response vehicles to preempt signals.
    V2I provides vehicles and drivers information about infrastructure 
operations--weather and pavement condition, how signals are directing 
traffic, and even the location of potential hazards at intersections 
and other critical road safety hotspots. V2I applications include red 
light violation warnings, reduced speed zone warnings, curve speed 
warnings, and spot weather impact warnings. V2I soon will support other 
applications that will disseminate the condition of the infrastructure, 
such as bridge integrity and collect data from cars that describe 
pavement condition. V2I technology helps drivers safely negotiate 
intersections and prevent intersection crashes. Another connected 
vehicle safety application that helps drivers with left turns at 
intersections could help prevent left-turn crashes. NHTSA estimates 
that safety applications enabled by V2V and V2I could eliminate or 
mitigate the severity of up to 80 percent of non- impaired crashes, 
including crashes at intersections or while changing lanes.
    V2X will enable us to deploy safety solutions to protect vulnerable 
users of the system, which will be transformational. By allowing 
vehicles to communicate with these users through sensors or vehicle to 
device communication (V2P), we can significantly reduce the number of 
pedestrians killed on our roadways.
    Public sector agencies can also reap the benefits of V2X. 
Increasingly, vehicles will rely on digital formatting of roadway 
information to process roadway rules. ITS America member Regional 
Transportation Commission of Southern Nevada recently became first in 
the world to put roadway information into a digital format. As 
connected vehicles drive over the roadway, they can pick up differences 
between the ``digital'' road and the actual road. This could eliminate 
the need for agencies to manually examine roadways for striping or 
automatically report potholes instead of waiting for enough drivers to 
incur tire damage before fixing them. These vehicles will also give an 
up-to-the-minute snapshot of the system--how it is performing, are 
there any incidents, live weather conditions, etc. Millions of dollars 
have already been invested in this effort, including incorporating 
connected vehicle technologies into infrastructure by states and 
cities. Eighty-four communities in the United States are deploying or 
planning to deploy connected vehicle technology. Of that number, 54 
sites are operational, and 30 are in development. Nearly every state 
has at least one connected vehicle deployment. V2I deployments include 
expansions of the Safety Pilot Model Deployment in Ann Arbor (MI), 
large pilot deployments in New York City, Tampa, and Wyoming, and the 
Smart City Challenge in Columbus (OH).
    These technologies can also enhance automated driving systems, 
which can provide numerous economic, environmental, and societal 
benefits, such as decreased congestion and fuel consumption, and 
increased access for older adults and people with disabilities.
    However, V2X communications are by no means guaranteed. The 5.9 GHz 
band for V2X is being targeted by cable companies and their supporters 
who are seeking additional spectrum for enhanced WiFi experience and 
are aggressively pressuring the Federal Communications Commission (FCC) 
to force V2X to share this spectrum with unlicensed consumer broadband 
devices. Speed matters when safety information is involved. Sharing the 
band could compromise the speed and put lives at risk. What if a driver 
knew, in fractions of a second, that an airbag deployed in a car in 
front of him/her? Alternatively, that the car in front, around the next 
curve, was sliding on black ice? Or a pedestrian is around the next 
corner? Thanks to V2X technology, that driver would react--and avoid a 
crash. Deploying life-saving technologies that allow cars, buses, 
trucks, bicycles, pedestrians, motorcycles, street lights, and other 
infrastructure to talk to each other will ensure more people arrive 
home safely.
    ITS America supports preserving the entire 5.9 GHz band for 
existing, new, and developing V2X technologies. We want to make sure 
all three phases of testing for the 5.9 GHz band are complete before 
the FCC rules on whether the spectrum can be shared between V2X 
operations and unlicensed devices like WiFi. Any unlicensed use in the 
band should be done without harmful interference to the incumbent 
technology or other intelligent transportation systems technologies. 
Finally, ITS America requests a report from the U.S. Department of 
Transportation (USDOT) on the outcomes of the FCC studies. USDOT must 
ensure Congress and transportation stakeholder that transportation 
safety will not be compromised in the 5.9 GHz band.
        Sincerely,
                                           Shailen P. Bhatt
   President and CEO, Intelligent Transportation Society of America

cc: House of Representatives Subcommittee on Highways and Transit 
Committee on Transportation and Infrastructure
Ron Thaniel, ITS America Vice President of Legislative Affairs

                                 <F-dash>
Statement of Catherine Chase, President, Advocates for Highway and Auto 
            Safety, Submitted for the Record by Hon. Norton
                              introduction
    Advocates for Highway and Auto Safety (Advocates) is a coalition of 
public health, safety, and consumer organizations, insurers and 
insurance agents that promotes highway and auto safety through the 
adoption of federal and state laws, policies and regulations. Advocates 
is unique both in its board composition and its mission of advancing 
safer vehicles, safer motorists and road users, and safer roads. We 
respectfully request that this statement be included in the hearing 
record.
   deaths and injuries on our nation's roads remain unacceptably high
    In 2017, more than 37,000 people were killed and 2.7 million were 
injured in motor vehicle crashes.\1\ Crashes impose a financial toll of 
over $800 billion in total costs to society and $242 billion in direct 
economic costs, equivalent to a ``crash tax'' of $784 on every 
American. This incredibly high level of carnage and expense would not 
be tolerated in any other mode of transportation.
---------------------------------------------------------------------------
    \1\ Statistics are from the U.S. Department of Transportation 
unless otherwise noted.
---------------------------------------------------------------------------
    Moreover, fatal truck crashes continue to occur at an alarmingly 
high rate. In 2017, crashes involving large trucks killed 4,761 people. 
This is an increase of 9 percent from the previous year and an increase 
of 41 percent since 2009. The number of 2017 fatalities in crashes 
involving large trucks is also the highest since 2007. Additionally, 
149,000 people were injured in crashes involving large trucks in 2017. 
In fatal two-vehicle crashes between a large truck and a passenger 
motor vehicle, 97 percent of the fatalities were occupants of the 
passenger vehicle. The cost to society from crashes involving 
commercial motor vehicles (CMVs) was estimated to be $134 billion in 
2016.
           available commonsense and cost-effective solutions
    While far too many lives are lost and people are injured on our 
Nation's roads each year, proven solutions are currently available that 
can help to prevent or mitigate these senseless tragedies. The National 
Highway Traffic Safety Administration (NHTSA) currently values each 
life lost ina crash at $9.6 million. Each one of these senseless 
tragedies not only irreparably harms families and communities, but they 
also impose significant costs on society that can be avoided.
Proven, Advanced Vehicle Technologies Should be Standard in All 
        Vehicles
    Every day on average, over 100 people are killed and 7,500 people 
are injured in motor vehicle crashes. Nearly a third of all crashes 
continue to be caused by an impaired driver and speed is a contributing 
factor in over 25 percent of crashes. Additionally, distracted driving 
resulted in over 3,000 deaths in 2017 alone. Advanced vehicle 
technologies can prevent and lessen the severity of crashes and should 
be required as standard equipment on all vehicles. These include 
automatic emergency braking (AEB), lane departure warning (LDW) and 
blind spot detection (BSD) for cars, trucks and buses. These systems 
can help stop crashes from occurring, as well as reduce the impact of 
crashes that do occur. The Insurance Institute for Highway Safety 
(IIHS) has found that AEB can decrease front-to-rear crashes with 
injuries by 56 percent, LDW can reduce single-vehicle, sideswipe and 
head-on injury crashes by over 20 percent, and BSD can diminish injury 
crashes from lane change by nearly 25 percent. However, these safety 
systems are often sold as part of an additional, expensive trim package 
along with other non-safety features, or included only in high end 
models or vehicles. Moreover, there are currently no minimum 
performance standards to ensure they perform as expected.
    Recommendation: Advanced vehicle technologies that have proven to 
be effective at preventing and mitigating crashes, including AEB, LDW 
and BSD, should be standard equipment on all cars, trucks and buses.
Commonsense Regulation of Experimental Driverless Car Technology is 
        Essential
    Autonomous vehicles (AVs), also known as driverless cars, are being 
developed and tested on public roads without sufficient safeguards to 
protect both those within the AVs and everyone sharing the roadways 
with them without consent. Numerous public opinion polls show a high 
skepticism and fear about the technology, and for good reason. At least 
six crashes resulting in four fatalities have occurred in the U.S. 
involving cars equipped with autonomous technology that are being 
investigated by the National Transportation Safety Board (NTSB).
    While AVs have tremendous promise to meaningfully reduce traffic 
crashes, fatalities and injuries as well as increase mobility, once 
they are proven to be safe, they must be subject to minimum performance 
standards set by the U.S. Department of Transportation (U.S. DOT). 
These standards should include, but not be limited to, cybersecurity, 
vehicle electronics, driver engagement for AVs that require a human 
driver to take over at any point, and a ``vision test'' for driverless 
cars to ensure they can properly detect and respond to their 
surroundings. Additionally, minimum performance requirements and 
protections will be especially critical as autonomous systems are 
deployed in commercial motor vehicles (CMVs). Large trucks and buses 
should always have an appropriately-trained and licensed driver behind 
the wheel, and introduction of automated systems should never be used 
as a rationale for weakening operational rules such as hours of 
service, driver training and other important requirements.
    The recent crashes involving the Boeing 737 MAX airplane tragically 
highlight the catastrophic results that can occur when automated 
technology potentially malfunctions and is not subject to thorough 
oversight. Reports have indicated that many aspects of the plane's 
certification were delegated to Boeing. In addition, safety systems 
that could have assisted the pilots were not required as standard 
equipment. Lastly, both planes were being operated by experienced 
pilots that had extensive training. Yet, there are no such federal 
training requirements for individuals testing or operating automated 
vehicle technology or for the consumers who purchase these vehicles and 
are using them on public roads.
    Recommendation: AVs must be subject to minimum performance 
standards set by the U.S. DOT including for cybersecurity, vehicle 
electronics, driver engagement for AVs that require a human driver to 
take over at any point, and a ``vision test'' for driverless cars to 
ensure they can properly detect and respond to their surroundings.
Crash Data Must be Collected and Available
    At a minimum, crash data should be collected, recorded, accessible, 
and shared with appropriate federal agencies and researchers so that 
safety-critical problems can be identified. Consumers must also be 
given essential information about the limitations and capabilities of 
AVs in the owner's manual and at the point of sale, as well as via a 
public website searchable by VIN that includes, at a minimum, vehicle 
information such as any exemptions from federal safety standards and 
the AV's operational design domain (ODD).
    Recommendation: Crash data generated by vehicles should be 
collected, recorded, accessible, and shared with appropriate federal 
agencies and researchers so that safety- critical problems can be 
identified. In addition, consumers must also be given essential 
information about the limitations and capabilities of AVs in the 
owner's manual and at the point of sale, as well as via a public 
website searchable by VIN.
Vulnerable Road Users Must be Protected
    Deaths and injuries of pedestrians and bicyclists remain 
unacceptably high. In fact, in 2016, pedestrian and bicyclist 
fatalities hit their highest levels in nearly 30 years. Vehicles can be 
designed, specifically in the front end, to reduce the severity of 
impacts with pedestrians and/or bicyclists. Additionally, collision 
avoidance systems for pedestrians, like advanced AEB, have promise to 
further reduce deaths and injuries. Advocates continues to monitor 
research on the effectiveness of these systems and will support data-
driven solutions to these fatalities. Moreover, the New Car Assessment 
Program (NCAP) must be updated to include pedestrian crashworthiness 
and pedestrian crash avoidance. Upgrades to infrastructure could also 
offer pedestrians and bicyclists better protection to reduce the 
occurrence and severity of crashes.
    Recommendation: NHTSA should be directed to issue a standard for 
improved vehicle designs to reduce the severity of impacts with road 
users. In addition, NCAP must be updated to include pedestrian 
crashworthiness and pedestrian crash avoidance.
Improving Safety for Older Americans
    In 2017, over 6,500 people age 65 and older were killed in traffic 
crashes--representing 18 percent of all traffic fatalities. Advocates 
has developed federal legislative proposals addressing both human 
factors and vehicle design issues to advance the safety of older 
adults. These recommended improvements include development of a crash 
test dummy representing older occupants, endorsing revisions to NCAP to 
include a ``Silver Car Rating'', and promoting a modification of the 
injury criteria used in crash tests to address the specific injury 
patterns suffered by older occupants. Additionally, Advocates supported 
the need to mandate that hybrid and electric vehicles be manufactured 
to make sounds when operating at speeds below 18 miles per hour in 
order to enable child and adult pedestrians and bicyclists, especially 
those with visual-impairments and older adults, to identify the 
presence and movement of these very quiet vehicles. This final rule was 
issued in December 2016 and compliance is required by September 2020.
    Recommendation: NHTSA should be required to develop a crash test 
dummy representing older occupants, revise NCAP to include a ``Silver 
Car Rating'', and modify injury criteria used in crash tests to address 
the specific injury patterns suffered by older occupants.
The Epidemic of Distracted Driving Must be Addressed
    In 2017, crashes involving a distracted driver claimed 3,166 lives. 
Moreover, crashes in which at least one driver was identified as being 
distracted imposes an annual economic cost of $40 billion dollars, 
based on 2010 data. Issues with underreporting crashes involving cell 
phones remain because of differences in police crash report coding, 
database limitations, and other challenges. It is clear from an 
increasing body of safety research, studies and data that the use of 
electronic devices for telecommunications (such as mobile phones and 
text messaging), telematics and entertainment can readily distract 
drivers from the driving task.
    Numerous devices and applications, which pose a substantial danger 
for distracted driving, are being built into motor vehicles. Yet, NHTSA 
has issued non-binding guidelines which recommend, but do not require, 
that clearly unsafe electronic devices should not be installed in 
vehicles. This does not prohibit manufacturers from installing 
electronic communications devices that have highly distracting features 
and will not prevent manufacturers from disregarding the agency 
guidelines.
    Recommendation: NHTSA should issue regulations to strictly limit 
the use of electronic communication and information features that can 
be operated while driving, and to prohibit the use of those features 
that cannot be conducted safely while driving.
NHTSA Must be Sufficiently Funded and Given Additional Authorities
    Ensuring NHTSA has adequate resources, funds and staff is a crucial 
priority. However, the Administration has proposed reducing NHTSA's 
vehicle safety program by $49 million (26 percent) from the agency's 
2019 budget. The Fixing America's Surface Transportation (FAST) Act 
(Pub. L. 114-94) authorized $214,073,440 for NHTSA's vehicle safety 
program for fiscal year 2020. The Administration's request is $63 
million less than the Congressional authorization. In addition, under 
the Administration's proposal the enforcement budget, which supports 
the agency's efforts to identify safety recalls and ensure new vehicles 
meet federal safety standards, will be cut by $13.5 million (40.9 
percent) and the rulemaking budget will be cut by $2.4 million (9.6 
percent).
    In recent years, millions of motor vehicles have been recalled for 
serious and sometimes fatal safety defects. NHTSA must have the ability 
to take immediate action when the agency determines that a defect 
involves a condition that substantially increases the likelihood of 
serious injury or death if not remedied immediately. This ``imminent 
hazard'' power is needed to protect the public, by allowing the agency 
to direct manufacturers to immediately notify consumers and remedy the 
defect as soon as possible. Further, NHTSA must also be given the 
authority to pursue criminal penalties in appropriate cases where 
corporate officers who acquire actual knowledge of a serious product 
danger that could lead to serious injury or death and knowingly and 
willfully fail to inform NHTSA and warn the public. Under current 
federal law, many agencies already have authority to pursue criminal 
penalties including the Consumer Product Safety Commission, the Food 
and Drug Administration, and the Securities and Exchange Commission. 
The lack of criminal penalty authority has hampered the agency's 
ability to deter automakers from safety defect recidivism.
    Recommendation: Considering the unacceptably high number of 
fatalities and injuries on our Nation's roads, the prevalence of 
recalls, and the new responsibilities incumbent upon the U.S. DOT as 
AVs are developed and deployed, NHTSA must have additional resources 
and authorities to effectively oversee vehicle safety.
Commercial Motor Vehicle Safety Must be Improved
    Large truck crash fatalities continue to skyrocket. Each day on 
average, 13 people are killed and more than 400 more are injured in 
large truck crashes. This preventable fatality toll amounts to a major 
airplane crash every other week of the year. However, technology 
currently exists that can help to reverse these grim statistics. They 
include crash avoidance systems like AEB and speed limiting devices. 
This equipment should be made standard on all large trucks. Advocates 
has also recommended mandating comprehensive underride guards for large 
trucks in order to prevent serious injuries and deaths that occur in 
crashes in which a passenger vehicle goes underneath the rear, side or 
front of a truck--known as ``underride.''
    Additionally, the lack of uniform adequate training for candidates 
wishing to obtain their commercial driver's license (CDL) has been a 
known safety problem for decades. Yet, a rule requiring training for 
all new CDL applicants issued in 2016 failed to include a requirement 
that they receive a minimum number of hours of the behind-the-wheel 
(BTW) training. This type of real-world experience is needed to enhance 
the ability of CDL applicants to operate a CMV safely. In addition to 
these measures, federal truck safety laws including truck size and 
weight limits, truck driver hours of service rules, and the age 
requirement for transporting interstate commerce should not be 
weakened.
    Further, the safety deficiencies of motorcoaches identified in 
countless recommendations and crash investigations by the NTSB had not 
been addressed for years, even decades, until deadlines for agency 
action were enacted in the Moving Ahead for Progress in the 21st 
Century (MAP-21) Act (Pub. L. 112-141). Even still, NHTSA has yet to 
complete several of these rulemakings despite a long overdue 
Congressional deadline of October 2014.
    Recommendation: Lifesaving technology including AEB, speed limiting 
devices and underride guards should be standard equipment on CMVs and 
trailers. Federal truck safety laws including truck size and weight 
limits, truck driver hours of service rules, and the age requirement 
for transporting interstate commerce should not be weakened, and truck 
driver training requirements should be enhanced. Overdue rulemakings 
enhancing the safety of motorcoaches must be completed without further 
delay.
Our Most Precious Passengers Need Enhanced Protections
    Every year, nearly 500,000 school buses transport more than 25 
million children to and from school and school-related activities 
according to the NTSB. School bus crashes are similar in many respects 
to aviation crashes--crashes are infrequent but when they do occur, the 
results can be catastrophic. Leading safety experts have determined 
that all school buses should be equipped with safety belts to improve 
passenger safety. Since 2013, the NTSB has recommended that new school 
buses be equipped with safety belts. Moreover, the American Academy of 
Pediatrics has a long standing position that new school buses should be 
equipped with safety belts. NHTSA also supports requiring safety belts 
on school buses, and has stated that its goal is to make sure there are 
no fatalities in school buses. Additional technologies can also make 
school buses safer. NTSB has recommended that school buses be equipped 
with both electronic stability control (ESC) and AEB. In addition, 
motion-activated detection systems that can detect pedestrians located 
near the outside of the school bus and alert the driver of their 
presence can improve safety for students boarding and departing a 
school bus.
    Recommendation: Congress should require that important safety 
advancements be made to ensure the safety of children both inside and 
outside of school buses.
                               conclusion
    America's roads are needlessly dangerous. Far too many lives are 
lost and serious injuries sustained in crashes each year. However, 
commonsense solutions are at hand that can help to improve the safety 
of all road users. With bold action from this Committee, these measures 
can be implemented and lives can be saved.

                                 <F-dash>
Statement of the American Road and Transportation Builders Association, 
                Submitted for the Record by Hon. Norton
    Chairman Norton, Ranking Member Davis and members of the 
subcommittee, the American Road & Transportation Builders Association 
(ARTBA) appreciates the opportunity to submit these comments on a 
subject that is of primary importance to our organization, the entire 
transportation construction industry and the American public--Every 
Life Counts: Improving the Safety of our Nation's Roadways.
    Established in 1902, ARTBA represents over 8,000 member companies 
and individuals who design, build and manage the nation's highways, 
public transit, airports and intermodal transportation systems. The 
primary goal of the association is to grow and protect transportation 
infrastructure investment to meet the public and business demand for 
safe and efficient travel. Accordingly, the jobsite safety of the men 
and women who build and maintain America's transportation 
infrastructure--as well as that of those who travel through our work 
zones and drive on our completed roadways--has been a top priority for 
ARTBA's membership.
    As an example of ARTBA's commitment to roadway safety, in 2016 we 
launched the Safety Certification for Transportation Project 
Professionals(tm) (SCTPP). This industry driven program aspires to 
ensure the safety and well-being of construction workers, motorists, 
truck drivers, pedestrians and their families by making transportation 
project sites worldwide zero-incident zones.
    The SCTPP credential aims to show employers and peers that 
credentialed transportation professionals can identify common hazards 
found on transportation project sites and correct them to prevent 
safety incidents that could result in deaths or injuries. Earning the 
professional certification also demonstrates command of 
internationally-recognized core competencies for safety awareness and 
risk management on transportation projects.
    The program was accredited by the American National Standards 
Institute (ANSI) in May 2018; well over 300 people have earned the 
credential. And we are just beginning.
                       safer roads and work zones
    ARTBA understands highway safety is an intricate balance between 
the roadway infrastructure, the vehicle and the motorist. That 
equilibrium is particularly challenged during construction operations 
where workers labor barely inches away from motorists who are often 
travelling at high rates of speed. We commend the committee for 
happening to schedule this hearing during National Work Zone Awareness 
Week, which for 20 years has promoted safety for all roadway users and 
construction workers who navigate these potentially hazardous roadway 
construction zones. ARTBA is particularly concerned with the trend of 
increasing deaths and injuries on these sites.
    Over the past eight years, work zone fatalities have increased 
significantly, from 586 in 2010 to 799 in2017 (the latest year for 
which data is available). That is a jump of over 30 percent. The table 
below represents the number work zone-related fatalities, as tracked by 
the National Traffic Highway Safety Administration's ``Fatality 
Analysis Reporting System'' or FARS:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This trend is obviously moving in the wrong direction, and we agree 
with the committee that a more serious investigation into the cause of 
work zone fatalities--and all roadway fatalities--is urgently needed.
                       a focus on infrastructure
    ARTBA's experience over the past 117 years has led to an 
understanding that roadway users will make errors. Design, construction 
and operation of the transportation network should emanate from this 
premise, allowing for the development of a more ``forgiving'' roadway 
system.
    In the United States, this principle requires a new paradigm. 
Today, much of America's basic road safety strategy today is aimed at 
reducing human error. Most federal efforts focus on reducing the number 
of crashes by improving motorists' behavior, including the interaction 
of drivers with pedestrians, cyclists, large trucks and other 
motorists. ARTBA believes we must turn that premise around by accepting 
the fact that some motorists will inevitably make mistakes. Too often 
they pay for their mistakes with their lives--or the lives of innocent 
bystanders.
    On all major routes--and others to the extent practicable--our 
roadway system must anticipate user error and be designed, constructed, 
equipped and operated to forgive the errant user and protect the 
innocent worker, pedestrian, cyclist or other driver.
                         severity vs. frequency
    In conjunction with reducing fatalities, ARTBA believes our 
transportation system must be improved to reduce the severity of 
incidents. In some situations, such as the use of roundabouts, a 
possible increased rate in the frequency of accidents may be a viable 
trade-off for a decrease in the severity of injuries. The U.S. should 
prioritize the quality of human life and health above the rate of 
traffic incidents.
    ARTBA's premise does not remove responsibility from the driver to 
operate his or her vehicle in a safe and courteous manner. All 
transportation users have an obligation to follow laws, standards and 
customs that promote safe and efficient use of the system. At the same 
time, funds must be provided to give transportation system owners 
greater opportunities to properly operate their systems.
    To date, U.S. policy accepts the fact this is an imperfect system, 
with a goal to reduce the unsafe consequences of that system. ARTBA 
believes America's safety goal should be developing a transportation 
system that features zero predictable crashes with severe 
consequences--beginning with the major networks through to all other 
roadways to the extent practicable.
                             paradigm shift
    This vision requires a paradigm shift on two parallel tracks:
    1.  The focus of reducing incidents on America's transportation 
system must be viewed asreducing severity of injuries as opposed to 
reducing the number of crashes.
    2.  The policy anticipates user errors and emphasizes design, 
construction and maintenance of asystem that will be ``forgiving'' of 
errant behavior.
    This change in philosophy is necessary because system users do not 
have all the relevant information needed to make critical decisions 
related to their safety and the safety of other users. For example, 
drivers are repeatedly reminded: ``speed kills,'' but the problem is 
not just speed but kinetic energy. Kinetic energy causes the damage in 
a collision or a crash, yet users are blind to it. They feel safe when 
they shouldn't. If the transportation system looked dangerous--and 
hazards were visible in a manner which users could perceive and 
appreciate--reliance on improved user behavior would be sufficient. The 
design and operation of America's transportation system must compensate 
for this information gap and systematically seek to eliminate such 
invisible hazards.
    On April 14, 2010, Dr. Ted Miller of the Pacific Institute for 
Research & Evaluation (PIRE) offered testimony on this approach before 
the Senate Committee on Environment and Public Works.He made a 
remarkable statement to Congress: ``The cost of crashes involving 
deficient roadway conditions dwarf the costs of crashes involving 
alcohol, speeding, or failure to wear a safety belt . . . Focusing as 
much on improving road safety conditions as on reducing impaired 
driving would save thousands of lives and billions of dollars each 
year.'' He further estimated ``motor vehicle crashes in which roadway 
conditions is a contributing factor cost the U.S. economy more than 
$217 billion each year.''
    Dr. Miller's comments were based on a significant research study 
commissioned by the Transportation Construction Coalition--a 
partnership of 31 national construction associations and construction 
trade unions that is co-chaired by ARTBA and the Associated General 
Contractors of America. Completed in 2009, the study is entitled, ``On 
a Crash Course: The Dangers and Health Costs of Deficient Roadways.'' 
In the report Dr. Miller described several immediate solutions for 
problem spots including using brighter and more durable pavement 
markings, adding rumble strips to shoulders, mounting more guardrails 
or safety barriers, and installing traffic signals and better signs 
with easier-to-read legends. Dr. Miller emphasized: ``More significant 
road improvements include replacing non-forgiving poles with breakaway 
poles, adding or widening shoulders, improving roadway alignment, 
replacing or widening narrow bridges, reducing pavement edges and 
abrupt drop offs, and clearing more space on the roadside.''
    Ten years later, the report's findings remain valid, and the state 
of America's infrastructure may well be in worse condition now than it 
was a decade ago. ARTBA's April 1 report on the state of U.S. bridges 
found the pace of bridge repair in the U.S. is slowing. At the current 
pace, it would take more than 80 years to replace or repair the 
nation's structurally deficient bridges. That's longer than the average 
life expectancy of a person living in the U.S. The report, based on an 
analysis of the recently-released U.S. Department of Transportation 
2018 National Bridge Inventory (NBI) database, revealed 47,052 bridges 
are classified as structurally deficient and in poor condition. The 
length of America's structurally deficient bridges if placed end-to-end 
would span nearly 1,100 miles, the distance between Chicago and 
Houston.
                   a history of congressional support
    ARTBA commends Congress for its long-standing support of roadway 
infrastructure safety. In the MAP-21 and FAST Act surface 
transportation laws, Congress ensured that funds set aside for the 
Highway Safety Improvement Program (HSIP) would be dedicated to highway 
infrastructure safety improvements. The legislation also continued to 
provide support for the National Work Zone Safety Information 
Clearinghouse, a public-private partnership dedicated to providing 
research, information, conferences and many other resources aimed at 
improving roadway work zone safety. We hope Congress will continue to 
support these important programs.
                              a first step
    While there are many needs for roadway improvements--and demands on 
resources to make those improvements are challenging--some efforts 
simply require doing that which Congress has already identified as an 
immediate need. For example, through federal rulemaking after the 
SAFETEA-LU surface transportation law and further provisions in both 
the MAP-21 and FAST Act laws, Congress and previous administrations 
have expressed in a bipartisan manner the intent to use increased 
positive separation between workers and motorists on construction 
projects that present significant hazards to both workers and roadway 
users. However, the law has not been fully implemented and positive 
separation is still not used as regularly as Congress intended. New 
products and technologies are available that make the practice more 
practical and cost-effective.
    Congress should continue to mandate the Federal Highway 
Administration to strengthen areas of its Subpart K regulation in 
accordance with the MAP-21 law that requires additional considerations 
for use of positive separation. It should also institute provisions in 
the next surface transportation law that allow for greater enforcement 
and/or consequences for those who violate the law. Congress should also 
urge FHWA to include similar positive separation considerations in the 
agency's Manual on Uniform Traffic Control Devices (MUTCD). The law is 
clear and prescriptive as to when positive protective systems are to be 
used by the owner/agency and should be followed accordingly.
                               conclusion
    Improved safety on America's roadways is a critically important 
goal. With limited resources it is imperative that Congress review all 
the means available for saving lives and use those resources in a 
manner that is most effective--both now and in the long term. 
Investment in improved roadway infrastructure is a proven means to 
achieve this goal, and will be effective independent of an individual's 
behavior, whether he or she decides to act responsibly, or chooses to 
drive impaired, distracted or fatigued.
    We have the technology and ``know how'' to build our roadway system 
to anticipate user error. It can be designed, constructed, equipped, 
and operated to forgive the errant user and protect the innocent 
victim. Sound investment in safe transportation infrastructure is a bi-
partisan priority. ARTBA encourages T&I Committee members to act in 
urgency with their colleagues in other House committees and the Senate 
to complete an infrastructure investment bill that will not only 
improve transportation operations, but also dramatically reduce the 
nearly 40,000 lives lost each year on America's roads.

                                 <F-dash>
      Statement of the American Association of State Highway and 
   Transportation Officials, Submitted for the Record by Hon. Norton
                              introduction
    The American Association of State Highway and Transportation 
Officials (AASHTO) welcomes the opportunity to submit this testimony 
related to safety on this nation's highways. AASHTO represents the 
state departments of transportation (state DOTs) of all 50 States, 
Washington, DC, and Puerto Rico.
    The State DOTs appreciate the leadership of the House 
Transportation and Infrastructure Committee, along with your Senate and 
House peers in partner committees, in shepherding the Fixing America's 
Surface Transportation (FAST) Act in December 2015. This legislation 
has ensured stability in the federally-supported passenger rail, 
freight, safety, highway, and transit programs through 2020.
    The safety of all users of the transportation system is a top 
priority for every state DOT and safety is one of AASHTO's key 
reauthorization policy areas included as part of our Transportation 
Policy Form (TPF). Under the direction of the TPF, the state DOTs last 
year initiated an extensive 18-month effort to develop and adopt 
reauthorization policy recommendations by October of this year. It is a 
bottom-up process, where we are currently in the process of gathering 
expert input from our wide range of technical committees comprising 
leaders from all state DOTs. We're also seeking our industry partners' 
input during this process prior to our formal adoption later next year, 
in order to maximize the inclusivity of perspectives in our policy 
recommendations to come.
    In order to improve the safety of the transportation system for all 
users, infrastructure owners and operators, such as state DOTs, must 
take a multidisciplinary and data-driven approach to transportation 
safety. Transportation safety performance is linked to a variety of 
elements, including roadway design, traffic law enforcement, road user 
behavior, and emergency crash response. Therefore, effective 
transportation safety necessitates a multidisciplinary effort and 
requires that the infrastructure owners and operators partner with a 
range of stakeholders and exercise flexibility in how best to use 
limited funding in order to eliminate traffic fatalities and serious 
injuries.
    As the owners and operators of a significant portion of this 
nation's roadways, AASHTO members have been at the forefront in 
ensuring a safe transportation system through safety innovation. In 
2012, the Moving Ahead for Progress in the 21st Century (MAP-21) was 
passed which requires states to use a performance-based management 
approach to establish targets and then allocate funding to projects and 
programs that will help a state achieve those targets. The law required 
the U.S. Department of Transportation (USDOT), to establish a number of 
national performance measures, of which safety is one of four major 
groups. The law and subsequent regulations set certain requirements for 
state DOTs to establish targets and to make progress towards achieving 
those targets prior to imposing certain consequences. For safety, all 
state DOTs must establish targets for five safety performance measures:
    1.  Number of fatalities on all public roads
    2.  Fatality rate on all public roads
    3.  Number of serious injuries on all public roads
    4.  Serious injury rate on all public roads
    5.  Number of non-motorist fatalities and serious injuries on all 
public roads
    State DOTs are able to establish their own targets for each safety 
performance measure and must report their targets through their annual 
Highway Safety Improvement Program (HSIP) report and the Highway Safety 
Plan (HSP) report. The Federal Highway Administration (FHWA) determines 
whether a state DOT has made significant progress towards achieving 
their targets if they meet or exceed four out of five targets or if 
their final number is better than a baseline value calculated by FHWA. 
If a state DOT is determined to have not made significant progress 
towards their safety performance measures, FHWA will impose a number of 
consequences.
    Safety is considered one of the more mature performance management 
areas since state DOTs have been establishing and reporting on many 
different safety performance measures through their HSIP, Highway 
Safety Plans, and Strategic Highway Safety Plans (SHSP) for nearly ten 
years. The target-setting process a state DOT uses to establish their 
targets is very comprehensive and data-driven. It is comprehensive in 
that it includes many different stakeholders and addresses all public 
roads and all users of the transportation system. It is data-driven in 
that numerous sources of data are included in the analysis including 
the Fatal Accident Reporting System (FARS), law enforcement data, 
serious injury databases, and roadway design elements. All of this data 
and information is then used to better understand why crashes occurred 
where and when they did. Finally, predictive tools and models are used 
to better understand how best to program funding for specific projects 
to prevent the crashes from occurring, be it countermeasures, design 
elements, enforcement efforts, and/or public information campaigns.
    Thus, an important aspect to programming funding is flexibility 
both in how funds can be used among engineering, education, enforcement 
and emergency services efforts as well as within the engineering domain 
where state DOTs have the most control to identify which engineering 
solution may be most appropriate to improve safety. In order to make 
the best engineering decision, state DOTs have pooled their resources 
to research and develop a number of different design guides that 
transportation professionals can use to plan and design better and 
safer transportation systems. The following are examples of the design 
guides that the state DOTs have developed through AASHTO:
    <bullet>  Highway Safety Manual \1\--provides a complete collection 
of quantitative safety analysis methods to estimate crash frequency or 
severity at a variety of locations in order to better plan and design 
safer roadways.
---------------------------------------------------------------------------
    \1\ http://www.highwaysafetymanual.org/Pages/default.aspx
---------------------------------------------------------------------------
    <bullet>  Policy on Geometric Design of Highways and Streets \2\ 
(also known as the AASHTO Green Book)--presents a framework for the 
geometric design of roadways that is flexible, multimodal, and 
performance-based providing guidance to engineers and designers who 
strive to make unique design solutions that meet the needs of all 
highway and street users on a project-by-project basis. The newest 
edition introduces a set of ``contextual'' classifications--such as 
rural, rural town, suburban, urban, and urban core--that will help 
better guide geometric design efforts to create more ``flexible and 
performance-based'' designs for new projects as well as for existing 
roads. Work has begun on the next edition, which is expected to fully 
implement a multimodal, performance-based approach for road designers 
to use to improve safety by meeting the needs of all roadway users.
---------------------------------------------------------------------------
    \2\ https://store.transportation.org/item/collectiondetail/180
---------------------------------------------------------------------------
    <bullet>  Guide for the Planning, Design, and Operation of 
Pedestrian Facilities \3\--provides guidelines for the planning, 
design, operation, and maintenance of pedestrian facilities, including 
signals and signing. The guide recommends methods for accommodating 
pedestrians, which vary among roadway and facility types, and addresses 
the effects of land use planning and site design on pedestrian 
mobility. A new, updated edition of this guide is scheduled to be 
published this year.
---------------------------------------------------------------------------
    \3\ https://store.transportation.org/Item/CollectionDetail?ID=131
---------------------------------------------------------------------------
    <bullet>  Guide for the Development of Bicycle Facilities \4\--
provides detailed planning and design guidelines on how to accommodate 
bicycle travel and operation in most riding environments. It covers the 
planning, design, operation, maintenance, and safety of on-road 
facilities, shared use paths, and parking facilities. Flexibility is 
provided through ranges in design values to encourage facilities that 
are sensitive to local context and incorporate the needs of bicyclists, 
pedestrians, and motorists. Work on a new edition is currently 
underway.
---------------------------------------------------------------------------
    \4\ https://store.transportation.org/Item/CollectionDetail?ID=116
---------------------------------------------------------------------------
    <bullet>  Guide for Geometric Design of Transit Facilities on 
Highways and Streets \5\--provides a comprehensive reference of current 
practice in the geometric design of transit facilities on streets and 
highways, including local buses, express buses, and bus rapid transit 
operating in mixed traffic, bus lanes, and high-occupancy vehicle 
lanes, as well as bus-only roads within street and freeway 
environments. It also covers streetcars and LRT running in mixed 
traffic and transit lanes, and within medians along arterial roadways.
---------------------------------------------------------------------------
    \5\ https://store.transportation.org/Item/CollectionDetail?ID=133
---------------------------------------------------------------------------
    All of these guides provide planners, engineers, and designers with 
significant flexibility in how they ultimately design a transportation 
project while taking into account the overall safety and operations of 
the facility. These guides do not establish mandatory requirements for 
how a project should be designed, rather they emphasize flexibility and 
encourage planners, engineers, and designers to take into account the 
unique aspects of each individual project. In fact, state DOTs are 
adding even more flexibility to these guides while continuing to ensure 
they remain research-based and peer-reviewed. For example, the next 
edition of the Policy of Geometric Design of Highways and Streets will 
include updates to educate engineers and designers on the flexibility 
inherent in the guide and further emphasize the multimodal nature of 
our transportation system which includes all users.
    Given the comprehensive nature of improving the safety of our 
transportation system, the remainder of this testimony focuses on three 
points that have been identified to date through the TPF process that 
should be addressed in future federal surface transportation 
authorization laws:
    1.  Continue to focus on implementation of the performance 
management regulations;
    2.  The need to add flexibility for the use of HSIP funding; and
    3.  The need to add eligibility and increased federal share for 
railway-highway grade crossing projects.
          implementation of performance management regulations
    All state DOTs are now in the process of implementing the 
performance management requirements that were established in law as 
part of MAP-21 and the FAST Act. The new and updated performance 
management regulations were developed and published over a six year 
time period beginning in 2013 and ending in 2018 with the publication 
of the final rule regarding 23 CFR Sec.  490, National Performance 
Management Measures, Subpart H and the FTA Safety final rule in July 
2018. State DOTs are currently working to implement the first required 
aspect of these provisions, which is to establish targets for the 
federal performance measures, incorporate those targets into the 
planning process, and report on progress towards achieving the targets. 
Under the current rules, the first comprehensive report documenting and 
analyzing the results of the first reporting cycle will not be 
available until CY2022, at the earliest, since the first reporting 
cycle goes from January 1, 2018 to December 31, 2021 \6\.
---------------------------------------------------------------------------
    \6\ https://www.fhwa.dot.gov/tpm/faq.cfm#perf
---------------------------------------------------------------------------
    AASHTO members believe the current regulations are working. A case 
in point is the Missouri DOT (MoDOT) and their current efforts to 
reduce fatalities and serious injuries on the public roadways. As with 
all state DOTs, 2017 was the first year for which Missouri had to 
establish safety targets for the five national-level safety performance 
measures identified above for CY2018. From the beginning, MoDOT 
established five-year targets by first establishing a goal for an 
annual reduction in fatalities and serious injuries. MoDOT used their 
strategic highway safety plan (called the Blueprint) goal of 700 
fatalities by 2020, which had the support of many stakeholders 
statewide, to drive these targets. Their initial 2017 targets for 
fatalities was a seven percent reduction, with a four percent reduction 
for serious injuries and for non-motorized users. These were considered 
very aggressive targets since the number of fatalities had increased in 
2015 and 2016.
    MoDOT, unfortunately, did not achieve their aggressive targets set 
in 2017 but was encouraged to see a reduction in the number of 
fatalities nonetheless. For 2018, they continued to pursue their 
Blueprint target of 700 fatalities by 2020 and set targets even more 
aggressively at nine percent reduction for fatalities and five percent 
reduction for serious injuries and four percent reduction for non-
motorized users. For 2019, they are proposing even more aggressive 
targets of 13 percent reduction for fatalities, eight percent reduction 
for serious injuries and a five percent reduction for non-motorized to 
continue the course to reach the Blueprint target. Since the beginning 
of federal safety targets, MoDOT has always set targets based on an 
anticipated reduction each year. Fatality and serious injury numbers 
started decreasing consistently in 2017 and continue as of this date.
    Because of the data-driven process MoDOT used and setting 
aggressive targets to improve safety, the Missouri Highways and 
Transportation Commission allocated an additional $10 million in 2017 
for safety projects. MoDOT supported the grass roots Buckle Up Phone 
Down campaign which took aim at reducing distracted driving. And, in 
2017, MoDOT targeted Natural Bridge Road in St. Louis that had three 
times the number of pedestrian crashes compared to other similar 
roadways (20 fatalities from 2012-2016). Since the multi-disciplinary 
efforts of this innovative project started, there has only been one 
pedestrian fatality, a decrease of 95% While MoDOT is seeing success in 
their efforts to establish aggressive targets that aim to drive down 
the number of fatalities and serious injuries we must remember that 
MoDOT alone cannot be held responsible for a state's ultimate results. 
MoDOT sets safety targets based on efforts to improve highway safety 
using the comprehensive approach which includes engineering, education, 
enforcement, emergency services, and public policy as well as 
significant engagement with statewide partners, local agencies, and 
elected officials as part of the solution for reducing fatalities.
    The MoDOT story is but one of 52 examples occurring throughout the 
United States. We believe it is an example of a true success story in 
the way a data-driven process like performance management can be used 
to identify areas of concern, agencies can set targets, and then 
strategies identified to achieve those targets. To this end, AASHTO 
recommends that no consideration be given to changing existing 
regulations that would alter the current performance management 
requirements until after at least two full reporting cycles in order to 
give the state DOTs time and experience in addressing the regulations 
which is 2026.
             highway safety improvement program flexibility
    Under current law, HSIP funds are restricted to use on specific 
activities and cannot be used for education, enforcement, safety 
research, or emergency medical service safety programs. The legislative 
change in the FAST Act effectively restricts HSIP eligibility to only 
28 strategies, activities or projects listed in the legislation, 
eliminating the ability to use HSIP funds for public awareness and 
education efforts, infrastructure and infrastructure-related equipment 
to support emergency services, and enforcement of traffic safety laws 
that are identified in the states' Strategic Highway Safety Plans.
    Prior to the enactment of the FAST Act, state DOTs had the 
flexibility to choose safety projects and programs that would lead to 
the best safety outcome--whether the solutions were roadway safety 
infrastructure projects or were implemented in combination with non-
infrastructure programs. SAFETEA-LU and MAP-21 had provided this 
flexibility in order to identify: 1) the right solution to fit the 
unique needs of specific areas or stretches of roadway and to help 
reverse a trend of increasing fatalities; 2) a systemic approach to 
address a type of crash state wide; and/or 3) a behavioral issue in a 
certain area or part of the population. Unfortunately, the FAST Act 
changed the ability of state DOTs to truly implement a comprehensive 
and data-driven process since states are limited in how they can use 
their limited HSIP funding.
    Ultimately, the FAST Act changes are inconsistent with the intent 
of a state's Strategic Highway Safety Plan, which calls for a 
multidisciplinary approach to reducing highway fatalities and serious 
injuries on all public roads. The lack of flexibility in safety project 
selection in the HSIP program, particularly non-infrastructure related 
activities, stifles innovative safety improvements and partnerships 
that lead to crash reductions and reduced highway fatalities. AASHTO 
recommends that Congress restore flexibility for states to use a 
portion of HSIP funds for non-infrastructure safety programs and for 
safety research.
                       railway-highway crossings
    Crashes at highway-rail grade crossings are a perennial issue for 
many state and local DOTs from a safety perspective. According to the 
U.S. Government Accountability Office, railway-highway crossings are 
one of the leading causes of railroad-related deaths \7\. According to 
the Federal Railroad Administration (FRA) data, in 2017, there were 
more than 2,100 crashes resulting in 273 fatalities. Since 2009 crashes 
have occurred at a fairly constant rate. And, research sponsored by the 
FRA identified vehicle driver behavior as the main cause of highway-
rail grade crossing crashes and that factors such as train and traffic 
volume can contribute to the risk of a crash. In addition, over 70 
percent of fatal crashes in 2017 occurred at grade crossings with 
gates. Railway-highway crossings are an important contributor to a 
state DOT's fatality and serious injury rates and through the 23 USC 
Sec.  130 program, the federal government provides states funding to 
improve grade-crossing safety. Within the 23 USC Sec.  130 Program, 
there are four concerns that the state DOTs have: conflict related to 
the federal share between 23 USC Sec.  120 and Sec.  130 programs, the 
need for additional flexibility in the use of railway-highway funds, 
the need to increase incentive payments for communities, and the 
eligibility of projects for funding.
---------------------------------------------------------------------------
    \7\ https://www.gao.gov/assets/700/695317.pdf

Federal Share--For the at-grade rail-highway crossing program, 
there is a conflict in current law. 23 USC Sec.  120 allows for 
a 100 percent federal share for certain safety projects or 
projects within Indian reservations, national parks, and 
national monuments while 23 USC Sec.  130, Railway-Highway 
Crossing, set the federal share at 90 percent. This difference 
in what is allowed for the total federal share has resulted in 
a lot of confusion at both state DOTs and the FHWA. For 
example, the FHWA allowed thirty-five states plus the District 
of Columbia to incorrectly authorize 863 projects at 100 
percent federal share (per 23 USC Sec.  120) rather than at 90 
percent as currently provided in 23 USC Sec.  130. The FHWA is 
now requiring states to reimburse the federal-aid program for 
the difference on railway-highway crossing projects authorized 
above the 90 percent share on or after April 14, 2016, which 
---------------------------------------------------------------------------
totals over $26 million.

Unfortunately, decreasing the federal share to 90 percent and 
requiring state DOTs to reimburse the federal-aid highway 
program for the difference already approved and spent will be 
counterproductive to the intent of the law and burdensome to 
many of the localities where the projects were constructed for 
two reasons.

First, many of the railway-highway crossing projects that were 
originally allowed at the 100 percent federal share are located 
in rural areas that are off the state highway system. And, most 
of these locations are in small cities and counties that do not 
have the financial resources to provide the needed ten percent 
match for the cost of the projects.

Second, if the intent of the law is to improve safety and state 
DOTs now have to reimburse FHWA for the $26 million, they 
likely have to take money away from other projects that are 
also designed to improve safety. Additional flexibility is 
needed in order to assist rural counties and small cities 
address their railway- highway crossing safety challenges.

Given the confusion and uncertainty that has been created by 
the differences in these two sections of Title 23, AASHTO 
recommends that the two sections be aligned to allow 100 
percent participation of 23 USC Sec.  130 funds, resulting in 
the funding being less restrictive to use at the local level 
where the need is often greatest. AASHTO believes these changes 
will provide significant safety benefits for rural areas where 
rail-highway crossings can result in significant safety 
concerns. In addition, AASHTO believes that the current 
requirement that states reimburse the federal-aid highway 
program for the $26 million be rescinded so that states can 
continue to focus on safety.

Incentive payments--States and railroads may make incentive 
payments of up to $7,500 for the permanent closure of at-grade 
railway-highway crossings. Although there are set-aside funds 
to help incentivize communities to close grade crossings, the 
$7,500 limit is often not enough to convince local officials to 
support closing these grade crossings, as the cost of such 
projects are substantially more expensive than this amount. 
AASHTO recommends that the $7,500 incentive payment amount be 
increased to $100,000 in order to encourage the closure of at-
grade railway-highway crossings.

Eligibility--The current 23 USC Sec.  130 railway-highway 
crossing program does not include replacement of functionally 
obsolete warning devices as an eligible activity. While 
research shows that a large percentage of crashes occur at 
railway-highway crossing with gates, the research also shows 
that modern and updated devices can reduce crashes occurring at 
railway-highway crossings as well. Thus, AASHTO recommends 
adding the replacement of functionally obsolete warning devices 
with modern and innovative devices and techniques to the list 
of eligible uses of 23 USC Sec.  130 funds.
                               conclusion
    Every state DOT views a high priority of their work being to 
provide a safe transportation system to the public. State DOTs have the 
expertise, data, and analytics to understand where crashes are 
occurring, how to mitigate the effect of those crashes, and program 
limited funding to achieve critical safety targets. Ultimately, while 
the state DOTs are held accountable for the federal performance 
management safety target achievement, we must remember that state DOTs 
alone are not solely responsible for achieving the safety targets. 
Determining how best to mitigate crashes from occurring that result in 
serious injuries and fatalities must include the ability for all 
partners to:
    <bullet>  design better infrastructure and vehicles;
    <bullet>  educate the public about safe use of roadways regardless 
of mode;
    <bullet>  enforce existing laws and/or establish new laws; and
    <bullet>  ensure emergency services are quick to arrive and well 
equipped if a crash does occur.
    Clearly, a state DOT has direct influence over some of these 
efforts, but certainly not all. Other state agencies, local agencies, 
elected officials and numerous other stakeholders are all part of the 
solution for reducing fatalities and serious injuries and the federal 
laws and regulations must be designed to enable a state DOT to have as 
much flexibility as possible to focus limited funding on programs and 
projects that have the potential to reduce the number of crashes as 
much as possible.
    AASHTO members encourage the Committee to continue to provide the 
necessary funding and program flexibility in order to best meet the 
safety challenges of today and best prepare for the safety challenges 
of the future.

                                 <F-dash>
  Letter from the Road to Zero Coalition, Submitted for the Record by 
                              Hon. Norton
                                                     April 9, 2019.
Hon. John Barrasso
307 Dirksen Senate Office Building, Washington, DC 20510
Hon. Peter DeFazio
2134 Rayburn House Office Building, Washington, DC 20510
Hon. Tom Carper
513 Hart Senate Office Building, Washington, DC 20510
Hon. Sam Graves
1135 Longworth House Office Building, Washington, DC 20515
    Dear Chairmen Barrasso and DeFazio and Ranking Members Carper and 
Graves:
    The Road to Zero coalition [https://www.nsc.org/road-safety/get-
involved/road-to-zero] believes reaching zero deaths on the nation's 
roads is not impossible; it just has not been done yet. We are a broad-
based diverse group of organizations committed to eliminating roadway 
fatalities by 2050. Over the past two years we have grown to more than 
900 members from across the country representing every facet of the 
transportation and safety communities. It is the first time so many 
organizations have collaborated to put forth a plan to address 
fatalities on our roads, which recently increased after years of 
decline.
    In 2018, the National Safety Council (NSC) estimates more than 
40,000 people lost their lives in roadway crashes.\1\ Additionally, 
pedestrian fatalities are at a higher level than any time in the last 
25 years. This is unacceptable.
---------------------------------------------------------------------------
    \1\ https://injuryfacts.nsc.org/motor-vehicle/overview/preliminary-
estimates/
---------------------------------------------------------------------------
    Everyone can do something to reduce fatalities on the roadway--
including government leaders, industry, safety experts, transportation 
planners, engineers, technology providers, health professionals, and 
advocates. Together, we have awarded eighteen Safe System Innovation 
Grants for leading safety projects and issued a seminal report, The 
Road to Zero: A Vision for Achieving Zero Roadway Deaths by 2050, on 
how to reach this bold objective.
    <bullet>  Double down on what works through proven, evidence-based 
strategies
    <bullet>  Advance life-saving technology in vehicles and 
infrastructure
    <bullet>  Prioritize safety by adopting a safe systems approach and 
creating a positive safety culture
    We hope this report and the goals in it can help you in your roles, 
and the Road to Zero Coalition stands ready to assist and show how we 
are implementing this vision each and every day across the United 
States.
        Sincerely,

        19th Judicial District Court Baton Rouge  2eyes.justdrive  3 
        little Halos Safety Town  92nd District Court of Michigan Case 
        Management  A Sobering Choice Coalition  AAA  AAA Foundation 
        for Traffic Safety  AARP  AARP Driver Safety  Acadian 
        Ambulance Service  ACRT Inc.  Active Transportation Alliance 
         Advanced Drivers of North America  Advocates for Highway & 
        Auto Safety  Agero  Air Safety Engineering  Alaska Child 
        Passenger Safety Coalition  Alert Today Florida  AlertDriving 
         Alexandria Bicycle and Pedestrian Advisory Committee  
        Alliance for a Healthy Orange County  Alliance for Safe Kids  
        Alta Planning + Design  ALTARUM, Center for Behavioral Health 
         Alvin Lester  Amazon  America Walks  American Ambulance 
        Association  American Association for Justice (AAJ)  American 
        Association of Motor Vehicle Administrators (AAMVA)  American 
        Association of State Highway and Transportation Officials  
        American Automotive Leasing Association (AALA)  American Bar 
        Association/NHTSA Judicial Outreach Liaison Chaney Taylor  
        American Bar Association/NHTSA Judicial Outreach Liaison Judge 
        Jack Kennedy  American Bar Association/NHTSA Judicial Outreach 
        Liaison Judge Mary Jane Knisely  American College of Emergency 
        Physicians  American Driver and Traffic Safety Education Assn. 
        (ADTSEA)  American Family Children's Hospital  American 
        Highway Users Alliance/Roadway Safety Foundation  American 
        Industrial Hygiene Association (AIHA)  American Insurance 
        Association (AIA)  American Motorcyclist Association  
        American Public Works Association (APWA)  American Road and 
        Transportation Builders Association  American Society of Civil 
        Engineers (ASCE)  American Society of Safety Engineers (ASSE) 
         American Traffic Safety Services Association (ATSSA)  
        American Transportation Research Institute (ATRI)  American 
        Trucking Associations (ATA)  Amy Stewart CSP  AnnaLeah & Mary 
        for Truck Safety  Anne Lusk, Ph.D. - Harvard T.H. Chan School 
        of Public Health  Arcadis  ARI  Arizona Department of 
        Transportation  Arkansas Highway and Transportation Department 
         Arrow Expedite, Inc.  Association *Friends Of Road* for 
        Sikasso Mali (Africa)  Association for Safe International Road 
        Travel (ASIRT)  Association for the Advancement of Automotive 
        Medicine (AAAM)  Association of Equipment Manufacturers (AEM) 
         Association of Ignition Interlock Program Administrators  
        Association of Metropolitan Planning Organizations  
        Association of National Stakeholders in Traffic Safety 
        Education  Association of Pedestrian and Bicycle Professionals 
        (APSE)  Association of Transportation Safety Information 
        Professionals  Athens-Clarke County  Atlanta Bike  Austin 
        Transportation Department  Autonontraffic  B.R.A.K.E.S.  
        Baltimore City Department of Transportation  Baltimore 
        Metropolitan Council  Baton Rouge-Courts  Baton Rouge 
        Planning Commission  BCR Consulting LLC  Beach Cities Cycling 
        Club  Beaverhead Development Corporation  Behind The Wheel 
        With ADHD  Below 100  BenPohlSpeaks  Benton County Arkansas 
         Berkeley Media Studies Group  Berlin (VT) Police Deparatment 
         Better Eugene-Springfield Transit (BEST)  Bicycle Coalition 
        of Maine  Bicycle Colorado  Big Picture Huntsville  Bike 
        Cleveland  Bike Pittsburgh  Bike Routes 4 Fitness Inc.  Bike 
        San Diego  BikeWalkKC  Blue Hills Neighborhood Assoc.  
        Boardman Township, Mahoning County, Ohio  Boone County Highway 
        Department, IL  Boone County Public Works, KY  Borough of 
        Kennett Square  Borough of Matamoras  Borough of 
        Nesquehoning, PA  Borris Automotive & Safety Solutions  
        Brahma Kumaris World Spiritual University (BKWSU)  Brain 
        Injury Association of America  Brandmotion  Breakthru 
        Beverage  Bristol-Myers-Squibb  Broadspectrum  Buchanan 
        County Secondary Roads-IA  Buckle Up for Life  Buckle Up Your 
        Pet  Butte Cares Inc.  C.S. Mott Children's Hospital, Injury 
        Prevention Program  California University of PA  California 
        Walks  Cape Canaveral City Council  Cape Coral Police 
        Department  Capital District Transportation Committee-New York 
         Capitol Region Council of Governments Traffic Planner  
        car2go North America  Carol Stream Police Department  Cary 
        Medical Center  Casanova Powell Consulting  Cascade Bicycle 
        Club  Casey Feldman Foundation  CDC-National Center for 
        Injury Prevention and Control  CDC-(NIOSH)  CDC Center for 
        Disease Control and Prevention  CEC Electrical  CellSlip  
        Transport Hartford Academy at the Center for Latino Progress  
        Center for Safe Alaskans  Center for Seabees Facilities 
        Engineering  Center for Transportation Safety  Center for 
        Transportation Research at the USF  Center for Vehicle Safety 
         Centerstone Kentucky  Chesapeake Region Safety Council 
        Maryland Chapter  Chicago Department of Transportation  Child 
        Injury Prevention Alliance  Children and Parent Resource 
        Group, Inc.  Children's Mercy Hospital  Citizen Response 
        Corps  City of Akron (OH) Police Department  City of Atlanta 
        Office of Mobility Planning  City of Bethlehem  City of 
        Birmingham (AL) Traffic Engineering Department  City of 
        Boulder  City of Bowling Green  City of Broken Arrow, OK  
        City of Charlotte  City of Charlotte Vision Zero  City of 
        Chicago  City of Cincinnati  City of Columbia, MO  City of 
        Coweta, OK  City of Cupertino Safe Routes to School  City of 
        Dallas  City of Decatur, AL  City of Dillon, MT  City of 
        Durango  City of Durant, OK  City of Durham Department of 
        Transportation  City of East Point, Georgia  City of 
        Edgewater  City of Elganger  City of Eugene  City of Fort 
        Lauderdale  City of Fremont  City of Hardy, Arkansas  City 
        of Hernando  City of Irvine  City of Kalamazoo-Public 
        Services Department  City of Kissimmee  City of Lakeland  
        City of Lansing, Michigan  City of Longwood, FL  City of 
        Louisville  City of Marshall, IL  City of Memphis  City of 
        Monterey  City of Morgantown, WV  City of Mountain Brook  
        City of Naples  City of North Miami Beach, FL  City of 
        Norwalk, CT  City of Omaha  City of Orlando Transportation 
        Department  City of Philadelphia  City of Pittsburgh 
        Department of Mobility and Infra.  City of Richmond, CA  City 
        of Richmond, VA  City of Roanoke  City of Rolling Meadows  
        City of San Antonio-TCI  City of San Jose  City of Santa Ana 
         City of Santa Monica, CA  City of Shreveport  City of West 
        Memphis  City of West Palm Beach  City of Westchester (NY) 
        Safe Streets  City of Westfield  City of Whittier (CA) Police 
        Department  Clackamas County Drive to Zero  Clark County, WA 
         Clastran  Coastal Carolina University Department of Public 
        Safety  College of Southern Maryland  Collegiate Life 
        Investment Foundation (CLIF)  Colorado Drive Safe  Commercial 
        Vehicle Safety Alliance  Community Action Partnership of 
        Orange County  Community Anti-Drug Coalitions of America  
        Community Initiatives (Sponsor of Vision Zero Network)  
        Connecticut DOT  Connecticut Highway Safety Office/Department 
        of Transportation  Coner Lynch Foundation  Consumer 
        Technology Association  Conway Police Department  Coshocton 
        County Engineer's Office  Cowboy Barriers LLC  Cranberry 
        Township, PA  Crane 1 Services  Creative Visions  Cross 
        County Connection TMA  CTIA-Everything Wireless  Cycling 
        Advocates of Southern Arizona (CASAz)  Daimler Trucks North 
        America  Dakota County Attorney's Office  DC Government  
        Decide2drive  Dee Davila-Estelle  Delaware General Health 
        District  Delfasco, LLC  Delhaize America, LLC  Delphi 
        Automotive  DENSO  Department of Homeland Security  
        Department of the Navy  Distribution Inc.  District 
        Department of Transportation  District Department of 
        Transportation-Highway Safety Office  Doodnauth Thompson  
        Dothan-Houston County Substance Abuse Partnership  Douglaston 
        Local Development Corporation  Draper  Drive Smart  Drive 
        Smart Virginia  Drivers Education of Southern Maryland, Inc.  
        Driving Dynamics  Duke Trauma Center  Dulles Greenway  Eagle 
        Ridge Institute  East New York 4 Gardens Inc  Econometrica, 
        Inc.  Ecostratas Services  eDriving  Educational 
        Alternatives OBA Oklahoma Community  El Paso County, CO  
        Embark  Embry Riddle Aeronautical University  Emergency 
        Medical Services for Children Center  Emergency Medicine 
        Foundation  EMS for Children Innovation and Improvement Center 
         Eno Center for Transportation  Equipment & Controls, Inc.  
        Erie County (Ohio) Engineer's Office  Escambia County BCC  
        eSociates  ESRP Corporation  EthosEnergy Field Services  
        Family, Career and Community Leaders of America  Fathers 
        Against Distracted Driving (FADD)  Federal Highway 
        Administration-Illinois  Federal Highway Administration-Texas 
        Division  Federal Highway Administration (FHWA)  Federal 
        Highway Administration Safety R&D  Federal Motor Carrier 
        Safety Administration (FMCSA)  FedEx  FIA Foundation  
        Fighting Back Santa Maria Valley  First Group  Fleet Complete 
         FleetGuide  Florida Department of Transportation  Florida 
        Law Enforcement Liaison Program  Florida T2 Center  Florida 
        Teen Safe Driving Coalition  Ford Driving Skills for Life  
        Ford Motor Company Fund & Community Services  Forks Township  
        Forty Fort Police Department  Forward Pinellas  Foundation 
        for Advancing Alcohol Responsibility (FAAR)  Foundation for 
        Safe Driving  Franklin Regional Council of Governments  
        Fullerton Collaborative  GAF  Gas Station TV  The General 
        Sessions Music City Community Court, VIII  George L. Reagle 
        and Associates  George Washington University Hospital  Global 
        Automakers  Global Brake Safety Council  Global Health 
        Advocacy Incubator  GO Bike Buffalo  Goodhue County Health 
        and Human Services  Governors Highway Safety Association 
        (GHSA)  Governors State University-Campus Police Department  
        Grand River Navigation Company  Graves County Road Department 
         Guam Office of Highway Safety  Gulf Breeze Police 
        Department, FL  Guts of Grief  H.E.A.R.T. Coalition, Inc.  
        Haas Alert  Handytube  Hang Up and Drive  Harford County 
        Sheriff's Office  Hawaii Bicycling League  Hays Companies  
        Health by Design  Healthy Communities of Brownsville, Inc.  
        HED Academy  Hennepin County Public Works  Here  Hernando 
        County Community Anti-Drug Coalition  Higher Education Center 
        for Alcohol and Drug Prevention  Hill County Road Dept  
        Hillsborough County Sheriff's Office  Hitch42 LLC  Holly 
        Springs Police Department (GA)  Hollywood Crawford Door 
        Company  Honda Motors  Howard County Fire and Rescue  Howard 
        University Hospital-Injury Prevention  Human Factors and 
        Machine Lab at Texas A&M  Humboldt General Hospital EMS Rescue 
         Hydrokinetics  Illinois Department of Transportation  
        Illinois Safety Consultants  llluminite360  IMMI  Impact 
        Teen Drivers  Improve Hybrid Safety  In Control Family 
        Foundation  In Memory of Tristan Beckett Schultz  
        Independence County Road Department  Indian Health Service  
        Injury Prevention Center at the Dartmouth-Hitchcock  Injury 
        Prevention Center of Greater Dallas  lnova Injury Prevention 
        and Outreach  Institute for Car Crash Justice  Institute for 
        Transportation at Iowa State University  Institute of Scrap 
        Recycling Industries, Inc.  Institute of Transportation 
        Engineers (ITE)  Institute of Transportation Engineers Public 
        Fellow  Insurance Institute for Highway Safety (IIHS)  
        Intelligent Car Coalition  Interactive Education Concepts  
        International Association of Chiefs of Police (IACP)  
        International Association of EMS Chiefs  International Center 
        for Automotive Medicine  lnviro Solutions Group  Ion Science 
         Iowa Methodist Medical Center  Iowa-Illinois Safety Council 
         iRap  ITE Public Fellow Member  J.D. Power  J&M Tank Lines 
         Jefferson County Iowa  Jessica and Kelli Uhl Memorial 
        Foundation  JodenesVoice  John Burns Construction Company  
        Johns Hopkins Center for Injury Research and Policy  Johns 
        Hopkins International Injury Research Unit  Johnson County 
        Trails  JPACC Foundation  Just Drive, Inc.  Justice Speakers 
        Institute  Justicia Vial  Kahn Media Inc.  Katasi, Inc.  
        Katherine Wilson Art  Kelly, Remmel, and Zimmerman Bike Law  
        Ken's Beverage Inc.  Keolis Transit America  KidsAndCars.org 
         Kimley-Horn  Kinetic Metrics LLC  Kittelson & Associates  
        Knight-Swift Transportation Holdings, Inc.  Knoxville Regional 
        Transportation Planning Organization  KSPAN-KY Safety & 
        Prevention Alignment Network  Kwik Trip  Laborers' Health & 
        Safety Fund of North America  Lake Forest Park Citizens' 
        Commission  Lance Wheeler Memorial Roadway Safety Initiative  
        Landstar Transportation Logistics, Inc.  Lane Council of 
        Governments  Lansing Area Safety Council  LaSalle County 
        Highway Department  LeasePlan USA  Lexington-Fayette Urban 
        County Government  Liberty Mutual  LifeFlight Eagle  
        LifeSaverApp LLC  Lime  Lindsey Research Services LLC  LINK 
        Houston  LivableStreets Alliance  LOOK! Save A Life  Lorain 
        County Public Health, OH  Los Angeles DOT  Los Angeles Police 
        Department  Los Angeles Walks  Louisiana Bureau of EMS  
        Louisiana Center for Transportation Safety  Louisiana 
        Destination Zero Deaths  Louisville Metro Department of Public 
        Works and Assets  Loyola University New Orleans  Lyft  Lytx, 
        Inc.  M-C North America Inc.  MADD  MADD-Maine Chapter  
        MADD Washington State Chapter  Madison County Safety Coalition 
         Mahube-OTWA Community Action Partnership  Main Line Health 
        Center for Population Research  Malcolm Omari Hill Scholarship 
        Fund Inc.  Manatee County Public Works  Marc and Tamara 
        Schwartz  Marconi Pacific, LLC  Massachusetts Department of 
        Transportation  Massachusetts State Police  McLean County 
        Planning Commission (Illinois)  Mechanical Systems Company, 
        LLC  Mecklenburg Safe Communities  MedStar Washington 
        Hospital Center  Message Loud  MGA Research  Michigan State 
        University  Mid-Region Council of Governments (NM)  Milt Olin 
        Foundation  Minnesota Office of Traffic Safety  Minnesota 
        Toward Zero Deaths  Mississippi Safety Services  Missouri 
        Bicycle & Pedestrian Federation  Mobileye Vision Technologies 
        Inc.  Mobility 4 All, GBC  Montana State University-Western 
        Transportation  Monterey County Health Department  Montgomery 
        County District Attorney's Office-Texas  Montgomery County, 
        Maryland Government-Vision  Morgan State University  Motor 
        Carriers of Montana  Motor Equipment and Manufacturers 
        Association  Motorcycle Riders Foundation  Mount Joy Borough 
         Mourning Parents Act, Inc.  Muller Welding Company  Munich 
        Reinsurance America Inc.  NAFA Fleet Management Association  
        Nassau Alcohol Crime Drug Abatement Coalition  Nassau County, 
        FL  National/Local Technical Assistance Program Association  
        National Academies of Sciences, Engineering, and Medicine (TRB) 
         National Advanced Driving Simulator University of Iowa  
        National Association of Attorneys General  National 
        Association of City Transportation Officials (NACTO)  National 
        Association of Counties (NACo)  National Association of County 
        Engineers (NACE)  National Association of Development 
        Organizations (NADO)  National Association of Emergency 
        Medical Technicians (NAEMT)  National Association of State EMS 
        Officers  National Association of State Head Injury 
        Administrators  National Association of State Motorcycle 
        Safety Administrators  National Association of Trailer 
        Manufacturers (NATM)  National Association of Women Highway 
        Safety Leaders  National Center for DWI Courts  National 
        Center for Rural Road Safety at Montana State University  
        National Center for Safe Routes to School-UNC Highway Center  
        National Child Passenger Safety Board  National Coalition for 
        Safer Roads  National Coalition for the Homeless  National 
        Complete Streets Coalition/Smart Growth America  National 
        District Attorneys Association (NOAA)  National District 
        Attorneys Association/National Traffic Law  National EMS 
        Management Association  National Fire Protection Association  
        National Foundation for Teen Safe Driving  National Governors 
        Association (NGA)  National Governors Association Center for 
        Best Practices  National Highway Traffic Safety Administration 
        (NHTSA)  National Highway Traffic Safety Administration 
        Judicial  National Highway Traffic Safety Administration 
        Public Health  National Highway Traffic Safety Administration 
        Tribal Judicial Fellow  National Institute of Health-National 
        Institute on Aging  National League of Cities (NLC)  National 
        Oceanic and Atmospheric Administration (NOAA)  National 
        Opinion Research Center at the University of Chicago  National 
        Organizations for Youth Safety (NOYS)  National Safety 
        Council-Chesapeake Region Safety Council  National Safety 
        Council-Nebraska Safety Council  National Safety Council-North 
        Dakota Safety Council  National Safety Council-Ohio Chapter  
        National Safety Council-Oklahoma Safety Council  National 
        Safety Council-Safety Council of SW Ohio  National Safety 
        Council (NSC)  National Safety Council of Northern New England 
         National Safety Council of South Carolina  National Safety 
        Council/National Child Passenger Safety Board  National 
        Sheriffs Association  National Transportation Safety Board 
        (NTSB)  National Waste and Recycling Association  Nationwide 
        Insurance  Naumann Hobbs Material Handling  Nauto, Inc.  
        NAVAIR/Military/NAS Patuxent River  Naval Safety Center  
        NavFac Bethesda  NC DWI Services  NDOT Highway Safety Office 
         Nebraska Bicycling Alliance  Nebraska Department of 
        Transportation Highway Safety  Network of Employers for 
        Traffic Safety (NETS)  Nevada Highway Patrol  Nevada Office 
        of Traffic Safety  New Mexico Department of Transportation  
        New Mexico DOT Traffic Safety Division  New Mexico DOT  New 
        Mexico LTAP Center  New Middletown Police  New York City  
        New York City-Department of Transportation  New York City 
        Police Department  Nexar  Nikhil Badlani Foundation  NJM 
        Insurance Company  NLTAPA  NNID Foundation Inc.  NoCell 
        Technology  Nonprofits Insurance Alliance Group  North 
        Carolina DOT Rail Division  North Carolina Division of Public 
        Health  North Central Texas Council of Governments  North 
        Dakota Department of Transportation  North Jersey 
        Transportation Planning Authority  Northeast Transportation 
        Connections  Northeastern New York Safety & Health Council  
        Northeastern University  Northwest Missouri Regional Council 
        of Governments  Northwestern Medicine  Office of the 
        Assistant Secretary of the Navy, Energy, Installations and 
        Environment  Office of the Attorney General, DC  Office of 
        the Chief Judge-Circuit Court of Cook County  Office of 
        Emergency Medical Services, Commonwealth of Massachusetts  
        Oklahoma Insurance Department  Oklahoma State University  
        Open Data Nation  Operation Lifesaver, Inc.  Orbcomm  Oregon 
        Walks  Our Driving Concern Oklahoma  Our Driving Concern 
        Texas  PA Trauma Systems Foundation  PACE Coalition  Pace 
        Suburban Bus  Palm Beach Metropolitan Planning Organization  
        Palmetto Cycling Coalition  Palouse Injury Research 
        Laboratory-University of Idaho  Parachute Vision Zero Network 
         Paramedic Foundation  Partnership for Change  Patricia E. 
        Adams, DTM  Patriot Rail Company LLC  Paul Shindman  Pedal 
        Pushers, LLC  Pedestrians Educating Drivers on Safety, Inc.  
        PedNet Coalition  Pendleton County Fiscal Court/Road Dept.  
        Pennsylvania DUI Association  People That Care, Inc.  Perry 
        Township  Pete Stoppani Consulting LLC  Philip B Demosthenes 
        LLC  Police Executive Research Forum (PERF)  Police 
        Foundation  Port Vue Borough  Preco Electronics  Prevention 
        Institute  Prince Georges County  Professor Gregory Shill  
        ProFrac Services, LLC  Progistics Distribution, Inc.  
        Promedica Hospital  Property Casualty Insurers Association of 
        America  Protective Insurance Company  Psychemedics 
        Corporation  Public Health Institute  Puerto Rico Safety 
        Group, Inc.  Pulse by Safety F1rst  Quanta Services  R+L 
        Carriers Inc.  RADO  Redflex Traffic Systems, Inc.  Regional 
        Transportation Commission, Washoe County  Remember Me  Rhode 
        Island Department of Transportation  Rhode Island Traffic 
        Safety Coalition  Richland County Regional Planning  Ridar 
        Systems  Ridge Policy Group  Rimkus Consulting Group  RMT 
        Calgary  Road Runner Media  Road Safe America  Road-iQ  
        Roadside Guardian  Roadway Safety Foundation  Roane County 
        Anti-Drug Coalition  Robert Bosch LLC  Roberta Carlson-Total 
        ControlTraining  Robinson Engineering Ltd.  Rockdale County 
        DOT (GA)  Rockland County Department of Health (NY)  Rocky 
        Mountain Tribal Epidemiology Center  Rowan University  Roy 
        Jorgensen Associates  Russell Hurd  Rutgers University-CAIT  
        Safe Bus For Us  Safe Communities MDC  Safe Kids  Safe Kids 
        Austin  Safe Kids Grand Forks  Safe Kids Pima County  Safe 
        Kids Thurston County  Safe Kids Worldwide  Safe Roads 
        Alliance  Safe States Alliance  SAFE.voyage  Safety Center 
        Incorporated  Safety Compliance Associates  SafetyBeltSafe 
        U.S.A.  SafetySock  SafeWise  San Francisco Municipal 
        Transportation Agency  Sara's Wish Foundation  The Sawaya 
        Foundation  Schneider National, Inc.  Seattle & King County 
        Department of Public Health  Seattle Neighborhood Greenways  
        Secure Your Load  Sentinel Transportation, LLC  SFARA  
        Shasta County Chemical People  Shenandoah Valley Bicycle 
        Coalition  Shreya R. Dixit Memorial Foundation  Silicon 
        Valley Bicycle Coalition  Skilled Motorcyclist Association-
        Inc.  Slow Roll Chicago  Smart Growth America/National 
        Complete Streets Coalition  SmartDrive Systems, Inc.  
        Snohomish County District Court  Society of Automotive 
        Engineers (SAE) International  Southern Alleghenies Planning & 
        Development Commission  Southern Chester County Regional 
        Police Department  Southwest Renewal Foundation of High Point, 
        Inc.  Specific Range Solutions  Square One Education Network 
         St. John Trauma Center  St. Joseph Mercy Hospital-Oakland  
        St. Joseph, Missouri Planning Organization  St. Joseph's 
        University, Beirut  Stapleton Foundation  Stone County  
        StopDistractions.org  StopUnderrides.com  Stratacomm  
        StreetSafeUS  Students AgainstDestructive Decisions (SADD)  
        Subaru  Substance Abuse Free Environment, Inc.  Survive the 
        Ride  SurvivetheDrive.org  Suwannee Lumber Company  Swedish 
        Transport Administration  Syngenta  Taking Texas to Zero  
        Tampa Police Department  Tangipahoa Reshaping Attitudes for 
        Community  TCW, Inc.  Techstring  Teen Safe Driving 
        Coalition of NJ  Tenneco  Tennessee Child Passenger Safety 
        Center  Tennessee Department of Health  Tennessee Department 
        of Transportation  Tennessee Tech University, iCube  Texans 
        Standing Tall  Texas A&M-Applied Cognitive Ergonomics Lab  
        Texas A&M NeuroErgonomics Laboratory  Texas A&M Transportation 
        Institute-Transportation  Texas A&M University  Texas 
        Department of Transportation  Texas Municipal Courts Education 
        Center  Texas Transportation Commissioner  Thackery Group  
        The Chemours Company  The Connor Johnson Memorial Foundation  
        The Crim Fitness Foundation  The Dutch Reach Project  The 
        Gillen Group  The John R. Elliott HERO Campaign for Designated 
        Drivers  The KDR Challenge  The Lance Wheeler Memorial 
        Roadway Safety Initiative  The Lane Construction Corp.  The 
        League of American Bicyclists  The LA County Metropolitan 
        Transportation Authority  The Mitre Corporation  The 
        Paramedic Foundation  The Ray  The Sandy Johnson Foundation: 
        Making Our Roads Safer  The SmartDrive Foundation  The 
        Trucking Alliance  The University of Tennessee Center for 
        Transportation Research  The Wonderful Corporation  
        ThinkFirst National Injury Prevention Foundation  Thompson 
        Driving  TOCSS FOUNDATION INTERNATIONAL USA INC  Together for 
        Safer Roads  Tom Wood Group  Toole Design Group  ToughLove 
        Corporation  Town of Danville Department of Public Works  
        Town of Lauderdale-By-The-Sea  Toyota Collaborative Safety 
        Research Center  Traffic PD  Traffic Safety Education 
        Foundation  TransOptions  Transportation Alternatives  
        Transportation4 America  Transystems  Trauma Agency-Health 
        Care District Palm Beach County  Travelers  Travelers 
        Institute  Tri-County Regional Planning Commission  Truck 
        Safety Coalition  Truckload Carriers Association  TrueMotion 
         Trumbull Walks  Tulare County Association of Governments  
        U.S. DOT-OST  U.S. DOT-Transportation Safety  U.S. Department 
        of Transportation-Volpe Center  U.S. Department of 
        Transportation (US DOT)  U.S. Department of Transportation 
        OCIO  Uber  UFG Insurance  University Children Hospital 
        Injury Prevention Center  University of Alabama-Birmingham 
        Youth Safety Lab  University of Alabama Translational Research 
        for Injury  University of British Columbia Sustainable 
        Transport  UC Berkeley SafeTREC  University of California, 
        San Diego  University of Idaho  University of Iowa Injury 
        Prevention Research Center  University of Michigan 
        Transportation Research  University of Minnesota-Roadway 
        Safety Institute  University of Mississippi Medical Center 
        (UMMC)  University of NM, Dept of Civil, Construction  
        University of North Florida  University of South Alabama-
        Transportation Safety Lab  University of Texas at San Antonio 
         University of Utah  Upper Dublin Township, OH  Upper Merion 
        Area Community Alliance for a Safer Tomorrow  Urban Health 
        Partnerships  USAA  USAF Auxiliary, CAP, Oregon Wing  USDOT-
        Office of the Secretary of Transportation  Utah Safety Council 
         Varsity Sports Unlimited  VB Safety Services, LLC  Velodyne 
        LiDAR  Velvac  Vermont Center For Independent Living  
        Vermont Highway Safety Alliance  Village of Blanchester-Ohio  
        Virginia Department of Motor Vehicles/Highway Safety  Virginia 
        Tech Transportation Institute  Virginia Tech, Center for 
        Injury Biomechanics  Virginia Trucking Association  Vision 
        Impact Institute  Vision Zero-NYC DOT  Vision Zero Amarillo  
        Vision Zero Greensboro  Vision Zero Network  Vision Zero 
        Network-City of Boston  Vision Zero North Carolina  Vision 
        Zero North Carolina/North Carolina State University  VOLPE 
        Center-U.S. Department of Transportation  Volvo Trucks  VR 
        Motion Corp.  Walk Boston  Walk Denver  Walk It! Bike It! 
        Lewisburg  Walk Long Beach  Walk San Francisco  Washington 
        College GIS Program  Washington Traffic Safety Commission  
        Waste Management  Waycare Technologies  Wayne State 
        University Transportation Research Group  Waze  WCA Waste of 
        Texas  We Save Lives  West Side Youth Development Coalition  
        WV Connecting Communities  Westat  Western Carolina 
        University  Western Kentucky University  Western OK TSET 
        Healthy Living Program  Whitehall Township  Wichita State 
        University Visual Perception and Cognition Lab  Wiessinger 
        Consulting LLC  Winthrop Harbor Police Department  Wiomax  
        Wireless Research Center of NC  Worth Township, PA  Wyoming 
        Department of Transportation  Wyoming Montana Safety Council  
        Yakama Nation DNR Engineering  Youth Safety Council of Vermont 
         Youth Towers  Zendrive  Zero Fatalities Iowa  Zurich 
        Insurance

                                 <F-dash>
    Statement of J. Scott Marion, President-Infrastructure, Lindsay 
         Corporation, Submitted for the Record by Hon. Lipinski
    Mr. Chairman, Members of the Subcommittee, I read the Committee's 
press release announcing today's hearing, ``Every Life Counts: 
Improving the Safety of our Nation's Roadways,'' with great interest 
and respectfully would like to submit the following comments for the 
record.
    For more than six decades, Lindsay Transportation Solutions has 
been dedicated to developing products and services that help make roads 
safer. Construction work zones are growing in number around the 
country. The natural aging of existing roadway infrastructure ensures 
that more and more maintenance and rehabilitation will be required. Our 
goal is to reduce traffic congestion and to improve safety forboth 
motorists and work crews through the use of innovative tools and state-
of-the-art technology.
    Work zones, by their very definition, create two major issues that 
must be addressed in some way:safety and mobility. In the United 
States, highway work zones are responsible for almost 25% of all non- 
recurring congestion and 10% of overall congestion. According to the 
National Workzone Safety Information Clearinghouse, there were 799 work 
zone-related fatalities in the U.S. in 2017--up 4.5% from the previous 
three-year average of 764.
    Vehicle accidents are more common in work zones, and traffic 
congestion through work zones on urban arterials and freeways is often 
considered to be ``unavoidable.'' Fortunately, technology is providing 
new solutions to these problems at an accelerated rate. By combining 
the best of these new technologies, agencies can effectively reduce 
injury accidents and mitigate traffic congestion through construction 
work zones.
    The U.S. Department of Transportation (DOT) Strategic Plan for FY 
2018-2022 establishes DOT's strategic goals and objectives for Fiscal 
Year (FY) 2018 through FY 2022. It reflects the Secretary's priorities 
for achieving DOT's mission through four strategic goals:
    <bullet>  Safety: Reduce Transportation-Related Fatalities and 
Serious Injuries Across the TransportationSystem.
    <bullet>  Infrastructure: Invest in Infrastructure to Ensure 
Mobility and Accessibility and to StimulateEconomic Growth, 
Productivity and Competitiveness for American Workers and Businesses.
    <bullet>  Innovation: Lead in the Development and Deployment of 
Innovative Practices and Technologies that Improve the Safety and 
Performance of the Nation's Transportation System.
    <bullet>  Accountability: Serve the Nation with Reduced Regulatory 
Burden and Greater Efficiency,Effectiveness and Accountability.
    As you and your colleagues work to repair America's infrastructure 
during a time where our roads, bridges and other infrastructure are 
desperately in need of investment, we must be creative and innovative 
in addressing these needs in ways that allow every tax dollar to be 
spent more efficiently andeffectively and still meet the Secretary's 
priorities for achieving DOT's mission through the fourstrategic goals 
outlined in the DOT's Strategic Plan.
    The utilization of innovative technologies that help manage lanes 
and construction applications tocreate ``Safe, Dynamic Highways'' 
offering real-time roadway reconfiguration while maintaining positive 
barrier protection between lanes can assist in meeting the strategic 
goals outlined in the DOT's Strategic Plan. For instance, to reduce 
worker exposure, moveable barrier installations can becombined with 
automated traffic control technology. At the push of a button, traffic 
advisory signs and lane closure gates can be activated to channel road 
users into the current lane configuration.
    These automated control systems can be operated onsite or remotely, 
or they can be combined with real-time intelligent traffic data that 
can analyze traffic patterns to determine the best times to reconfigure 
the roadway. Data from the cloud is sent to automated traffic control 
as well as the moveable barrier system operators to keep traffic 
congestion and road closure confusion to a minimum through the work 
zone. Together, these new technologies will create safer, less 
congested work zone environments for motorists and provide greater 
safety for workers by decreasing exposure to vehicles and removing 
confusion from lane configuration changes.
    We welcome the opportunity to work with you and your staff as you 
begin to consider the scope and reach of an infrastructure bill and we 
strongly urge the committee to consider the role that innovative 
technologies, like moveable barriers, can play in assisting Congress in 
addressing roadway improvements and congestion while improving the 
safety of our nation's roadways.

                                 <F-dash>
   Letters from the Coalition for Future Mobility, Submitted for the 
                   Record by Hon. Graves of Missouri
                                                    April 10, 2019.
Hon. Peter A. DeFazio
Chairman, Transportation and Infrastructure, 2165 Rayburn House Office 
        Building, Washington, DC 20515
Hon. Sam Graves
Ranking Member, Transportation and Infrastructure, 2164 Rayburn House 
        Office Building, Washington, DC 20515
Hon. Eleanor Holmes Norton
Chair, Highways and Transit, 2136 Rayburn House Office Building, 
        Washington, DC 20515
Hon. Rodney Davis
Ranking Member, Highways and Transit, 1740 Longworth House Office 
        Building, Washington, DC 20515
    Chairman DeFazio, Ranking Member Graves, Chair Norton, and Ranking 
Member Davis:
    In 2017, more than 37,000 lives were lost on U.S. roadways, 
including approximately 6,000 pedestrians. According to the National 
Highway Traffic Safety Administration, 94% of all vehicle crashes--
including the crashes that take the lives of roadway users--are due to 
human choice or error.
    The Coalition for Future Mobility (CFM), a diverse, multi-
stakeholder group representing auto manufacturers, suppliers, 
repairers, technology and communications companies, mobility providers, 
state and city governments, safety and national security groups, 
consumers, seniors, persons with disabilities, and others, writes to 
underscore the critical role automated vehicles (AVs) could play in 
helping to reduce the number of crashes and lives lost due human choice 
or error.
    Current federal safety programs focus primarily on behavior--such 
as incentives to states to increase seat belt use, as well as educating 
the public about drunk driving or resources to increases enforcement 
programs, which were established before AV safety technologies were 
created. We hope that the details uncovered at this hearing serve as a 
reminder that the status quo of primarily working to support driver 
behavioral programs alone cannot be expected to eliminate or 
substantially reduce roadway crashes and fatalities. We encourage you 
to support legislation and regulatory updates that help to promote 
safety technologies--including automated vehicle technologies as a way 
to lessen the more than 37,000 fatalities on our nation's roadways.
    Further information on the potential benefits of AV technology and 
bipartisan AV legislation can be found on the attached letter that our 
coalition sent to all Members of Congress on February 26, 2019. We at 
CFM look forward to working with you to help improve safety by 
lessening the loss of life on U.S. roadways.
                          The Coalition for Future Mobility
    Enclosure
   enclosure--letter from the coalition for future mobility sent to 
                     congress on february 26, 2019
                                                 February 26, 2019.
Hon. Nancy Pelosi
Speaker of the House, U.S. House of Representatives, H-232, The 
        Capitol, Washington, DC 20515
Hon. Kevin McCarthy
Minority Leader, U.S. House of Representatives, H-204, The Capitol, 
        Washington, DC 20515
Hon. Mitch McConnell
Majority Leader, United States Senate, S-230, The Capitol, Washington, 
        DC 20510
Hon. Charles Schumer
Minority Leader, United States Senate, S-221, The Capitol, Washington, 
        DC 20510
    Speaker Pelosi, Minority Leader McCarthy, Senate Majority Leader 
McConnell, and Minority Leader Schumer:
    Roughly two years ago, the Coalition for Future Mobility--a group 
of key stakeholders that represents a wide cross section of auto 
manufacturers, suppliers, repairers, technology companies, mobility 
providers, state and local governments, safety and national security 
groups, consumers, seniors, and persons with disabilities--was created 
to highlight the critical need for a federal framework that allows for 
the safe development, testing, and deployment of automated vehicles 
(AVs) here in the United States. We write to thank those Members of 
Congress who were involved in working to pass AV legislation in the 
115th Congress and urge you to continue those efforts this year. 
Without question, Congress is uniquely suited to help provide greater 
clarity regarding both state and federal authorities that can help when 
it comes to the safe testing, development, and deployment of AV 
technologies.
    The National Highway Traffic Safety Administration (NHTSA) has 
found that human choice or error is a factor in approximately 94% of 
all motor vehicle crashes on U.S. roads--crashes that took the lives of 
over 37,000 men, women, and children in 2017. By facilitating 
technology that can potentially eliminate these bad choices and 
unintentional errors, we can help prevent many crashes from happening 
and dramatically reduce injuries and fatalities on our roadways.
    While safety is a critical component in the drive for the 
development of AVs, these vehicles can also provide life-changing 
opportunities for those who are not adequately served by current 
mobility options, such as seniors, persons with disabilities, and those 
who require more affordable transportation. Further, the benefits of 
these vehicles extend to other roadway users. Large-scale AV 
implementation could also mean less congestion and greater efficiency 
on our roads.
    Last Congress, both the House of Representatives and the Senate 
recognized the importance of providing a federal framework for AVs. The 
House of Representatives passed the bipartisan SELF DRIVE Act (H.R. 
3388) without a vote in opposition. Shortly after the House acted, the 
Senate Committee on Commerce, Science, and Transportation unanimously 
passed similar legislation. In spite of strong, bipartisan support, 
legislation was unable to receive floor consideration in the Senate. 
Our coalition encourages you and your colleagues to redouble your 
efforts to move forward with legislation that will help improve safety, 
provide a tech-neutral path forward for private industry to innovate, 
and ensure clarity for regulators at all levels of government.
    The status quo should not be acceptable. Recognizing the potential 
of this technology to positively impact millions of Americans, we urge 
you to support a federal AV framework this Congress. Our Coalition 
members stand ready to work with you.

        3M  60 Plus  Alliance for Transportation Innovation  
        Alliance of Automobile Manufacturers  American Council of the 
        Blind  American Highway Users Alliance  American Network of 
        Community Options and Resources  Americans for Tax Reform  
        Aptiv  Argo AI, LLC  Aurora  Automotive Service Association 
         Association for Unmanned Vehicle Systems International  
        Association of Global Automakers  Competitive Enterprise 
        Institute  CTIA  Digital Liberty  Harman  Mobileye  Motor 
        & Equipment Manufacturers Association  Narcolepsy Network  
        National Association of Manufacturers  National Cued Speech 
        Association  National Federation of the Blind  National 
        Taxpayers Union  R Street Institute  Securing America's 
        Future Energy  Segs4Vets  Telecommunications Industry 
        Association  Third Way  U.S. Pan Asian American Chamber of 
        Commerce  U.S. Tire Manufacturers  Via  What3Words  Wine & 
        Spirits Wholesalers of America

cc: All Members of the U.S. House of Representatives and U.S. Senators

                                 <F-dash>
 Statement of Benjamin Harvey, President, E.L. Harvey & Sons Inc., on 
 behalf of the National Waste and Recycling Association, Submitted for 
                 the Record by Hon. Graves of Missouri
    Good morning, Chairman Holmes Norton, Ranking Member Davis, and 
Members of the Committee. My name is Benjamin Harvey and I am the 
President of E. L. Harvey & Sons Inc. located in Westborough, Mass. E. 
L. Harvey & Sons is a full-service waste and recycling firm that 
provides services for commercial and industrial corporations and 
municipalities throughout eastern Massachusetts, New Hampshire, Rhode 
Island, and Maine. My company is a member of the National Waste & 
Recycling Association, also known as NWRA, which I am representing 
before the committee today in my capacity as the association's 
chairman.
    NWRA is the voice in the nation's capital for the private-sector 
waste and recycling industry that is essential to maintaining the 
quality of American life. The delivery of waste and recycling services 
impacts all residential, commercial, and industrial properties on a 
daily basis. Apart from the U.S. Postal Service, the waste and 
recycling industry is one of the few, if not the only other, that 
travels on every roadway in the country at least once each week.
    Association members operate in all 50 states and the District of 
Columbia and can be found in most, if not all, U.S. congressional 
districts. Waste and recycling facilities number nearly 18,000 
scattered throughout the U.S., mirroring population centers. Our nearly 
700 members are a mix of publicly-traded and privately-owned local, 
regional, and Fortune 500 national and international companies.
    The industry directly employs about 420,000 people as of early 2018 
with a total payroll of more than $21 billion. It is estimated that the 
private sector waste and recycling industry accounts for over one 
million jobs and generates nearly a quarter of a trillion dollars in 
U.S. GDP.
    Tens of thousands of these hard-working men and women in the waste 
and recycling industry become vulnerable road users everyday as part of 
their job. The Bureau of Labor Statistics (BLS) has named the waste and 
recycling collector as the fifth most dangerous occupation (2018).\1\ 
In 2017, ``Waste and Recycling'' had 33 fatalities, of which 23 were 
transportation related.\2\
---------------------------------------------------------------------------
    \1\ https://www.bls.gov/iif/oshwc/cfoi/cfch0016.pdf
    \2\ Ibid
---------------------------------------------------------------------------
    Safety is the number one value for the waste and recycling 
industry. The goal each day is for every worker and driver to go home 
safely at the end of their shifts, without a crash, injury or fatality. 
Our work is focused on making collection, processing, and disposal 
operations less dangerous by encouraging safety training as well as 
providing assistance in complying with regulations and company safety 
rules and policies.
    Despite these industry efforts, distracted driving by motorists 
with whom we share the road puts waste and recycling drivers and 
workers at risk every day. Many of the transportation related 
fatalities were caused by inattentive or distracted drivers who failed 
to yield to waste and recycling collection vehicles. Most of the time, 
the danger is the same as that experienced by police officers, fire 
fighters, and tow truck drivers who are stopped along the side of the 
road.
    The private sector of the waste and recycling industry has a 
commercial motor vehicle (CMV) fleet of more than 100,000 collection 
trucks and an even greater number of CMV Drivers. These trucks are 
primarily Heavy-Duty Vehicles as defined by the Federal Highway 
Administration (FHWA) with a GVWR of more than 26,000 pounds. The 
industry's fleet includes, but is not limited to, waste and recycling 
collection trucks, roll-off trucks, post collection tractor trailers, 
container delivery, and grapple trucks.
    The waste (garbage, trash, solid waste) and recycling (paper, 
plastic, aluminum, metal, compost) collection trucks that service 
nearly every American household and business are the most recognized 
part of the industry's fleet. Although waste and recycling collection 
trucks are virtually identical in most respects, they are significantly 
different in the means by which the material is emptied into the cargo 
area (e.g. rear-, front-, automated side-load, etc.).
    According to FHWA's 2016 Freight Quick Facts Report, ``Waste/
Scrap'' is the tenth largest commodity by tonnage shipped in the U.S. 
The industry's truck operations moved 92 percent of the 652.9 million 
tons transported by all modes in 2015.
    Assuming that two-thirds of the industry's trucks are in use on any 
given workday, that means approximately 70,000 workers are exposed to 
dangerous driving situations, such as distracted driving, each workday.
    According to the National Highway Traffic Safety Administration 
(NHTSA), distracted driving is ``any activity that diverts attention 
from driving, including talking or texting on your phone, eating and 
drinking, talking to people in your vehicle, fiddling with the stereo, 
entertainment or navigation system-anything that takes your attention 
away from the task of safe driving.'' It is estimated that during 
daylight hours approximately 481,000 drivers are using handheld cell 
phones while driving, creating significant potential for injury or 
death.
    NHTSA reports that 3,450 people were killed by distracted drivers 
in 2016 and 562 of these fatalities were not occupants of a vehicle but 
rather pedestrians, bicyclists, and others including waste and 
recycling industry employees. In 2015, distracted drivers were 
responsible for 391,000 injuries in motor vehicle crashes. Teens were 
the largest age group reported as distracted at the time of fatal 
crashes.
    Driving requires the full attention of motorists. Texting in 
particular poses a danger since sending or reading a text takes one's 
eyes off the road for an average of 4.6 seconds. Traveling at 55 MPH 
while texting is the equivalent of driving the length of a football 
field with your eyes closed.
    NHTSA is engaged in several efforts to educate Americans about the 
dangers of distracted driving including public service announcements, 
social media campaigns, ``Distracted Driving Awareness Month'' every 
April, and partnerships with state and local police departments to 
enforce laws against distracted driving.
    These law enforcement officials are also undertaking the difficult 
task of enhanced enforcement of distracted driving laws. This is 
complicated by the need to observe the offense before making a traffic 
stop since, unlike with impaired driving, the prohibited behavior has 
typically ended once a driver is pulled over.
    So far, 23 states have enacted ``Move Over'' laws that cover waste 
and recycling workers. The statutes vary from state to state, but the 
laws generally require drivers to slow down and yield to collection 
vehicles, especially when the operator is emptying a cart or walking 
back to the truck. ``Move Over'' laws are saving lives by requiring 
drivers to exercise caution and avoid distractions when they are 
approaching a collection truck.
    NWRA has been at the forefront of efforts to expand state ``Move 
Over'' laws to include ``amber lighted vehicles'' such as waste and 
recycling, tow trucks, and other similar industries. However, these 
laws are only effective if the motoring public knows about and law 
enforcement enforces them.
    A 2014 incident in central Florida involving an NWRA-member company 
is a perfect example. One of their collection workers was injured by a 
car and the law enforcement officer did not issue a citation to the 
driver of the vehicle, despite Florida's recently expanded ``Move 
Over'' law. When the company's safety director asked for the ``Move 
Over'' law to be invoked, the officer stated he did not know about the 
statute, nor did the command staff of that department. This shows the 
need to educate both law enforcement and the public about the necessity 
to move over as well as the consequences of not moving over. NWRA is 
confident that this situation is not an isolated event.
    NWRA urges Congress to use federal infrastructure legislation or 
surface transportation appropriations as a vehicle to enact incentives 
for states to adopt ``Move Over'' laws that include waste and recycling 
collection workers similar to the incentives it uses to encourage 
states to set and keep their legal drinking age at 21 years old. This 
is an opportunity for Congress to make a real difference in improving 
safety with minimal effort and no additional cost.
    Thank you for your consideration of our position. We look forward 
to working with the committee to improve the safety of our nation's 
highways. I will be happy to respond to any questions that you may 
have.



                                Appendix

                              ----------                              


Questions from Hon. Peter A. DeFazio for Hon. Jennifer Homendy, Member, 
                  National Transportation Safety Board

Each of your testimonies highlight the dangers of speeding, which 
increases the likelihood of a crash and the severity of injuries 
sustained, and nearly guarantees pedestrian death at 40 miles per hour. 
Mr. Bruemmer, you share your own harrowing story of nearly being struck 
by a truck in a work zone.

Member Homendy, you cite Federal Highway Administration guidance which 
emphasizes that States and localities ``set speed limits within 5 miles 
per hour of which 85 percent of vehicle are traveling'', known as the 
85th percentile rule. This has led to a situation where in 2016, 41 
States had maximum speed limits at or above 70 miles per hour, and 7 of 
those States were at or above 80 miles per hour.
    Question 1. Can you comment further on NTSB's recommendation to 
move away from this 85th percentile approach?
    Answer. The NTSB recommends that the Federal Highway Administration 
(FHWA) ``revise Section 2B.13 of the Manual on Uniform Traffic Control 
Devices so that the factors currently listed as optional for all 
engineering studies are required, require that an expert system such as 
USLIMITS2 be used as a validation tool, and remove the guidance that 
speed limits in speed zones should be within 5 mph of the 85th 
percentile speed'' (H-17-27).
    The intent of this recommendation is to de-emphasize the use of the 
85th percentile speed. The 85th percentile speed is obtained by 
conducting an engineering study of ideal traffic flows unaffected by 
inclement weather or traffic congestion. The use of the 85th percentile 
speed assumes that the majority of drivers are capable of selecting 
appropriate speeds according to weather conditions, traffic, road 
geometry, and roadside development, and that they operate at reasonable 
and prudent speeds. Because the research that provided the strongest 
empirical support of the use of the 85th percentile speed is dated 
(having been conducted in the late 1950s) and was conducted only on 2- 
and 4-lane rural highways, it is unclear whether the 85th percentile 
speed equates to the speed with the lowest crash involvement rate on 
all road types, such as those in cities. Heavily populated urban areas 
typically have higher numbers of vulnerable road users, such as 
pedestrians and bicyclists. Research has clearly shown that these road 
users have little chance of surviving a collision with a motor vehicle 
traveling at high speed.
    Additionally, the use of the 85th percentile speed has resulted in 
increasing speed limits among states. For example, the Texas 
Transportation Code states that the speed limit for certain roads is 70 
miles per hour (mph). To increase speed limits, Texas requires an 
engineering study that follows the Texas Department of Transportation's 
``Procedures for Establishing Speed Zones,'' which emphasize the 85th 
percentile speed. Over time, speed limits in Texas have increased from 
70 mph to 85 mph, the highest posted speed limit in the United States. 
In 2012, 35 states had a maximum speed limit of 70 mph, with Texas and 
Utah at or above 80 mph. Just 4 years later, in 2016, 41 states had a 
maximum speed limit of 70 mph, with 7 states at or above 80 mph.
    Therefore, although assessing roadway operating speed remains 
important, a more balanced approach to setting speed limits that also 
considers the vulnerability of pedestrians and bicyclists and crash 
experience should replace the one that primarily favors vehicular 
traffic.

    Question 2. What policies should Congress look at to reduce 
speeding? Do you think this can be achieved through education and 
enforcement alone, or do we also need to look at road design has to 
slow people down in many contexts?
    Answer. One of the items on the NTSB's 2019-2020 Most Wanted List 
addresses speeding by calling for lawmakers, industry, and every 
American to work together to ``implement a comprehensive strategy to 
reduce speeding-related crashes.'' Through research and accident 
investigations, the NTSB has identified proven countermeasures that 
must be used broadly to reduce speeding-related crashes. These 
countermeasures include automated enforcement technology, education 
campaigns, vehicle technology, and infrastructure design. The NTSB 
urges Congress to consider actions that (1) encourage data-driven speed 
enforcement that may include both traditional and automated enforcement 
technology; (2) urge NHTSA and the FHWA to update and promote best 
practices for implementing automated speed enforcement; (3) push for 
social change that makes speeding culturally unacceptable; (4) 
accelerate the development of performance standards for and industry 
adoption of advanced speed-limiting technology for heavy vehicles such 
as trucks, buses, and motorcoaches; (5) create incentive mechanisms to 
increase adoption of speed-limiting technology for passenger vehicles; 
(6) emphasize a complete street policy that encourages roadway designs 
that slow drivers down to the safe speed, such as using road diets, 
lane narrowing, and curve reconfiguration. Reducing speeding-related 
fatalities and injuries must include all countermeasures, including 
road design, education, and enforcement.
    Attached is a list of NTSB recommendations that, if implemented, 
would reduce speeding-related crashes and save lives. These 
recommendations supplement our Most Wanted List issue item regarding 
speeding. The NTSB urges Congress to consider them when developing 
legislation.

  Questions from Hon. Frederica S. Wilson for Hon. Jennifer Homendy, 
              Member, National Transportation Safety Board

Member Homendy, congratulations on your appointment to the NTSB. I look 
forward to working with you.

As you know, in 2017, 26 percent of crashes involved at least one 
speeding driver. Speeding is a major contributor to fatal accidents in 
Florida and throughout the nation. In your testimony, you called for 
``increased leadership and attention'' to speeding on the national 
level.
    Question 3. What are some actions this Congress can take to ensure 
that speeding is being prioritized at a level that reflects its role in 
fatal accidents?
    Answer. In interviews the NTSB has conducted, national, state, and 
local traffic safety stakeholders repeatedly mentioned that--unlike 
other crash factors such as alcohol impairment or unbelted occupants--
speeding is associated with few negative social consequences, and it 
does not have a leader campaigning to increase public awareness about 
the issue at the national level. Stakeholders further stated that they 
thought the dangers of speeding are not well-publicized, and that 
society therefore underappreciates the risks of speeding. The resulting 
complacency among drivers has led to speeding becoming a common 
behavior, even though surveys indicate that drivers generally 
disapprove of other drivers speeding. Stakeholders also expressed the 
belief that, to gradually change public perceptions of speeding, safety 
advocacy groups must launch a coordinated effort, with strong 
leadership from the federal government.
    We have recommended several actions that can be taken at the 
national level, including implementing an ongoing program to increase 
public awareness of speeding as a national traffic safety issue, 
including an annual enforcement mobilization; establishing programs to 
incentivize state and local speed management activities, for example 
via federal-aid programs such as the National Priority Safety Program; 
and prioritizing and promoting federal transportation agency efforts to 
address speeding, such as the work coordinated by the DOT's multiagency 
Speed Management Team.
    Attached is a list of our recommendations to reduce speeding-
related crashes. These recommendations supplement this issue area on 
our 2019-2020 Most Wanted List. We urge Congress to consider them when 
developing future legislation.

Speeding
Member Homendy, in your testimony, you highlight the glaring fact that 
neither the Highway Safety Program nor the National Priority Safety 
Program truly incentivize states to address the issue of speeding. You 
also mentioned that stakeholders cited the lack of a national traffic 
safety campaign as a key hindrance to increasing public awareness.
    Question 4. Can you describe what an effective campaign should 
include?
    Answer. An effective campaign to address speeding should be 
informed by the successes of other highway safety campaigns, such as 
the long-running ``Click It or Ticket'' national campaign to increase 
seat belt usage. ``Click It or Ticket'' includes an annual high-
visibility enforcement mobilization, a robust communications strategy 
at the national and state levels, legislated incentives to encourage 
high participation among the states, and dedicated funding. Research 
has shown that the communications component of a traffic safety 
campaign increases safety benefits; by using consistent messaging over 
many years, 85% of the public recognizes the ``Click It or Ticket'' 
slogan, according to NHTSA surveys.

Pedestrian fatalities
Member Homendy, I was pleased to learn that NTSB investigated the 
recent increase of pedestrians killed in highway crashes. Your 
investigation found that pedestrian deaths now account for almost one 
in six highway fatalities.
    Question 5. Why are pedestrian deaths so much higher now than they 
were a decade ago?
    Answer. In 2008, 4,414 pedestrians died in traffic crashes, 
representing 12% of all traffic fatalities. In 2017, almost 6,000 
pedestrians were killed, comprising 16% of all traffic deaths (based on 
NHTSA Traffic Safety Facts). There can be a multitude of reasons, and 
no single factor is causing the substantial increase over the last 10 
years. One key ingredient is the rapid increase in urban population. In 
2008, 72% of pedestrian deaths occurred in urban areas. In 2017, the 
percentage reached 80%. Pedestrians and motor vehicles are interacting 
more in our cities. Because most roadways were designed in an era where 
vehicular traffic took precedence, moving vehicles from one place to 
another quickly was favored over the needs of other users, such as 
pedestrians. Many multilane arterial roadways with high speed limits 
still snake through our highly populated cities, which is why managing 
speed is key to tackling pedestrian safety. This requires an integrated 
approach that includes lowering speed limits, enforcement, education, 
and road design. Many cities lack adequate pedestrian facilities, such 
as sidewalks and crosswalks. Pedestrian crashes also appear to be 
getting deadlier, with deaths per 100 crashes increasing by 29 percent 
in the last decade (IIHS, 2018). This increase may be the result of 
changes to the vehicle fleet (for example, more SUVs). In addition, 
factors like distraction and impairment continue to affect pedestrians 
and drivers. Accordingly, we have issued recommendations to address 
vehicle design, roadway design, vehicle speed, impairment, and 
distraction.

   Question from Hon. Brian Babin for Hon. Jennifer Homendy, Member, 
                  National Transportation Safety Board

    Question 6. During the hearing, Member Homendy committed to 
providing a response to Representative Babin's question asked at the 
hearing: In your experience with the NTSB, have you seen a correlation 
between improving roadway safety and updating existing roads (US/state 
highways) in order to meet the Interstate standards and grades?
    Answer. NTSB believes that both new and redesigned highways should 
be built to the current American Association of State Highway and 
Transportation Officials and Federal Highway Administration standards 
in order to incorporate the best available safety technology. Whenever 
a jurisdiction brings a roadway up to current design standards the 
result should be an improvement to the safety of the facility because 
it is using the latest in barriers, signage and a current evaluation of 
geometric design (in regard to the speed limit). In its investigation 
of a 2003 highway crash in Hewitt, Texas, we found that the highway (I-
35) has been expanded from a US/state highway to an Interstate, but the 
roadway was not upgraded to meet Interstate standards. In that case, 
the correlation between improving roadway safety and updating existing 
roads (US/state highways) in order to meet the Interstate standards and 
grades was not done. Our investigation cited the poor roadway 
conditions and inadequate stopping sight distances on I-35 in its 
determination of the probable cause for that crash.
  attachment--ntsb recommendations to reduce speeding-related crashes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Questions from Hon. Peter A. DeFazio for Hon. Fred Jones, Vice Mayor, 
City of Neptune Beach, Florida, on behalf of Transportation for America

Mr. Jones, your testimony notes that the performance metrics 
established by Congress in MAP-21 allows States to set their own 
priorities and targets. States are considered in compliance with 
performance management requirements as long as they are tracking a 
particular metric--States do not have to make progress or improve their 
performance over time. Your testimony reports that in 2017, 18 States 
set safety performance targets that were worse in terms of fatalities 
than the previous year.
    Question 1. Do you support stronger accountability under the 
performance management system, to actually require States to 
demonstrate improvement in a particular metric? Would you support a 
requirement to shift more funds to build infrastructure projects that 
reduce fatalities for any State that does not set, or does not meet, a 
target that is an actual safety improvement?
    Answer. Yes. While States were granted the flexibility and 
discretion to set priorities and report their results under the current 
FHWA performance management system, enabling negative safety targets 
should be prohibited. In 2017, eighteen states established targets 
resulting in more bicyclist and pedestrian deaths on their facilities. 
If the States are to be held to a higher standard of accountability 
with respect to safety measures, particularly for pedestrians and 
bicyclists, any State that does not set, or does not meet, such targets 
beyond reasonable control, may receive less funding for traditional, 
capacity-based projects or have their allocated funds redirected to 
safety and complete street projects.
    Additionally, we would like to see greater emphasis and reliance on 
other non-traditional roadway performance metrics such as community and 
economic development, job creation, health impacts, and resiliency over 
the conventional use of roadway capacity, level-of-service and delay as 
the primary metrics for funding and prioritization. This is 
particularly for States and communities planning and constructing more 
complete streets and multimodal infrastructure.

   Questions from Hon. Frederica S. Wilson for Hon. Fred Jones, Vice 
Mayor, City of Neptune Beach, Florida, on behalf of Transportation for 
                                America

Mr. Jones, your testimony notes that the performance metrics 
established by Congress in MAP-21 allows states to set their own 
priorities and targets. States are considered in compliance with 
performance management requirements as long as they are tracking a 
particular metric; they do not have to make progress or improve their 
performance over time. Your testimony reports that in 2017, 18 states 
set safety performance targets that were worse in terms of fatalities 
than the previous year.
    Question 2. Do you support greater accountability under the 
performance management system to actually require states to demonstrate 
improvement in a particular metric?
    Answer. Yes. Our transportation agencies' top priority should be 
safety. We cannot claim that safety is a priority if we are willing to 
tolerate safety targets--actual goals--for our roads to get less safe. 
And our current program tolerates just that. Why is that? Because we 
understand that there are many priorities that need to be addressed, 
and as a matter of policy Congress has been comfortable if 
transportation agencies place other priorities above safety. But this 
should not be the case. In the aviation industry, planes are grounded 
in order to protect safety. Safety is a goal placed above economics and 
convenience. Likewise, safety should be the top priority in surface 
transportation, and that priority should be clear in our program 
spending so long as there are preventable crashes occurring on our 
roadways.
    There is no world in which we will ever have enough money to 
address everything that needs to be addressed on our transportation 
system. That means we have to set priorities. And safety should always 
be the top one.

Local Choice
Mr. Jones, your testimony provides some good examples of complete 
streets projects, but also describes what happens when a state DOT does 
not want to or feels it does not have flexibility with federal funds to 
pursue a complete streets approach or other design enhancement. The 
committee has heard from local government stakeholders in past hearings 
that greater control over project choice at the local government level 
would help bring about projects in communities that are perhaps not the 
priority of the state DOT.
    Question 3. If Congress expanded the role of local governments in 
programming federal transportation funding, and you had greater direct 
control over how federal funds are spent in your community, do you 
believe this would result in a different range of projects than when 
the decision making is controlled by Florida DOT?
    Answer. Yes and that is because state governments have typically 
overlooked the local trip in spite of the fact that most trips are 
local. State departments of transportation were formed to build 
highways that connect cities and towns while the locals have had the 
responsibility of moving people around that city or town. Also while 
state departments of transportation have responsibility for roads, the 
cities are not just trying to move people around but are also trying to 
create great places and create high quality of life. In the case of 
Florida, if local governments had more control and decision-making on 
FDOT facilities, they would likely support different ranges of projects 
that promote placemaking and quality of life over vehicular throughput, 
such as reducing speeds, lane widths, or reallocating travel lanes for 
other travel modes or community spaces.
    Bringing more voices into the program can only generate more 
diversity in terms of the challenges we are trying to address and how 
we address them.

Mr. Jones, you state in your testimony that ``We have a cure'' for 
reducing traffic-related fatalities, ``But for whatever reasons, we 
just don't want to use it.''
    Question 4. What are some of the ``cures'' New York and San 
Francisco implemented that decreased traffic fatalities by 28 and 41 
percent, respectively? What are some of the solutions that were 
specific to pedestrians?
    Answer. Both cities slowed down traffic speeds. Mistakes are 
inevitable with humans. But mistakes turn more deadly for people in and 
outside a car the faster cars are going. True ``Vision Zero'' cities 
are lowering speed limits, slimming down lanes, and taking other steps 
to slow down traffic. There should be an expectation that when a driver 
arrives in a town or city that they slow down in order to create a safe 
environment and to create a great place to spend time in. Other 
strategies that help are shorter and more visible crossings for 
pedestrians and bringing front doors for houses and businesses along 
the road to the sidewalk, creating a canopy that makes the area more 
comfortable for pedestrians and encourages drivers to slow down.

 Questions from Hon. Eleanor Holmes Norton for Michael L. Brown, Chief 
           of Police, Alexandria (Virginia) Police Department

Chief Brown, your testimony calls for a ``national narrative'' on the 
importance of traffic safety and committing the resources to carry it 
out. You note that this would help law enforcement across the nation 
unite behind traffic safety, much like the response to homeland 
security efforts following 9/11 and more recently the opioid crisis. 
You state ``what is missing today for law enforcement is the commitment 
to making traffic safety a high priority for our nation.''
    Question 1. What can Congress do to promote this national narrative 
and to demonstrate the Federal commitment improving safety on our 
roads?
    Answer. The first step to changing the national narrative on 
traffic safety would be to raise the level of awareness and driving 
home the negative consequences of both traffic deaths and injuries. The 
message should be sufficiently powerful to demonstrate the costs to, 
not only to those involved in crashes, but also to their families, 
friends, employers, and the nation as a whole. These costs are more 
than just dollars. There can also be quality of life implications that 
can last a lifetime, e.g.; permanent disability.
    Practically all of the crashes are preventable and predictable. 
They are caused by poor choices made by individuals that are sharing 
our roadways. The message should be broad enough to capture the 
attention of everyone as a quality of life issue in our communities. 
The current traffic safety messages are good but they focus on 
individual problems. The ultimate message should transmit a message 
that this is indeed a public health crisis.
    Aside from the message, Congress can make a more dramatic impact 
through the reauthorization. The reauthorization should provide more 
flexibility in for law enforcement to address traffic safety issues in 
their local communities. As I mentioned during the hearing, the issues 
raised in prior reauthorizations are important but they may not be the 
highest priority in every community. The new reauthorization could 
continue to highlight the prior focus areas but it should also provide 
more flexibility and support for enforcement on the issues that might 
be facing the communities law enforcement serves. This can be 
accomplished by setting up an adjusted program providing less 
restrictive guidance to the states to deliver the assets or funding to 
law enforcement. Issues like speeding, right of way violations, 
jaywalking, and similar, often overlooked but important community 
issues can be addressed.
    The design of a traffic safety enforcement program must also 
recognize that officers will make stops for issues based upon what they 
see as a legitimate and important violation. When making a traffic stop 
officers often find other issues relevant to traffic safety. For 
example, an officer stopping a speeding vehicle may ultimately detect 
an impaired driver, a driver on a cell phone, or someone not wearing a 
seatbelt.
    Additionally, the practice of ``counting tickets'' should be 
avoided in grant activity reports. Citations are but one means of 
measuring activity and finding teachable moments for those on the road. 
Sometimes, a verbal warning can be just as effective. Counting tickets 
can also have a chilling effect on officer engagement and may even 
depress the level of engagement that is being sought.
    The guidance to the state highway safety offices needs to be more 
specific otherwise it creates the opportunity for differing 
interpretations in developing projects. These interpretations may also 
be too restrictive and may result in fewer grant applications or lower 
levels of officer engagement. Past authorizations have frequently 
resulted in different interpretations by federal and state officials 
which can discourage law enforcement participation especially when law 
enforcement is interested in enforcing local traffic safety issues. 
Another approach to consider might be a direct appropriation to law 
enforcement agencies that are interested in working on traffic safety 
in their community. This would reduce the influence of interpretation 
issues.
    Finally, if this is to be serious effort to improve traffic safety 
it must be accompanied by a substantial increase in funding designed to 
address local traffic issues. The past reauthorizations have focused on 
a select group of important issues. More funding for local traffic 
issues needs to be included to encourage participation in a 
comprehensive national traffic safety effort. As I mentioned in my 
testimony, the capacity of law enforcement is already taxed in most 
communities with non-traffic related issues. The use of overtime grants 
has been the traditional approaches applied to increase this capacity 
and this should be continued. However, not every agency can use this 
approach. It might useful to consider adding traffic safety officer 
positions to those agencies that can justify an extreme lack of 
capacity.

Chief Brown, you mention in your testimony that you support expansion 
of automated speed enforcement, granted that it is used for public 
safety purposes and not revenue generation. I believe many constituents 
oppose automated speed enforcement technologies because they assume 
that revenue would be the real motive behind it.
    Question 2. How can we implement automated enforcement in a way 
which eases these concerns?
    Answer. The National Highway Traffic Safety Administration (NHTSA) 
has developed a considerations document which outlines many of the 
steps law enforcement should consider when looking at automated 
enforcement. The NHTSA document focuses on problem identification needs 
to promote the legitimacy of the enforcement efforts and the proper use 
of the technology that is used.
    Another issue of some concern in the public's perspective is 
whether or not the fines that result from this enforcement are a 
revenue source. NHTSA addresses this issue in its document but it does 
not specifically address what a non-law enforcement agency may feel 
about these fines. Too often, the fine revenue becomes a fiscal revenue 
stream for communities which feeds the narrative that citations are 
issued to ease fiscal concerns. Whatever is being considered at the 
local level the local government and law enforcement agencies should 
consider all of these issues and the NHTSA guidance is helpful.
    The use of automated enforcement on a national level will not be 
possible without encouraging or incentivizing state efforts to adopt 
legislation that enables this type of enforcement. Automated 
enforcement is not available in every state or community and its 
implementation is often inconsistent. This inconsistency does not help 
with public acceptance. The new authorization could and should address 
this issue so more agencies can employ automated enforcement technology 
at the local level across the nation in a consistent manner.
    Finally, there should funding to further develop technology to 
address other traffic safety issues. Currently, there is a focus on 
running red lights and speeding issues. There should also be challenge 
to develop technology to identify other traffic safety violations, 
(e.g.; jaywalking, cell phone use, failure to yield conditions), 
especially with the emerging technological systems being placed on our 
roadways and in our vehicles.
    Overall, automated enforcement could prove to further enhance 
compliance with traffic safety laws by increasing the public's 
perception that violations may be discovered through the use of this 
technology.

   Questions from Hon. Eleanor Holmes Norton for Jay Bruemmer, Vice 
President, K&G Striping, Inc., on behalf of the American Traffic Safety 
                          Services Association

Mr. Bruemmer, one of the solutions to addressing the dangerousness of 
work zones is work zone project management software, and you note that 
it has been employed by the District of Columbia.
    Question 1. Can you provide more detail on how this system worked 
and tell us whether there are any other places you're aware of that are 
using similar methods? If not, how can we help promote its adoption in 
other cities?
    Answer. In responding to your written question regarding the 
smarter work zone application in Washington, DC, I wanted to point you 
and the Subcommittee staff to ATSSA's innovation website which is 
focused on educating departments of transportation and public works 
agencies on the opportunities that exist for smarter work zones and 
innovative roadway safety countermeasures generally.\1\
---------------------------------------------------------------------------
    \1\ ATSSA Innovation Website--http://innovate.atssa.com/innovative-
technology-by-state.html
---------------------------------------------------------------------------
    Additionally, I have attached the case study publication entitled, 
Smarter Work Zones: Project Coordination and Technology Applications. 
This publication is focused on various applications of smarter work 
zones across the nation, including the application in Washington, 
DC.\2\ Project coordination is a focus for departments of 
transportation (DOTs) around the country. The Federal Highway 
Administration (FHWA) created a Guide to Project Coordination for 
Minimizing Work Zone Mobility Impacts, which helps DOTs utilize project 
coordination in their planning and execution.\3\
---------------------------------------------------------------------------
    \2\ Washington, DC case study on project coordination--https://
www.workzonesafety.org/files/documents/SWZ/DC_PC_case_study.pdf
    \3\ Guide to Project Coordination for Minimizing Work Zone Mobility 
Impacts--https://ops.fhwa.dot.gov/publications/fhwahop16013/index.htm
---------------------------------------------------------------------------
    Finally, there is additional information on project coordination 
efforts around the country, including case studies.\4\ Local 
transportation agencies rely on state DOTs and ultimately FHWA to 
incorporate new technology into projects and provide best practices. 
FHWA is in the process of developing systems to update their 
specifications to keep pace with emerging innovation through an update 
to the Manual on Uniform Traffic Control Devices (MUTCD). We encourage 
Congress to provide FHWA the resources to promote adoption of this and 
other new life-saving roadway safety infrastructure countermeasures. As 
for the Washington, DC-specific example, upon further conversations 
with the District Department of Transportation (DDOT), DDOT indicated 
difficulties in moving the project forward due to continuous software 
maintenance upgrades. That said, project coordination, in general, is 
important part of work zone safety, and it underscores the need to have 
guidelines and systems in place to keep up with ever-evolving 
technology.
---------------------------------------------------------------------------
    \4\ Project coordination repository--https://
www.workzonesafety.org/swz/swzproject-coordination/outreach/
---------------------------------------------------------------------------
   attachment--case study publication entitled ``smarter work zones: 
           project coordination and technology applications''
    [The case study publication is retained in committee files.]

  Question from Hon. Peter A. DeFazio for Nicholas J. Smith, Interim 
   President and Chief Executive Officer, The National Safety Council

Mr. Smith, your testimony raises the specter of the FCC reneging on its 
initial decision to preserve a small piece of bandwidth for connected 
vehicles to communicate critical safety information with high speed and 
accuracy. Today, big telecomm wants to share the spectrum despite the 
lack of studies that guarantee their transmission will not interfere 
with vehicle to vehicle communication that will save lives.
    Question 1. Should this committee allow the FCC to undercut the 
opportunity to prevent 37,000 deaths a year so people can download a 
movie a few minutes faster?
    Answer. Mr. Chairman, the United States prioritized safety in 1999 
by preserving the 5.9 GHz spectrum band for roadway safety 
communication. Communication between vehicles and other objects over 
this spectrum has the opportunity to mitigate and prevent crashes that 
could result in the loss of life. Infrastructure owners and vehicle 
manufacturers have begun installing 5.9 compatible technology, and the 
National Safety Council (NSC) would like to see implementation progress 
and proliferate.
    The FCC and the Department of Transportation should exercise 
vigorous oversight of any testing of unlicensed devices to ensure no 
interference in the band that compromises safety. NSC urges Congress to 
monitor this testing as well.
    Life-saving technology can operate over this band, including in 
areas that are often overlooked by other technology buildouts. NSC 
encourages Congress to preserve this spectrum for safety to help 
eliminate these preventable deaths.

                                    
                            [all]
                            
                            
</pre></body></html>
